<html>
<title> - LEGISLATIVE BRANCH APPROPRIATIONS FOR 2010</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


                                                                      ?

                   LEGISLATIVE BRANCH APPROPRIATIONS

                                FOR 2010

_______________________________________________________________________

                                HEARINGS

                                BEFORE THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED ELEVENTH CONGRESS

                              FIRST SESSION

                                ________

                   SUBCOMMITTEE ON LEGISLATIVE BRANCH
                DEBBIE WASSERMAN SCHULTZ, Florida, Chair
 MICHAEL HONDA, California
 BETTY McCOLLUM, Minnesota
 TIM RYAN, Ohio
 C.A. ``DUTCH'' RUPPERSBERGER, 
Maryland
 CIRO RODRIGUEZ, Texas              ROBERT B. ADERHOLT, Alabama
                                    STEVEN C. LaTOURETTE, Ohio
                                    TOM COLE, Oklahoma

 NOTE: Under Committee Rules, Mr. Obey, as Chairman of the Full 
Committee, and Mr. Lewis, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.

                    Michael Stephens, Staff Assistant

                                ________

                                 PART 2

                   FISCAL YEAR 2010 LEGISLATIVE BRANCH
                         APPROPRIATIONS REQUESTS

                                   S

                                ________

         Printed for the use of the Committee on Appropriations
           LEGISLATIVE BRANCH APPROPRIATIONS FOR 2010--Part 2
                                                                      ?
?
                                                                      ?

                   LEGISLATIVE BRANCH APPROPRIATIONS

                                FOR 2010

_______________________________________________________________________

                                HEARINGS

                                BEFORE THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED ELEVENTH CONGRESS

                              FIRST SESSION


                                ________

                   SUBCOMMITTEE ON LEGISLATIVE BRANCH
                DEBBIE WASSERMAN SCHULTZ, Florida, Chair
 MICHAEL HONDA, California
 BETTY McCOLLUM, Minnesota
 TIM RYAN, Ohio
 C.A. ``DUTCH'' RUPPERSBERGER, 
Maryland
 CIRO RODRIGUEZ, Texas              ROBERT B. ADERHOLT, Alabama
                                    STEVEN C. LaTOURETTE, Ohio
                                    TOM COLE, Oklahoma

 NOTE: Under Committee Rules, Mr. Obey, as Chairman of the Full 
Committee, and Mr. Lewis, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.

                    Michael Stephens, Staff Assistant

                                ________

                                 PART 2

                   FISCAL YEAR 2010 LEGISLATIVE BRANCH
                         APPROPRIATIONS REQUESTS

                                   S

                                ________

         Printed for the use of the Committee on Appropriations

                                ________

                     U.S. GOVERNMENT PRINTING OFFICE
 50-439                     WASHINGTON : 2009

                                  COMMITTEE ON APPROPRIATIONS

                   DAVID R. OBEY, Wisconsin, Chairman

 JOHN P. MURTHA, Pennsylvania
 NORMAN D. DICKS, Washington
 ALAN B. MOLLOHAN, West Virginia
 MARCY KAPTUR, Ohio
 PETER J. VISCLOSKY, Indiana
 NITA M. LOWEY, New York
 JOSE' E. SERRANO, New York
 ROSA L. DeLAURO, Connecticut
 JAMES P. MORAN, Virginia
 JOHN W. OLVER, Massachusetts
 ED PASTOR, Arizona
 DAVID E. PRICE, North Carolina
 CHET EDWARDS, Texas
 PATRICK J. KENNEDY, Rhode Island
 MAURICE D. HINCHEY, New York
 LUCILLE ROYBAL-ALLARD, California
 SAM FARR, California
 JESSE L. JACKSON, Jr., Illinois
 CAROLYN C. KILPATRICK, Michigan
 ALLEN BOYD, Florida
 CHAKA FATTAH, Pennsylvania
 STEVEN R. ROTHMAN, New Jersey
 SANFORD D. BISHOP, Jr., Georgia
 MARION BERRY, Arkansas
 BARBARA LEE, California
 ADAM SCHIFF, California
 MICHAEL HONDA, California
 BETTY McCOLLUM, Minnesota
 STEVE ISRAEL, New York
 TIM RYAN, Ohio
 C.A. ``DUTCH'' RUPPERSBERGER, 
Maryland
 BEN CHANDLER, Kentucky
 DEBBIE WASSERMAN SCHULTZ, Florida
 CIRO RODRIGUEZ, Texas
 LINCOLN DAVIS, Tennessee
 JOHN T. SALAZAR, Colorado          JERRY LEWIS, California
                                    C. W. BILL YOUNG, Florida
                                    HAROLD ROGERS, Kentucky
                                    FRANK R. WOLF, Virginia
                                    JACK KINGSTON, Georgia
                                    RODNEY P. FRELINGHUYSEN, New   
                                    Jersey
                                    TODD TIAHRT, Kansas
                                    ZACH WAMP, Tennessee
                                    TOM LATHAM, Iowa
                                    ROBERT B. ADERHOLT, Alabama
                                    JO ANN EMERSON, Missouri
                                    KAY GRANGER, Texas
                                    MICHAEL K. SIMPSON, Idaho
                                    JOHN ABNEY CULBERSON, Texas
                                    MARK STEVEN KIRK, Illinois
                                    ANDER CRENSHAW, Florida
                                    DENNIS R. REHBERG, Montana
                                    JOHN R. CARTER, Texas
                                    RODNEY ALEXANDER, Louisiana
                                    KEN CALVERT, California
                                    JO BONNER, Alabama
                                    STEVEN C. LaTOURETTE, Ohio
                                    TOM COLE, Oklahoma

                 Beverly Pheto, Clerk and Staff Director

                                  (ii)

 
               LEGISLATIVE BRANCH APPROPRIATIONS FOR 2010

                              ----------                              

                                         Wednesday, April 22, 2009.

                          U.S. CAPITOL POLICE

                               WITNESSES

PHILLIP D. MORSE, SR., CHIEF OF POLICE, U.S. CAPITOL POLICE
DANIEL NICHOLS, ASSISTANT CHIEF OF POLICE, U.S. CAPITOL POLICE
GLORIA JARMON, CHIEF ADMINISTRATIVE OFFICER, U.S. CAPITOL POLICE

                Opening Remarks--Chair Wasserman Schultz

    Ms. Wasserman Schultz. Good afternoon. Welcome to the first 
budget hearing for the Legislative Branch Subcommittee on 
appropriations. We will, over the course of the next 3 weeks, 
be proceeding with five more sessions with other congressional 
agencies, and our hope is to move to a markup of the bill in 
the early part of June. Chairman Obey and leadership are 
strongly committed to producing signed bills before the 
beginning of the fiscal year on October 1. I personally am 
fully supportive of that goal, and intend to do everything in 
my power to avoid being in a continuing resolution next year. 
Famous last words.
    This afternoon we will cover both the Capitol Police 
regular 2010 request and the 2009 supplemental request for the 
radio system upgrade. Each of these requests presents serious 
issues for the Members in a very challenging fiscal climate. We 
are going to have to look very closely at the new radio 
request.
    Chief, we have a number of questions for you to burrow down 
into your request. This is a proposal that has been 
considerably refined over the course of the last year, at the 
committee's direction. The final system's designs as well as 
cost and procurement strategies will have to be fully discussed 
this afternoon.
    Both GAO's and our own investigative staff review of the 
radio upgrade indicate that the new system is needed, and that 
the cost estimates are now much improved. We have literally 
gone from $35 million, without very much of a plan or good 
direction in terms of the best way to go, to almost $100 
million, but with a much clearer direction and a more well-
developed plan, which we will have an opportunity to question 
you about.
    The immediate question to the committee is the issue of 
timing. And that is the need for the new radio system, is it 
sufficiently urgent that it needs to be part of the 
supplemental, or is it more appropriate that it remain in the 
2010 request as originally proposed?
    Your 2010 request, excluding the radios, is also pretty 
challenging. At $338 million, your budget for core Capitol 
Police operations is $32 million, or about 11 percent above the 
2009 enacted level. Just speaking for myself, I don't really 
see how we are going to do that, realistically. This is a 
challenging fiscal environment, and we are going to really 
continue to have to go with the got-to-haves, not the would-
like-to-haves.
    The most important proposal in the 2010 request is for 
approval to add 137 new positions. That would increase the 
force to 2,369 FTEs. I think there is strong evidence that the 
force needs additional officers. There also seem to be 
significant problems with how current staff are deployed.
    This committee is going to scrub the 2010 request very 
thoroughly, starting with a review of perennial issues such as 
overtime, personnel utilization and personnel planning.
    We look forward to discussing these issues with you today 
and working with you, as always, to produce the best bill 
possible to make sure that we can live within the resources we 
have and allow you to protect the Capitol visitors and 
employees who spend time here every day.
    I want to remind the Members that while they may ask the 
Chief questions at any time, I would like to concentrate in the 
beginning part of the question period on the supplemental radio 
request, and then move to the 2010 request.
    Mr. Aderholt, I yield to you for any remarks you may have.

                     Opening Remarks--Mr. Aderholt

    Mr. Aderholt. Thank you, Madam Chair. It is a pleasure to 
be here and to be on this subcommittee. I look forward to 
working very closely with you and I think in a bipartisan 
manner. I know the history of this committee has operated in a 
very bipartisan way, a tradition, and so I look very much 
forward to continuing that.
    Excluding the Senate items with a $640 million increase, or 
14.5 percent increase, we have our work cut out for us over the 
next few months as we go through the hearing process and mark 
up the House bill. I agree with you that we will not be able to 
sustain such a large increase in 2010, and that we are going to 
have to work with agencies to ensure that we are providing 
their essential needs.
    That being said, I would like to join you in welcoming 
Chief Morse and Assistant Chief Nichols here this afternoon.
    Chief, I commend you on the service that you perform here 
at the Capitol and this institution.
    And also, Ms. Jarmon, good to have you here as well. Thank 
you for being here.
    I would certainly be remiss if I didn't just take a moment 
and say thanks to all the officers, sworn and civilian, that do 
their job on a day-to-day basis to keep this place safe--keep 
the Members safe, staff, and, of course, the visitors that are 
here day to day visiting or whatever the case may be, whether 
they are here for business, or whether they are here for just 
sightseeing tours.
    This being my first time serving on this subcommittee, I am 
taking the time to try to learn the issues and go through them 
systematically. I would like to go on record saying that I do 
support the need for an improved Capitol Police radio system. I 
have been brought up to speed on the situation of what it has 
been in the past and understand the need for that.
    As with most emergency response equipment, I understand the 
need for an upgrade, as the current system is over 20 years 
old. Two years ago, under Mr. Wamp's encouragement and your 
support, $10 million was successfully added to the supplemental 
to start up the cost for the upgrade. And I understand there 
has been much discussion this past year on the appropriate 
level of funding needed to successfully implement this project.
    So I look forward to hearing your testimony today and look 
forward to working with you in the future and in the coming 
weeks and months as we work on these issues.
    Thank you very much.
    Ms. Wasserman Schultz. Thank you, Mr. Aderholt.
    Do any other Members wish to make any remarks at this time? 
If not, Chief, we have your statement and it will be entered 
into the record at this time. Please proceed with a 5-minute 
summary. Welcome to the committee.

                     Opening Statement--Chief Morse

    Chief Morse. Thank you, Madam Chair, Mr. Aderholt, and 
members of the committee. Again, I am honored to be here to 
present my testimony to you. With me today, as you have 
acknowledged, is Assistant Chief Nichols. Our Chief of 
Operations is to my right and, to my left, my Chief 
Administrative Officer, Gloria Jarmon.
    Over the past several years, the Department has undergone 
many changes. While many of these things were necessary to move 
the Department forward, I believe that our focus for the next 
fiscal year will be one of leveling out our operational and 
administrative activities. My direction to my management team 
is to focus on institutionalizing standard and repeatable 
business practices, finding efficiencies, and addressing 
longstanding deficiencies to meet the Department's core mission 
set.


                progress on gao and oig recommendations


    I would like to take just a few minutes of your time to 
highlight some of our accomplishments this past year. The GAO 
and the Office of Inspector General have made over 169 
recommendations since 2005, and they were intended to improve 
the Department's operations, and most of these are geared 
toward our administrative operations.
    I am pleased to report to you today that we have, again, 
made significant progress. We have now closed over half of all 
these recommendations, and this is despite the additional 40 
recommendations in this past year alone. We currently have just 
85 of the 169 still open, and we are in the process of 
implementing corrective actions to close these in the very near 
future.
    Recently we closed 16 OIG recommendations dealing with 
property management and the memorial fund, hiring standards, 
and the student loan repayment program, and we are also 
anticipating closing many GAO recommendations in the coming 
months.
    We believe we are beginning to get ahead of the curve on 
improving our administrative operations, and while we realize 
we have a lot more work ahead of us, we anticipate more 
improvements as the year proceeds.


                     financial management advances


    Some of the best progress that we have made in the past 
year has been in the financial management arena. In order to 
achieve these results, we focused on the hiring of a chief 
financial officer, a deputy chief financial officer, a budget 
officer, a deputy procurement officer, as well as several other 
well qualified employees in professional positions within the 
Office of Financial Management. I would like to recognize them 
because most of them are sitting behind me.
    The professional administration oversight that has come 
from these individuals, as well as many others of the 
professional and technical civilians in our department, has 
enabled us to begin to institutionalize an administrative 
operation in the U.S. Capitol Police that will be as 
responsive, accountable, and transparent as any Federal agency.


                    accomplishments within past year


    I would like to just go over some of the Department's 
accomplishments and enhancements this year. The Department 
filed fiscal year 2008 financial statements in time for a 
complete independent audit, which resulted in the Department 
receiving a clean opinion on our financial statements for the 
first time in our Department's history. We recently received 
reaccreditation from the Commission on Accreditation for Law 
Enforcement Agencies after undergoing an extensive on-site 
evaluation to review the documentation that verifies that we 
have maintained compliance with standards over a 3-year 
accreditation process.
    We issued our updated Strategic Plan and our Strategic 
Human Capital Plan, which will improve our ability to link our 
human resources programs to our strategic goals, and also 
enable us to measure our staffing needs and progress with much 
more efficiency and in an effective manner.
    We implemented effective business practices and internal 
controls into our financial, human resources, facilities, and 
information technology operations. We reconciled our financial 
management and property management systems and performed a 
complete physical inventory.
    We aligned our salary and benefit data with the National 
Finance Center; we revised our budget justification to 
incorporate strategic objectives, accomplishments, and 
schedules consistent with executive and other legislative 
branch agency budgets.
    So we took our homework very seriously, Madam Chair, and we 
have a great team. We have made tremendous progress in all 
areas, both administrative and operationally, and I want to 
thank my employees for that.
    At this time, I would be happy to answer any questions that 
you have.
    Ms. Wasserman Schultz. Thank you very much, Chief Morse.
    [Chief Morse's prepared statement follows:]
    [GRAPHIC] [TIFF OMITTED] T0439A.001
    
    [GRAPHIC] [TIFF OMITTED] T0439A.002
    
    [GRAPHIC] [TIFF OMITTED] T0439A.003
    
    [GRAPHIC] [TIFF OMITTED] T0439A.004
    
    [GRAPHIC] [TIFF OMITTED] T0439A.005
    
    [GRAPHIC] [TIFF OMITTED] T0439A.006
    
    [GRAPHIC] [TIFF OMITTED] T0439A.007
    
    [GRAPHIC] [TIFF OMITTED] T0439A.008
    
    [GRAPHIC] [TIFF OMITTED] T0439A.009
    
                          shared radio system


    Ms. Wasserman Schultz. I know I have quite a few questions, 
and we are going to spend the majority of this hearing on the 
Capitol Police budget, and we will probably take about 20 or 30 
minutes or so to do GPO.
    The request for the upgrade of the radio system has been in 
front of this committee for a couple of years now, and 
originally my concern was that when you first made your 
presentation, it was one I felt was very broad, very general, 
and I didn't have enough confidence that the $35 million 
request was all that we would ever see. And especially given 
that we were in the middle of trying to finish up the CVC and 
deal with a number of years of cost overruns and timing 
overruns, I felt it was important for us to make sure we had an 
absolute handle on the costs and the plans for this upgrade. So 
that is why we had the S&I staff of the Appropriations 
Committee work with you. And I think we are in a much stronger 
position now, and clearly as we move forward with these plans, 
while the amount of the cost of the upgrade has gone up, it is 
more clear what the needs are, and I think you have the 
opportunity to implement a more effective system.
    One open question that is still there is whether a shared 
system working with another agency or law enforcement agency 
would be beneficial both in terms of system performance as well 
as cost. To my knowledge, we haven't been able to identify a 
Federal agency system that really will work with the Capitol 
Police needs. So basically are we at the point where a shared 
system is off the table?
    Chief Morse. Yes.
    Ms. Wasserman Schultz. Okay. Why?
    Chief Morse. Well, the uniqueness of what we do, the 
ability to use this system not only just for the police 
department's use, but the legislative branch operations, the 
continuity of government, we need to be able to control the 
activity on this radio. We need to have the priority of this 
system. And the uniqueness of the system is one that only 
really fits us.
    The criticality is there to be able to communicate with 
these other law enforcement agencies during a critical incident 
situation. But to rely on another agency for a radio system is 
not something that we feel comfortable with or think is most 
appropriate for our mission.


                    progress of radio system upgrade


    Ms. Wasserman Schultz. Can you just take us through where 
we are in terms of the proposed upgrade? We have a lot of new 
Members on the subcommittee, and they don't have the history 
that some of us do.
    Chief Morse. Where we are currently is we are in----
    Ms. Wasserman Schultz. The need for the upgrade, what the 
urgency is, that kind of thing.
    Chief Morse. Sure. There are really three life safety tools 
for a law enforcement agency: weapons systems, protective 
equipment, and then communications. Our communications 
equipment, as you know, is over 25 years old. It is antiquated; 
it is analog; it is not interoperable; it is not encrypted and, 
in many cases, has been failing us both in the hardware and 
software area because they simply don't make this type of 
system anymore.
    We most recently had one of our vendors call and say they 
could no longer service our dispatch equipment or technology 
because it is simply outdated.
    In the threat environment in which we work after 9/11, it 
certainly is critical that we be able to communicate with our 
partners in a critical incident situation, which we currently 
cannot do.
    The encrypted portion of this project enables us to 
communicate with each other without the outside world listening 
in, which would degrade our ability to protect Congress. We 
currently do not have a failsafe system where we could have 
mirror sites and alternative sites that are away from this 
location to protect the integrity of the communications. With 
all those things that we have to deal with, a need for a new 
system is critical.
    One of the reasons that we felt that through the 
supplemental it would be beneficial for us is that, really, 
every minute counts with a system like this. The system has 
failed us at one time when it completely shut down. Therefore, 
every month counts for us.
    The committee saw this urgency in 2007, and we certainly 
appreciate the funding that we got through a supplemental at 
that time, but we believe that it is the most immediate way 
that we can begin this system and complete this system in a 
timely manner for the protection of Congress and the visitors 
and staff, and certainly for the legislative branch operations.
    So that is really where we are now. We have listened 
carefully and have followed direction and been very methodical 
about the way we have gone about preparing ourselves for this 
system, both from a technical sense and an operational sense. 
We are currently in what is called an engineering design phase, 
where we will get the specifics of costs related to the 
internal use of this system.
    And just to bring up a point, most systems are 80 percent 
external. Most of our system is 80 percent internal. So there 
was a need to really test, engineer, and design within the 
actual buildings, tunnels, and garages that we work in.
    That is where we are now. With a supplemental in 2009, we 
would be able to begin to acquire some of the technology that 
we need, antennas, cabling, et cetera; and as the design phase 
is completed, we will then be able to begin the open 
competitive bidding for contractors for the work that is needed 
to complete this project.
    So that is where we are. That is the criticality of it. 
That is why we believe that the supplemental is most beneficial 
to this project. It saves time, addresses the criticality of 
it, and it avoids any extension of time that would be related 
to this that could affect cost as well.
    Ms. Wasserman Schultz. Thank you.
    Mr. Aderholt.
    Mr. Aderholt. Thank you.


                            indoor coverage


    You referred a moment ago to the importance of indoor 
coverage. I know that this is the portion of the estimate that 
has not been locked down. Its estimated range--correct me if I 
am wrong--is between $8 million and $16 million; is that 
correct?
    Chief Morse. That is the cost that may increase once the 
design engineering is completed. So I believe--and I would have 
to look at the numbers--but it is somewhere in the $20 million 
range for infrastructure, and the indoor coverage could be as 
much as $8 million to $16 million more, depending on the design 
engineering.
    Mr. Aderholt. Just talk a little bit about the importance 
of the coverage--and you were talking about how most of the 
coverage is outdoor--but how this is a little bit different 
situation. Also please address what the importance is of the 
indoor coverage and what would be involved in a design effort 
that you would need.
    Chief Morse. One of the things that we have experienced 
with our current system is what we call dead spots. It is the 
inability for the officer to be able to transmit or receive 
communications subterraneanly in some of our garage areas, 
tunnel systems, subways, et cetera. Part of the reason for this 
was the lack of cabling, antennas, and any design engineering 
study that took place in the past, and was associated with our 
current system.
    Therefore, the industry standard, if you will, is to have a 
percentage of coverage for any system, whether it be external 
or internal. But our design engineering study is working us 
toward establishing the highest level of coverage internally 
that we can possibly get, as both a life safety issue and 
certainly any operational needs that take place for which 
communication is needed.


                     working with aoc and timeline


    Mr. Aderholt. Well, I can imagine a lot of cables have to 
be run through the Capitol Complex. Have you had a discussion 
with the Architect of the Capitol about an estimated timeline 
to try to get something like this implemented?
    Chief Morse. The estimates that we have have been reviewed 
by our stakeholders to include the Architect of the Capitol. 
But specifically the NAVAIR Command, who is doing the design 
engineering study, also has experience here at the Capitol in 
some of the uniqueness of the environment in which we work and 
the construction. So specifically if the question is have we 
had conversations with them about the timeline, the answer is 
yes.
    Mr. Aderholt. Have they given you sort of a ballpark figure 
of once the money is allocated, how long it would take to try 
to implement something like this?
    Chief Morse. Three years for the whole project. And it is 
broken down into phases. I believe it is five phases. We are 
sort of in phase 1 and 2 right now.
    Mr. Aderholt. One item that tends to get overlooked when 
you are trying to understand the cost is the outyear costs for 
such things as maintenance, additional personnel, and leases. 
What are the outyear issues and costs to maintain a new system 
like this?
    Chief Morse. I think as a part of the cost included for 2 
years is about $4.5 million. Then any subsequent years would be 
certainly less than that because the testing and validatation 
would be completed. So it is just the maintenance of the system 
itself.
    Mr. Aderholt. Phase 5. Until what time period would phase 5 
go through after it is implemented, how long after that? You 
said 3 years as far as implementing the system. And this $4.5 
million would cover how long?
    Ms. Jarmon. Two years beyond.
    Chief Morse. Two years beyond the three-year mark.
    Mr. Aderholt. Thank you.
    Ms. Wasserman Schultz. Mr. Rodriguez.
    Mr. Rodriguez. First of all, let me thank you for your 
service and what you do for all of us. I want to thank you for 
taking care of us and all the tourists that come here.
    Let me ask you, on the new type of technology that is out 
there, the overall expenditures, you mentioned the possibility 
of $20 million and $16 million; is that correct?
    Chief Morse. With regard to infrastructure inside the 
buildings.
    Mr. Rodriguez. What is the life expectancy of that? Do we 
have any idea?
    Chief Morse. I don't have that answer for you. I have 
people that can give you that answer. I can give it to you for 
the record.
    Ms. Wasserman Schultz. Answer that question for the record.
    [The information follows:]

    What is the life expectancy of the new radio system?
    Response. The radio system life cycle will be between 15-20 years, 
with appropriate preventative maintenance service and updates.

                    TRAINING ON THE PROPOSED SYSTEM

    Mr. Rodriguez. In addition to that, in terms of the 
resources needed or the cost in terms of the training that is 
also entailed in that transformation effort, do you have that?
    Chief Morse. I just got the answer to your first question 
on life expectancy. It is probably 10 to 15 years. And then 
your second question, I am sorry?
    Mr. Rodriguez. Just in terms of the amount of resources 
required for training that is required in order to make that 
transformation. I distinctly remember a long time ago when 
computers came in, we bought a whole bunch of computers, and no 
one would use them because they weren't trained to use them. I 
just wonder in terms of the actual training that might be 
required and the possible cost with that. A company can sell 
you stuff, and along with that come additional needs for 
training that you might have to pay.
    Chief Morse. One of the requests that we have is for five 
radio technicians who will be familiar with that particular 
system, whichever system that may be. They would work on the 
system and would facilitate training for the employees.

                            BIDDING PROCESS

    Mr. Rodriguez. On the bid process--I gather you are 
starting work on that--would that be competitive?
    Chief Morse. Yes, it will be. It will be open and 
competitive, and the RFP, if you will, has been very closely 
scrutinized by not only GAO, but other----
    Mr. Rodriguez. Does it have a segment on there for the 
training?
    Chief Morse. That I would have to answer for the record.
    [The information follows:]

    Does the RFP for the new radio system include a segment for 
training?
    Response. Yes. Training documentation is required to be developed 
in Phase III of our Statement of Work with NAVAIR (currently funded 
through Phase II), but the actual training of personnel will be 
conducted in Phase IV before the system is turned over to/accepted by 
USCP.

    Ms. Jarmon. The RFP would be let after the design and 
engineering is done. The design engineering is being done 
between now and December. At that point we would be working 
with NAVAIR, and there would probably be about five different 
RFPs. There would be one for the radio equipment, network 
equipment, antennas, indoor coverage. About 95 percent of this 
would be fully competitive. Five percent is the cost for the 
NAVAIR to work as the project managers.

                  INTEROPERABILITY OF THE RADIO SYSTEM

    Mr. Rodriguez. Are you looking at a system that would be 
able to communicate with Secret Service and other agencies?
    Chief Morse. It would enable us to communicate with anyone 
with a system that we would want to bring onto our network, and 
that could be done on a consistent basis or an as-needed basis.
    Ms. Jarmon. Our training cost estimate is in phase 4, which 
is about $2.6 million. Training is included in that.
    Mr. Rodriguez. Thank you.
    Ms. Wasserman Schultz. Thank you, Mr. Rodriguez.
    Mr. Cole.
    Mr. Cole. Actually that basically touched on my question. 
On the interoperability portion of what you are trying to do, 
all the other surrounding departments already have the 
equipment they need for you to interact with them?
    Chief Morse. Yes. Most of the agencies that we interact 
with have the capability to be interoperable. There are some 
municipalities, for instance, Prince George's County, who I 
believe is within about 12 to 15 months, if I recall--and they 
testified recently--to having their interoperable system for 
countywide interoperability.

                        IMPLEMENTATION TIMELINE

    Mr. Cole. How long would it take for you to put in place 
what you want to do, from beginning to end? If you started 
today, how long would it take?
    Chief Morse. It would take 3 years to get to where we need 
to be.
    Mr. Cole. Does it make any sense appropriating the money 
over an extended time frame? Would it save any money or cost 
any more?
    Chief Morse. We have examined that. It is certainly an 
option that we have looked at. But we have found that 
appropriating this up front, and contracting it out, and 
procuring the technology and the infrastructure that we need is 
the best solution to completing this within the cost and within 
the time frame that we need.
    Mr. Cole. Thank you.
    Thank you, Madam Chair.
    Ms. Wasserman Schultz. You are welcome.
    Mr. Honda.
    Mr. Honda. Thank you.

                   COMMUNICATING WITH MEMBER OFFICES

    I guess I am trying to understand all this. What we have 
here right now is an expert who is designing the entire system 
and wants to design and set up and bid for different parts of 
the system. And the system has a lifetime of 15 to 20 years. We 
have a problem of interoperability, encryption, and also 
communication in terms of internal communication among our 
Members and with other agencies.
    What I haven't heard so far, and maybe you have said it, 
how does this all work in times of--moments of emergency where 
you need to communicate with each office? Is that part of your 
plan? Are there other mechanisms such as you have audio, then 
you have video, so that we can get all that done so we can 
guide people in buildings in and out?
    Asst. Chief Nichols. It is a good question because there 
are two parts to the question. One is having a robust radio 
system that allows us to give our officers direction in an 
emergency situation, because from the Central Command Center we 
can monitor the campus systems and know where an emerging 
chokepoint is; for example, in the Longworth Building. On the 
radio system we can give the direction to the officer how to 
relieve that chokepoint.
    With regard to connectivity to the offices----
    Mr. Honda. How do you know where the chokepoints are?
    Asst. Chief Nichols. In our budget request for fiscal year 
2010, we have a request for cameras in critical areas in the 
buildings so we can monitor that remotely, frankly, based upon 
previous conversations we have had with this committee on those 
various concerns. So we will have a more robust internal remote 
monitoring system as opposed to having an officer there who can 
remotely see through the camera system where the problems are 
developing and then guide the officers to that location.
    Mr. Honda. Given the current technology, will there be a 
way to include new technologies so that when you have the 
video, it can be shared--at the same time as you see it in the 
control center, can that be shared with the other folks in and 
around that area?
    Asst. Chief Nichols. If we can export that to the point 
that it doesn't compromise security, obviously we can export 
those images to other locations, yes.
    Mr. Honda. To other officers. That is also encrypted, but 
it can be done. Do you have that in your plan in terms of 
upgrading both the 10 to 15 years, because technology changes 
every 2 or 3 years?
    Asst. Chief Nichols. That is correct, sir. Those are 
actually two independent and separate systems. The radio system 
is one stand-alone system. The camera monitoring system is 
another stand-alone system intended to be used for emergency 
egress. But all of our systems have to be integrated for the 
same life safety requirements, and this allows us to have a 
much better big picture of a quicker, robust response to 
emergencies. We bring all of these technologies together with 
well-trained personnel.
    Mr. Honda. Will that system be able to be compatible with 
the different offices? Will they use the same system or 
separate systems so that our emergency coordinator in each 
office will be able to have that information?
    Asst. Chief Nichols. We are still looking at technologies 
to give the offices specifically a more clear picture of what 
is going on during an emergency situation. As you know, we 
already have the Blackberry system, we have the public address 
systems both inside and outside the building now, as well as 
the annunciator system which emanates from the command center. 
So you have just about everything except for a video picture. 
We can look at ways to import video pictures to key areas if 
that becomes a requirement or advantage in an emergency 
response for the public.
    Mr. Honda. How does that become a requirement for emergency 
response? You said if that becomes a requirement.
    Asst. Chief Nichols. If there is a need to export a video 
picture outside the command center.
    Mr. Honda. But you have the capability.
    Asst. Chief Nichols. That is correct. We will help develop 
that capability.
    [Clerk's note.--The following information was provided 
subsequent to the Hearing.
    The USCP does not currently have this capacity, nor would 
its current budget request allow for such an upgrade. The USCP 
will examine the cost of upgrading to the capability suggested 
by Mr. Honda, and include the upgrade in a future request.]
    Mr. Honda. In your timeline do you have what it will cost 
for the training?
    Asst. Chief Nichols. For the video system, sir?
    Mr. Honda. Yes.
    Asst. Chief Nichols. That is included in the budget 
request.
    Mr. Honda. When can we see this timeline and benchmarks--I 
suspect it is part classified, I don't know--but where Members 
will be able to see that visually so we have a sense of that 
timeline, something that we can use as a monitor?
    Asst. Chief Nichols. We can certainly do that. We can give 
you a timeline with benchmarks. All of those things we can 
provide to the committee so you can see we are on track and on 
target. We are very sensitive to the needs of the community 
with regard--especially the people who work here who need to 
know because of the frequency of emergencies what our response 
is and how well suited we are to protect our community.
    Mr. Honda. My time has expired. Thank you.
    Ms. Wasserman Schultz. Thank you, Mr. Honda.
    Mr. LaTourette.
    Mr. LaTourette. Thank you, Madam Chair. Thank you all for 
coming and for the work that you do. Madam Chair, I will just 
brag on the chief for a minute. After our last hearing on the 
inauguration, the chief actually did call my mother-in-law and 
explain why she wasn't invited to the inauguration. I 
appreciate that.
    Chief Morse. She was very tough, too.

            VENDORS AND SPECIFICATIONS FOR THE RADIO SYSTEM

    Mr. LaTourette. Is your current radio system vendor 
Motorola?
    Chief Morse. Yes.
    Mr. LaTourette. And the difficulty that you are 
experiencing not only with the age, but what police departments 
tell me back home is that Motorola is going to stop making 
replacement parts. That is the problem they are having, and 
that is a pretty slick move on their part, because if you can't 
make the parts, everybody has to get new radios and go off of 
this P25 system. Is that the problem that you are having, among 
others?
    Chief Morse. The problem that we are having is that the old 
technology can't be used like the new technology can be, 
regardless of who the vendor is.
    Mr. LaTourette. You were kind enough, or the Department, to 
come up with a slide presentation. If I could just direct you 
to slide 12, if you have it. Before I ask you any questions 
about it, I just want to make sure. It says ``procurement 
sensitive,'' so is it a secret, or can I ask you specific 
questions about this?
    Chief Morse. Hold on a second.
    Mr. LaTourette. I just want to ask you about your proposed 
system. Is that okay?
    Chief Morse. Sure.
    Mr. LaTourette. It says: 14 channels. The next one, 32 TX 
or RX. Are those repeaters?
    Chief Morse. Yes, sir.
    Mr. LaTourette. So your proposal calls for, because of the 
unique challenges, I would suspect, of being inside, you have 
32 repeaters. Do you have repeaters in place today?
    Chief Morse. We do.
    Mr. LaTourette. How many do you have today?
    Chief Morse. I don't have that offhand. I can provide it to 
you. But I can tell you that they are not all in position where 
they should be, or they are old and outdated.
    Mr. LaTourette. Right. But 32 repeaters doesn't take care 
of the unique challenges you think your Department has with the 
indoor coverage that you need?
    Chief Morse. Well, there is also the aspect of cabling and 
locating where dead spots are for placement. So placement is 
critical.
    Mr. LaTourette. I guess my question is: Do you anticipate 
growing to 16 repeaters, or do you think 32 repeaters are going 
to take care of it as long as they are placed properly?
    Chief Morse. We think that this is sufficient to cover what 
we need for our current mission.
    Mr. LaTourette. The next one is subscriber units, 2,400. 
Are those individual radios?
    Chief Morse. Yes.
    Mr. LaTourette. Okay. How many officers do you have at the 
Department?
    Chief Morse. Currently we have 1,799 authorized officers.
    Mr. LaTourette. Can I ask you why you need 2,400 radios?
    Chief Morse. Sure. First, there are other entities within 
the Legislative Branch who use our system that help us; for 
instance, facilitate tour guides, and also they help us 
facilitate evacuations. The Architect of the Capitol and others 
who currently use our system, we would be able to extend this 
to them as well. And then we have the increase of Library of 
Congress police officers as well to our force.
    Mr. LaTourette. Does your proposal call for each one of 
these subscribers to take their radio home with them?
    Chief Morse. They would be assigned to each officer.
    Mr. LaTourette. They would carry them with them 24/7?
    Chief Morse. They would not carry them 24/7, but they would 
be issued a radio to use.
    Mr. LaTourette. Okay. I am not trying to nitpick, but I 
guess you can get from 1,700 to 2,400 with all the other people 
that need to have radios. But if the police officer isn't 
taking the radio home, I assume not all 1,700 work at the same 
time. You do three shifts?
    Chief Morse. We do.
    The issue that we are looking at is one of the reasons we 
need a critical interoperable radio situation is a crisis 
situation. In that case all of our officers would be called 
into work, and then we wouldn't have enough radios to go 
around. So there is a consideration for that, as well as backup 
radios.

                    ENCRYPTION COSTS FOR THE RADIOS

    Mr. LaTourette. The reason I ask about the number is 
encrypting a radio is an expensive proposition, to the tune of 
maybe $1,500 a radio, plus or minus. It is not an insignificant 
number. But my question on encryption is, is it your intention 
to have all 14 channels encrypted?
    Chief Morse. The system would be encrypted, so if you 
talked on the system, it would be encrypted, regardless of 
which channel.
    Mr. LaTourette. Let me just ask you a question that police 
officials back home have suggested to me, and that is that 
their SWAT teams have encrypted communications, and some of 
their narcotics operations, but the traffic officers, as an 
example, don't have encrypted because of the expense. And I 
wrote down you said at one point every minute counts. When you 
encrypt a transmission, you do miss a beat because the computer 
has to encrypt. Even with really fast computers, you lose a 
nanosecond or some seconds as you encrypt everything. Do you 
think there is an absolute need to encrypt every one of these 
2,400 radios and all 14 channels, or have you explored making 2 
or 3 of them encrypted, so that if we have a big problem here 
today, and we need to go on to say channel 6 and conduct our 
work and encrypt it, we could?
    Chief Morse. I am not technically savvy enough to answer 
the question if each one of the radios is encrypted. And I will 
have to get back to you with that. I am right now thinking that 
the system itself is encrypted; therefore, if you operate on 
that channel----
    Ms. Wasserman Schultz. Do you have someone?
    Chief Morse. We do have some people more technically sound 
with regard to encryption. Doug Hosea.
    Ms. Wasserman Schultz. Why don't you come and join us at 
the table since the questions are going to be directed at you. 
If you could state your name for the record.
    Mr. Hosea. Doug Hosea with NAVAIR.
    Mr. LaTourette. You heard my question. Does the entire 
system need to be encrypted?
    Mr. Hosea. I definitely would recommend the entire system 
be encrypted. It gives you one type of system that everybody 
can use, and whenever an officer is in need, that information 
is not put out on the street.
    Mr. LaTourette. I get the purpose. Do you have the 
technology to encrypt 3 or 4 of the 14 channels that they are 
proposing that would permit them to have secure communications?
    Mr. Hosea. They are also in the handheld radios and the 
portable radios, so they are on both ends. So you can encrypt 
some channels on the radio, but it is also on the hand-held 
unit itself. So if the handheld unit itself would have the 
encryption module built in, that is where the code plug would 
be loaded in, and that is your encryption algorithm.
    Mr. LaTourette. The question is: As I look at the proposal, 
it looks about $10 million is dedicated for the encryption 
piece. I have been told about $1,500 a radio. So I guess I am 
asking. I want the police to have the best radio system 
possible, but in these times, if we don't have to encrypt every 
radio for every police officer who is directing traffic as 
opposed to dealing with a security threat to the Capitol, I am 
asking why should we spend that money?
    Ms. Wasserman Schultz. The gentleman will answer the 
question, and then your time has expired a while ago.
    Mr. LaTourette. Thank you for your courtesy.
    Mr. Hosea. The encryption side, depending on how the 
frequencies are laid out, it is going to depend on who gets 
that channel. So if an officer is on a channel and it goes down 
in a certain area, and he does not have an encrypted radio, he 
is not going to be covered by another frequency. So by doing 
that, you kind of promote another problem that could happen.
    Mr. LaTourette. Thank you so much.
    Ms. Wasserman Schultz. Ms. McCollum.
    Ms. McCollum. Thank you. I want to thank the Chief, the 
Assistant Chief, and all the officers and supporting staff for 
all the work that they do. Mr. Honda and I, after we moved 
offices several years ago, started talking about Longworth, and 
we know there are also challenges in Cannon and Rayburn, as 
well. Heaven forbid I will ever be in Rayburn when called to 
evacuate. In Longworth, they have challenges with the crowding 
in the stairwells.

                    CAMERAS TO ASSIST IN EVACUATIONS

    Just for the record, do you have in your 2010 budget 
cameras to be placed in the stairwells so that you can do 
basically live-time evacuation and move people or inform 
officers if they need to go someplace?
    Asst. Chief Nichols. They will be placed in key areas, 
correct.
    Ms. McCollum. And along with that, will there be 
annunciators included in the stairways, too, in case you need 
to tell people not to proceed or to move to another area?
    Asst. Chief Nichols. We already have the annunciators in 
all the offices that give realtime direction that can give 
directions verbally to everybody who is evacuating.
    Ms. McCollum. I am talking about annunciators available in 
the stairway to be used if I am a tourist, or somehow I am 
evacuating and not the person who has the annunciator.
    Asst. Chief Nichols. There is the public address system 
that we use also, and of course, all the annunciators are 
portable so people around you can hear them also.
    Ms. McCollum. That is great. And thank you so much for 
doing that. It gives me peace of mind for my staff, but it also 
gives me peace of mind for all the people who are visiting 
here. I think it will, as you practice through it with drills--
and I hope they are always drills--become more efficient with 
the system in the future.

                        HOMELAND SECURITY GRANTS

    Madam Chair, I want to shift the conversation a little bit. 
We have talked about radios, we have talked about providing 
enhancements for the public when they are here to be safe, and 
all this comes out of Legislative Branch dollars.
    My St. Paul police department, St. Paul Fire, and volunteer 
fire departments are all eligible to apply for different grants 
and funding opportunities, especially out of Homeland Security. 
The Capitol Police have always been responsible for securing 
the sites for Members and for dignitaries and for people that 
are visiting, but after September 11 that responsibility 
increased to a whole another level especially for protecting 
the public when they were here. We have seen this while being 
here on September 11 and with the evacuation due to the plane 
during Mr. Reagan's funeral.
    So I really think, Madam Chair, and I would ask all my 
colleagues here, if we should be rethinking the way this police 
department, the Nation's police department, has been funded in 
the past when they compete with all the other services that are 
to be provided to Members to help us do our job. I wonder if 
this is the most effective and efficient way in order for these 
officers to provide the security that they want for us, because 
I have to believe they would have moved quicker and faster on 
some of these areas that we are discussing today had they have 
had the resources to do so. They have done admirably with the 
resources they have, but I think we need to have a discussion, 
perhaps with Chairman Obey, about letting them compete toe to 
toe for some of the grants other police departments receive.
    Ms. Wasserman Schultz. My understanding is the only problem 
with that--and that is something that is an intriguing 
suggestion--the only concern is that it would put the 
Legislative Branch in the position of applying to the executive 
branch for funds for a function that is legislative. So there 
may be separation of powers issues related to that, which is 
why we have always taken care of our own funding.
    Ms. McCollum. But I would just say that there is an odd 
transfer of funds, and I will throw this out here, and we can 
talk to other people about this some more later, but the CDC 
receives a huge chunk of change. It is a transfer point through 
which funds go to PEPFAR. PEPFAR gets its own money and then a 
transfer from the CDC to do something else.
    There are things like that riddled throughout the budgets. 
So I don't see why Homeland Security couldn't have a chunk of 
change that they could transfer to Legislative Branch for doing 
a portion--not all, but a portion--of what they do. Otherwise, 
we are going to continue to be hamstrung for all the other 
needs of Leg. Branch. It really puts us in a situation of 
having to make choices between safety and sometimes efficiency 
in doing our jobs. When this formula was first set up, that 
wasn't an issue.
    And so I would encourage us to look at ways of exploring 
the way this formula has come to be, and see if there is a way 
we can do it more effectively and efficiently and fairly to the 
other responsibilities this committee has in the future.
    Ms. Wasserman Schultz. You do make a valid point, and I 
would be thrilled about any relief that we had off the pressure 
that we have to meet this budget.
    Mr. Ryan.
    Mr. Ryan. I have no questions.
    Ms. Wasserman Schultz. Thank you.

                      RELIABILITY OF COST ESTIMATE

    I want to just focus in on a couple of concerns, because my 
understanding is that the NAVAIR study is still 6 to 8 months 
from completion. Is that right?
    Chief Morse. That is correct.
    Ms. Wasserman Schultz. Still 6 to 8 months from completion. 
You are asking for these funds to be approved prior to the 
study being fully complete. Since your doing that--I mean, 2 
years ago the cost estimate of this system was $35 million. 
Then last year the cost estimate was $61 million, which was one 
that I felt didn't have adequate justification for it. Now we 
have a more refined estimate of $90 million to $100 million, 
with the additional $8 to $16 million that would come at the 
end of the process.
    Without completion of the design study, what level of 
confidence can we have that this latest cost estimate is the 
final one? I do not want us to get into a situation where, in 
April of 2009, we are saying it is $90 to $100 million, but 6 
or 8 months from now, $150 million or $175 million because we 
have unanticipated things that we didn't consider.
    Why shouldn't we wait until we have the study completed? I 
understand the urgency, and I understand the need, but I am 
concerned about unanticipated costs. And since this is a very 
expensive system with a lot of unanswered questions like the 
one that Mr. LaTourette asked, which was a very valid question, 
why wouldn't waiting 6 to 8 months so we could absolutely have 
a real handle on the cost be a more prudent course of action?
    Chief Morse. Certainly I am sensitive to that, and have 
been. That is why we have committed ourselves to excellence on 
our financial management side of the House, the administrative 
side of the House. That is why we have been so responsive and 
cooperative in having so many people look at this project, not 
only from an RFP, but from an engineering design phase.
    The experts tell me that this is what it will be, and this 
is the cost and timeframe that it will be.
    Ms. Wasserman Schultz. But that is what they told you when 
it was $35 million also. We had the same conversation at the 
beginning of this process.
    Chief Morse. I understand. I go back to that, and there 
were a lot of things missing there; a lot of things I didn't 
know. I was only presenting what had been done at a very low 
level in 2005. And I think I was transparent and honest about 
that, that I simply didn't know where this thing would end up 
until I could do other things.
    Ms. Wasserman Schultz. But, Chief, I don't want to 
characterize you as pressing for the $35 million immediately, 
but there was tremendous pressure at the time for us to 
appropriate the $35 million right then. It was badly needed. It 
was something that was urgent. We had to do it. And had we done 
that then, we would have come back several more times, because 
once you had a fuller picture of what it was really going to 
cost, we would be in a CVC situation again where we would have 
to be appropriating unanticipated dollars for a proposal whose 
plan had not been completed.
    Chief Morse. Like I said, I go back to that time and the 
things that were missing. We have committed ourselves to not 
only our agency----
    Ms. Wasserman Schultz. But my bottom line question is: Are 
you confident that this will be the final cost, and that we 
don't need to wait the 6 or 8 months until the study is 
complete?
    Chief Morse. I am confident that with all the things we 
have done and gone through and reviewed, I am confident that 
what they are telling me is correct. It still remains, the 
criticality of it, and I know that you are aware of that and 
sensitive to that, so I appreciate all that. I do have 
confidence in it. I obviously have a great deal of concern 
about the criticality of it. There are things that we can do 
prior to the issuing of the overall contract that can get us on 
course.
    Ms. Wasserman Schultz. What would waiting 6 or 8 months do? 
If we waited 6 or 8 months until the study was completed, when 
a full recommendation could be made with all the information 
that you need available to you, what would be the difference 
between doing this now, appropriating the dollars now in the 
supplemental, or waiting 6 or 8 months until we have the study 
completed?
    Chief Morse. Well, we just simply don't know what is going 
to happen in the budget cycle. We know the criticality of this, 
so the supplemental provides the funding for it. We maintain 
our timeline and our phased approach to this. It just keeps us 
on track, and it saves time, which I think everybody wants. The 
longer this could extend, the more risk we take with a failure 
of the system in not getting it off the ground, but also the 
more risk we take at cost and it rising.
    I have confidence in our plan. We have over the past 2 
years tried to gain the committee's confidence in the work that 
we are doing, and we just simply hope that you support us in 
this effort. And we know that you have in the past, and we 
appreciate everything that you have done for us.
    Ms. Wasserman Schultz. My time has expired.
    Mr. Aderholt.
    Mr. Aderholt. I don't think I have anything on the radio 
right now.
    Ms. Wasserman Schultz. I do have several other questions 
related to the radios. Do any other Members have questions, 
radio-specific questions?

                  ENCRYPTION AND MAINTENANCE OVER TIME

    Mr. LaTourette. I do. Chief, if I could maybe get the 
NAVAIR guy. One is: Does every radio need to be encrypted, if I 
am right about the cost? In particular, the 700 radios you are 
going to share with other people, I see a big difference 
between people engaged in traffic control and people engaged in 
making sure they will be safe from terrorists. If you could 
look at that.
    The other thing that concerns me, the $4.5 million for 
maintenance, I think that is great. I would just ask that you 
get it from Doug or whoever is consulting you, that we don't 
find ourselves in a Motorola situation again. So whoever you 
wind up selecting as the vendor, it is great if you get a 2-
year maintenance agreement and it is all paid for, but in year 
5, if your vendor decides they are not going to make spare 
parts anymore because they want to sell everybody a P26 radio 
system, I think you are going to have an expense maybe we don't 
need to have.
    So I think that if you could satisfy yourself that the 
people that sell you the radio system are going to fix that 
radio system into the foreseeable future. Those are my two 
concerns.
    Ms. Wasserman Schultz. Thank you.
    Ms. McCollum. Madam Chair, to follow up on that. I am just 
trying to see if I understood something right. Right now you 
are looking at encrypting all channels. Do you have the 
flexibility of how many channels you choose to encrypt?
    Mr. Hosea. Yes, ma'am.
    Ms. McCollum. If I am an officer with a radio, and I have 
an encrypted radio, it doesn't make a difference how many 
channels are encrypted, one encryption descrambles whatever it 
is that comes into my radio?
    Mr. Hosea. It depends on how you set it up.
    Ms. McCollum. So is there a cost difference if I have 
channels, and I am just making up channels, say I have 2 
channels, I encrypt one and don't encrypt the other?
    Mr. Hosea. No, ma'am.
    Ms. McCollum. Is there a cost difference to me as the 
officer standing in front of Longworth whether my unit decrypts 
two channels or one channel?
    Mr. Hosea. No, ma'am, because the encryption module is 
built into the radio. There is one encryption module for the 
radio. It is not one encryption module per channel, it is one 
encryption module that slides into your radio--for your 
BlackBerry you have a little SIM card that slides in, basically 
it's the same thing for the encryption modules.
    Ms. McCollum. So are the cost savings in how many channels 
are encrypted or are the cost savings in how many units can 
decode the encryption?
    Mr. Hosea. In how many units can decode the encryption.
    Ms. McCollum. And bids are usually cheaper if I am bidding 
all the same product type versus two different product types.
    Mr. Hosea. Yes, ma'am.
    Ms. McCollum. I would still like to see the answer to your 
question, but thank you.
    Ms. Wasserman Schultz. Thank you. Anyone else on the 
radios? I have three, I will ask them together and then we can 
move on to the 2010 request.

           PROCUREMENT AND NAVAIR'S ROLE IN RADIO PROCUREMENT

    I want to focus on procurement for a second. Can you 
clarify how you propose to handle the radio procurement process 
if this funding is approved by Congress? Will it be a fully 
competitive procurement process, open to all bidders? Will the 
radio procurement be a fixed cost or a cost plus contract? We 
have heard from a number of potential bidders who are concerned 
that the RFP will be written too narrowly and that that might 
eliminate perfectly viable options for meeting communication 
requirements. So how are you going to balance that?
    Chief Morse. Well, first we had already heard those 
concerns about narrowness of the RFP, and that is one of the 
reasons we had so many experts, as well as GAO take a look at 
the RFP to ensure that it, in fact, is not narrow, that it has 
the technical and engineering requirements that we need to meet 
our mission. With regard to procurement, it will be an open, 
fair bidding process. We have to ensure that that happens. We 
have a project manager who is a subject matter expert in this, 
who has on-board procurement people who have the expertise in 
this type of complicated procurement process, and who will 
augment our folks in our Office of Information Systems.
    Ms. Wasserman Schultz. And what is NAVAIR's role? There is 
some confusion as to what NAVAIR's role will be.
    Chief Morse. NAVAIR will be the project manager for the 
overall radio project. They are our consultants or experts in 
this area. They use an integrated team concept and basically 
are augmenting our team of subject matter experts in preparing 
the procurement process, and they will carry it out.

                          FENCING RADIO FUNDS

    Ms. Wasserman Schultz. Lastly on the radios, as I said I 
think the need has been demonstrated, the urgency has been 
demonstrated. We have spent a lot of time working to this 
point. But it still is sticking in my craw that there are 6 to 
8 months left on this study. And the road is littered with 
studies that result in costs for programs like this ballooning 
beyond what was absolutely guaranteed at one particular stage 
and that has been the pattern with this proposal.
    So my question is, if we approve all or a significant 
portion of the supplemental request, the $72 million, I think 
it would make sense to withhold most of the funds until the 
final cost estimate is completed and validated. Is that 
something that would be acceptable? I think we should fence off 
the funds that you don't need at this point so that we could 
make sure that you will have it appropriated but that the 6 or 
8 months will go by and we will know what the cost is. And if 
you already have enough money, or if we need to go further, 
then we haven't gone further than we need to.
    Chief Morse. Yes, it is acceptable that we do that.
    Ms. Wasserman Schultz. Okay.
    Chief Morse. We want to make sure you are comfortable.
    Ms. Wasserman Schultz. It is not for my comfort. I mean, 
$100 million that is only going to last us 15 to 20 years is a 
lot of money. It is very expensive. I understand that it is 
technology and that is the nature of the technology, it is an 
incredibly important system, but we want to make sure that we 
are being fiscally responsible while we are implementing the 
system.
    Do you want to begin on the 2010 budget request?
    Mr. Aderholt. Go ahead.

                  10-YEAR GROWTH IN FUNDING VERSUS FTE

    Ms. Wasserman Schultz. Shifting now to fiscal year 2010, 
let's take a look at the budget from a broader macro point of 
view. Your office supplied us with data last month showing the 
long-term growth funding for the Capitol Police, The table 
shows that between 2000 and 2009 total funding for the Capitol 
Police increased by $200 million, or about 170 percent after 
adjusting for inflation. And during that same period, the size 
of the force only increased by 700 FTEs, or 48 percent. In 
other words, the total funding for the force has risen at 
nearly double the rate of growth in the number of officers and 
other staff. The average cost for FTEs after inflation 
increased from 70,000 per officer to 137,000 per officer. Can 
you put some of those numbers in perspective, because they are 
staggering?
    Chief Morse. Well, if we are going back to 2000, obviously 
we had some significant events here at the Capitol complex, 
including 9/11, anthrax, ricin. And we also had the shootings 
of the police officers in 1998. So there were significant 
increases in the Department's mission, not only related to the 
new technology for instance, but also the physical securities 
we see throughout the campus. So there was an associated cost 
related to that. There were associated costs related to 
training officers at the level they need to be with this type 
of technology, procedures and protocols that are associated 
with protecting the campus at such a high level.
    So the assets, the resources, the physical securities, the 
increasing technology and added mission that was given to us to 
handle has significantly grown our agency since 1998.

                         GROWTH IN COMPENSATION

    Ms. Wasserman Schultz. FTEs and compensation are not the 
same thing, they are very different measures. Can you tell us 
what the average total compensation, including overtime, was 
for an officer in the force last year compared to 7 years ago?
    Chief Morse. Seven years ago, I do not have that data. I do 
know, for instance, a new recruit who would come out currently, 
after they had completed their training in their first year of 
service their salary would be about $57,000. The current 
average overtime would be about $14,000, so roughly $72,000. I 
don't have the data from back in 2000, but I can certainly 
provide that to you for the record.
    Ms. Wasserman Schultz. If you can.
    Chief Morse. Yes. With increases in COLAs over the course 
of 7 years, there was probably a significant increase in 
salary.

                 IMPLEMENTATION OF ELS RECOMMENDATIONS

    Ms. Wasserman Schultz. Okay. I want to focus on the ELS 
study for a moment. There seems to be a level of consensus that 
we need more officers and there is also a consensus on the need 
to better manage the staff resources that you have. And I know 
you agree with that. That recommendation has been emphasized 
both in your own internal studies and then the ELS study. Can 
you review ELS's findings with us briefly and the steps that 
the Department has taken to implement those recommendations? 
There is a real concern by our committee's investigative staff 
that there has been very little progress made on ELS's 
recommendations. We are aware that as of last week, the 
committee in the Capitol Police organization that was supposed 
to be implementing the recommendations hasn't met since last 
October, that there is no blueprint or time line for 
implementing the recommendations, and that the Department has 
not even developed a list of high priority items that should 
be. If you could explain why, that would be great.
    Chief Morse. Sure. The ELS was a manpower study not only to 
just decide you need this many officers and then your problems 
are over. We could not say the mission's taken care of, that is 
just not how it works. The way it works is ELS is a bigger 
conceptual thing as well, where you have to ensure the utility 
of your officers is correct. What number of hours are they 
here? What missions do you need to have? Are they threat based? 
In other words, do they get you the bang for the buck? Are your 
programs correct? Is the deployment of your people correct? All 
those things have to be examined before you can come and simply 
ask for more people. We have done a significant amount of work 
with regard to ELS. And I can submit a list which I have 
submitted or have provided to S&I of all the different levels 
of change that we have made----
    Ms. Wasserman Schultz. Do you have the priority list? 
Obviously, there are some recommendations that are more 
important than others, and there is a committee that you have. 
Why haven't they met since last October?
    Chief Morse. Well, the priorities are threat based. So we 
have done a significant amount of work. With regards to the 
committee not working or being together, that did not mean that 
we hadn't done anything. We most recently met with S&I, and I 
apologized to them personally for any misconception or 
inappropriate information that was provided, but I think that 
they were given the good work that we have done since October 
and will continue to do. There were reasons why the 
implementation group, if you will, was not meeting and that is 
water under the bridge.
    Ms. Wasserman Schultz. What were those reasons? It is not 
water under the bridge for this committee.
    Chief Morse. Right, I understand that. I am talking about 
with respect to what we were doing. This group of people could 
not meet because they had other assignments like the 
conventions, the Inauguration, et cetera. That did not mean 
that the assistant chief was not giving directions to his 
commanders and getting ELS issues resolved or giving direction 
for them to be resolved. And I continue to sign off on the 
implementation of those recommendations.
    As we reported to S&I, we believe that what is left in ELS 
are the issues that will cost money. The way we prioritize it, 
we went after all the things that did not cost money that were 
threat-based. And we have done a significant amount of work in 
that respect. Most of the things that are left will cost money 
and as we explained, we want to put that in our first 
development program where we can prioritize based on threat, 
based on need and based on budget. And that is the best area 
for that. So the group did not meet, but it wasn't necessary 
for them to meet in order for us to still accomplish our goals, 
and we, in fact, did.
    Ms. Wasserman Schultz. If you can provide to the committee 
for the record which ELS recommendations have been implemented 
up to this point and what you have remaining and a budget 
picture of what those items could cost, that would be helpful.

                              CVC SECURITY

    Mr. Aderholt. I would like to shift gears a little bit and 
ask about the CVC. It has been open for about 4 months now. One 
of the things that I was curious about was regarding any 
problems that have come on line since the CVC has been opened 
that you have encountered, because certainly it is a different 
way that people are processed through the Capitol and how they 
come in there. What is your initial impression after 4 months 
of it being open?
    Chief Morse. I think it has been a very well-run operation. 
So I would commend everyone who has built the programs and 
designed the tours and the exhibits and so forth. It is a great 
experience.
    From the police perspective, it has been a learning 
experience. We have had to screen a significant number of 
people obviously as we have expected. The numbers were very 
high. We have done a very good job of that. We do not have long 
lines. Sometimes if you get a significant number of groups at 
one time you may have some amount of wait, but for the most 
part, it has been a very smooth operation and one that many 
people have come to, and we have been keeping track of the 
numbers. There have been no significant events there. All our 
emergency evacuation procedures that we have put into place 
have been working very well in our drills. The Architect of the 
Capitol, the director of the CVC, all the employees there are 
working well together and the adjustments have been minor.
    Mr. Aderholt. So overall, you have not really experienced 
any significant problems?
    Chief Morse. I have not experienced any real problems. 
Certainly there has been a great deal of work in trying to 
anticipate what problems we may have, but for the most part, it 
is a very smooth operation and very smooth experience as 
anticipated.

                          CVC STAFFING REVIEW

    Mr. Aderholt. The budget justification states that an 
analysis will be necessary to validate the current staffing 
levels or indicate the need for adjustment. When is the CVC 
staffing review planned and when will it be complete?
    Chief Morse. Well, with respect to any staffing analysis 
that we are doing, it is not just for the CVC but overall and 
that is with respect to the study. The merger of the Library of 
Congress will certainly impact the CVC, the new visitor 
experience, the connectivity, the officers, training and such. 
So probably by the beginning of the next fiscal year, we will 
have a better idea of what our staffing levels are and how they 
are working with respect to the CVC.
    Mr. Aderholt. One thing that has been mentioned is the lack 
of signage in the CVC, that this would pose problems during 
evacuations. Just a question to you, is this an issue? And how 
do you think that it can be resolved or how you anticipate 
trying to resolve that?
    Chief Morse. The more direction that you have and some have 
talked about it here from a technology standpoint. Certainly, 
this is from a signage standpoint. The more technology you 
have, the more signage you have, the better it is.
    Where we don't have adequate signage, where we have drilled 
both live and off-line, we have anticipated where problems may 
exist and police officers are there to give clear direction. 
But the more signage that we have, the better. And certainly, 
all the considerations of signage and appearance and things 
like that have to be worked out. If you have areas that are 
difficult to get out of, it is nice to be able to have some 
level of direction.
    Mr. Aderholt. Well I think most of the problem has been 
centered around evacuation areas more than anything else.
    Chief Morse. In truth the drilling that we do, both when 
people are there and when they are not helps us decide where 
the best locations are for deployment of officers.
    Mr. Aderholt. I think that is all right now.
    Ms. Wasserman Schultz. Okay. Mr. Rodriguez.

                          CVC SECURITY SAVINGS

    Mr. Rodriguez. Let me ask you, with the new Visitors 
Center, I presume that that has happened in terms of staffing 
and that kind of--or has it? Because I think it would be more 
uniform in the way it was structured before to require less 
staffing, and maybe it is better organized? Has it saved any 
money or is it just the opposite?
    Chief Morse. Well, just going back to a little bit of 
history, there were several assumptions associated with the 
CVC, they were basically--we were assuming that this would 
happen a certain way--and this is what you will need to staff 
it, these are the hours of operation where people come through, 
et cetera. Not all the assumptions were met and when they are 
not, that sometimes increases the level of staffing and the 
results of overtime. But for the most part the staffing levels 
are----
    Mr. Rodriguez. Is it more now because of it?
    Chief Morse. We need more staffing than we probably 
originally anticipated, but that is with the change of 
assumptions. And it is not just the CVC itself, in some 
respects, there were some give-backs that would come from 
closures of doors and et cetera and buildings and tunnels that 
were staff-led and things like that. So there were some give-
backs and then there were some openings, but right now, we do 
experience a little higher level of overtime with some of the 
events and openings that occur in the facility.

                           REDUCING OVERTIME

    Mr. Rodriguez. In regards to--you mentioned the overtime 
and replacement of the 76 needed additional staff to replace 
the overtime. Would that reduce the amount of resources much 
more or do away with some of the overtime?
    Chief Morse. The 76 are for reducing overtime, and they 
would be deployed based on threats in the areas most needed.
    Mr. Rodriguez. I apologize, I didn't look at that, what 
kind of savings are we looking at in doing that?
    Chief Morse. From?
    Mr. Rodriguez. Seventy-six positions versus the overtime.
    Chief Morse. In the first year, the net cost is about $4 
million.

             NEW EMPLOYEES TO REPLACE LONG-TERM CONTRACTORS

    Mr. Rodriguez. About $4 million. You also talk about 48 
additional civilian positions, is that to replace contracts or 
other things that are out there?
    Chief Morse. Yes it is. There are going to be 21 from that 
list that are civilian positions from the Library of Congress, 
and additional that are for the Office of Inspector General. 
There are experts in the radio, and then the other remaining 
numbers are new positions that are related to administrative 
needs.
    Mr. Rodriguez. And based on because I saw something on the 
contract that said to reduce the cost also, in-house staff 
versus contracted out?
    Chief Morse. Right there is a cost savings versus 
contracting, and having administrative staff do that work.
    Ms. Jarmon. That it is about 7 of those 48 positions. There 
have been contractor issues in the workforce for some period of 
time and these are to replace some of the longer term 
contractors.

                     COUNTER SURVEILLANCE POSITIONS

    Mr. Rodriguez. You mention 13 additional positions to do 
countersurveillance. Is that something we are not doing?
    Chief Morse. No. We do have a countersurveillance program. 
The 13 are a recommendation of the ELS study and it is our 
effort to enhance our capability in that area for better 
coverage.
    Mr. Rodriguez. Is that immediately right now that you are 
looking at or long term in terms of these decisions?
    Chief Morse. Those are long-term decisions.
    Mr. Rodriguez. Thank you.
    Ms. Wasserman Schultz. Thank you. Mr. Cole.
    Mr. Cole. Thank you, Madam Chairman. First of all, I 
neglected in my first round of questions just to tell you how 
much I appreciate what you do and certainly my staff does and 
how many wonderful compliments we get back on the 
professionalism and courtesy of your force with my 
constituents.

                   COUNTERPARTS FROM OTHER COUNTRIES

    Second just an odd question, but what you do is obviously 
very unique, there are not a lot of police forces charged with 
the Capitol's protection. Are there counterparts? You have 
counterparts in London and Paris and other great capitals who 
have comparable kinds of security concerns and threats that we 
would have here. And if so, do you have any kind of 
communication with them on best practices?
    Chief Morse. We do, we have had many come visit us. Not 
only in the United States, but from countries overseas. And we 
have talked about the similarity and uniqueness of our job. A 
lot of these other counterparts in London for instance you have 
a parliament, the Canadian parliament looks to us for the types 
of security measures that we take to protect our facilities and 
we certainly are interested in theirs. And next month, as a 
matter of fact, I am expecting a visit from one of our 
counterparts. So we routinely talk and interact on similar 
issues.
    Mr. Cole. Do you pick up regular information just in terms 
of technology, or again, things that other people are doing?
    Chief Morse. We do both, and they certainly have a 
different environment because of the nature of the threat in 
their countries. So there is more significant or immediate 
attention to acts that have already occurred in some cases, 
which they have to protect against. So we have learned a lot 
from them, but I think they have also learned a lot from us.
    Mr. Cole. I know we don't have how much time, thank you 
very much.
    Ms. Wasserman Schultz. Thank you. I just want to let the 
Members know and GPO as well that we are not going to have time 
to do the GPO portion of the hearing today, so we will ask them 
to come back another day. There are a number of other questions 
that we need to review carefully with the police.

                     OVERTIME USE DURING CORE HOURS

    I want to go back and focus on overtime a little bit more.
    Our S&I staff has told us that 90 percent of the overtime 
that you use is during core business hours, Monday through 
Friday, not nights, weekends and special events. Is 90 percent 
of overtime appropriate for core operations, not unpredictable 
needs?
    Chief Morse. Yes, during the core mission hours that is 
when everything happens, that is when the demonstrations occur, 
it is when the special events occur, it is when we have joint 
meetings of Congress, the President comes, the vice president, 
there is a multitude of things that happen during the core 
business hours.

                         FLAWED STAFFING MODEL

    Ms. Wasserman Schultz. Can I just review a few specifics 
with you and have you respond? I understand you had the 
Inauguration, you have had some unpredictable demands, but in 
fiscal year 2007, you had 2,085 FTEs and used $2.2 million for 
overtime. In your 2010 budget, you propose a staffing level of 
2,369 FTEs, which is an increase of almost 300, and a 15 
percent increase in the size of the force over a 3-year period. 
In spite of that, your 2010 request for overtime is $22.4 
million, which is actually above the 2007 level. So you go up 
300 FTEs, a 15 percent increase in 3 years, and you still need 
the same amount of overtime.
    I would expect that you would plan for the number of 
officers and hours that you need without needing to have such a 
significant amount of overtime. We have capped overtime before 
in the reports and we can cap it in the report or in the bill. 
I am close to considering doing that because I am just not 
comfortable that you have planned for the amount of officer 
time you need. One of the ELS study findings is that you seem 
to significantly overstate the number of hours in which an 
individual officer is actually available to stand post. How are 
you addressing that?
    Chief Morse. Well, the 300 increase, I guess, we need to 
break that out first. That is about 150 police officers from 
the Library of Congress and the CVC--I'm sorry, I will get it 
down in a second, so many numbers.
    Ms. Wasserman Schultz. I know.
    Chief Morse. I had it here in my book if you will just give 
me a second, I will see if I can find it.
    Ms. Wasserman Schultz. Sure.
    Chief Morse. But of the 300, there are Library of Congress 
officers, there are about 30 CVC officers and the 89 that we 
are requesting. So those are for increased mission sets. The 
officers that are coming over from the Library of Congress 
police and then the 89 that we requested. Seventy-six of the 89 
are to decrease overtime so we won't see that benefit until it 
comes.
    There are missions that we have, for instance, that are not 
funded, that we are taking a look at because we don't want to 
come to the committee and ask for more people when, in fact, we 
are about to use technology to decrease those numbers. That is 
the situation with our truck interdiction program, when I 
became chief the ability to stop trucks--as an example--was not 
there, it was not manned. It was a situation where the threat 
had to come to us. We would not have been able to anticipate 
it.
    Well, we staffed that, but I wouldn't ask for more people 
for that because I know that I am getting ready to use 
technology to decrease the number of people that we use at the 
trucks interdiction posts and put them back into the system. 
That is an example of how a little more complicated this is and 
what we are doing to reduce overtime.
    We have also--based upon ELS and some of the work we have 
done since October--audited one of our programs which has 
actually yielded us a decrease in the number of people that we 
need and has enhanced our ability to protect the campus. So we 
are doing it from both ends.

          OVERTIME AND THE UTILITY OF OFFICERS TO STAND POSTS

    Ms. Wasserman Schultz. But what about the specific finding 
that you are overestimating the amount of hours that one 
officer can stand post?
    Chief Morse. Right. I will try to get the numbers right. If 
they are not right, I will correct them later.
    Ms. Wasserman Schultz. Okay.
    Chief Morse. There is a utility number which we have used 
1656, which is derived from an OPM standard. There is an ELS 
utilization number which is 1560. The ELS study is an average 
of what we do, what our people do, the availability of our 
people. They may not be like other Federal agencies' numbers 
but we have averaged our sick leave over the past 3 years and 
we averaged our training over the past 3 years. We averaged 
other calculations in there to get our utility number.
    Now, there is another area that we are working on in our 
Training Services Bureau. To show you how all of this works 
together, we are cleaning up the Training Services Bureau with 
all the recommendations that were made from a study. As a part 
of that process we may derive a different training number than 
the one that currently exists because we are updating our 
standard training protocols, what is mandatory, what isn't--
certification and such. Therefore, the 80 hours which is 
averaged in there, it may be more and it may be less. The 
reason for the difference is that we were using our numbers and 
our averages, not a previous standard.
    Ms. Wasserman Schultz. And you say for your purposes your 
numbers are more accurate?
    Chief Morse. I think for our purposes they are more 
realistic for a utility of our police officers.
    Ms. Wasserman Schultz. If you need all that overtime then 
there seems to be a disconnect between your predictability on 
the number of hours assigned to each officer and what 
realistically you need them for.
    Chief Morse. Well, there are a number of variables. And the 
Assistant Chief, let me have the Assistant Chief just jump in 
here, because the chief of operations has the responsibility to 
control and maintain overtime.
    Ms. Wasserman Schultz. Okay.
    Chief Morse. Dan, if you want.
    Asst. Chief Nichols. Thanks. There are a lot of moving 
pieces. You talk about the overall FTE number, of that overall 
number there are only about a thousand officers that actually 
work the core mission, the posts that drive the overtime. What 
we know from that our posts, our current mission set exceeds 
our staffing level, that is what is driving the overtime. So 
obviously, if we had more officers we would decrease overtime 
because we are operating at a level that is higher than our 
current staffing level, that is one primary factor regarding 
overtime. Add unpredictables, special events and things of that 
nature, we don't have enough for our mission. So we have to 
meet that through overtime because we have to meet the mission 
set. So we have to make sure we are talking about apples and 
apples. Those are about a thousand officers who work that 
amount of overtime.
    The other issue that we found as we started looking at our 
utility number, we were assuming the utility number was higher, 
which means we thought we were actually getting more workload 
out of every officer than we were, which means that we were not 
correctly anticipating the overtime that we would need. Then 
invariably--because we weren't meeting that utility--we were 
driving more overtime.
    So when we drive down to a more realistic number for what 
our utility actually is, how many work hours do we actually get 
out of an officer, out of a full year of 2080, now we are 
starting to realize where we really need to be and we are 
driving toward that. You compare that by the fact that we have 
officers who have very significant training requirements that 
are even off-line more than the standard officer. When we are 
using that standardized number across the board we found that 
that wasn't adequate.
    What we are trying to do is realize all of those functions 
at the same time. And as I said before it is like trying to 
repair a car you are driving down the road at 75 miles an hour, 
we can't just turn things off. But we are making a very 
diligent effort to get to where we need to be and be 
transparent with the committees so that you understand the 
numbers. And I would admit that in the past, even when I came 
on as assistant chief, there were numbers that I didn't quite 
understand.
    Ms. Wasserman Schultz. Great. Mr. LaTourette.

                    COLLECTIVE BARGAINING AGREEMENT

    Mr. LaTourette. I have one question for my own educational 
purposes and a question, if the chairwoman has asked it already 
about overtime, I apologize, and just tell me to shut up and I 
will move on to an observation. Are members of your department 
subject to the collective bargaining agreement?
    Chief Morse. Yes, sir.
    Mr. LaTourette. What union do they belong to?
    Chief Morse. Fraternal Order of Police, we have the 
Teamsters for our civilians.
    Mr. LaTourette. So on the question of a person who starts 
as a new rookie officer at $57,000, that is pursuant to the 
terms of your collective bargaining agreement?
    Chief Morse. No, the collective bargaining agreement--
    Mr. LaTourette. That is wages and benefits?
    Chief Morse. They do not negotiate for benefits or pay, 
only working conditions.

                            OVERTIME SAVINGS

    Mr. LaTourette. Okay, thank you very much. The question 
that the chairwoman may have asked is about 89 new officers 
that you requested. My question would be if you take $57K and 
then $14,000 average on overtime is the goal by bringing on 
these 89 new officers to reduce that $14,000 average?
    Chief Morse. Yes. The 76 is a chunk to reduce overtime. The 
remaining 13 is a mission enhancement to address a threat.
    Mr. LaTourette. So based upon the modeling that you have 
done, if these 89 new officers are approved and 70-some go to 
reducing overtime, you would expect to be back here in a couple 
of years and not talking about $14,000 average overtime for 
your officers?
    Chief Morse. Right. We would hope that as we apply the ELS 
concept to everything that we are doing, which we are doing and 
realigning, readjusting, load leveling hours of operations 
change, et cetera that we are doing, that we will be able to 
incrementally increase with justification the size of the force 
to decrease the amount of the overtime that we spend, minus the 
unpredictable.

                        CAPITOL POLICE COURTESY

    Mr. LaTourette. The last thing is an observation. I don't 
like to make anecdotal observations, but I continue to hear 
from my colleagues that the staff is kind of being not well 
treated by not only the CVC staff, but some of the officers on 
staff-led tours. And I push back to my staff and say, well, 
they are always nice to me. And they say, of course they are 
nice to you, you are the Congressman. But a number of examples 
just from the Ohio delegation that members of their staff, I 
don't know if it has happened to mine, have been berated by 
some folks. And you are not doing it, but it is tough, and so 
just at roll call or whatever, if you could just remind anybody 
who might be engaged in that kind of activity that constituent 
services are an important part of what all of us do, I would 
appreciate it.
    And if I come up with a specific example I would be happy 
to get that information to you so we can call out if it is one 
guy that is just a jerk, and we will deal with that. But I 
continue to hear it and it is disquieting, because that is an 
important part of the excitement of coming to Washington is 
people are going to the Capitol.
    Chief Morse. I appreciate that. And that is the core value 
of our police department, so if you ever have an issue, please 
bring it to my attention and I will take immediate action and 
correct it.
    Ms. Wasserman Schultz. Mr. Aderholt.
    Mr. Aderholt. Let me follow up on that since Mr. LaTourette 
has brought it up. There have been times when the same thing 
has happened with some members, maybe only a handful of them, 
but when they are taking constituent groups through the 
Capitol, including my constituents when my staff have carried 
them through. There have been times I think the officers have 
been a little bit heavy handed in trying to get the message 
across that you are not supposed to be here. It is sort of 
embarrassing in front of your constituents. If you, again, as 
Mr. LaTourette asked, could just remind them it is important to 
us and it reflects on us because it looks like our staff has 
done something wrong. So be mindful of that, I don't know it is 
a problem with the entire force, I think it is probably you 
have a handful of people there that sometimes like to show 
their authority and they sometimes take it to an extreme.
    Chief Morse. Thank you.
    Mr. Rodriguez. I was just going to say it is not bad when 
they call your mother-in-law.
    Mr. LaTourette. Nothing has ever happened to me with the 
police department, it has been brought to my attention that 
some people----

                        CONDUCT OF USCP OFFICERS

    Ms. Wasserman Schultz. Before we conclude I just want to 
give you an opportunity to comment on the story in The 
Washington Times today. The allegation is that there are 7 or 
so officers that were participating in a Facebook group that I 
won't repeat, but that is perceived by me being a woman as 
hostile towards women. Certainly people can participate in 
activities of their own choosing on their own time, but when 
you are a law enforcement officer, there are a certain amount 
of those decisions that you give up your right to make because 
you need to maintain the appropriate appearance of a law 
enforcement officer. Their alleged participation in that 
Facebook group makes me concerned about their attitude or the 
environment for women as it exists in the Capitol Police force, 
because people don't just leave those attitudes in Facebook 
groups, they carry them in to work and in their personal lives.
    I know the article said that you have opened an 
investigation, but I just wanted to give you an opportunity to 
comment on that because it is concerning.
    Chief Morse. It is very concerning to me to have an 
allegation like that surface about the United States Capitol 
Police when certainly we don't condone any of that. As Chief, I 
think everybody knows since I have been Chief, I have held 
people to a very high standard. We have the proper rules of 
conduct and core values that our employees have embraced and 
followed. If there are people who do not embrace our core 
values and who do not follow the rules of conduct, then we deal 
with them very seriously and very quickly. The police 
department has opened an investigation. Once we received the 
anonymous letter that was provided to the Times, we opened an 
inquiry immediately in our Office of Professional 
Responsibility. We will investigate it vigorously. And if we 
find any misconduct, we will deal with it very swiftly and very 
seriously. We appreciate your comments and certainly the men 
and women of the Capitol Police do not condone this type of 
conduct either.

                  ADDITIONAL ASSIGNMENT FROM THE CHAIR

    Ms. Wasserman Schultz. Thank you very much.
    As we wrap up, the homework that I will assign relates to 
the fact that you have been trying to identify for a number of 
years in the Capitol Police your optimal staffing level. And I 
know you have made progress. The purpose of that is to reduce 
the amount of overtime that you use and better secure the 
Capitol complex. That is an important goal that we need to 
reach because staffing costs are a large driver of your annual 
requests. And I think there is an outstanding concern about the 
amount of overtime that you need and with better planning, 
would that still be necessary? So I will be providing you with 
a set of questions for the record related to staffing the 
Department and how you plan to get to the right size force. And 
if you could provide answers to those questions no later than 
next Friday, May 1st, I would appreciate it.
    Mr. LaTourette. May I ask just one question? How many 
dispatchers do you have, do you know?
    Asst. Chief Nichols. I believe it is 21, but I will have to 
get that for you, sir.
    Mr. LaTourette. That is it, thank you.
    Ms. Wasserman Schultz. Thank you. With that the committee 
stands in recess until tomorrow, 2:00 p.m., when we will hear 
from the Architect of the Capitol. Thank you.
[GRAPHIC] [TIFF OMITTED] T0439A.010

[GRAPHIC] [TIFF OMITTED] T0439A.011

[GRAPHIC] [TIFF OMITTED] T0439A.012

[GRAPHIC] [TIFF OMITTED] T0439A.013

[GRAPHIC] [TIFF OMITTED] T0439A.014

[GRAPHIC] [TIFF OMITTED] T0439A.015

[GRAPHIC] [TIFF OMITTED] T0439A.016

[GRAPHIC] [TIFF OMITTED] T0439A.017

[GRAPHIC] [TIFF OMITTED] T0439A.018

[GRAPHIC] [TIFF OMITTED] T0439A.019

[GRAPHIC] [TIFF OMITTED] T0439A.020

[GRAPHIC] [TIFF OMITTED] T0439A.021

[GRAPHIC] [TIFF OMITTED] T0439A.022

[GRAPHIC] [TIFF OMITTED] T0439A.023

[GRAPHIC] [TIFF OMITTED] T0439A.024

[GRAPHIC] [TIFF OMITTED] T0439A.025

[GRAPHIC] [TIFF OMITTED] T0439A.026

[GRAPHIC] [TIFF OMITTED] T0439A.027

[GRAPHIC] [TIFF OMITTED] T0439A.028

[GRAPHIC] [TIFF OMITTED] T0439A.029

[GRAPHIC] [TIFF OMITTED] T0439A.030

[GRAPHIC] [TIFF OMITTED] T0439A.031

[GRAPHIC] [TIFF OMITTED] T0439A.032

[GRAPHIC] [TIFF OMITTED] T0439A.033

[GRAPHIC] [TIFF OMITTED] T0439A.034

[GRAPHIC] [TIFF OMITTED] T0439A.035

[GRAPHIC] [TIFF OMITTED] T0439A.036

[GRAPHIC] [TIFF OMITTED] T0439A.037

[GRAPHIC] [TIFF OMITTED] T0439A.038

[GRAPHIC] [TIFF OMITTED] T0439A.039

[GRAPHIC] [TIFF OMITTED] T0439A.040

[GRAPHIC] [TIFF OMITTED] T0439A.041

[GRAPHIC] [TIFF OMITTED] T0439A.042

[GRAPHIC] [TIFF OMITTED] T0439A.043

[GRAPHIC] [TIFF OMITTED] T0439A.044

[GRAPHIC] [TIFF OMITTED] T0439A.045

[GRAPHIC] [TIFF OMITTED] T0439A.046

[GRAPHIC] [TIFF OMITTED] T0439A.047

[GRAPHIC] [TIFF OMITTED] T0439A.048

[GRAPHIC] [TIFF OMITTED] T0439A.049

[GRAPHIC] [TIFF OMITTED] T0439A.050

[GRAPHIC] [TIFF OMITTED] T0439A.051

[GRAPHIC] [TIFF OMITTED] T0439A.052

[GRAPHIC] [TIFF OMITTED] T0439A.053

[GRAPHIC] [TIFF OMITTED] T0439A.054

[GRAPHIC] [TIFF OMITTED] T0439A.055

[GRAPHIC] [TIFF OMITTED] T0439A.056

[GRAPHIC] [TIFF OMITTED] T0439A.057

[GRAPHIC] [TIFF OMITTED] T0439A.058

[GRAPHIC] [TIFF OMITTED] T0439A.059

[GRAPHIC] [TIFF OMITTED] T0439A.060

[GRAPHIC] [TIFF OMITTED] T0439A.061

[GRAPHIC] [TIFF OMITTED] T0439A.062

[GRAPHIC] [TIFF OMITTED] T0439A.063

[GRAPHIC] [TIFF OMITTED] T0439A.064

                                          Thursday, April 23, 2009.

                        ARCHITECT OF THE CAPITOL

                               WITNESSES

STEPHEN T. AYERS, AIA, ACTING ARCHITECT OF THE CAPITOL
TERRIE S. ROUSE, CEO FOR VISITOR SERVICES FOR THE CAPITOL VISITOR 
    CENTER, ARCHITECT OF THE CAPITOL

            Opening Remarks on AOC--Chair Wasserman Schultz

    Ms. Wasserman Schultz. Good afternoon. I would like to call 
this hearing of the Legislative Branch Subcommittee of the 
House Committee on Appropriations to order. We have a two-part 
hearing today. First we will hear from the acting Architect on 
the Architect of the Capitol's FY 2010 budget request. And then 
we will hear from Dr. Elmendorf on the Congressional Budget 
Office's budget request.
    So we will begin with the exciting accomplishments that we 
have been through in the last several months. Mr. Ayers, your 
agency is requesting $645 million next year. That is a 22 
percent increase, following on the 28 percent increase from 
last year that we were able to grant you. And those are large 
increases. But let me just say that I completely understand why 
you are asking for that kind of an increase, given the backlog 
of deferred maintenance and the programs and projects that you 
are responsible for. In spite of that, though, we are not 
expecting, although I am certainly hopeful, that we will have 
quite as large an allocation as we did last fiscal year. But I 
am going to continue to urge the Chairman to consider how much 
of a backlog we have, particularly in light of the Architect of 
the Capitol's needs. We also have a big energy reduction 
requirement that we are very focused on moving forward on.
    I basically want to hear from you, as we always do on, what 
your top priorities are and make sure that we understand the 
order that we need to consider your top priorities and go 
through the got-to-haves versus the nice-to-haves, although I 
know increasingly we have fewer and fewer nice-to-haves and we 
have a whole lot of got-to-haves in the Architect of the 
Capitol's budget.
    I know one of those is the impending renovation of the 
Cannon Building, which is 100 years old. We have a 
deteriorating--I am sure Mr. Ayers will cover it--but we have a 
deteriorating garage, and all the garages are deteriorating, 
but we will really risk having the building become unusable if 
we don't start addressing the renovations of the garage. So we 
have some tough choices that we are going to have to make.
    And I also want to make sure that we go over the operating 
budget of the Capitol Visitor Center. At the end of the day, we 
need to make sure that we can preserve the legacy of the 
infrastructure that we have and make sure that it is preserved 
for generations to come.
    So with that, Mr. Aderholt, do you have any opening 
remarks?

              Opening Remarks on AOC--Congressman Aderholt

    Mr. Aderholt. I join you in welcoming Mr. Ayers. Thank you 
for being here and thank you for your work that you do as the 
Architect of the Capitol, and your staff. And as I have 
mentioned to you before, this subcommittee is new to me, but I 
have enjoyed being on it the last few months since the 
beginning of the 111th Congress. I quickly came to understand 
the vast challenges you have as Architect of the Capitol and 
all those that are under your leadership. So I look forward to 
your testimony and look forward to working with you.

                          SPECIAL RECOGNITION

    Ms. Wasserman Schultz. And do you have a special 
introduction?
    Mr. Aderholt. Yes I do. I have my daughter with me today, 
Mary Elliott. Today, as some of you all may not know, is go to 
work with your----
    Ms. Wasserman Schultz. Take our daughters and sons to work 
day.
    Mr. Aderholt. And she reminded me of that last night and so 
here she is today. And in addition to that, it is her tenth 
birthday today. So she is celebrating her tenth birthday as 
well.
    Ms. Wasserman Schultz. And my son is here as well, but he 
is right now wrapped up with the national championship Gator 
football team. It was a really difficult decision, Gators or 
Legislative Branch Subcommittee hearing. It was a tough call. 
So I told him I was a little bit hurt.
    Mr. Aderholt. He made the right choice, Madam Chair.
    Ms. Wasserman Schultz. With that, Mr. Ayers, your statement 
will be entered for the record. Please proceed with a 5-minute 
summary. Welcome.

                    Opening Statement--Stephen Ayers

    Mr. Ayers. Thank you and happy birthday, Mary Elliott.
    Madam Chair and Congressman Aderholt, I thank you for the 
opportunity to testify today regarding our fiscal year 2010 
budget request. And of course joining me at the table is Terrie 
Rouse, our Chief Executive Officer for Visitor Services.
    I would like to first thank the Chair and the entire 
subcommittee for the support in our 2009 budget, and that 
increase that the Chair talked about will go a long way in 
making the Capitol Complex safer, greener and more efficient.

                          AOC ACCOMPLISHMENTS

    It has been an extraordinary time here in the Capitol 
Building as we once again serve as the Nation's stage. On 
December 2 we opened the doors to the new Capitol Visitor 
Center and, just 6 weeks later, hosted the historic 56th 
Presidential Inauguration. As we worked to accommodate the 
inaugural, we stayed true to our daily mission to protect and 
preserve the national treasures entrusted to our care. To do 
this effectively, we must continually manage the backlog of 
deferred maintenance and capital renewal projects, and we have 
to put in place a process by which to prioritize these 
projects.
    Not only do we face the challenge of maintaining aging 
buildings, we also need to keep pace with new building 
technology as well as increased security requirements. We must 
look forward, prioritize and plan for the leading edge of new 
requirements and eliminate surprises in our budgets.

                  FY 2010 BUDGET REQUEST AND PLANNING

    Madam Chair, as you noted, we are requesting $644 million 
in fiscal year 2010, and we again utilized our overarching 
program development process in structuring this budget request. 
Throughout this process, we assess a project's requirements, 
determine the best way to implement this project, prioritize 
all of the projects to assure that those with the greatest 
urgency are addressed first.
    We also took into consideration the need for fiscal 
restraint and the challenge of executing the required programs 
efficiently throughout this process.
    Our assessments continue to show that immediate and high-
urgency deferred maintenance and capital renewal projects will 
increase dramatically over time. If these conditions are not 
addressed, they will continue to deteriorate to the point where 
they can and will impact congressional operations.

                  ENERGY AND ENVIRONMENTAL INITIATIVES

    We are also aggressively working to reduce the Capitol 
Complex's overall energy consumption and environmental 
footprint. In fiscal year 2008, energy conservation efforts 
resulted in reducing the Congress' energy consumption by 10.7 
percent, exceeding the fiscal year 2008 goal of 9 percent. This 
is the third year in a row that Congress has met their energy 
reduction goals. While this is significant in the Capitol 
Complex, the hard work is yet to come on our energy reduction 
goals.
    To better identify and evaluate energy-saving 
opportunities, we use energy audits. We are also implementing 
energy savings performance contracts, which we continue, and we 
continue to purchase renewable energy credits. In addition, we 
are installing energy meters across the Capitol Complex to 
better measure energy consumption. Because the Capitol power 
plant plays a critical role in our long-term strategy, we are 
continually working to improve and upgrade operations there. We 
anticipate achieving a fuel ratio of 75 percent natural gas and 
25 percent coal for this fiscal year. This significant decrease 
in coal use compared to fiscal year 2008 will reduce carbon 
dioxide levels by 6,700 tons.

                   FY 2010 OPERATIONS BUDGET REQUEST

    Our 2010 annual operating budget request for $423 million 
provides funding for continuing the routine activities of 
operating and maintaining the infrastructure which supports the 
Congress and other leg branch agencies. This request also 
focuses on management and caring for the AOC workforce, our 
greatest asset.
    Another asset in our portfolio is the Capitol Visitor 
Center. And as you know, in 2010, construction costs are no 
longer part of the CVC budget. We are requesting $24.6 million 
for CVC operations and administration. Since December 2nd, we 
have successfully welcomed guests to the Capitol. And to date, 
more than 800,000 visitors have enjoyed the CVC's amenities and 
exhibits since we opened the doors on December 2nd.
    We are committed to being good stewards of the Capitol 
Complex, and in that regard we have accomplished much and had 
many successes this last year. Our achievements are directly 
attributable to the talented and dedicated professionals that 
make up our team. It is really an honor for me to work 
alongside them day in and day out.
    That concludes my statement, Madam Chair. Ms. Rouse and I 
are happy to answer any questions the subcommittee may have.
    [Mr. Ayers' prepared statement follows:]
    [GRAPHIC] [TIFF OMITTED] T0439A.065
    
    [GRAPHIC] [TIFF OMITTED] T0439A.066
    
    [GRAPHIC] [TIFF OMITTED] T0439A.067
    
    [GRAPHIC] [TIFF OMITTED] T0439A.068
    
    [GRAPHIC] [TIFF OMITTED] T0439A.069
    
    [GRAPHIC] [TIFF OMITTED] T0439A.070
    
    [GRAPHIC] [TIFF OMITTED] T0439A.071
    
    [GRAPHIC] [TIFF OMITTED] T0439A.072
    
    [GRAPHIC] [TIFF OMITTED] T0439A.073
    
    [GRAPHIC] [TIFF OMITTED] T0439A.074
    
    [GRAPHIC] [TIFF OMITTED] T0439A.075
    
    [GRAPHIC] [TIFF OMITTED] T0439A.076
    
    [GRAPHIC] [TIFF OMITTED] T0439A.077
    
    [GRAPHIC] [TIFF OMITTED] T0439A.078
    
    [GRAPHIC] [TIFF OMITTED] T0439A.079
    
                          DEFERRED MAINTENANCE

    Ms. Wasserman Schultz. Thank you very much, Mr. Ayers. 
Based on your statement and what we allocated for you last 
year, I know we went a significant way into the backlog of 
deferred maintenance projects. And I also know that there is a 
lot more to do. And I know our infrastructure challenges are 
significant and every year more are added, more is added to 
that list. So it is really important that we start to try and 
shrink the list.
    What is the long-term solution to this problem? I know you 
gave us that bow wave chart that suggests a much larger base 
budget is needed. If you receive a large boost in your base 
funding, would you be able to execute it without causing 
construction fatigue? How much should we really be funding you 
to chew off those priorities?
    Mr. Ayers. Well, if you recall that bow wave chart, in the 
middle of that chart is a gray bar. That gray bar represents an 
investment in maintenance or deferred maintenance and capital 
renewal projects.
    Ms. Wasserman Schultz. That would be above the line and 
below the line?
    Mr. Ayers. Correct. And I must admit, in the legislative 
branch our work in our budgeting process is unique. In most 
facility management organizations, we really don't submit 
projects line by line for deferred maintenance and capital 
renewal work. It is simply one number; this is your maintenance 
budget. Typically that number is 2 to 4 percent of your plant 
value.
    Today, we invest less than 1 percent in our plant value. So 
that bar, you will see, gets us up to--we budgeted at the 2 
percent and escalated that for inflation over time. So we think 
that is the right number. That has been studied ad nauseam by 
the Federal Facilities Council and others.
    Ms. Wasserman Schultz. Would your budget request get you 
there? The budget request that you submitted now, would that 
get you to 2 percent?
    Mr. Ayers. No, it would not.
    Ms. Wasserman Schultz. Where would it get you?
    Mr. Ayers. I don't know the percentage, but I will get that 
for the record.
    [The information follows:]

    Question. Regarding deferred maintenance and capitol renewal, if 
funding at 2 to 4 percent of the plant value is the industry-
recommended standard, what percentage is reflected in the AOC's Fiscal 
Year 2010 budget request? At what pace should Congress be funding the 
AOC? What do we need to get there, taking into account items such as 
construction fatigue and ability to execute?
    Response. The AOC's Fiscal Year 2010 Line Item Construction Program 
request includes $105.56 million in Deferred Maintenance (DM) and 
$20.09 million in Capital Renewal (CR). This total of $125.65 million 
in Deferred Maintenance and Capital Renewal is less than two percent of 
the replacement value of the facilities that the AOC maintains.
    The AOC has implemented a robust planning and investment Program 
Development Process that includes the Facility Condition Assessments, 
Capitol Complex Master Plan, the Five-Year Capital Improvements Plan, 
and the Line Item Construction Program prioritization process. The AOC 
has completed Facility Condition Assessments on nearly all major 
facilities. These Facility Condition Assessments catalog the existing 
condition of each facility, assign an urgency rating based on the 
required timing for repair or replacement, and provide an initial cost 
estimate. The AOC's Capitol Complex Master Plan and the Five-Year 
Capital Improvements Plan provide overarching roadmaps for successful 
future planning. Currently, the Capitol Complex Master Plan is in 
various states of stakeholder review, and the Five-Year Capital 
Improvements Plan is in draft. These tools will enable the AOC to plan 
timely construction efforts, and develop appropriate and cost effective 
solutions, while preventing system breakdowns and outages.
    In addition, the AOC is performing a comprehensive study to develop 
reinvestment strategies under various funding and cost scenarios. As 
part of this study, the AOC is re-examining execution capability and 
construction fatigue to ensure that the AOC continues to request 
integrated budgets that maximize facility maintenance while minimizing 
the impact to Congress, staff, and the public.

    Ms. Wasserman Schultz. I interrupted you. I am sorry.
    Mr. Ayers. That was it. Let me add, if I could, obviously 
it takes funding to do that, and we are considering lots of 
options. You will see in our legislative proposals we are 
trying to find some unique ways to get money to return back to 
the Architect's Office; for example, when we lease facilities 
to others, which we have a couple of those, we are looking for 
flexibilities to get that money to return to us.
    We have considered fee-for-service kind of operations. I 
don't think that will work in the Congress. We are looking at a 
variety of public-private partnerships to leverage that. There 
is certainly some viability there, but I think we all know the 
cost of money in entering into those agreements is significant. 
In the long term, obviously, you pay far more than you would 
with appropriated dollars up front.

                     CAPITOL COMPLEX--STATUS UPDATE

    Ms. Wasserman Schultz. Can you just walk us through the 
current condition of the Capitol Complex? What facilities are 
in the most dire straits, and what are in particularly good 
shape, and how are we prioritizing the backlog?
    Mr. Ayers. Sure. One of the great tools that we put in 
place to do that in recent months is, what we call, a Facility 
Condition Index, and this comes out of the body of research on 
facilities as well. That is the ratio of the amount of deferred 
maintenance compared to the replacement value of your building. 
And that equation gives you a number, that number equates to a 
chart that you will see there: The buildings are in poor, fair 
or good or excellent condition. We have included that chart in 
our budget binder.
    The worst facilities you will see on that chart are the the 
Summer House Grotto on Capitol grounds. You will see the East 
and West House Underground Garages. You have to do no more than 
walk into those buildings to understand how deteriorated they 
are. The Cannon Building, that group of buildings is towards 
the poor end of the scale. Obviously the newer buildings are on 
the better end of that scale.

                       CANNON BUILDING RENOVATION

    Ms. Wasserman Schultz. What is the plan for the Cannon 
Building renovation? Your budget calls for design funding of 
the renovations of Cannon, right?
    Mr. Ayers. Yes it does.
    Ms. Wasserman Schultz. And what year would the Cannon 
renovations begin if we stay on the track of the plan?
    Mr. Ayers. Let me clarify that. Actually we have requested 
$5 million in our 2010 budget for the planning process.
    Ms. Wasserman Schultz. Right.
    Mr. Ayers. After that we will go into the design process. 
We have not requested money for that. I think that is a really 
important lesson learned from the Capitol Visitor Center is 
that the success of any job like that is going to lie on how 
well your plan is laid out and how well you have defined the 
scope of the project up front. So I think it is really 
important that we spend the time and money up front to do that. 
After that we go into the design process, and ultimately we 
think construction would start no earlier than 2014 and likely 
last 4 to 5 years.
    Ms. Wasserman Schultz. Okay. That is just for Cannon. My 
time has expired. Mr. Aderholt.

                         PROJECT PRIORITIZATION

    Mr. Aderholt. I want to follow up with the Cannon Office 
House Office Building question. I think it is labeled as a 
high-urgency renewal design project. What goes into those 
decisions as far as making it a high-urgency designation?
    Mr. Ayers. As we prioritize projects, we look at project 
importance. That is made up of energy conservation measures, 
mission and statutory requirements, life-safety and code 
requirements. Then we also look at the condition of the 
building. That condition comprises the dollar value of deferred 
maintenance. Deferred maintenance is something that is already 
broken but is yet to be fixed.
    So Cannon Building, for example, has about $40 million in 
deferred maintenance and another $90 million in capital 
renewal, which means if you don't invest in that capital 
renewal within 2 years it becomes--it breaks and becomes 
deferred maintenance. So basically the dollar value of things 
that are broken and things that are about to break goes in to 
determine whether it is an immediate requirement, high urgency, 
medium urgency or low urgency.
    Mr. Aderholt. I have always been in the Longworth Building 
so I have never actually been in----
    Ms. Wasserman Schultz. I am in Cannon.
    Mr. Aderholt. What are the main concerns? Do you have 
Member complaints about things or is it just more of the 
structural aspect of the building that you are concerned about?
    Mr. Ayers. We don't have many Member complaints other than 
maybe the windows are leaky and drafty and inefficient. But 
other than that we don't have significant Member complaints. 
Our staff does a really good job at keeping the building 
looking good. It is really the work behind the scenes and the 
infrastructure behind the scenes that has not been renovated in 
70 years or 80 years. The mechanical systems, the roof drains, 
the plumbing and electrical systems throughout the building are 
really what need to be repaired. Similarly, the exterior stone 
is in serious need of repair as well.

                             BARTHOLDI PARK

    Mr. Aderholt. One last question, I just want to touch base 
with you about the Bartholdi Park. What is the current 
situation there with the fountain, and what do we expect to see 
on that and when that will be completed?
    Mr. Ayers. The fountain, of course, has been removed and 
taken to a foundry to be repaired and restored. And I get, 
regularly, photographic updates from the founder, and that 
renewal process is moving along apace. We are currently 
repairing the concrete basin of the fountain now and expect 
that work to be done in about 1 year. Then the fountain comes 
back. So I think it is about 18 months before it is all up and 
back in operation.
    Mr. Aderholt. So in 18 months, or about approximately 2 
years, it should be functioBartholdining again?
    Mr. Ayers. Yes, sir.
    Mr. Aderholt. Great. That is all I have.
    Ms. Wasserman Schultz. Mr. Cole.

                         BUILDING INFESTATIONS

    Mr. Cole. Thank you, Madam Chair. Just from the sublime to 
the distasteful, can you give me an update on the rodent 
population? I just know, we moved from Cannon to Rayburn, and I 
thought the rodent situation would get better than it has. So I 
am just curious what we do and are not doing in that regard.
    Mr. Ayers. I must admit I am completely unaware there is a 
rodent problem. Is that what you said?
    Ms. Wasserman Schultz. Do you mean rats?
    Mr. Cole. Yes. Rats and mice. We found six in our office so 
far. That seemed to be an unusually high level.
    Mr. Ayers. I would agree. That is an unusually high level, 
certainly, and it is our responsibility for pest control and 
rodent control as well, and obviously we are going to have to 
redouble our efforts there.
    Mr. Cole. So far it has been good. They have hung around 
the staff office. We have preserved the inner sanctum pretty 
well. But we would like a visit with you about that item. No 
further questions.

                             CVC OPERATIONS

    Ms. Wasserman Schultz. Just a couple of things I wanted to 
ask you about. First of all, I am thrilled that there is not a 
request for funds for construction of the Capitol Visitor 
Center, that we actually are done funding the construction of 
the Capitol Visitor Center and we stuck to the $621 million 
figure. So that was really exciting.
    On the operational side of the Capitol Visitor Center, you 
have asked--and, Ms. Rouse, you will probably need to speak to 
this. Capitol Visitor Center operations in 09 were funded at 
roughly $19 million, and now you are requesting $24.5 million 
for the same purpose. I know that now you are dealing with a 
full year of operations, but we want to make sure that you are 
aiming for the right funding level.
    How much of your increase is tied to the annualization of 
your request and how much is for new items?
    Ms. Rouse. We are going from about 19----
    Ms. Wasserman Schultz. And what are the new items?
    Ms. Rouse. About 19 million for fiscal year 2009, to 24 
million for fiscal year 2010. Most of the new items are for 
additional staffing. Staffing is the biggest portion of our 
budget, as you can imagine. We know from this year, that 
getting the number of Visitor Assistants and Guides in place is 
key and being able to handle the call volume is key. So we want 
to be able to get our position in place where we have enough 
people, 20 additional people for Visitor Services; 15 Visitor 
Assistants, 5 Guides. We have learned the value of having our 
staff right there on the floor, able to help Members. That has 
worked out a lot better. We are calling them our ambassadors, 
and we learned a lot from people recently on that topic.
    As it relates to special events, the demand for the 
bookings of our rooms is unbelievable, so there will be 
additional staff back there. It sometimes goes from 8 until 11 
o'clock at night. The Gift Shop generates extremely robust 
activity for us. There needs to be additional people there to 
manage that. Of course with that comes our typical IT and AV 
needs and financial, so we want to be able to be in a better 
position to staff those.

                              CVC STAFFING

    Ms. Wasserman Schultz. The 25 additional FTEs, the 15 
Visitor Assistants and 5 Guides, how did you settle on that 
being the right number of people and does that count the people 
that we talked about you hiring to shore up the staff-led tour 
process?
    Ms. Rouse. The congressional liaison type FTE is a number 
outside of those numbers, that we are able to put in our 
temporary numbers. We did a little self-analysis. We are still 
trying to work up to the 99 Visitor Assistants we have now. The 
demand is overwhelming. We saw, last year, 1.4 million visitors 
here at the Capitol. We will reach 1 million in about 2 or 3 
weeks. So we know that effort is amazing and the demand is 
there. We believe we will be fine with that number. We always 
have a little cushion for temporary, seasonal work.

                            STAFF-LED TOURS

    Ms. Wasserman Schultz. And then the only other item I 
wanted to cover with you is staff-led tours. I understand you 
were able to accommodate all the staff-led tour requests during 
the spring break Cherry Blossom Festival period. Can you walk 
us through the changes that you have made based on the private 
office meeting that we had with the bipartisan House 
Administration and Leg Branch leadership?
    Ms. Rouse. We were able to fortunately accommodate almost 
all of those requests that were made in that meeting. We put 
additional people on the floor, additional hours; created a 
separate line for staff-led tours when people came up. We were 
also able to have our staff have side conversations with people 
during staff-led tours. The dedicated ticket line worked 
extremely well. We also were able to facilitate more on the 
phones. We put through more resources at answering the 
telephone. We continue to get 400 calls a day from Members' 
offices. So we were able to add two additional telephone lines. 
We are going to readjust our call center ideas for next year.
    So all of those activities worked, what we were able to do 
is simply put more people in front of staff-led tours to help 
them do what they had to do. We saw about 11,000 staff-led tour 
participants over that 2-week spring vacation period, with 
roughly 200,000 people. So we were able to incorporate just 
about everything, and it was very helpful.

                    STAFF-LED TOUR CALLING CAPACITY

    Ms. Wasserman Schultz. In terms of the changes that you 
made to accommodate staff-led tours based on the concerns that 
were raised dealing with Members' offices and the difficulty 
that Members have had in getting someone on the phone when they 
call, how have you been dealing with those concerns?
    Ms. Rouse. We have two additional telephone lines in place. 
We are going to have to address the need for more of a call 
center activity as we go through the next year because the call 
volume is still very heavy. So we are able to at least try to 
get back to people through more resources added.
    Ms. Wasserman Schultz. People shouldn't have to listen to a 
ringing phone or get a voice mail. What happens when you don't 
have someone, when you don't have enough people to handle the 
call volume?
    Ms. Rouse. What happens is the calls go into voice mail and 
someone has to return calls. With the two additional telephone 
lines we put in place on Tuesday, that is happening a little 
less now. We are able to answer more calls. And we have been 
able to work with the House Office Call Center and may be able 
to adapt some of their software to our needs as well. Our call 
volume is extremely high. And some of that will begin to----
    Ms. Wasserman Schultz. Do you have an average wait time?
    Ms. Rouse. For the phone, no, I don't. But I can get that 
for you.
    Ms. Wasserman Schultz. Can you find out what that is?
    Ms. Rouse. Sure.
    [The information follows:]

    Question. What is the average customer wait time when calling the 
CVC's Visitor Services Office?
    Response. As of the week of April 20, 2009, when a new system was 
installed to measure call times, the wait time before a call was 
answered by an operator was 11 seconds. The average wait of a caller 
before he/she abandoned the call (did not wait for voice mail) was 37 
seconds. The CVC Visitor Service's staff is continuing to test and 
adjust the system as necessary to meet all call demand in a timely and 
responsive manner.

                       ADVANCE RESERVATION SYSTEM

    Ms. Wasserman Schultz. I know you have requested funding to 
make improvements to the advance reservation system. Is that 
funding to address the concerns raised by Members that the 
system is very slow and that it is difficult to use and not 
compatible with some of the upgrades to Firefox and Internet 
Explorer?
    Mr. Ayers. Firefox and Internet Explorer we have already 
done. We have had that done. The modifications to the advance 
reservation system is an accumulation of comments since last 
October. So we gathered a number of those and that will be 
upgraded.
    Ms. Wasserman Schultz. Do you gentlemen have anything else?

                      STAFF-LED TOUR IMPROVEMENTS

    Mr. Aderholt. Let me add from our last meeting we had, 
Madam Chair mentioned with the bipartisan leadership of the 
House Administration and Appropriations, we had voiced concerns 
about that. And I will say that during the spring break it 
seemed like things were moving much more fluid with the tours. 
I was up here for a couple of days during the break to get some 
school groups in and it seems to be going a lot more smoothly, 
so I think you all are on the right track as far as addressing 
those issues.
    Ms. Rouse. Thank you. We appreciate it. We had our highest 
day ever this past Monday, April 20, 2009, so it was quite 
robust. We definitely know people are interested in being here. 
So thank you.

                         UTILITY TUNNEL UPDATE

    Ms. Wasserman Schultz. The only other thing I wanted to ask 
you about was the utility tunnel progress, the abatement of the 
asbestos. How is that going? Where are you? My understanding is 
you are ahead of schedule.
    Mr. Ayers. We are ahead of schedule and we are under 
budget. We are down to what we think is a total program cost of 
$186 million. And if you recall, we started out at $295 million 
and we are significantly under that. It has been a great year 
for that project. We have completed asbestos abatement in the Y 
tunnel, the V tunnel, the G tunnel and the B tunnel. We are 
significantly through the R tunnel as well, and we will have 
that done this year. I am sorry, we will have it done within a 
year from now.
    The other issue in the tunnels was the delaminating 
concrete, and we have made significant progress there, over 
halfway done, eliminating those hazards in the Y tunnel, and 
more than one-third done in the R tunnel. All of the exposed 
piping that was previously exposed has now been insulated. We 
have got a great team in place that is effectively managing 
that project.

                    PRAISE FOR THE ACTING ARCHITECT

    Ms. Wasserman Schultz. Thank you. I don't have any other 
questions at this point. Let me just tell you, Mr. Ayers, that 
it is an absolute pleasure to work with you and to work with 
the employees in your agency. We have been through an 
evolutionary process since the committee was reestablished. We 
struggled at the beginning with the bringing-in-for-a-landing 
process of the CVC. I really want to commend you and your 
staff, who I think have come a long way since the days of Alan 
Hartman, no offense to Alan Hartman, but I think there has been 
dramatic improvements at the Architect of the Capitol. And you 
have been incredibly responsive to the membership. The Members 
that I talk to really feel like you are doing an excellent job. 
And I do as well, so I want to commend you.

                        GREENING OF THE CAPITOL

    Mr. Aderholt. I would like to follow up on one question 
about the greening of the Capitol and your work there. And I 
know that a lot of it is being done on the House and, of 
course, the Capitol and the CVC. But it is not campus-wide; is 
that correct? There are portions of the Capitol Complex that 
are not really under this energy independence? Is that correct 
and what is the----
    Mr. Ayers. No, sir.
    Mr. Aderholt. So it is the entire Complex?
    Mr. Ayers. The Energy Independence and Security Act of 2007 
established objectives of reducing energy intensity by 3 
percent per year for 10 years, and that law is applicable not 
only to executive branch but also to leg branch agencies. So it 
is applicable to every building on Capitol Hill, and every 
building on the Hill is actively working to reduce energy 
consumption as well as reduce their carbon footprint.
    Mr. Aderholt. Thank you.

                     ADDITIONAL ASSIGNMENT FOR AOC

    Ms. Wasserman Schultz. Thank you. Mr. Ayers, I am going to 
assign you some homework, which is traditional in the 
Legislative Branch Subcommittee, as you know. We have noted the 
work of the Architect of the Capitol, what you have been doing 
and have done to make the Capitol Complex a more energy 
efficient and environmentally responsible place. That is under 
the Speaker's leadership, and we appreciate that effort.
    Supporting that work has been one of the key 
accomplishments of this subcommittee since it was reestablished 
in 2007. And in line with that, if you can give us a brief 
report by Monday, May 4th, describing your efforts in this 
regard at the Capitol Power Plant. The report should describe 
what actions have already been taken to make the plant a more 
energy efficient and environmentally responsible operation, and 
also discuss how your fiscal year 2010 request furthers the 
achievements of these ends, including a detailed explanation of 
your plan for shifting the Power Plant fuel mix away from coal. 
And if you could also include a brief description of the 
strategic review being done on the future of the Power Plant, 
with a summary of the various options being explored.
    Mr. Ayers. I would be happy to do that.
    Ms. Wasserman Schultz. Thank you for your time. And we 
appreciate it and look forward to continuing to work with you.
    Ms. Rouse. Thank you.
    Ms. Wasserman Schultz. Thank you.
    [GRAPHIC] [TIFF OMITTED] T0439A.080
    
    [GRAPHIC] [TIFF OMITTED] T0439A.081
    
    [GRAPHIC] [TIFF OMITTED] T0439A.082
    
    [GRAPHIC] [TIFF OMITTED] T0439A.083
    
    [GRAPHIC] [TIFF OMITTED] T0439A.084
    
                                          Thursday, April 23, 2009.

                      CONGRESSIONAL BUDGET OFFICE

                                WITNESS

DOUGLAS W. ELMENDORF, DIRECTOR, CONGRESSIONAL BUDGET OFFICE

                Opening Remarks--Chair Wasserman Schultz

    Ms. Wasserman Schultz. Dr. Elmendorf, you are up.
    We are going to turn to the Congressional Budget Office's 
fiscal year 2010 budget request. The Office is requesting $46 
million next year, which is about a 5 percent increase over 
fiscal year 2009. Leave it to the Congressional Budget Office 
to be fiscally responsible and frugal. It is not surprising at 
all. It is actually the smallest requested increase of any 
Legislative Branch agency this year, in spite of the clearly 
growing demands that you have on CBO's already well-utilized 
resources. And I really want to express our appreciation, Dr. 
Elmendorf. The Members really are well served by your 
employees. It is an incredibly valuable service that you 
provide. Getting that analysis is extremely important. And we 
appreciate your restraint as well.
    Mr. Aderholt.
    Mr. Aderholt. We had a chance to visit a little bit earlier 
in the day, and thank you for coming by. I appreciated having a 
chance to visit with you personally. And I look forward to your 
testimony, so thank you for being here.
    Ms. Wasserman Schultz. Congratulations on your new 
position. And your statement will be entered into the record. 
You can proceed with a 5-minute summary.

                    Opening Statement--Dr. Elmendorf

    Mr. Elmendorf. Thank you very much, Madam Chair, Ranking 
Member Aderholt, Representative Cole, I appreciate the 
opportunity to testify today about CBO's budget request for 
fiscal year 2010.
    Let me begin by noting that today CBO is celebrating Take 
Your Children to Work Day. The unusually young-appearing aides 
behind me are my daughters Laura and Caroline. The children of 
CBO came to see what their parents do for work. And one of the 
things----
    Mr. Aderholt. I have my daughter as well.
    Ms. Wasserman Schultz. I had my son too, but he is with the 
Gators. He threw Mom over.
    Mr. Elmendorf.  I like the chance to bring them to see one 
of the things I do, which is to have the chance to testify to 
Congress. As you know, I became CBO Director just 3 months ago. 
And I am honored to have this position and to be making the 
case today for CBO's proposed budget.

                          CBO MISSION OVERVIEW

    Let me begin by briefly reviewing our mission as was laid 
down by Congress more than 30 years ago and continues today. 
And I will focus on the ways in which the demands we face are 
evolving and how our budget is designed to meet those evolving 
demands.
    Since CBO's launch in 1975, our mission is to provide 
Members of the Congress and their staffs the information you 
need to make effective budget and economic policy. And we are 
committed to providing information that is objective, 
representing not our personal opinions, but the consensus and 
diversity of views of experts from around the country; 
information that is insightful, applying the best new evidence 
and innovative ideas as well as the lessons of experience; 
information that is timely, responding as quickly as possible 
to the needs of Congress; and information that is clearly 
presented and explained so that policymakers and analysts 
understand the basis for our findings and have the opportunity 
to question our assumptions.

                               CBO STAFF

    In providing this information, CBO's most important asset 
has always been its staff. We are about 240 people, mostly with 
PhD.'s in economics or master's degrees in public policy. I was 
an analyst at CBO about 15 years ago, and both that experience 
and my current experience, two characteristics of the CBO staff 
that impressed me most:
    First is their very high level of knowledge, knowledge of 
the research literature in relevant fields, knowledge of 
cutting-edge analytic techniques, and knowledge of the 
institutional aspects of public tax and spending programs.
    The second striking characteristic of CBO staff is their 
commitment to public service. Like many other congressional 
staff, CBO analysts are not paid as much as they might be in 
private-sector jobs requiring comparable qualifications or 
intensity of work. But CBO staffers believe, passionately, that 
determined efforts on our part can help you to make a better 
world. In a cynical age, it can be difficult to say that with a 
straight face. But it is a very real belief at CBO.
    We have operated with about 235 staff members for the past 
decade. And CBO seems to be only a little undersized since its 
founding more than 30 years ago. Last year, my predecessor 
director, Peter Orszag, proposed to you a 2-year plan to 
increase the CBO staff from 235 to about 260, an increase of 10 
percent. Peter quantified the increasing number of testimonies 
and the formal cost estimates prepared by CBO and described the 
growing amount of informal communications between Hill staff 
and CBO staff. He argued in particular that CBO needed to 
increase significantly its capacity to analyze policy changes 
regarding health-care delivery and financing.

                           BUDGET PRIORITIES

    We are very grateful that you and your colleagues approved 
the first leg of that increase, and our budget for next year 
requests additional funding to move closer to that goal. 
Because of the Continuing Resolution this year, however, we 
were not able to begin hiring when we had hoped, and we don't 
want to rush the process and end up with the wrong people. So 
our budget for next year requests 254 FTEs rather than the 260 
envisioned a year ago.
    The analysts we have hired in the health area are playing a 
critical role in our current work on health reform. Reforming 
such a large and complex part of our economy is a daunting 
challenge for policymakers, and predicting the effects of a 
particular reform is a daunting challenge for us.
    Despite the extensive analyses we have done in the past few 
years, current proposals require us to build new models and 
develop assumptions that affects the behavior we have not 
addressed before.
    In addition, Members are increasingly exploring alternative 
policy changes with us on an informal basis. And we encourage 
that, but it increases our workload. Moreover, many relevant 
committees justifiably want their questions answered quickly. 
As a result, all the health analysts we have already hired are 
working flat out to meet the demands we face. And still, we are 
always adding to the crucial list of questions that we should 
be analyzing. Therefore, our budget includes funding for 
additional staff members in the health area.

                     FINANCIAL AND HOUSING MARKETS

    Our budget also asks for funding for additional staff to 
analyze the financial system and housing market. The financial 
crisis and the government's responses to it have greatly 
boosted the demand for CBO's work. The legislation authorizing 
the TARP requires CBO to review the administration's reporting 
on the TARP. In addition, our budget projections must include 
assessments of the cost of the TARP, of dealing with Fannie Mae 
and Freddie Mac, and of the dramatically expanded activities of 
the FDIC and Federal Reserve. More generally, our assessment of 
the impact and costs from alternative financial and housing 
policies requires us to monitor and model the financial system 
to a degree we have not done before.
    Beyond the health and financial areas, we are also 
requesting several additional staff in the editorial and IT 
functions, which are critical to our ability to produce and 
disseminate our findings in reports and testimonies and so on. 
As we expand analytic staff, we need to expand the support 
functions as well. I should mention, too, that additional 
people will need some place to sit, as Peter Orszag discussed 
last year. We have begun discussions with your staff about how 
to accommodate those needs.
    I want to emphasize that CBO has also been responding to 
rising demands in some areas by shifting staffing positions 
away from topics that have become less central for the 
Congress. However, our scope for doing so is limited by the 
breadth of Congress' needs.
    In addition to the topics I have already mentioned, in just 
the few months that I have been director, CBO has testified 
twice about the effects of legislation to limit greenhouse gas 
emissions, and embarked in estimating the impacts of new 
climate and energy proposals of significantly greater scope and 
complexity than the Lieberman-Warner bill we analyzed last 
year.
    The national defense area, we put the finishing touches on 
studies examining missile defenses, modernization of the Army's 
combat forces, shipbuilding for the Navy and Coast Guard, and 
the next generation of fighter planes. We repeatedly updated 
our outlook for the economy and for Federal spending and 
revenues to incorporate rapidly changing economic conditions 
and the effect of the massive fiscal stimulus package and, of 
course, worked in many other areas as well.
    In closing, let me just thank the members of the 
subcommittee for your strong support of CBO's work in the past. 
Your support of our budget request for next year would help us 
continue to do our job to the high standard that you and we 
expect.
    Thank you. My colleagues and I are happy to answer any 
questions that you have.
    [Dr. Elmendorf's prepared statement follows:]
    [GRAPHIC] [TIFF OMITTED] T0439A.085
    
    [GRAPHIC] [TIFF OMITTED] T0439A.086
    
    [GRAPHIC] [TIFF OMITTED] T0439A.087
    
    [GRAPHIC] [TIFF OMITTED] T0439A.088
    
    [GRAPHIC] [TIFF OMITTED] T0439A.089
    
    [GRAPHIC] [TIFF OMITTED] T0439A.090
    
    [GRAPHIC] [TIFF OMITTED] T0439A.091
    
                         TARP RESPONSIBILITIES

    Ms. Wasserman Schultz. Thank you very much Dr. Elmendorf. 
You covered the questions that I had pretty thoroughly in your 
remarks. But just a couple of things. One of the things I 
wanted to ask you about is your responsibilities under TARP and 
how you are dealing with those challenges, and the FTEs that 
you are asking for I assume are in part related to your 
expanded responsibilities there. What work are you doing now or 
do you plan to do in the coming year on all of those issues 
surrounding TARP, the state of the economy, the financial 
situation, the housing crisis, et cetera?
    Mr. Elmendorf. Several--I think of several pieces of our 
work in those areas. One is in our estimate of budget revenues 
and outlays and surplus, we need to estimate the cost of all of 
the financial entanglements that the Federal Government has now 
taken on. For the TARP legislation, that means under the law we 
need to estimate the expected losses over time, discounting the 
future returns from selling off some of these assets by the 
risk involved in them.
    So we do a risk-adjusted present value calculation. This is 
a very complicated bit of financial calculations. I can't do 
it. Many people trained in economics can't do it. There are 
people with specific training in financial issues who can do 
it. We have a few of those on staff. When the TARP came along 
and we needed to do much more right away, we turned to a 
consulting firm to help us with the immediate crunch, but that 
is a very cost-ineffective way to proceed over the longer run. 
So that was a short-term contract to get us through that 
crucial period. But now we are trying to hire additional people 
to do that.
    And it is not just the TARP. We also estimate the cost of 
the conservatorship of Fannie Mae and Freddie Mac. We have to 
think about the much greater activities that the FDIC is taking 
on and the outlays and later premium collections that will come 
with that; and the much greater activities of the Federal 
Reserve, and the expansion of their balance sheet to such a 
high level and the effect that that might have on the amount of 
money that they pay over to the Treasury. So there are all of 
these estimates that are around the cost in the Federal budget.
    But we also are analyzing the effects of alternative 
policy. This is one of the first testimonies I gave in my first 
week as director. It was to assess some of the options for 
financial stabilization. That sort of analysis requires us to 
follow developments in the financial system, have more 
institutional understanding of the financial system and the 
various pieces that CBO has needed in the past. And we have 
hired several people who will be starting in the next month or 
2 to help us do a better job of that.
    And the same thing with housing policy. We spent time 
estimating the cost of some of the housing proposals, but also 
not just the Federal budget cost, but the question about what 
that would do to the housing market and the broader economy, 
and we are working on that as well.
    I think beyond that, beyond the immediate crisis, there are 
the questions you will confront about how to restructure Fannie 
Mae and Freddie Mac for the future; what sort of housing 
support the Federal Government should and should not be 
providing over time; more generally, what our housing policy 
should be. So I think we, like you, look to beyond the crisis 
and being able to set in place a more robust system going 
forward.

                          DIVERSITY CHALLENGES

    Ms. Wasserman Schultz. Thank you.
    And then the only other question I had was, if you could--
and we talked about it in my office when you came earlier--how 
are you dealing with the challenges that your office 
perennially faces to deal with diversity?
    Mr. Elmendorf. That is a very important topic for us in all 
of the hiring and promoting that we do. At the level, I think, 
of initial hiring, we work very hard to be sure that when we 
are looking for people, we are looking not just in perhaps 
traditional places, but we are looking very broadly. And 
everybody who we hire, the person doing the hiring has to 
report on the interviews they have conducted. And we in the 
central office, our Human Resources people, look at that list 
and we are sure people have, in fact, cast a wide enough net 
and are interviewing people that seem to reflect roughly the 
demographic composition of the pool from which that person 
might be hired. That demographic composition of the pools we 
hire from differs, depending on who we are trying to hire and 
what particular areas of expertise. But the system we use for 
that is, I think, very appropriately demanding on people doing 
that direct hiring.
    There is also the very important question of how we promote 
and how we hire someone from inside and someone from the 
outside for more senior positions. And, again, we take great 
pains to cast a wide net. In addition to publicizing job 
openings in all of the places that we can think of, we reach 
out directly, personally, to our panel of economic advisers and 
our panel of health advisers. For the senior appointments that 
I have been responsible for, I have called a large number of 
people I know with expertise in various areas for suggestions 
of people, and that is partly for people with talents of 
certain sorts and partly to be sure we are looking for the most 
diversity we can. And we are also doing our part, or more than 
our part, to try to build more diverse pools in the future.
    We have an extensive internship program. And we try very 
hard to have a diverse group of people in that we hope that 
more of them will go on to become economists or to get masters' 
degrees in public policy. I am actually scheduled to go out 
this summer to the American Economic Association's minority 
program, which is held in California, to talk with them. These 
are students who, again, are at a point where they might or 
might not go on to become professionals of the sort that we 
could hire. And I think we think--it is not something that I 
started at CBO, although I am enthusiastic about doing it--we 
think that by showing people how much fun we think it is to 
have the jobs we have, a few more of them will be persuaded to 
go and do that. And we are not--this is not a task that we have 
completed or a task that we will complete on my watch. But it 
is a task that we will pursue very aggressively.
    Ms. Wasserman Schultz. That question was asked in the 
spirit of Taking Our Daughters to Work Day.
    Mr. Elmendorf. I don't think my daughters have been sold 
that they want to come to Washington, unfortunately. But we are 
working on it.

                                NEW FTES

    Mr. Aderholt. In regard to FTEs, you mentioned that you 
want to make sure you get the right ones to fill those roles. 
Did you say that, as of right now, that you have not hired any 
of those at this point? Or, would you please clarify what you 
were saying about FTEs.
    Mr. Elmendorf. Last year in our budget we requested 250--
you all approved, Congress approved, 250 FTEs for this year. 
But because of the Continuing Resolution, those weren't made 
available to us until just a couple of months ago, well into 
the fiscal year, so we couldn't begin hiring for them. And we 
have high standards for whom we will hire. So when we started 
to look--and we are looking very vigorously now, but we don't 
think we can bring on board that full number of the right 
people on this time frame.
    So our sense is that for this year, we are more likely to 
have about 242 FTEs rather than the 250 we hoped to have, just 
because of the slow start because of the Continuing Resolution.
    Mr. Aderholt. And making sure you get the right person in 
there.
    Mr. Elmendorf. Absolutely. And we need people with a lot of 
skills, as I said. And then we also need to teach them and 
train them, people who come out of master's programs or Ph.D. 
programs, who have a lot of skills, but still won't know 
everything about how we do our job. So we need to make sure 
that we pair our latest hires with more experienced people as 
they learn the ropes. So it is also a matter of how many people 
we can effectively bring on board at once.
    Ms. Wasserman Schultz. Mr. Cole.

                           SALARY DIFFERENCES

    Mr. Cole. Thank you, Madam Chair. First, thanks for the 
great job you do. Frankly, we always get wonderful service. But 
we are clearly now asking you to do a lot of things that you 
haven't done in the past. And I am going to focus first on this 
personnel issue, the problems that you have outlined in getting 
the right people.
    What are the issues in terms of salary differentials in 
terms of what you can pay versus bringing people with different 
skill sets in and people that have high market value 
potentially in the private sector? Are you comfortable you are 
going to be able to pay people what you want to get the people 
you need?
    Mr. Elmendorf. No, I am not comfortable. I think we will 
manage. But it is a problem. Naturally the topics that are of 
great interest to you, and thus to us, are also of interest to 
other people in the world. So as we try to hire in health care 
and in finance, we are competing against very strong demands 
from elsewhere in the policy world and elsewhere in the world 
more broadly.
    Finance is a particular issue. I spent a number of years 
with the Federal Reserve Board, which pays higher salaries than 
we can pay at CBO. And that was something that the Federal 
Reserve adopted to try to capture more of the top financially 
trained people.
    Now, the collapse of many financial institutions has this 
very, very small silver lining for us, which is there are more 
people looking for jobs. So one of the people we have hired, is 
starting very shortly, was working for a private firm, and the 
firm is reducing its size. But notwithstanding that, we are 
paying him a fraction of what he can make other places. I think 
he is coming for the challenge of being in the policy world. 
But it does make me nervous to rely on that.
    We try to run an agency that people want to work in. We 
have surveyed the people who work at CBO. They seem mostly 
happy, despite the demands we put on them. And the areas they 
are concerned about, training and communications, we are 
working hard to address. So we think we are doing everything we 
can to make the place as appealing to work. And obviously 
people recognize it to be a very important role in public 
policy, and that is the ultimate trump card in the hiring. But 
I do worry about salaries.
    I think I just was handed a relevant note here which says 
the top 10 university economics departments are paying new 
Ph.D.s $134,000. That is a lot more than we can pay new people. 
It doesn't have to be hedge--it is not just the hedge funds. It 
is some other government agencies, like the Fed, and it is some 
of the academic institutions as well.
    Mr. Cole. What is the salary differential between what you 
are able to offer and what you just cited?
    Mr. Elmendorf. We would pay new people a little less than 
$100,000.

                              TARP ISSUES

    Mr. Cole. I may be dragging into areas that you don't want 
to go, just because I want to talk a little bit about the 
analysis of the TARP program. Probably the most questions I got 
from my home town meeting is enormous confusion between TARP, 
stimulus, omnibus, budget. And let's just start with the 
simplest one which I think is the most fundamental one.
    TARP is effectively a purchase of either stock or assets, 
mostly stock right now, and preferred versus common, as I 
understand so far. So, one, is there a handy way you can get us 
the information of what we have actually bought, institution by 
institution? That is, where we have done preferred. I guess we 
are in the debate now as to whether we are going to do common 
or not. And what return? That is another thing that always 
astonishes my constituents is that we actually own something 
and we actually get a stream of income back off what we bought, 
like obviously more traditional budgeting aspects on the thing 
like the budget or like the stimulus.
    Mr. Elmendorf. Yes, we can provide you with information 
about at least some of the assets that are involved. The assets 
in the TARP we know. The Federal budget has been mostly 
historically on a cash basis. And that has in one way the 
virtue of transparency. As the government moves into more 
financial activities, buying more assets, cash calculations are 
less relevant. Unfortunately, the alternative calculations are 
much less transparent. And it is an important mission of ours.
    We are in the process of hiring a senior finance adviser, 
actually a very distinguished finance expert, who we just about 
signed up to come join us for a while. And she and I have 
discussed the crucial importance of educating Members of 
Congress and their staffs about the sorts of calculations that 
we do, what underlies them, how we come up with the numbers we 
come up with. Right now we estimate that of the $700 billion 
that can be laid out under the TARP, that the cost, the 
ultimate cost will be about half that, and in some sense that 
half of that money will end up being--the government will end 
up receiving through this stream of income or by selling assets 
in the end.

                              TOXIC ASSETS

    Mr. Cole. Do you have any professional opinion on--in one 
of the big debates we had concerning TARP was the last 
administration's request was we are going to buy toxic assets. 
They got into it and figured out they really didn't have the 
personnel to do that and manage it. And Congress, I think 
rightly, made the decision to at least empower both the last 
administration and this administration to look at stock 
purchases as opposed to--which I actually felt much more 
comfortable with, because at the end of the day the assets are 
worth something. We get to sort of be first in line if we own 
stock, and I would rather people that actually bought the junk 
or toxic in the first place manage it, as opposed to us. And I 
am always--there are only two times we have taken this process, 
and that is usually when we buy something and when we sell 
something. So I am much more comfortable owning stock that I 
can price and I can decide where it is going to go, as to 
opposed to trying to manage something thousands of miles away.
    Do you think we made a good decision collectively as a 
Congress in creating that option? Because the administration, 
again both of them, appear to have fallen back toward where 
Congress wanted to go as opposed to what the original proposals 
were.
    Mr. Elmendorf. So, CBO does not make policy 
recommendations. So I can't endorse or refute that. There were 
some writings a year or so ago by a private economist named 
Douglas W. Elmendorf that encouraged----
    [Laughter.]
    But I think the challenge that--I think it is extremely 
challenging to know how to proceed. We don't have any 
experience in this country like this, certainly not since the 
Depression. Other countries have been through banking or 
financial crises but with very different banking and financial 
systems.
    So, unlike, if you get back to the fiscal stimulus, where 
we have never done anything on the scale that you all have 
voted to do--we have done things that are like it, but 
smaller--the financial side really is quite different. And the 
savings and loan bailout, for example, that was really all 
about how to sell off assets that the government took on sort 
of automatically through the FDIC resolution process.
    The question that you are confronting now is how to absorb 
assets, in a way, to free up the banking system. And I think, 
in some ways, the crucial question is how much of that needs to 
happen and at what level will the private financial system be 
able to regain its footing so as to provide support for the 
rest of the economy.
    I think everybody in the policy world has been very clear 
that there is no justification providing help for the financial 
system for the sake of the financial system. The question is 
all about the international experience in which crippled 
financial systems lead to economies that are in the ditch for 
potentially a very long time. And trying to decide how much has 
to happen, how much of the TARP should happen, how big the 
Federal Reserve balance sheet should be, how much subsidies 
should be provided through Fannie Mae and Freddie Mac to 
support housing--those are questions that analysts don't really 
have answers to.
    And I think most analysts who look carefully at this think 
that you will all ultimately put more money in the financial 
system than you have so far, because the problems are not 
becoming resolved or are not being resolved at the current 
level. That is not a recommendation. That is just, I think, the 
consensus prediction of people who have studied this carefully, 
is that more money will be needed. That is going to raise the 
stakes on this question of just how to do it.

                             PAY BACK DEBT

    Mr. Cole. There is already quite an emerging and, for a 
layman, somewhat confusing debate that is starting to emerge as 
to whether--let me put it this way. There has been a lot of 
controversy about some institutions being ready now to sort of 
return the money, pay us off, get us out of their business, 
which is enormously popular, I think, amongst--this is a 
business I certainly don't want to be in, and my constituents 
certainly don't want me in it.
    Do you have any--can you give us the pros and cons? I am 
not trying to draw you into that policy place where you can't 
go. But the merits over whether or not we should--hey, if 
somebody wants to write the check, fine, we are done, versus 
the administration has advanced a position that they want to be 
careful that they are not coming back, that they are afraid 
they will suck too much liquidity out of the system and 
effectively defeat what we are trying to do.
    Number one, should we have the option--or what is the merit 
of the option of us retaining that option, in other words? I am 
a little more comfortable, I guess, with private people. If 
they want to write the check back, believe me, I am happy to 
take the money back institution by institution where we can get 
out of that business as quickly as we can get out of that 
business. I think that is, frankly, where most people, no 
matter which side of the issue, are most comfortable being.
    So do you see any merit in just saying, ``Look, any time 
you are ready to pay back, we are ready to take the money,'' 
versus saying, ``No, we don't want the money now, we are afraid 
you are going to overpay or pay too soon''?
    Mr. Elmendorf. I think the principal argument for letting 
people pay it off is that it helps to distinguish the banks 
that are thriving from the banks that are crippled, and that a 
lot of the problems of the financial system over the last year 
and more has been the uncertainty about who is holding the bag, 
who is really in trouble and who isn't.
    And one of the accomplishments of many of these proposals 
for dealing with the trouble is to actually bring the 
information to light. That is the point of the stress test, as 
well. So letting people pay off who are in healthy shape does 
distinguish them from those institutions that are sick. And 
there is a value in that.
    I think the counterargument is that banks will be too eager 
to pay it off in an effort to prove they are okay, perhaps in 
an effort to get out from under the constraints that the 
Congress is imposing as quid pro quos for the money. In that 
sense, the banks will pay it back before they are really ready 
to do enough new lending, which is what we want to have happen 
to spur the economy.
    Mr. Cole. Should we be making that decision, or should the 
bank be making that decision?
    Ms. Wasserman Schultz. Mr. Cole, you are on round three of 
5 minutes.
    Mr. Cole. Okay.
    Mr. Elmendorf. I think it is an appropriate question for 
policymakers to take up themselves.
    Mr. Cole. One last question, Madam Chair.
    Do you know of instances where we literally have refused to 
take the money back when somebody wanted to write us a check?
    Mr. Elmendorf. I don't know of that. We can check. I don't 
know.
    Ms. Wasserman Schultz. The gentleman's time having long 
since expired, thank you very much.
    Mr. Cole. Thank you, Madam Chair.
    Ms. Wasserman Schultz. Any other questions?
    Mr. Aderholt. I just would say thank you for bringing your 
daughters here today. We were glad to have them here.
    Mr. Elmendorf. Thank you very much, sir.

                  ADDITIONAL ASSIGNMENT FROM THE CHAIR

    Ms. Wasserman Schultz. Welcome to the Legislative Branch 
Subcommittee. We are, in the spirit of tradition, going to 
assign you some homework as well. With your expanded 
responsibilities for the TARP program, you obviously have 
additional demands for your services due to the turmoil in the 
financial sector and the housing sector and the overall 
economy.
    So if you could by Monday, May 4th, give us a brief report 
on how your office is addressing those new responsibilities 
while still responding to your existing workload. And if you 
could highlight in the report how the additional FTEs that you 
have requested in fiscal year 2010 will facilitate your efforts 
in this regard.
    Mr. Elmendorf. Yes, I will.
    Ms. Wasserman Schultz. Thank you very much.
    And with that, thank you very much, and the committee 
stands in recess until Tuesday, April 28th, at 1:00 p.m., when 
we will consider the Office of Compliance's FY 2010 budget 
request, as well as GAO and GPO. Thank you. 
[GRAPHIC] [TIFF OMITTED] T0439A.092

[GRAPHIC] [TIFF OMITTED] T0439A.093

[GRAPHIC] [TIFF OMITTED] T0439A.094

[GRAPHIC] [TIFF OMITTED] T0439A.095

[GRAPHIC] [TIFF OMITTED] T0439A.096

                                           Tuesday, April 28, 2009.

                    GOVERNMENT PRINTING OFFICE (GPO)

                                WITNESS

ROBERT C. TAPELLA, PUBLIC PRINTER OF THE UNITED STATES

                Opening Remarks--Chair Wasserman Schultz

    Ms. Wasserman Schultz. I would like to call this meeting of 
the Legislative Branch Subcommittee of the Committee on 
Appropriations to order.
    This is our third budget hearing for fiscal year 2010. 
Today we will hear from the Government Printing Office; the 
Government Accountability Office; and the Office of Compliance, 
OOC. I think of them in acronyms now, which is really not good.
    We will hear first from Bob Tapella, the Public Printer, 
who will be GPO's only witness. GPO is requesting $166 million 
next year, which is a $26 million or 18 percent increase over 
fiscal year 2009. This is an increase that is due almost 
entirely to a request in the revolving fund for investment in 
GPO's technology and physical infrastructure.
    The fiscal year 2009 bill provided you with a pretty 
significant boost, one which allowed you to absorb the 
congressional printing shortfall, so although I know your needs 
are great, an 18 percent increase will be virtually impossible 
to sustain. So I look forward to hearing from you about your 
priorities, as we discussed in my office, and what your 
absolute must-haves are versus the ``I would like to have 
these.''
    Your statement has been received, and we will enter it for 
the record.
    Mr. Aderholt do you have any remarks?

                     Opening Remarks--Mr. Aderholt

    Mr. Aderholt. Yes, thank you, Madam Chair.
    Thank you for being here today and giving us testimony. We 
want to welcome the Public Printer. We very much enjoyed our 
tour a few days ago, and it was a great experience to have a 
chance to visit. It was my first time over there. The Chair, I 
think maybe she has been before.
    Ms. Wasserman Schultz. No, it was my first time, too.
    Mr. Aderholt. It was a great time to see what goes on over 
there and so much of the work that takes place we on a daily 
basis.
    I am glad to have my wife, who is visiting with us for a 
few minutes today, Caroline. I am glad she was able to join us 
today for a little bit as well.
    Anyway, we look forward to your testimony and also to 
discuss your 2010 budget request.
    Ms. Wasserman Schultz. Your statement will be entered into 
the record, and you can proceed with a 5-minute summary.

                     Opening Statement--Mr. Tapella

    Mr. Tapella. Thank you. Madam Chair, Mr. Aderholt and 
Members of the Subcommittee, I appreciate you inviting me to be 
here today to discuss GPO's appropriations request for fiscal 
year 2010. I have submitted my prepared statement for the 
record, and with your permission, I have just a few brief 
remarks.
    First, Madam Chair, Mr. Aderholt, thank you for taking the 
time out of your busy schedules to visit GPO and see first hand 
the great work of the dedicated men and women that serve you 
every day. It is the first time in my memory that our 
appropriators have paid us a visit. We were delighted to have 
you come by and look forward to having you visit again.
    And to the other members of the Subcommittee, I extend a 
very warm welcome to please come to GPO and see what we do.
    Second, I want to thank you all for your support for GPO's 
appropriation for fiscal year 2009. This funding eliminates the 
shortfall in congressional printing and binding, allows us to 
undertake a number of valuable projects supporting electronic 
information dissemination to depository libraries and other 
users, bring FDsys closer to completion, repair our roof, and 
begin to renovate our elevators.
    Third, now that the shortfall has been repaid, for fiscal 
year 2010 we are able to request a reduction in the 
appropriations for congressional printing and binding of 
approximately $3.5 million. For the salaries and expenses of 
the Superintendent of Documents, we are seeking a modest 
increase of $2.2 million to continue transforming the Federal 
Depository Library Program into a predominantly electronic 
basis. For our revolving fund, we are seeking an increase of 
$18.5 million to complete the development of FDsys and carry 
out a number of critically important IT infrastructure 
projects.
    And quite frankly, Madam Chair, Mr. Aderholt, if a picture 
is worth 1,000 words, I sure hope a site visit to our factory 
is worth $13.6 million for necessary building maintenance and 
repairs.
    Now I understand there will be limitations on what the 
Subcommittee can recommend for us. And so I will be happy to 
discuss our priorities for this funding with you today.
    And finally, as I have discussed earlier with many of you, 
the GPO, like many other agencies and businesses these days, is 
facing a very different business climate this year, in our case 
a direct result from a significant reduction in the demand for 
passports from the Department of State. We are tightening our 
belts, evaluating all costs and proposed projects, and taking 
all available measures to ensure we stay within our budget. I 
won't kid you, though; this is going to be a really tough year 
for us. With your understanding and support, our objective is 
to complete this year on a sound financial basis.
    Madam Chair, Mr. Aderholt, members of the Subcommittee, 
this concludes my opening remarks, and I would be happy to 
answer any questions you may have.
    [Mr. Tapella's prepared statement follows:]
    [GRAPHIC] [TIFF OMITTED] T0439A.097
    
    [GRAPHIC] [TIFF OMITTED] T0439A.098
    
    [GRAPHIC] [TIFF OMITTED] T0439A.099
    
    [GRAPHIC] [TIFF OMITTED] T0439A.100
    
    [GRAPHIC] [TIFF OMITTED] T0439A.101
    
                         TOP PRIORITIES FOR GPO

    Ms. Wasserman Schultz. Thank you very much.
    If you could, take us through some of your top-priority 
items so that we know when we are trying to modify your budget 
request what those are.
    Mr. Tapella. Okay, top priorities: FDsys, the Federal 
Digital System, there is an $8 million request for that in the 
revolving fund.
    The composition system replacement project, $2 million we 
are requesting, and that is the composition system that we use 
to prepare all congressional material.
    The third item that is a high priority is what we call 
GBIS, which is the GPO Business Information System, our Oracle 
applications, which is all of our back-office functions, and 
for that we are requesting $3 million.
    The smallest item we are asking for is $200,000 for an R22 
phaseout, which is an air-conditioning refrigerant, and the EPA 
is requiring us to phase it out of use.
    And finally, for our building, about $3 million in elevator 
repairs.
    If only these priorities were funded, along with our 
request for CP&B and the S&E, our increase over fiscal year 
2009 would be 7 percent. And so that is my must-have list.

                          Financial Situation

    Ms. Wasserman Schultz. Okay. Thank you.
    Talk to us a little bit about the passport production 
situation. I know only a small portion of your budget comes 
from appropriated dollars, and most comes from services that 
you provide to other Federal agencies. And the trend, as I have 
observed since we reconstituted this Subcommittee, is that your 
finances have, until this year, improved dramatically, to the 
point where you were actually making a profit, which I tried to 
appropriate. It is extremely enticing to have an agency that is 
turning a profit.
    But as you very rightly warned me, there are years like the 
one that we are in now, where you maybe aren't going to turn a 
profit and have a downturn. So if you can walk us through the 
various sources that you get funding from and how you deal with 
the ebb and flow of that. Are you going to run in the black in 
spite of the drop in passport production? And what happens if 
you don't?
    Mr. Tapella. First of all, for fiscal year 2009, we set 
GPO's budget at $1,020,000,000. That was based on estimates on 
what we thought congressional work was going to be, on 
estimates given to us by the State Department of the number of 
passports they were going to require, and on past history from 
the printing we do for Federal agencies, which we call printing 
procurement. At that budget level, we were anticipating $2 
million in retained earnings. We use the terminology ``retained 
earnings'' not ``profits'' because we are also actually not a 
business. We are a wholly-owned Government entity.

                            IMPACT ON BUDGET

    In fiscal year 2008, our retained earnings were $46 
million. That was after we returned $51 million to the State 
Department in the form of over-recovery, and obviously, we 
follow the law that says, if we are charging for a specific 
item, we only use that money for that item. And we ran into a 
situation in fiscal year 2008 where we produced 24.5 million 
passports for the State Department. Going into fiscal year 
2009, the State Department gave us an estimate in the 17-18 
million range. We budgeted for 16.5 million passports, but just 
before Christmas, they changed the number to 10.5 million 
passports this year. So that means that we are facing a $36 
million operating gap at GPO.
    As we look at our actual budget, this is the first month 
where we are facing a deficit. For fiscal year 2009, as of the 
close of March 2009, we had a net operating loss of $4.4 
million. That compared last year to a net operating income of 
$65,861,000.
    We are looking at everything we are doing. It is my 
anticipation that we will be in the black at the end of the 
year, but it is going to be really tough. In fact, next week, I 
am gathering all of the senior managers of GPO together, and we 
are spending a complete day going through everyone's budgets 
and making certain of the things that we can remove or hold off 
on.
    And it sort of answers the question earlier which you 
resolved last year in the budget about the retained earnings 
and what happens when there is a shortfall in the Congressional 
Printing and Binding Appropriation. It means that we don't have 
available cash in the revolving fund. Fortunately, we do have 
cash in the revolving fund, and that helps tide us over when 
lean years occur.

                   EEO AND DISCRIMINATION COMPLAINTS

    Ms. Wasserman Schultz. Last year we talked about the number 
of EEO and discrimination complaints that GPO had pending at 
that time. And in your weekly reports, I continue to see those 
complaints being filed. While, in some cases, there may not 
have been as many, you consistently, at least you seem to be 
one of the only, if not the only, agency that has as many EEO 
complaints as you do. So what steps are you taking to address 
the environment that exists at GPO that is resulting in these 
complaints?
    Mr. Tapella. At the end of last month, we had a total of 49 
complaints filed for the fiscal year to date. Of those, 21 were 
from a group of employees in our Digital Production Center. I 
actually don't believe those 21 are really any EEO issue. It is 
a management issue. And we are very seriously addressing a 
management issue that came to our attention through that 
process.
    During all of fiscal year 2008, we had a total of 45 
complaints filed. So if we discount the DPC case of 21, we are 
on par with where we were last year at this time.
    Ms. Wasserman Schultz. So there has not been a reduction.
    Mr. Tapella. There has not been a reduction.
    Now what we have done is, in our strategic plan, and in 
every manager's performance plan, EEO is now one of the issues 
in which every single manager and supervisor is being rated on. 
We have stepped up the number of classes and the training, 
including frontline supervisor training, and we are requiring 
all the frontline supervisors to take training in 
discrimination and EEO practices, and we have been going as 
full-steam-ahead as we can trying to bring it to the attention 
of folks.

                               EEO GOALS

    Ms. Wasserman Schultz. Before I turn to Mr. Aderholt, 
because I was stalling until you came back, are you certain 
that you are doing enough right now to make sure that GPO, 
throughout GPO, that you have an environment that is, a work 
environment, that is free from discrimination or discriminatory 
conduct?
    Mr. Tapella. Let me put it this way, I believe that having 
a workplace free of discriminatory practices is important. I 
have made it paramount to those folks that report to me, and I 
have requested that we work our way through the chain of 
command.
    Ms. Wasserman Schultz. Is that a long way of saying, no, 
not yet, but you are working it on?
    Mr. Tapella. Yes, I think so.
    We are running an agency of 2,351 people in a factory 
environment with a long history. And through the last few 
years, when we have done the transformation of GPO, I think we 
have made some significant changes, and I think we are seeing 
some results of those changes.
    But I don't think it can change overnight. I wish it could, 
but I don't think it is going to happen. But we do have a plan. 
We are working towards that plan. We have made it a priority. 
And I will continue while I am Public Printer to make it a 
priority.
    Ms. Wasserman Schultz. Thank you.
    Mr. Aderholt.
    Mr. Aderholt. Thank you, Madam Chair.

                          REPRESENTATION FUND

    It is my understanding there is an authorization to use 
$5,000 in a revolving fund for representation and reception 
allowances.
    Mr. Tapella. Yes.
    Mr. Aderholt. Could you tell the committee a little bit 
about what that is used for?
    Mr. Tapella. Most Government agencies are not allowed to 
use appropriated dollars for entertainment purposes unless 
specifically authorized by law. And so there are what are 
called representation and reception allowances.
    In GPO's case, it is not appropriated money. What we have 
is an authorization to use revolving fund money for the same 
purposes.
    Now, unlike most other Federal agencies out there, we 
operate more like a business, and so we have to market our 
products and services. We actually have 450 agency customers 
and over 5,000 individual agency addresses of folks that we do 
business with on a daily basis. Last year, we procured about 
135,000 individual print jobs from the private sector on behalf 
of Federal agencies.
    So we use that fund the same way that a business would use 
a typical sales and entertaining fund, which is building 
relationships with our customers, both here on the Hill as well 
as throughout all Federal agencies. And up to this point, the 
fund has been $5,000.
    I, personally, don't think it is enough. And I personally--
myself and my predecessor--have been footing bills beyond the 
$5,000 to make certain that GPO can continue its business. And 
that is part of the reason why the turnaround has been so 
successful, because we have been building relationships with 
our customers.
    The biggest functions that we typically do are a Fourth of 
July celebration on the rooftop where people can watch the 
fireworks; and a second one during the holiday season, an open 
house. We also regularly invite folks in to see the Creative 
Services Department and other activities at GPO, and to even 
pay for the coffee and bottled water comes out of the rep fund.
    Ms. Wasserman Schultz. You need to invite your oversight 
committee to the July Fourth event.
    Mr. Tapella. In fact, we have. Every Member of Congress has 
been invited to the Fourth of July, as have all of the staff on 
our oversight and appropriations committees. And you are 
cordially invited for this coming July Fourth.
    Ms. Wasserman Schultz. Thank you.
    Mr. Aderholt. Good point. I was thinking the same thing.
    Mr. Tapella. Last year we had three or four Members attend.
    Mr. Aderholt. So, with this revolving fund, you said the 
$5,000 you think is not sufficient.
    Mr. Tapella. Correct, it is not sufficient.
    Mr. Aderholt. What do you think would be more in line? I am 
not holding you to a certain number.
    Mr. Tapella. What I can tell you is, last year, last 
calendar year, I spent just over $25,000 in what would be rep 
fund activities, and the first $5,000 came out of the rep fund, 
and the remaining $20,000 came out of my pocket.
    My predecessor did about the same and actually more. He had 
significantly deeper pockets than I do. And so I am not sure 
what a reasonable number is for Congress. If we could get it up 
to at least $7,500, that would be a big help to the next Public 
Printer, so that we can continue to do the things that we do.

                INCREASE IN CONGRESSIONAL RECORD VOLUME

    Mr. Aderholt. In your statement, you indicate that there is 
a projected increase in volume for the daily Congressional 
Record. With the availability of the Web access, what 
contributes to this added increase in the volume of the daily 
Congressional Record?
    Mr. Tapella. I don't have an answer for you on that. Are 
you talking about the dollar increase or the volume increase?
    Mr. Aderholt. The volume.
    Mr. Tapella. I misunderstood. It is not the quantities that 
we are producing. It is the size of each edition. Historically, 
at the beginning of the new Congress, Congress talks a lot 
more. More bills are introduced. That makes a larger volume for 
the particular editions. The number of printed copies of those 
editions is actually reducing on a fairly regular basis. There 
is a trendline on that. And we use historical data to make that 
determination.

                           ELECTRONIC ACCESS

    Mr. Aderholt. Where are you on the, as far as on the Web 
access right now? I always see the printed copies, but tell us 
a little about what your plans are on that.
    Mr. Tapella. First of all, when it comes to the 
Congressional Record, the printed Congressional Record is 
delivered to the Chambers typically at 9:00 a.m., at the 
beginning of each legislative day. The electronic version is 
typically available at 6:00 a.m. on the Web. And we are in the 
process of the migration from the former GPO Access, which we 
began in 1994, to what today we have, which is called the 
Federal Digital System, FDsys. And we released that in beta in 
January. We publicly released it on February 4th.
    Electronically it is available, and it is available before 
the printed copies are available to you. It is searchable. And 
with the FDsys, and I am sorry, when you were over for the 
tour, we didn't have a chance to spend some time showing FDsys. 
It is now searchable in ways that it had never been searchable 
before, by Member, by subject heading, by types of bills. It is 
incredible. And we did a lot of work with Congress, user groups 
in Congress and the library community to make certain it is as 
robust as possible.
    Ms. Wasserman Schultz. Ms. McCollum.
    Ms. McCollum. First off, it is good to know that you are 
starting to monitor the tapering down of the number of journals 
that you are printing. They are great to take on the airplane 
and to read while I am in the Cloak Room, where I don't have 
Internet access, so it is nice to be able to have them, but we 
don't need a gazillion copies of them. And that is not how we 
are going to store things if we want to go back and look at 
them in the future. Just as you can read a newspaper online and 
miss things, going through the Record two different ways, you 
can catch different things.

                   EMPLOYEE RECRUITMENT AND RETENTION

    But I am going to switch gears on you here. The Washington 
Post had an editorial yesterday, perhaps you saw it; maybe you 
were busy trying to figure out if the pig that was loose was 
swine flu or something else. So let me highlight what it talked 
about. It said that, in 4 years, there are 600,000 Federal 
jobs, close to one-third of the government, that will need to 
be filled. And currently, one-quarter of the Federal Government 
is under the age of 40, compared to one-half of the private 
sector. So to put it another way, three-quarters of the 
government workforce is over the age of 40. And you know, loss 
of institutional memory, loss of expertise, things like that 
can all be a result. Can you tell me what is going on in your 
area and the Government Printing Office? And if you are 
concerned about this, what you are doing for recruitment, and 
what you are doing to bring on the next generation of people 
who will serve the public in a very trusted way--that is 
keeping the records?
    Mr. Tapella. Thank you for the question.
    It is actually an issue that is of concern to me. At 
present, we are roughly, if we take our entire workforce, which 
is just under 2,400 employees, we have roughly, I am using 
slightly different numbers than age 40, but we have roughly a 
quarter of our employees are age-eligible for retirement, and 
that is really what I am concerned about are those that could 
walk out tomorrow as opposed to somebody between the ages of 
say 40 and 55 or 50, depending on which formula you use.
    And I am particularly concerned because, in our back-office 
functions, for example finance, more than one-third of our 
employees are age-eligible to retire. And that is part of the 
reason why one of my priorities, a top priority, is funding our 
back-office Oracle project, because it is our general ledger, 
fixed assets, accounts receivable, accounts payable, project 
accounting, work-in-process billing, everything that allows us 
to function on a daily basis. And that is why that is one of my 
priorities.
    Moving into our plant and the facility there, we are 
looking at the transformation of GPO from running those large 
console Web presses, which are the same things that newspapers 
are running, to digital equipment that will allow us, as we 
have folks retire, not necessarily need to replace them and 
instead take that head count and use it in other areas of the 
GPO. And one of the areas, in fact, in Library Services and 
Content Management, nearly half of our employees are age-
eligible to retire, and those are the folks that work for the 
Superintendent of Documents operation.
    We are out recruiting. We have spent time. We have started 
what is called a Leadership Development Program, and it is a 2-
year rotational program. We are bringing in the best and 
brightest, not necessarily young people, but from a mix outside 
the government, inside the government and inside GPO, to make 
certain that we have some folks that are prepared to step into 
leadership roles.
    We have been doing college recruiting. This past year, I 
have visited I think seven or eight college campuses to work in 
the process of recruiting candidates to come to work for the 
government. We have also stepped up, and one of the major 
changes I made as Public Printer is I created a new office, and 
it is the Office of the Chief Management Officer. So I have 
three people that report to me, the chief operating officer, 
who handles all of our revenue units, so it is the production 
and the sales that we do; I have a chief of staff, who handles 
all of the administrative and executive offices of GPO; and I 
created a chief management officer, who owns human capital, 
everything dealing with employees. And we have done a concerted 
effort to make certain that we are working in that area.
    Ms. McCollum. Well, you kind of answered my question, so 
you gave me the one quarter over all. What if you put in age, I 
don't want to make up an age, obviously you can go down, you 
can go down another level, where are you overall?
    Mr. Tapella. I am sorry, I would have to get you that 
information because I don't have that at the top of my head. I 
have been focusing primarily on those that are age-eligible to 
retire.
    Ms. McCollum. Because you have to put that fire out first.
    Mr. Tapella. Because I have to put that fire out first, 
absolutely.
    Ms. McCollum. What I hear on your statistics, you are 
actually more mature than the average of what currently is in 
the Washington Post, which is one-third of the government.
    Mr. Tapella. Yes, and I think that is GPO historically has 
been a very good place to work.
    Ms. McCollum. Thank you.
    I think, Madam Chair, workforce issues and retention is 
something that this committee, maybe later on, should take a 
look at.
    Ms. Wasserman Schultz. My understanding is that article, 
correct me if I am wrong, was about government-wide, it is 
definitely a problem.
    Ms. McCollum. We are the institutional memory of the 
government for our branch. So it is important that we stay 
intact.
    Ms. Wasserman Schultz. Thank you for raising it.
    Mr. LaTourette. I am sorry, no, forgive me, Mr. Cole. He 
was here first.
    Mr. Cole. We have this problem frequently.

                    STATUTORY PRINTING REQUIREMENTS

    First of all, thank you for the great job you do. The 
quality of the product we get in our office is very high. I am 
an old historian, so I love what you do. The records you create 
across time are really valuable, not just for the body today 
but for other people down the road.
    How much of the printing that you do is required printing 
that we have statutorily laid on you?
    Mr. Tapella. Well, any printing that we do for Congress, we 
do because Congress has requested it. When we look at the 
statutes, Title 44 lists out some very specific things that GPO 
does print on behalf of Congress.
    Beyond that, I would have to go and figure out----
    Mr. Cole. Is it a very substantial percentage? I am just 
curious about how much we do do that. And I guess a follow-up 
question, which may be easier, do you think we ask for too 
much? Are there things we should be reviewing and say, well, do 
we really still need that any more?

                            COST OF PRINTING

    Mr. Tapella. To be honest, sir, I don't know how to answer 
that question.
    You know, we are printing just shy of $100 million worth of 
product for you. One of the things that is interesting is, if 
you look at the congressional printing and binding costs from 
10 years ago, even 20 years ago, it has been relatively flat. 
And that is because we have been introducing new technologies 
to try to get rid of some of the costs of meeting your needs. 
And we are sort of, our entire industry is at a crossroads 
right now. And the question is, what still should remain in 
print, and what should be in electronic retrieval systems?
    And one of the things that is interesting, and a lot of the 
folks don't understand, when it comes to printing, those extra 
copies are the least expensive copies. It is that first-copy 
cost. So producing that very first copy, if you only printed 
one, would be X amount of dollars. As soon as you start 
producing multiple copies, the cost per unit drops 
significantly.
    One of the reasons a top priority is the composition 
replacement engine or composition replacement system for the 
work that we do for Congress is to try to drive out some of 
those costs. We have a concept of operations, and we are moving 
forward on that process so that what we are trying to do is 
reduce that first copy cost.
    As to what should remain in print or what shouldn't, I 
leave that to our number one customer for the House of 
Representatives, the Clerk of the House. And so Ms. Miller puts 
in the requests, and we produce the documents, as do, 
obviously, committees. I would leave it to you folks to make a 
decision on what should remain in print or what shouldn't.
    Mr. Cole. Just to that point, just to get it into the 
record, I know you do 820 copies of the House and Senate 
Journal. The people in my office love those things. They really 
don't want that to go electronically. They tab them, and they 
do all sorts of things with them and keep them, and they don't 
disappear into binders, at least in our office, over time, so, 
again, thanks for what you do. It is a great work product.
    Thank you, Madam Chair.
    Ms. Wasserman Schultz. You are welcome.
    Mr. LaTourette.
    Mr. LaTourette. I am the only one left.
    And just a question of clarification, Mr. Cole was here 
before I was, but we were all here when the gavel dropped. And 
so I just need to know, because Mr. Dicks does this to me all 
the time with Mr. Cole. Is it like a State of the Union thing 
where I get here at 4 o'clock in the afternoon for a 9 o'clock 
speech?
    Ms. Wasserman Schultz. It is order of arrival when you come 
in the room.
    Mr. LaTourette. Call me.
    Ms. Wasserman Schultz. That is how I have always done it.
    Mr. LaTourette. I will follow any rule. I just want to know 
what the rule is.
    Ms. Wasserman Schultz. Even though we have accommodation of 
Members as the meeting progresses, whoever is left here, still 
it is order of arrival.
    Mr. LaTourette. Thank you for being here.
    And just to Mr. Aderholt's question about the volume 
business, I have often thought we should have a cap-and-trade 
system for Members in terms of minutes on the floor. You get 
like 600 minutes of time, and if you are from Texas you can 
trade those, things of that nature.

                     ESTIMATING PASSPORT PRODUCTION

    I just wanted to know, the money that you make from 
passports, do you engage in a dialogue with the State 
Department? I know you said 24 million and then 17, and they 
dropped it to 10. Is there a discussion, or are you just a 
receiver of an order that says, no, we don't need 7; we need 
10?
    Mr. Tapella. We are in discussion with them fairly 
regularly. In fact, we have working groups with the State 
Department. They are obviously a very large and very important 
customer.
    Over the last year, there have been a number of changes in 
the management within Consular Services that are responsible 
for passports. Just within the past 12 months, there have been 
two assistant secretaries of State; there have been three 
deputy assistant secretaries of State; there have been at least 
two managing directors of passport operations; and two just 
below that. So, yes, we try to work with them. They try to 
forecast.
    Now what is interesting when it relates to the passport, I 
don't think anyone was out there predicting the economic 
conditions that we are today facing and what occurred at the 
end of the year. And you know, if people don't have enough 
money to pay their mortgages, they are probably not getting a 
passport to take that luxury trip to Europe or the Caribbean.

                         OTHER TRAVEL DOCUMENTS

    Mr. LaTourette. Here is why I asked the question. You said 
only 24 million before and only 10 this year. This is not your 
problem. This is the State Department's problem. We have the 
second part of the Western Hemisphere rule traveling the ships 
taking them to places this year in June. They were wholly 
unprepared for phase one, which just dealt with air and sea 
travel. Now they are going to do land crossings to Canada and 
Mexico. And my question is, did you chat with them about, hey 
guys, maybe you missed? Because we have people, regardless of 
whether they have enough money to go; I will tell you the blue 
haired ladies in my district can get on a Greyhound bus and go 
gamble in Niagara Falls. And they are going to be upset if we 
have the same mess with passports that we had a summer or so 
ago.
    Mr. Tapella. What I can say, we are responsible for 
producing the passport for the State Department, not the pass 
card. However, we do produce the NEXUS and Sentry card for 
Custom and Border Patrol. So, as a little pitch, I would 
recommend to those ladies in your district to get the NEXUS 
card, which I believe will be allowed, and that will be 
produced just down the Street on North Capitol Street, and that 
allows you the access, the travel to Canada and Mexico. NEXUS 
for the north; Sentry for the south. And we do produce these.
    Mr. LaTourette. Do you make money on them?

                        NEW BUSINESS DEVELOPMENT

    Mr. Tapella. We do. And in fact, I would like to see us 
producing more. And that would also, one of the things we are 
working on in terms of our bottom line, we are spending a lot 
of time in new business development. One of the areas that we 
are focusing on is something called secure and intelligent 
documents. And those are primarily secure Federal credentials. 
It is a newer business. We have been producing the passport 
since 1926. We are in our first year of producing the NEXUS and 
Sentry cards. This year, for the first time, we are producing a 
Medicare card, and this is for Puerto Rico.
    We are working on HSPD-12 ID cards. We produced the 
credentials for all the law enforcement officials for the 
Presidential Inaugural. That is an area where I would like to 
see GPO. I believe that Federal credentials belong in a 
Federally-owned, Federally-operated production environment and 
not in the private sector. And I think it is an inherently 
governmental activity. And it is something that we have geared 
up for.
    We have a secure production facility in Stennis, 
Mississippi, where we are producing passports. We have secure 
facilities here in Washington, D.C., where we are doing both 
the cards and passports. We have the capabilities. We have the 
trained workforce. And it is an area that I would like to see 
us move steadily ahead on.
    Mr. LaTourette. Thank you for that answer.
    You just brought to mind, when we had a hearing on the 
Inauguration, I think it was the Secret Service testified that 
you printed the tickets to the Inauguration in July of last 
year.
    Mr. Tapella. Yes, we took care of the printing of the 
tickets, on the calendar that was given to us by our customer, 
the Joint Congressional Committee on Inaugural Ceremonies.
    Mr. LaTourette. I am not saying you did it on your own. I 
want to know when you did it. In July?
    Mr. Tapella. That is the right answer, July.
    Mr. LaTourette. Thanks so much.

                  ADDITIONAL ASSIGNMENT FROM THE CHAIR

    Ms. Wasserman Schultz. Do any other members have any 
additional questions?
    Before you go, I wanted to just assign some homework. We do 
that here in the legislative branch. Last year, after your 
hearing, we asked you to submit a report that detailed policies 
and programs in place that you had to ensure that 
discrimination does not occur within your agency. And I would 
like to get an update on where you are with a report by next 
Friday May 1. It should include an explanation of how many 
active EEO cases there are now in GPO compared to last year; 
what these cases relate to; the status of each case; how the 
number of cases compares to other agencies; and what programs 
and policies GPO has in place to make sure that discrimination 
does not occur within the agency. And the report should clearly 
note wherever there has been a significant change since the 
last report in March of 2008.
    Thank you very much for your service and your time. We 
appreciate it.
    And again, thank you very much for the tour, especially the 
artisan that we got to see. That was extremely cool.
    With that, we'll close out the GPO portion of this hearing.
    [GRAPHIC] [TIFF OMITTED] T0439A.102
    
    [GRAPHIC] [TIFF OMITTED] T0439A.103
    
    [GRAPHIC] [TIFF OMITTED] T0439A.104
    
    [GRAPHIC] [TIFF OMITTED] T0439A.105
    
    [GRAPHIC] [TIFF OMITTED] T0439A.106
    
    [GRAPHIC] [TIFF OMITTED] T0439A.107
    
    [GRAPHIC] [TIFF OMITTED] T0439A.108
    
    [GRAPHIC] [TIFF OMITTED] T0439A.109
    
    [GRAPHIC] [TIFF OMITTED] T0439A.110
    
    [GRAPHIC] [TIFF OMITTED] T0439A.111
    
    [GRAPHIC] [TIFF OMITTED] T0439A.112
    
    [GRAPHIC] [TIFF OMITTED] T0439A.113
    
    [GRAPHIC] [TIFF OMITTED] T0439A.114
    
    [GRAPHIC] [TIFF OMITTED] T0439A.115
    
    [GRAPHIC] [TIFF OMITTED] T0439A.116
    
    [GRAPHIC] [TIFF OMITTED] T0439A.117
    
    [GRAPHIC] [TIFF OMITTED] T0439A.118
    
    [GRAPHIC] [TIFF OMITTED] T0439A.119
    
    [GRAPHIC] [TIFF OMITTED] T0439A.120
    
    [GRAPHIC] [TIFF OMITTED] T0439A.121
    
                                           Tuesday, April 28, 2009.

                 GOVERNMENT ACCOUNTABILITY OFFICE (GAO)

                               WITNESSES

GENE L. DODARO, ACTING COMPTROLLER GENERAL OF THE UNITED STATES
SALLYANNE HARPER, CHIEF ADMINISTRATIVE OFFICER/CHIEF FINANCIAL OFFICER
GEORGE STRADER, CONTROLLER

                Opening Remarks--Chair Wasserman Schultz

    Ms. Wasserman Schultz. GAO is up next.
    We welcome you to the committee, Mr. Dodaro. It is always a 
pleasure to have you here.
    We are going to hear from you in a moment. But I know that 
you have, in your fiscal year 2010 request, essentially asked 
for additional FTEs, not surprising given the increase in your 
workload. GAO is asking for $567 million, a $36 million, or 6.9 
percent, increase over the current year. I am not sure that we 
will be able to do all of that, but you have put forward one of 
the more reasonable, manageable, doable requests of the 
agencies, especially in light of your increased workload.
    And let me just say that, if you could please take back to 
the GAO employees how much Congress appreciates the work that 
they do, and really the work you do is the gold standard. It is 
something that we all rely upon. I said the same thing to Mr. 
Elmendorf. We can count on your expertise. This committee in 
particular relies on you on a regular basis, both when we were 
overseeing the construction of the CVC as well as a number of 
other different things that we are trying to make sure that we 
can hold accountable.
    So please take our thanks back to the employees of GAO.
    I am hopeful that this year we are going to be able to be 
responsive again to your needs to increase the number of FTEs 
that you have at the agency so that you can handle the 
workload. I know that Members are going to want to ask you 
about the American Recovery and Reinvestment Act. We have just 
received the first of the bimonthly reports that are 
legislatively required. And even though we are just beginning, 
I know we are going to want to hear from you about that.
    And with that, Mr. Aderholt.

                     Opening Remarks--Mr. Aderholt

    Mr. Aderholt. Thank you, Madam Chair.
    I would also like to join you in welcoming Mr. Dodaro for 
the committee hearing today and to hear their request.
    GAO is an invaluable asset to the Congress and to the 
Nation, and in particular, I want to thank you and your 
employees for your dedication and support of Congress.
    And this committee looks forward to hearing your testimony 
today. Thank you.
    Ms. Wasserman Schultz. Thank you.
    Do any other members have any other opening remarks? Okay. 
We will enter your statement into the record and if you can 
proceed with the 5-minute summary.

                     Opening Statement--Mr. Dodaro

    Mr. Dodaro. Thank you very much, Madam Chair.
    I very much appreciate being here Congressman Aderholt, 
Congresswoman McCollum, and Congressman Cole. I very much 
appreciate your kind words.
    I want to start out, first of all, thanking you and the 
committee for your support for us for our fiscal year 2009 
budget request.
    And I will convey to the GAO people your appreciation and 
comments on their hard work. I know they will value that very 
much.
    Our request for 2010, as you mentioned, we think is a well 
justified and prudent request. Since we were here last year 
talking about our fiscal year 2009 budget, we have been given 
additional responsibilities by Congress.
    First, as you mentioned, the American Recovery and 
Reinvestment Act assigned us a range of responsibilities, which 
include the bimonthly reviews of selected States and 
localities. And we selected 16 States and the District of 
Columbia for us to do a longitudinal study over the next 2 
years as they receive the Recovery Act moneys. I will be happy 
to talk about the results of that first report as well as the 
range of other responsibilities that we have been given under 
the Recovery Act.
    We have also been assigned a number of responsibilities to 
help in the financial institutions and markets area. The 
Economic Stabilization Act asked us to report every 60 days on 
the Treasury's implementation of the Troubled Asset Relief 
Program, and we have issued at least three reports in that 
area.
    We have also been assigned a responsibility to be the 
auditors of the Federal Housing Finance Administration, which 
oversees Freddie Mac and Fannie Mae, and is now a conservator 
of those agencies. And that is in addition to the expanded 
responsibilities we now have auditing the Bank Insurance Fund, 
which, given the number of bank failures over the past year and 
a half, has become a much more complex audit.

                 GAO WORK COVERS A WIDE RANGE OF ISSUES

    Now, in addition to these new responsibilities, we continue 
to receive hundreds of requests from Congress to deal with a 
wide range of issues. In the future we will be focusing in on 
the operations of the 2010 Census; a number of health care 
issues, including health care to women in the military, as well 
as preparing and dealing with public health emergencies. We 
also have a wide range of work dealing with U.S. efforts in 
Iraq, Afghanistan, and Pakistan. We are going to be spending a 
lot of time on efforts to help Congress modernize the financial 
regulatory system to help mitigate any reoccurrence of the type 
and magnitude of the challenges that we are facing right now.
    We also have been dealing with cybersecurity issues that 
are getting a lot more attention. We have been working on that 
for a while. Contract management reform has been another area 
of focus. So we have a full range of activities across the 
breadth of the Federal Government's activities, and we look 
forward to continuing to support the Congress in this regard.
    Last year we testified before Congressional committees over 
300 times, which is the second highest total in the last 25 
years for GAO. And I would expect us to similarly have our 
views sought in this Congress as well.
    So, with that, I would be happy to answer any questions. I 
know this committee will give serious consideration to our 
request. I appreciate the time and effort and careful review 
that goes into it. So thank you all very much.
    [Mr. Dodaro's prepared statement follows:]
    [GRAPHIC] [TIFF OMITTED] T0439A.122
    
    [GRAPHIC] [TIFF OMITTED] T0439A.123
    
    [GRAPHIC] [TIFF OMITTED] T0439A.124
    
    [GRAPHIC] [TIFF OMITTED] T0439A.125
    
    [GRAPHIC] [TIFF OMITTED] T0439A.126
    
    [GRAPHIC] [TIFF OMITTED] T0439A.127
    
    [GRAPHIC] [TIFF OMITTED] T0439A.128
    
    [GRAPHIC] [TIFF OMITTED] T0439A.129
    
           INITIAL RECOVERY ACT FINDINGS AND RECOMMENDATIONS

    Ms.Wasserman Schultz. Thank you very much, Mr. Dodaro.
    Can you just review with us, since I know a lot of Members, 
we all need to talk about it in our districts when we are home, 
your initial findings in the first report on the Recovery Act?
    Mr. Dodaro. In the Recovery Act, we had three objectives. 
One was to track the uses of the money and the planned uses by 
the States and localities. The second area of focus was how 
they were preparing to assume their accountability 
requirements; how they were going to monitor and track the 
money. And then, third, what were their plans to evaluate 
whether or not the money was being used to achieve the intended 
purposes of the legislation?
    Now, the 16 States and the District of Columbia that we 
selected were going to receive two-thirds of the Recovery Act 
money over the time frame of which the money will be allocated. 
During fiscal year 2009, there is a total of $49 billion that 
will be allocated to the States and localities. Ninety percent 
of that is going to be in health care, education, and 
transportation. And so there were really three programs that 
were receiving the bulk of the attention as the initial 
implementation unfolded.
    Through the Medicaid program, the 16 States and the 
District that we looked at had received an allocation of $16.9 
billion. As of early April, they had drawn down $7.96 billion 
of that or about 47 percent of their allocation. Most of that 
was being used to help meet and maintain eligibility 
requirements in the Medicaid area and also to meet increased 
caseloads. Given economic situations, obviously, more people 
become eligible for services.
    The Federal share increased significantly in our sample 
States. It ranged from a 7.09 percent increase in Iowa to an 
almost 11.6 percent increase in California. Because the Federal 
share went up and included retroactive payments back to October 
2008, this enabled some of the States to perhaps reduce their 
share of the allocation. They used it to help offset, in some 
cases, layoffs and other actions that would have been 
detrimental to economic recovery.
    Now in the transportation area, most of the States were 
actively planning. They had $15.5 billion allocated to them; 
about $3.3 billion have been obligated. Now, in this case, 
obligated means the Department of Transportation at the Federal 
level and States agreed on projects, but most of the projects 
were still in the competitive bid process in the April or May 
time frame. So, aside from Mississippi and Iowa, who actually 
let some contracts, not a significant amount of Recovery Act 
funds have been spent yet, but it was in the pipeline. They 
were moving forward. Most of them were focusing on construction 
and maintenance activities and to repair roads and bridges.
    Now a third major program was the State Stabilization Fund 
of this program funding, 81.8 percent is supposed to be used 
for educational purposes, and 18.1 percent can be used for 
other public services, including education. But before the 
States can spend that money, which was allocated in early 
April, they have to submit an application, and it has to be 
reviewed by the Secretary of Education. Only two of our States 
had submitted and had their review approved by the Department 
of Education, so that is in process as well.
    Now, in the accountability front, we found that a number of 
States were taking their responsibility seriously but were 
concerned that they had, because of their own fiscal pressures, 
cut back in a lot of areas, both on the management side and the 
audit side. They were concerned about their ability to provide 
adequate oversight over the money.
    One of the recommendations that we made to OMB is that they 
clarify how Recovery Act funds can be used for administrative 
purposes so the States could strengthen their oversight ability 
to make sure that the funds were spent adequately.
    We also made a recommendation that OMB modify the Single 
Audit Requirement, which is the fundamental accountability 
mechanism at the State and local level to audit the funds, to 
have more reviews done in fiscal year 2009 before most of the 
money the State and local governments receive is going to be 
spent in 2010 and 2011 in terms of the spendout rates. And so 
if the auditors can get in early and assess controls, it can 
better ensure that the money will be adequately safeguarded. 
And so we made that recommendation.
    And we also made a recommendation to OMB in the last area, 
which is to evaluate the impact of the funds, and to provide 
assistance on the definition of jobs preserved and jobs created 
that all the recipients are supposed to report back. There is 
still a lot of confusion about what methodologies will be used 
and accepted by OMB. So we had a series of recommendations in 
those areas.
    We also recommended better communication between the 
Federal Government and the State and locals. OMB had really 
started out, I think, with a good set of guidance. But they 
could build upon those efforts and strengthen their abilities. 
Particularly, States were concerned where Federal money was 
going directly to localities and bypassing the States. What 
they were concerned about is that since they were making their 
own decisions to allocate money that they wouldn't adequately 
coordinate, and so might be actually double funding the same 
activity. And so we recommend that OMB notify the States of all 
the money that is going into that State.
    OMB agreed with the thrust of all our recommendations. And 
so I think we got off to a good start in trying to make sure 
that accountability issues are dealt with.
    Ms. Wasserman Schultz. Absolutely. Thank you.
    My time is expired.
    Mr. Aderholt.

                           OVERSEAS PRESENCE

    Mr. Aderholt. Yes.
    It is my understanding that, back in September 2008, you 
established an ongoing temporary duty presence in the 
International Zone in Baghdad, Iraq, and that GAO employees are 
assigned there for a 6-month period. What is the current number 
of staff present in Iraq and what are some of the 
responsibilities that they have?
    Mr. Dodaro. Sure. First of all, the presence is exactly as 
you mentioned, Congressman Aderholt. We still have three people 
there. We just completed the 6-month tour with three 
individuals. We have just assigned three new individuals over 
to Baghdad.
    We do a range of activities over there. We have been 
focusing on monitoring the security situation over there and 
regularly report to the Congress on that. We also look at the 
reconstruction activities, the contracting activities going on 
over there, and the efforts by our military to train the Iraqi 
police and military.
    And also, we look at the various sectors, whether it be the 
energy sector, the electrical grid, water supply, et cetera. 
Another important feature of what we look at is the efforts by 
the U.S. Government to bolster the capabilities of the Iraqi 
ministries to carry out normal government functions. And we 
also monitor their efforts to pass some of the legislation that 
is really necessary and that was agreed to previously as well.
    Now, a big focus for us going forward will be the drawdown 
of the troops over there. During the first Persian Gulf War in 
the early 1990s, that drawdown took about 15 months. There were 
a lot of issues, and we already issued a report on the status 
of planning activities at the Department of Defense. There has 
to be arrangements made with other countries to move the 
equipment. The equipment has to be cleaned. There has to be 
environmental restoration issues. So there are a whole lot of 
issues associated with the drawdown. So we will be monitoring 
these areas that I mentioned as well as the drawdown 
activities.
    Mr. Aderholt. Do you have any plans to have much of a 
Department presence there for the long-term?
    Mr. Dodaro. Not really. We used to have many overseas and 
international presence during the, for example, the Vietnam War 
and some other activities. We have closed all those activities. 
So I don't have any plans right now.
    The only thing we have been thinking about is with the 
efforts in Afghanistan, and we have also monitored some of the 
U.S. efforts in Pakistan as well. We might move to a regional 
presence activity to have something there that we can deploy 
people to and from those locations. But I think it is not 
effective for us to have a lot of brick-and-mortar presence in 
other places given modern communications, modern technology, 
and transportation efforts.

            ACTIVITIES UNDER THE PRESIDENTIAL TRANSITION ACT

    Mr. Aderholt. I know the Presidential Transition Act 
specifies that GAO is the source for the transition team when a 
President leaves and another President takes over. Tell us a 
little bit about this. I think the subcommittee as a whole 
would be interested in what role you all play in that 
transition.
    Mr. Dodaro. Yes, I would be happy to.
    As you mentioned, the Presidential Transition Act was 
amended in 2000 to include GAO as a resource for new 
administrations so that they could learn about their management 
risks and challenges associated with making the leap from 
campaigning to governing. But given this particularly 
challenging time for our country, we decided not to be just 
reactive and wait for people to come to us and seek our advice.
    On November 6, 2 days after the election, we posted a Web 
site that we had been working on for a number of months which 
distilled all of GAO's hundreds of reports and testimony down 
to 13 urgent issues that we thought the administration needed 
to focus on from day one, which included financial institutions 
and markets; U.S. efforts in Iraq, Afghanistan and Pakistan; 
dealing with preparing for public health emergencies, which we 
are seeing some of that right now; and military readiness and 
spending. And we also listed for the 28 largest Departments and 
Agencies what we thought needed to be done for each major 
Department and Agency to assist the individual teams for the 
transition efforts as well.
    We also listed cost-savings opportunities that were based 
on open GAO recommendations that hadn't been implemented. We 
talked about the long-term structural deficit problems that the 
government was confronting. And so all GAO's advice was made 
available 24 hours to the transition teams.
    We continue to update that site and continue to meet with 
new officials as they come in to office. So I was very pleased; 
that transition material I know was used effectively. And we 
got some feedback on it. And I think we played a very important 
role on helping the administration get up and running.
    Mr. Aderholt. It appears the most recent transition went 
very smoothly, so you played an important role in that.
    Mr. Dodaro. To the credit of the Bush administration as 
well, I thought they put a good bit of effort into preparing 
for the transition as well.
    Mr. Aderholt. Yes, I think both sides.
    Mr. Dodaro. I think it was very well done.
    Mr. Aderholt. That is all.

    IMPROVING THE EFFICIENCY OF RECOVERY ACT ACCOUNTABILITY MEASURES

    Ms. Wasserman Schultz. Ms. McCollum.
    Ms. McCollum. Thank you. I would like to thank you for the 
work that you do and for coming over to brief me earlier on 
some of the challenges that I see with the recovery package 
funds and transparency and accountability, so I am going to 
follow up on some of the discussion that we had before.
    City, State and tribal governments, they all want to meet 
the reporting requirements. They are all very concerned that 
they do it in a timely, correct, transparent fashion. But as we 
know, in this economy we are seeing city, State, county and 
even the tribal governments having to make cutbacks because of 
incoming tax revenue and decreases in State budgets. So as we 
look forward to seeing the transparency and the accountability, 
they are very concerned that with the best of intentions, an 
inadvertent error could be made and something could not be 
reported in the right category, and everybody would have a sad 
story.
    I asked you what role the GAO is going to play in the 
process so Congress and the administration have good, accurate, 
and timely information; but we also have to audit how the 
reporting process is working so we can make adjustments when 
they need to be made.
    One issue, after speaking with some tribal governments--and 
I am going to meet with one of our Minnesota tribal governments 
shortly--is in the area of housing. And especially in health 
care, they have the Bureau of Indian Affairs, they have NIH, 
they have three or four agencies and categories they have to 
report to. Is it going to be up to them to separate where all 
of the individual funding came from? Is each one of the 
agencies going to work together so that the tribal government 
only has to fill out one form for transparency and 
accountability, or are we going to make this a nightmare for 
everybody?
    What can we do legislatively or working with the White 
House to make this work the way that everyone wants it to work 
in a friendly, fair, transparent manner?
    Mr. Dodaro. First, OMB is moving to try to have a central 
reporting system, and we have encouraged them to move along 
those lines. One of our recommendations was that they put a 
working group together--Federal, State, and local officials--to 
work on the reporting requirements.
    A number of State officials had written a letter to myself 
and Director Orszag and asked to meet and work through the 
reporting requirements. I think there needs to be 
clarification. I was glad to see OMB postponed the first 
reports until October 10, rather than July 10, to provide more 
time for this type of coordinated activity to take place, so 
there is greater clarity and it is an efficient and effective 
process.
    We are working with OMB to make sure that this is as 
efficient as possible, but the only way to deal with it here is 
to have OMB centralize it. Some agencies have their own 
reporting responsibilities, but they are going to have to try 
and coordinate those activities together.
    You also asked me about coordination with the National 
League of Cities. We have coordinated with them. They testified 
at the hearing that I testified on before the Senate Homeland 
Security and Governmental Affairs Committee. So we are going to 
continue to work with the various levels of government 
ourselves and try to communicate with OMB.
    Also, the one recommendation that we made about having some 
of the money available for administrative purposes should help, 
if OMB clarifies that, it should help in the reporting area as 
well so they have some administrative support necessary to 
prepare the reports.

                            PANDEMIC ISSUES

    Ms. McCollum. As the flu epidemic possibly could turn into 
a pandemic--and there have been wonderful, wonderful steps 
taken by the Bush administration, in moving forward and doing a 
lot of good things. And the House of Representatives tried to 
put more money forward, but we lost that battle. It looks like 
the money might be coming now.
    What, if anything, has GAO been looking at or doing, in the 
line of preparedness, not so much in flu vaccines and public 
health, but the inventory because we have crash carts in 
hospitals that have 30 drugs on them, and 29 of the drugs are 
imported from Canada, China and perhaps Mexico and other 
countries, and we are more and more dependent, especially in 
this economy, on an on-time delivery system?
    What oversight has there been and what direction has there 
been, or haven't we had the time or the resources to do what we 
need to do to find out how the on-time deliveries in the 
private sector are affecting outcomes for food, water and basic 
supplies that hospitals and public health infrastructures 
depend on?
    Mr. Dodaro. For the last 3 years, we have been focused on 
planning for a pandemic. We have issued 11 reports and 
testified a couple of times and made over 20 recommendations to 
build on the efforts that were made previously over there. Some 
of them have gone to the capacity issue, clarifying roles and 
responsibilities throughout the intergovernmental system. So I 
think those are very important issues.
    In fact, we had suggested to the Bush administration that 
they push the guidance forward to determine how the antivirals 
are administered. Since you have limited numbers of them, what 
priorities ought there be for distributing the amount of 
antivirals at the State and local level? They did issue that 
guidance back in December, which we were encouraged by. But we 
still have some outstanding recommendations.
    But the other thing that we did was, we added to our high-
risk list this past year, better protecting the public through 
enhanced oversight of medical products, which include 
manufacturers of drugs, including vaccines, as well as medical 
devices. We didn't think that FDA really had the capacity, or 
had made the shift in focus needed, because of the foreign 
production of drugs and medical devices, to have the proper 
oversight over that area. So that is a separate area. It is 
related to what you are talking about with on-time deliveries, 
but it starts with the fundamental oversight of safety to begin 
with.
    So we made recommendations in both of those areas. I will 
look more specifically to see if we dealt with real-time 
delivery systems and provide it for the record if we have done 
more.
    Ms. McCollum. Thank you.

                         RECRUITING AND INTERNS

    Ms. Wasserman Schultz. Mr. Cole.
    Mr. Cole. I inadvertently stepped on my good friend Mr. 
LaTourette's toes when he asked a question, and I want to be 
very sure that I ask his question because I think he wanted an 
answer for the record.
    During our visit in my office last week, we discussed the 
skill set you need to carry out the various audits and projects 
you oversee and how you find people with these skills. Would 
you please highlight these skills for the subcommittee and 
discuss how you recruit potential employees?
    And he had a follow-up: What role will interns play in this 
process?
    Mr. Dodaro. I am going to let Sallyanne explain our 
national recruiting program, but basically the skill sets we 
need in GAO are varied. We have a highly professional, trained 
workforce that has multiple levels.
    We have public policy analysts. We have economists. We have 
financial auditors. We have computer scientists. We have a 
number of people in specialized areas. We have an actuary and 
we have physical scientists. We have civil engineers, whatever 
we need.
    When we were asked to help on the Capitol Visitor Center, 
we had a trained civil engineer, and he was able to go in there 
and really provide sound advice. And we do that with 
construction projects across the Federal government.
    The same thing with nuclear facilities or radiological 
devices or biological information. We have a medical doctor who 
heads our health care area.
    So we have a wide range of skills and a very sophisticated 
recruiting effort to obtain the skills that we need. I will 
turn the floor over to Sallyanne to explain how we do it.
    Ms. Harper. Basically we want to stay in the market of 
always recruiting, and so we build long-term relationships with 
places where we are drawing these skill sets from. We really 
believe in refreshing at the entry level and building from the 
entry level in. So normally we are recruiting at the Masters 
and above level.
    We also have a very aggressive intern program; 160 to 170 
interns come in, normally May to September. They try us out and 
we try them out. We make offers to about 70 percent, on 
average, and we get about a 70 percent acceptance rate. We 
found that they tend to have retention benefits for us. They 
will stay longer because they know what they are getting into. 
And so I think that combination has proven very successful.
    Mr. Dodaro. Congresswoman McCollum, your question about GAO 
retirement eligibility, at the end of 2010, only 17 percent of 
GAO's workforce is eligible to retire, and it is about 42 
percent of our senior executive corps. But Sallyanne and myself 
and a lot of other people at GAO have been working for a number 
of years on succession planning efforts to make sure that we 
not only retain proper skills, but that we also develop the 
workforce for the future because we are undergoing demographic 
changes just like the rest of the country.

                              TARP ACCESS

    Mr. Cole. Mr. LaTourette's question and mine dovetail well. 
This is my question.
    On the whole issue of TARP--and we talked about this with 
CBO--obviously, we now have a huge expenditure that is not like 
anything that any of us have done before. Have you been able to 
get the kind and the number of people that you think you need 
to have to get a handle on that?
    Mr. Dodaro. Yes. I feel very confident that we have the 
right skills. What I am concerned with TARP is having the 
proper access to get the information that we need. Let me 
explain a little bit about that.
    In order to do TARP, we pulled financial market experts. We 
have financial auditors. We have attorneys who specialize in 
conflict of interest. We have procurement specialists who look 
at how they contracted for the asset managers. And we have 
economists who can track whether the effort is producing the 
desired effect in the markets in terms of the credit rates and 
the interest rates. So I feel very confident that we have the 
right team.
    We have been focusing to make sure that Treasury hires up 
the right people to manage the program effectively.
    Ms. Wasserman Schultz. If the gentleman would yield for one 
second, the $25 million that we appropriated, was that enough 
for you to deal with all of the oversight that you need to deal 
with?
    Mr. Dodaro. The $25 million was for the Recovery Act, which 
will go through September 2010. TARP will get reimbursed from 
the Treasury Department.
    Ms. Wasserman Schultz. So oversight is reimbursed from 
Treasury?
    Mr. Dodaro. And as long as the TARP money holds out, we 
will be okay.
    But the access issue is the big concern I have as to the 
TARP program, because it has been leveraged with activities at 
the Federal Reserve and FDIC. At FDIC we have authority, and we 
have authority at Treasury. But if the Federal Reserve uses 
monetary policy discount window operations, which is what they 
are using for most of these activities, we are statutorily 
prohibited from auditing those activities at the Federal 
Reserve.
    I have been vocal about this in testifying before Congress 
on TARP programs and changes to the broader financial 
regulatory system, which we added to our high-risk list. But if 
Congress wants us to conduct effective oversight, they have to 
change the statute; and a number of committees are considering 
ways to do that right now, because the amount of money that is 
being leveraged at the Federal Reserve outshadows the TARP 
funds.
    Mr. Cole. I hope you will do that, and I hope we give you 
that ability. We would like to make sure we have a very good 
feel for what is going on, and you are very transparent with 
the American people.

                       TRIBAL RECOVERY ACT GRANTS

    My last question is related to something Congresswoman 
McCollum asked. In the stimulus package, there is a lot of 
money set aside for tribes. My understanding, talking to some 
tribes, to access, for instance, law enforcement money, they 
are required to produce a set of statistics, criminal 
statistics, which are really set up and work real well for 
States and localities, but don't work well for tribal 
governments. They collect statistics, according to the FBI, 
which is not broken out for tribes.
    They are having difficulty producing the data that is 
required for them to literally go and compete. It is one of 
these things that I would ask you to look at.
    Over the last several years, we made it explicit in any 
grants--and we did this on the Rules Committee--that States, 
localities and tribal governments could compete for certain 
things; and yet, we clearly had a set of requirements, 
sometimes with DOJ, where literally the requirements are such 
that they are effectively denied the eligibility that Congress 
clearly wanted them to have. This is one of the area of special 
expertise, if you will, that is really hard, because Indian law 
and sovereignty are difficult.
    If you can look at that and see if there are areas where we 
clearly are not giving tribes the ability to access money that 
Congress set aside because they cannot meet the statutory 
requirements.
    Ms. McCollum. If the gentleman would yield, I think one or 
two phone calls would probably clear it up, but with tribal 
nations they have tribal courts. So how things are charged out 
sometimes are different, and so the statistic gets reported 
differently.
    Some of the restitution is done in a culturally significant 
way where they have very good success rates, and some of the 
traditional western U.S. governments are looking at whether it 
is a tribal justice circle for restitution.
    They are starting to adapt some of those into our system, 
but they are not necessarily recognized as being the way to 
conduct business as usual. So I think that tribal governments, 
because of their different agency jurisdictions and because of 
their sovereignty, we need to be sure that we are being 
respectful.
    Mr. Cole. I think this related to Byrne grants. That seems 
to be where the problem is, the whole statistical issue, it is 
really a challenge because tribal courts have limited 
jurisdiction. Where the crime was committed, which court they 
get referred to, whether it goes to a Federal court or a State 
court or a tribal court are really complex.
    If we ask you to give us your statistics from the State of 
Oklahoma, or Oklahoma City, that is a pretty easy job to do. It 
is really tough with tribal government, just given the overlap 
in jurisdictions and limitations of tribal courts.
    Again, I think Congress has a clear intent, but we may not 
have come up with a mechanism whereby they can literally go to 
DOJ and say, here is our challenge, here are the grants we 
would like to compete for.
    Mr. Dodaro. The Byrne grants are on our list of 22 that we 
are going to track, so we will take a look at this issue.

                              GAO WORKLOAD

    Ms. Wasserman Schultz. Before we wrap up--and I will check 
with other members to see if you have additional questions, but 
just three quick questions.
    I don't really have a sense, but do you think--and I am 
trying to put this diplomatically. Do you think most committees 
have a good understanding of the workload that accompanies 
their request that they make of GAO or the cost associated with 
it? I get the sense that most committees just view GAO as a 
bottomless pit that has an army of workers that are experts and 
are standing by waiting to have their particular requests for a 
report dropped in their lap.
    Would it make sense to let chairmen know the cost of their 
requests that they are making, to maybe put the cost of a 
particular report at the bottom of the report so the chairman 
would know, or anyone would know, what it costs to produce a 
report?
    And you actually have fewer employees than 10 years ago?
    Mr. Dodaro. Yes.
    Ms. Wasserman Schultz. And you are trying to staff back up 
because we are increasing our accountability, which is a good 
thing. And I think you have made a good case for additional 
staff, but--your statement asks for an additional 109 FTEs, but 
the budget justification indicates that you plan to hire 319 
additional staff.
    Are you dealing with that difference through attrition?
    Mr. Dodaro. Right. That is to replace attrition and add 
additional people.
    I think the way to deal with the workload issue is two 
things: One--and we have been trying to work this with each 
committee--is to set priorities.
    Ms. Wasserman Schultz. And I am not suggesting that 
chairmen are asking for reports that they don't need. I am not 
sure that they always prioritize.
    Mr. Dodaro. I think the understanding is increasing. We are 
working with each committee to set priorities. I think that is 
working effectively. The one area where we don't have any 
control is when committees go into conferences and requirements 
are added there.
    We track every bill that is introduced that has a potential 
mandate for GAO. And if we don't think that it is something 
within our scope of authority or competency or clearly stated, 
or gives us flexibility, we try to work up front with the 
committee.
    We also will be submitting again this year a list of 
mandates that we believe have outlived their usefulness and can 
be eliminated. And if we can find a way to somehow get 
conference amendments referred to our oversight or 
appropriations committees as part of a procedural matter, that 
might help a little bit.
    Other than that, I think we are doing a good job managing 
priorities, and I think that is the best way to deal with the 
issue that you raised.
    Ms. Wasserman Schultz. Great.

                      COMPTROLLER GENERAL ANNUITY

    On the CG annuity issue, and I know you are contracting 
with the National Academy of Public Administration per the 
language in the bill from last year to review the issue of the 
lifetime annuity of the Comptroller General, has that contract 
been finalized?
    Mr. Dodaro. Oh, yes. And the report is due by July and we 
have set the contract in order to make that.
    Ms. Wasserman Schultz. And how many previous Comptrollers 
General and/or their widows are currently collecting a lifetime 
annuity?
    Mr. Dodaro. Two, I believe. Two.

                             GAO PAY SYSTEM

    Ms. Wasserman Schultz. I don't have any homework because I 
think you have enough work for you to do. You have enough on 
your plate.
    Just give us an overview real quick of the evolution of the 
pay system and how you are dealing with that and the employees 
and their reaction.
    Mr. Dodaro. Recent history?
    Ms. Wasserman Schultz. Yes, recent history.
    Mr. Dodaro. The recent history is that the GAO Act of 2008 
resolved those prior issues. We made all of the retroactive 
payments. We appreciate the Congress's enactment of that, and 
we raised the pay-up for those people and made retroactive 
payments, so that issue is resolved for the people currently 
here at the GAO.
    Now we have also reached tentative agreement--we reached 
agreement quickly in 2008 on pay, with the union. We have 
tentatively reached agreement with the union for 2009.

                            UNION RELATIONS

    Ms. Wasserman Schultz. Speaking of the union, how are your 
relationships going?
    Mr. Dodaro. I think very good, and I would expect them to 
give a similar report.
    We have an interim collective bargaining agreement. We have 
reached agreement quickly 2 years in a row on pay. We are 
working on a longer-term agreement, the framework for that, for 
the first master collective bargaining agreement. I have met 
with them several times, Sallyanne and myself, to make sure 
that everything is on track.
    We have got good labor management people that we have hired 
to work with them. They meet with them weekly to work through 
issues. I think it is going well, and I am committed to make 
sure that it stays that way.
    Ms. Wasserman Schultz. Wonderful. Thank you.
    With that, thank you very much for your service and time. 
Keep up the good work. Don't forget to bring our message back.
[GRAPHIC] [TIFF OMITTED] T0439A.130

[GRAPHIC] [TIFF OMITTED] T0439A.131

[GRAPHIC] [TIFF OMITTED] T0439A.132

[GRAPHIC] [TIFF OMITTED] T0439A.133

[GRAPHIC] [TIFF OMITTED] T0439A.134

[GRAPHIC] [TIFF OMITTED] T0439A.135

[GRAPHIC] [TIFF OMITTED] T0439A.136

[GRAPHIC] [TIFF OMITTED] T0439A.137

[GRAPHIC] [TIFF OMITTED] T0439A.138

                                           Tuesday, April 28, 2009.

                       OFFICE OF COMPLIANCE (OOC)

                               WITNESSES

TAMARA E. CHRISLER, EXECUTIVE DIRECTOR
PETER AMES EVELETH, GENERAL COUNSEL
BARBARA J. SAPIN, DEPUTY EXECUTIVE DIRECTOR
SUSAN M. GREEN, DEPUTY GENERAL COUNSEL
ALLAN HOLLAND, FINANCE OFFICER

                Opening Remarks--Chair Wasserman Schultz

    Ms. Wasserman Schultz. Good afternoon. Our last agency for 
the day is the Office of Compliance.
    Ms. Chrisler, welcome back to the committee.
    The Office of Compliance is asking for a $4.5 million 
budget, a $400,000 increase from last year, which is about 10 
percent. We appreciate the work that you do making sure that we 
can deal with the life safety issues that exist in the Capitol 
of which there are a wide and varied assortment. They are a 
priority for me and have been since I began chairing this 
committee.
    But we are, as I have told every agency, in a situation 
where we need to understand what your ``got to haves'' are 
versus your ``nice to haves,'' so that is what we are going to 
be looking for during your testimony and questions.
    Mr. Aderholt.
    Mr. Aderholt. Thank you, Madam Chair. I want to welcome Ms. 
Chrisler, and we look forward to hearing your testimony.
    Ms. Wasserman Schultz. Your statement is entered into the 
record. You may proceed with a 5-minute statement.

                    Opening Statement--Ms. Chrisler

    Ms. Chrisler. Thank you, Madam Chair, Mr. Aderholt, and 
distinguished members of the subcommittee. I am honored to 
appear before you today in support of the Office of 
Compliance's 2010 request for appropriations.
    I would like to emphasize four major points from the 
written budget submission and our written statement, which is 
authorization and funding for an OSH program supervisor, 
funding for the already authorized compliance officer position, 
contract dollars for a fire safety specialist, and the Agency's 
cost savings effort.
    Initially, though, before we go on to the appropriations 
matters, I would like to mention something that might be on 
everyone's mind, which is the swine flu. I want to share with 
you what the Agency has been doing with respect to educating 
and informing the legislative branch of what our efforts are.
    We have been working with the Office of the Attending 
Physician and are currently collaborating with them on 
preparing a meeting for tomorrow, a legislative branch-wide 
meeting that will inform the campus and provide guidance on how 
to address pandemics in general and the swine flu in 
particular. This meeting will support the Agency's preexisting 
efforts to address pandemics. We have fast facts on our Web 
site, which are just publication information that are helpful 
to the covered community; we will be posting that on our Web 
site as well.
    Before I move on to 2010, I would like to thank the 
subcommittee for its support of our efforts in fiscal year 
2009. Because of the support of the subcommittee, we were able 
to do our job with respect to the Capitol Visitor Center. We 
were able to get in there and do preinspections and ensure fire 
safety concerns were addressed, and to ensure adequate 
accessibility issues were addressed for our visitors. And we 
thank you for allowing us to do our job. We appreciate that.
    We also thank the subcommittee for the support that we 
received for our budget request in fiscal year 2009. Because of 
the support of the subcommittee, we have been able to improve 
internal operations. We have been able to compensate our staff 
at a level that is equal to their performance, and we have been 
able to continue with our technical assistance. We thank you 
for that.
    For fiscal year 2010, we recognize the economic 
difficulties that the government and the country face, and we 
refrain from renewing certain unfunded requests from fiscal 
year 2009. I want to emphasize that. And I do want to emphasize 
that our request was made with that in mind. So we present that 
to you for your consideration.
    Our most critical item is the OSH program supervisor. 
Currently, that role is filled by a nonreimbursable detailee 
from the Department of Labor. This individual has over 30 
years' experience. He is a certified industrial hygienist. He 
provides technical expertise to our general counsel. He works 
with outside OSHA experts. He supervises the safety and health 
inspectors that we have, and he is retiring in calendar year 
2010 and we would like to replace him with a position on staff.
    We have been working with the Department of Labor for a 
nonreimbursable detailee. I am not sure how that is going to 
pan out. They have their own fiscal constraints and staffing 
issues as well. We are hoping that the committee will fund a 
position for us, as well as authorize a position for us, so 
that we can bring those duties on staff to increase 
accountability, as well as provide some consistency with our 
internal operations.
    Second, funding for our compliance officer position that 
the committee graciously authorized for us in fiscal year 2008, 
but was not able to fund for us, we are requesting funding for 
that this year. The compliance officer position is necessary to 
ensure that none of the hazards that we find fall through the 
cracks.
    In the 109th Congress, there were about 13,000 hazards that 
were identified. This past Congress, the 110th Congress, there 
were less, about 9,000. But we want to make sure that we are on 
top of monitoring the abatement of these hazards; and that is 
what this position will ensure.
    Also, fire safety specialist. In fiscal year 2009, we 
requested an FTE for that. Currently, we have reevaluated how 
to meet the needs of the covered community, and we have 
withdrawn our request for an FTE at this time and we are asking 
for contract dollars for that position.
    We have also reevaluated how to provide some of the 
training and outreach services that the Agency provides to the 
covered community, and we are not renewing our request for a 
trainer and ombudsman.
    In line with the fiscal constraints that are facing this 
subcommittee, as well as the government as a whole, we 
recognize our responsibility to reevaluate the way we do our 
business. So we are engaging in best practices and shared 
services with sister agencies to reduce our costs; and we 
continually strive to provide the needed resources with 
minimal, though adequate, resources.
    I thank you for the opportunity to appear before the 
subcommittee today. I am happy to answer any questions that you 
may have.
    [Ms. Chrisler's prepared statement follows:]
    [GRAPHIC] [TIFF OMITTED] T0439A.139
    
    [GRAPHIC] [TIFF OMITTED] T0439A.140
    
    [GRAPHIC] [TIFF OMITTED] T0439A.141
    
    [GRAPHIC] [TIFF OMITTED] T0439A.142
    
    [GRAPHIC] [TIFF OMITTED] T0439A.143
    
                      STAFFING INCREASE REQUESTED

    Ms. Wasserman Schultz. Thank you very much.
    Let me focus in on the OSH program supervisor, because I 
certainly understand the logic behind wanting to bring that 
person on staff. But if you can get it from the Department of 
Labor, since that model has worked so far, we would strongly 
encourage you to do that. We are all dealing with bottom lines 
here, and my strong preference would be not to have to fund 
that as a permanent position if you can get it from the 
Department of Labor.
    Do you know when you will know whether or not you can?
    Ms. Chrisler. We have spoken with them as recently as 
January of this year, and have really understood from them that 
they are--a lot of their senior level staff have been retiring 
as well, and those positions have not been refilled. So they 
are dealing with a limited pool of staff that they would be 
able to share with us at the experience level and credential 
level that our program needs.
    So looking realistically at filling the needs of our agency 
with a detailee from the Department of Labor, it doesn't look 
like it is going to come to pass.
    Ms. Wasserman Schultz. Because they don't have the 
experienced personnel that they detail to you?
    Ms. Chrisler. Yes, that they can detail to us.
    It is not that they don't want to, it is that they can't.
    Ms. Wasserman Schultz. And if you are choosing between a 
compliance officer and the OSH program supervisor, which is the 
higher priority?
    Ms. Chrisler. The OSH program supervisor.
    Ms. Wasserman Schultz. So if we can't do both of them, you 
could live without the compliance officer?
    Ms. Chrisler. The duties that the compliance officer will 
fill need to be done, so--living without the position is what 
we have been doing, and it is draining our resources. What we 
are doing is really having our inspectors fill the role of what 
the compliance officer would do. That is taking away hours and 
time from the inspectors.
    So, yes, we could do it. We have been doing it, but we 
would be more productive if we weren't having to do that.

                           RETENTION OF STAFF

    Ms. Wasserman Schultz. In the reports that you submit to us 
on a biweekly basis now, on your organizational chart you have 
a lot of vacancies. Are you having retention issues? You only 
have 20 employees, but you do seem to have a lot of vacancies.
    Ms. Chrisler. We have had some retention issues in the 
past. The support that we have received from the subcommittee 
with respect to fiscal year 2009 in allowing us to increase our 
salaries, I believe will address some of that. We are working 
with our oversight committees to address some of the benefits 
issues that we have, tuition reimbursement, student loan 
reimbursement.
    The subcommittee helped us in fiscal year 2008 with respect 
to internal promotion, allowing our staff to be promoted into 
one of the appointed statutory positions. That was very 
helpful, and that has helped us as well.

                             EEO COMPLAINTS

    Ms. Wasserman Schultz. Two other questions: When GPO was 
here earlier, I asked them about their EEOC and discrimination 
complaints. They don't seem to be abating, and they continue to 
have each week about the same number of discrimination 
complaints. It seems unusually high to me compared to the other 
legislative branch agencies. Have you worked with GPO? Or have 
any of those complaints come through your office, and what 
steps might you be taking to address them?
    Ms. Chrisler. We don't work with GPO. Our statute 
specifically does not give us jurisdiction over GPO with 
respect to these claims.
    Ms. Wasserman Schultz. Why not? Does anyone have 
jurisdiction over them?
    Ms. Chrisler. EEOC does. And so all of those complaints go 
to EEOC, and they are not processed through our office.
    Ms. Wasserman Schultz. Whereas a complaint within the House 
of Representatives or any of the other legislative branch 
agencies would go to you?
    Ms. Chrisler. With the exception of GAO and LOC. The GAO 
has their personnel appeals board, and the Library of Congress 
uses them as well.
    Ms. Wasserman Schultz. I am concerned that this continues 
to be the one agency that has dinosaur-like qualities that 
don't seem to be changing. I don't think it is for lack of a 
desire to change; it is just that it is going more slowly than 
I think it should.
    Ms. Chrisler. Although our statute doesn't give us 
jurisdiction over their claims, we have outreach services that 
we would love to offer GPO. If they chose to seek our 
assistance, we would be happy to help them.
    Ms. Wasserman Schultz. Thank you. That is good to know.

                       UTILITY TUNNELS MONITORING

    The utility tunnels: The abatement process, from what has 
been described by AOC, is ahead of schedule and is going well. 
It is costing far less than they originally predicted. Do you 
agree with that assessment?
    Ms. Chrisler. Yes. Progress is steady, and it is ahead of 
schedule. And from what they have shared with us, it is under 
budget as well. And if funding continues to go along as 
anticipated, we expect that progress will continue.
    Ms. Wasserman Schultz. That is what I like to see: ahead of 
schedule and under budget.
    I am going to end on a high note.

                       HAZARDS IN MEMBER OFFICES

    Mr. Aderholt. Your testimony states that hazards in 
Members' offices have decreased by 5 percent in the past 5 
years?
    Ms. Chrisler. Yes.
    Mr. Aderholt. What efforts have been made by your office 
that have attributed to this decrease?
    Ms. Chrisler. I think it is working collaboratively with 
the Office of the Architect of the Capitol, as well as the AOC 
House Superintendent, along with the outreach efforts that we 
have made.
    The fast facts that we publish on our Web site are very 
practical. A lot of the employing offices and employees find 
them very useful, as well as the employee representatives. So 
it is our education efforts and our outreach efforts, along 
with our collaborative work with the AOC and the 
Superintendent--and the CAO's office as well.
    Mr. Aderholt. Regarding caseloads, how many cases do you 
currently have open?
    Ms. Chrisler. With respect to safety and health or just in 
general?
    Mr. Aderholt. In general.
    Ms. Chrisler. I would not be able to pull that number off 
the top of my head.
    Mr. Aderholt. We talked a little bit about this earlier, 
but what seems to be the most prevalent among the cases that 
you see? What comes before your office?
    Ms. Chrisler. We see a lot of minor safety and health 
violations, the daisy chain cords that are plugged one into the 
other.
    We see a lot of retaliation cases with respect to the 
workplace rights area, the dispute resolution program, the 
EEOC-type of issues.
    We see a mixture of age and race and gender claims. Not to 
say that this is running rampant among the legislative branch 
agencies, but looking at the types of claims that we see, these 
are the cases that we see.
    There are, of course, significant, long-standing more 
serious hazards that we see with respect to fire and safety 
issues, as well as the utility tunnel concerns that are 
progressing as well. So there are a number and mixture of 
claims that are presented to our office.

                        ADDITIONAL OFFICE SPACE

    Mr. Aderholt. When you came into my office a few days ago, 
one thing that you mentioned was that you need more office 
space?
    Ms. Chrisler. Yes.
    Mr. Aderholt. On this request for the 2010 budget, does 
that take into account additional, trying to accommodate that?
    Ms. Chrisler. Thank you for the question.
    The 2010 appropriations request does not include our need 
or continued request for additional office space. That is 
something that we have been working on with our oversight 
subcommittees, as well as staff from this committee. We are 
very grateful for the assistance.
    We have looked at the need for the person power, and will 
address the space as it comes along, performance and work needs 
to be done.
    So we have prioritized the need for the additional 
resources and will continue to work on getting the additional 
space. And that is something that has prevented us from moving 
forward in the past with filling certain positions. But 
certainly we are at the point now where the resources need to 
be filled and the space issues continue. And we continue to 
address them. Thank you.
    Mr. Aderholt. That is it for me. Thank you.
    Ms. Wasserman Schultz. Thank you.
    Ms. McCollum.

                         UTILITY TUNNEL WORKERS

    Ms. McCollum. I would like to follow up with the issue of 
the settlement with the workers in the tunnel, realizing some 
of it might be an ongoing process and can't be discussed openly 
here.
    Who is taking the lead on that, you or the Architect of the 
Capitol?
    Ms. Chrisler. Our office is. With respect to the utility 
tunnels and the issues entered into the settlement agreement of 
the Office of Compliance and the Office of the Architect of the 
Capitol, we have a tunnels liaison who works with the AOC's 
liaison. They have a very collaborative working relationship, 
and the process and the lines of communication are open and 
progress is going very well with them.
    With respect to individual complaints filed by workers, 
that is something our office is not at liberty to discuss, and 
it is not involved in that process.
    Ms. McCollum. So if someone signed an agreement, and later 
on other things come to light through you, you have the ability 
to have their issues addressed?
    Ms. Chrisler. Yes. Within our procedural rules, as well as 
the statute, there is a process for claiming an allegation of 
violation of a settlement agreement. Those allegations do come 
through our office and to my attention.
    Ms. McCollum. Madam Chair, I know from serving in the Rules 
Committee at the State level, and serving on the city council, 
that you can go into closed session to discuss things that are 
personal.
    Ms. Wasserman Schultz. Yes.
    Ms. McCollum. I would like at some point a closed session, 
working with our friends on the other side of the aisle, to 
find out what is really going on. Because on my watch, I don't 
want to say I just didn't know if at some point things weren't 
settled in a way that we as Members of Congress would want to 
see them handled.
    Ms. Wasserman Schultz. In particular, you're talking about 
with the tunnel workers?
    Ms. McCollum. Yes.
    Ms. Wasserman Schultz. So that we can get feedback from 
them?
    Ms. McCollum. In a closed session, not in a public session, 
because I think with all of that, we read press articles, we 
hear different sides of the story, and we don't have a chance 
for a robust discussion.
    I'm not saying that I want to get into the middle of 
negotiating or opening discussions up, but I want to know for 
myself whether or not, in my mind and in my set of personal 
values, if things were handled in a way--without reopening some 
of the issues, knowing what we know now--that is the most 
expedient and to the highest moral standards as to how we 
should treat one another?
    Ms. Wasserman Schultz. Mr. Aderholt and I will talk about 
how we might approach a hearing like that. Thank you for the 
suggestion.
    Mr. Cole.
    Mr. Cole. Thank you, Madam Chair.

                        PREVENTION AND EDUCATION

    Mr. Aderholt gave a description of the 100 or so employment 
dispute cases that you have had to deal with or probably a 
fallout category, in terms of categories. When you look at it 
broadly, were these things that could have been avoided for the 
most part?
    I guess what I'm trying to get is, I'm trying to remember 
through the haze of my orientation, what we were actually told. 
We now have a fairly considerable body of experience, and 
certainly chiefs of staff and probably Members themselves ought 
to think about before you stumble into a problem that is always 
a challenging problem to work through at the end of the day.
    So given that, are there things that we ought to be doing 
as an institution or as individual Members so these problems 
don't get to you in the first place?
    Ms. Chrisler. Sure. That is what the focus of our education 
and outreach programs is all about. It is educating, reaching 
out to Member offices and employing offices so we can share 
with you best practices, so we can share with you and educate 
on where a violation might exist so you can prevent it, because 
we certainly believe that prevention is going to save money in 
the long run. And everyone wants to do that.
    So one of the major focuses that we will be--we have a new 
strategic plan that we are going to be developing come the 
beginning of fiscal year 2010. And one of the major focuses of 
that plan will be increasing our education and outreach efforts 
and educating the Member offices and employing offices so that 
we can prevent a lot of the hazards, a lot of the workplace 
differences.
    Sometimes it is just miscommunication. Sometimes it is not 
knowing what the responsibilities are or the rights are under 
the statute, and that is our responsibility. That is something 
that we are going to be looking at.
    Ms. Wasserman Schultz. Thank you very much.
    I don't have anything else.
    Mr. Aderholt. Thank you.

                  ADDITIONAL ASSIGNMENT FROM THE CHAIR

    Ms. Wasserman Schultz. The homework I want to ask you for 
relates to the lingering health and life safety problems that 
we have and will have for the foreseeable future, and that I am 
really committed to trying to get a handle on and take a bite 
out of every fiscal year that goes by. And both you and the 
Architect of the Capitol have testified that these are problems 
that will take years and large amounts of funding to address.
    But before you can solve a problem, you need a complete and 
total picture of what the problem is. So if you can please 
submit a brief report by Friday, May 8, describing the Office 
of Compliance's view on the current scope of those problems and 
the level of effort that would be required to fully address 
them. Please include in the report a brief explanation of the 
number of infrastructure citations currently on the books, as 
well as the number of infrastructure citations as dated today.
    With that, thank you to everyone for coming today. The 
subcommittee stands in recess until tomorrow, April 29, at 
1:30, when we will hear from the Library of Congress and Open 
World, on their fiscal year 2010 budget requests.
[GRAPHIC] [TIFF OMITTED] T0439A.144

[GRAPHIC] [TIFF OMITTED] T0439A.145

[GRAPHIC] [TIFF OMITTED] T0439A.146

[GRAPHIC] [TIFF OMITTED] T0439A.147

                                         Wednesday, April 29, 2009.

                          LIBRARY OF CONGRESS

                               WITNESSES 

DR. JAMES H. BILLINGTON, THE LIBRARIAN OF CONGRESS, LIBRARY OF CONGRESS
JO ANN C. JENKINS, CHIEF OPERATING OFFICER, LIBRARY OF CONGRESS
ELIZABETH R. SCHEFFLER, CHIEF OF OPERATIONS, COPYRIGHT OFFICE, LIBRARY 
    OF CONGRESS
DANIEL P. MULHOLLAN, DIRECTOR, CONGRESSIONAL RESEARCH SERVICE, LIBRARY 
    OF CONGRESS
DEANNA MARCUM, ASSOCIATE LIBRARIAN FOR LIBRARY SERVICES, LIBRARY OF 
    CONGRESS
LAURA CAMPBELL, ASSOCIATE LIBRARIAN FOR STRATEGIC INITIATIVES, LIBRARY 
    OF CONGRESS
DONNA SCHEEDER, ACTING LAW LIBRARIAN, LIBRARY OF CONGRESS
KURT CYLKE, DIRECTOR, NATIONAL LIBRARY SERVICE FOR THE BLIND AND 
    PHYSICALLY HANDICAPPED, LIBRARY OF CONGRESS
JEFFREY PAGE, CHIEF FINANCIAL OFFICER, LIBRARY OF CONGRESS
KATHLEEN OTT, EXECUTIVE DIRECTOR, CONGRESSIONAL RELATIONS OFFICE, 
    LIBRARY OF CONGRESS
MARY J. KLUTTS, BUDGET OFFICER, LIBRARY OF CONGRESS
NANCY EICHACKER, BUDGET FORMULATION COORDINATOR, LIBRARY OF CONGRESS

                Opening Remarks--Chair Wasserman Schultz

    Ms. Wasserman Schultz. Good afternoon. I would like to call 
this meeting of the Legislative Branch Subcommittee on the 
House Committee on Appropriations to order. This afternoon we 
will hear from the Librarian of Congress, Dr. James Billington, 
both on the Library's budget request as well as the request for 
the Open World Leadership Center. We will also hear from 
Ambassador John O'Keefe, the Executive Director of the Open 
World Leadership Center.
    Dr. Billington, it is wonderful to be here with you once 
again. Thank you very much for all the work that you do. The 
Library is an absolute jewel in the crown of the Congress and 
our best foot forward, in my opinion, of the democracy that we 
represent and the information that we have made accessible 
through your efforts and your vision to the entire world. It is 
just absolutely incredible.
    I know you have asked for a $658 million appropriations 
request for 2010. If you adjust for the transfer of the Library 
police officers to the Capitol Police, we are at about a 10 
percent increase over the comparable amount for the current 
year. That would, if approved, result in about a $100 million 
increase over 2 years.
    We were able to do quite a bit to address the needs of the 
Library in fiscal year 2009, and we are quite proud of that. I 
don't imagine that we are going to be able to do quite as much 
this fiscal year, and so it would be helpful if you identify 
your main priorities. I know your technology initiative is one 
of those priorities. So I look forward to hearing about that. 
But I know you have life safety issues that you need addressed 
and, quite frankly, when we get to the Open World portion, 
because you have competing priorities, we are going to need to 
examine what those are as it relates to Open World as well.
    So with that, Mr. Aderholt.

                     Opening Remarks--Mr. Aderholt

    Mr. Aderholt. Well, thank you, Madam Chair. Thank you, Dr. 
Billington, for being here and everybody from the Library of 
Congress for your dedication to the Library and all that you 
do. And again we want to thank you for the tour that we had 
back a few weeks ago. That was very helpful. So we thank you 
for all that you do.
    So I look forward to hearing your testimony this afternoon. 
Thank you.
    Ms. Wasserman Schultz. Dr. Billington, your full statement 
will be entered into the record and you can proceed with a 5-
minute summary.

                   Opening Statement of the Librarian

    Dr. Billington. Thank you, Madam Chair. It is an honor to 
be here, Madam Chair and Mr. Aderholt and members of the 
subcommittee, to present to you the fiscal 2010 budget request.
    I want to first of all thank you again, Madam Chair, for 
your active interest in and support of the Library. For 
complete funding of the 2009 budget, we are particularly 
grateful. We are honored also that you chose to be sworn in 
this year with a Bible from our collection, the first Bible 
printed in Hebrew in the United States in 1814.
    Mr. Aderholt, we appreciated very much the time you spent 
with the curators and staff this last month. We look forward to 
working with you and with all of the members of the 
subcommittee. We had the privilege of meeting all the others 
here as well. So we really look forward to it.
    Now in fiscal 2010 we are requesting actually an increase 
of 8.1 percent, of which 4.6 percent represents funding for 
mandatory pay and price level increases. 0.4 percent is for 
discrete investments necessary to sustain continuing projects, 
and the remaining 3.1 percent will support a critical 
investment in updating and enhancing the Library's technical 
infrastructure. That is the major new element that we are 
presenting today.

                 TECHNOLOGY INFRASTRUCTURE REQUIREMENTS

    We have moved from traditional business systems of 
personnel, finance, cataloging, and management of information 
systems to an environment where we now take in and are managing 
fast-changing digital formats that include e-journals, e-books, 
digital TV, websites, digital images, digital audio and video, 
and the like, even whole broadcasts from the web.
    Each of our program areas--CRS, Library Services, the Law 
Library, the Office of Strategic Initiatives, and the Copyright 
Office--must now deal with all aspects of digital works: 
acquiring, preserving, and providing access to them. Over the 
past 15 years, separate systems have been built to meet these 
individual program needs as they have emerged and been 
identified. The Library has been very successful in delivering 
the new services Congress and the American people have asked of 
us. Some of the systems are new, like the Copyright Office's 
online registration system. Others rely on what has become very 
dated technology.
    The Library has not sought any increase in base funding for 
technological infrastructure since the year 2000. We now have a 
pressing need to modernize our underlying Library technology 
infrastructure so that we support our diverse and vastly 
increased digital activity more efficiently, and with more 
unified library-wide systems that can be adjusted and scaled up 
economically to sustain services and meet new user demands as 
technology changes. Scalability, in other words, is an 
important component.
    We are now providing far more services, and I say far more 
services, with 1,000 less FTEs than we had in 1992, when we had 
barely begun the Library's digital transformation. Our entire 
technology request builds upon successful results achieved and 
unique experience gained with the variety of our digital 
initiatives.
    We are now poised to develop core infrastructures that can 
be used by all parts of the Library. The launch last week with 
UNESCO of our World Digital Library, to extraordinary 
international acclaim, with 20 million page views in its first 
4 days online and with something from all 192 countries in 
UNESCO, is proving to be a useful catalyst for building a new 
technological platform with reusable, scalable, and multimedial 
components.

                               FT. MEADE

    In conclusion, Madam Chair, let me highlight our Ft. Meade 
request. Having the space to store so much of America's 
creativity and of the world's knowledge in environmentally 
controlled facilities is critical to sustaining the historic 
mission of the Library. The Ft. Meade program, already 8 years 
behind schedule, has achieved 100 percent retrievability and is 
essential for preserving and making accessible our uniquely 
comprehensive collections for the Congress and the Nation.
    The Library of Congress is the Nation's oldest cultural 
institution. It is a unique trove of information, knowledge, 
and creativity. Today, when technology is transforming the way 
knowledge is generated and how we deliver our services to 
Congress and the Nation, the Library is renewing and expanding 
its role in our knowledge-based democracy, as you indicated in 
your opening remarks.
    We look forward to working with this committee to craft a 
budget for fiscal 2010, and I thank you and the Congress for 
continuing to be the greatest single patron of the Library--of 
any library in the history of the world.
    [The statements of Dr. Billington, Mr. Mulhollan, and Ms. 
Peters follow:] 
[GRAPHIC] [TIFF OMITTED] T0439B.001

[GRAPHIC] [TIFF OMITTED] T0439B.002

[GRAPHIC] [TIFF OMITTED] T0439B.003

[GRAPHIC] [TIFF OMITTED] T0439B.004

[GRAPHIC] [TIFF OMITTED] T0439B.005

[GRAPHIC] [TIFF OMITTED] T0439B.006

[GRAPHIC] [TIFF OMITTED] T0439B.007

[GRAPHIC] [TIFF OMITTED] T0439B.008

[GRAPHIC] [TIFF OMITTED] T0439B.009

[GRAPHIC] [TIFF OMITTED] T0439B.010

[GRAPHIC] [TIFF OMITTED] T0439B.011

[GRAPHIC] [TIFF OMITTED] T0439B.012

[GRAPHIC] [TIFF OMITTED] T0439B.013

[GRAPHIC] [TIFF OMITTED] T0439B.014

[GRAPHIC] [TIFF OMITTED] T0439B.015

[GRAPHIC] [TIFF OMITTED] T0439B.016

[GRAPHIC] [TIFF OMITTED] T0439B.017

[GRAPHIC] [TIFF OMITTED] T0439B.018

[GRAPHIC] [TIFF OMITTED] T0439B.019

[GRAPHIC] [TIFF OMITTED] T0439B.020

                  PRIORITIES AND TECHNOLOGY INITIATIVE

    Ms. Wasserman Schultz. Thank you very much, Dr. Billington.
    Just to begin more broadly, as I mentioned, if you look at 
it without the Library of Congress police transfer, you are 
asking for a more than 10 percent increase. And it is not that 
I don't think it is justified. It is simply that we are in a 
world of very limited resources, and I have said the same thing 
to every agency that has come in front of us, and I know you 
are aware of that.
    Assuming we are not able--which is a safe assumption--to 
fund your full request, where would you begin to prioritize 
your programmatic increases and the requests that you have 
made? The largest single increase proposed in your budget is 
$15 million for upgrading technology at the Library as part of 
your 5-year technology initiative, which would cost 
approximately $75 million over that period. Can talk about that 
program a little bit? As we were reading through the report, 
there didn't really appear to be an end point to the technology 
project.
    My question with the technology project, are you really 
just asking for an increase in your base funding or is there an 
actual finite program that has an end point?
    Dr. Billington. The majority of the technology request is 
base funding. I would say in terms of priorities, our first 
priority is always mandatory pay and price level increases. But 
information technology infrastructure is really an essential 
priority and our request also includes $2.7 million for GLIN, 
the Global Legal Information Network, for the Law Library, and 
the CRS Web site enhancement of $1.8 million. It also includes 
something for the Legislative Information System. We recognize 
this is a substantial amount.
    It is all in a sense dependent on modernization of the 
Library-wide infrastructure. We hesitated to bring forth this 
infrastructure request until we analyzed it pretty thoroughly. 
The specific requirements are built on our experience, much of 
which is one-of-a-kind experience. There are three levels, or 
tiers, in it that are interrelated. There isn't one tier that 
could be cut out entirely. If we had to make reductions, we 
would have to do it pretty much across the board, because you 
have to have the integration of the three tiers of the 
technology infrastructure request. In terms of the two main 
priorities, they are the mandatory pay raises and price levels 
and the technological infrastructure. We can discuss this with 
you in more detail.

              TECHNOLOGY FUNDING VERSUS OPEN WORLD FUNDING

    Ms. Wasserman Schultz. The technology initiative is among 
your top two priorities in your request. That initiative is new 
and it is $15 million. You are also asking that we continue an 
almost $15 million appropriation for Open World, which is, at 
least in my opinion, not an appropriate fit for the Legislative 
Branch Subcommittee's budget. It is a worthwhile program. But 
given the needs that have been underscored agency after agency, 
and you are suggesting that you need $15 million for this very 
vital program, how is it that we can continue to justify $15 
million for Open World when you need $15 million for a 
technology initiative which would be much more broad-based, 
help a lot more people, provide access to information which is 
much more aligned with the legislative branch's mission?
    Dr. Billington. Well, it is obvious that the committee----
    Ms. Wasserman Schultz. I am speaking only for myself. 
    Dr. Billington. And for you, Madam Chair, to evaluate these 
things. But they are two separate agencies. I happen to be 
chairman of the board of Open World, but Ambassador O'Keefe 
will talk about it subsequently.
    Ms. Wasserman Schultz. I know this matters to you a great 
deal, and I want your opinion.
    Dr. Billington. It is not a question of me. It is a 
question of an opportunity for the country because Open World's 
tenth anniversary is here. It is a crucial stage in the 
development of our relations with this country and defining the 
whole region of the former Soviet Union, and----
    Ms. Wasserman Schultz. But how do we do both?
    Dr. Billington. I beg your pardon?
    Ms. Wasserman Schultz. How are we supposed to do both? If I 
am forced to make choices, do you prefer we continue to fund 
Open World, or do you prefer we give you $15 million for a 
technology initiative? That is a choice that we are going to 
have to make. We just don't have that many places that we can 
get $15 million. Just food for thought.
    Dr. Billington. I appreciate it. But I am here basically to 
testify for the Library of Congress and its long-deferred 
technology requirements. The only point I would make on the 
other side is that Open World is an opportunity, an unusual 
opportunity for the United States. It is not a question of my 
affection for the program. I think we take a bipartisan view of 
these other matters, but I would be happy to discuss it with 
you in whatever format you would like.

                            LIBRARY'S NEEDS

    The Library's needs are what I am here primarily to testify 
for, and I have to stress that the technology infrastructure 
needs are long deferred and clearly affect our core mission. If 
we are going to acquire and preserve and maximize access in a 
democratic way, I think the World Digital Library and a lot of 
these things are going to be very valuable for Americans and 
for the educational mission that we have taken on.
    Those are our priorities. On the other matter I think you 
need to hear from Ambassador O'Keefe.
    Ms. Wasserman Schultz. We will, but I just wanted to raise 
it.
    Dr. Billington. In the current difficult economic times, no 
one should be asking anybody in the Congress for appropriations 
for things that aren't important for the country. And 
obviously, superimposing a digital library on the traditional 
library without diminishing traditional services is an 
important service for the country. Publications have increased 
40 percent worldwide in the last decade. So it is not just that 
published things are disappearing but that publishing itself is 
experiencing enormous growth. The unique role of the Library of 
Congress is increasing. So I think this request is of 
fundamental importance to this institution, the Congress and 
the Nation.
    The Open World program is an opportunity. There are not 
many initiatives that are this size and that have had this kind 
of an impact. I have been involved in exchange programs for 50 
years, and I really think this is, from the point of view of 
national interest, probably the most pound-for-pound effective 
one that I have seen. But I am happy to work with you.
    Ms. Wasserman Schultz. And you have worked with us. My time 
has expired. I know it is like asking you to choose among your 
children, and I know that is hard for you.
    Dr. Billington. It is a wonderful analogy.
    Ms. Wasserman Schultz. I am a mom. So that is the first one 
that came to mind. We can talk some more about it.
    Mr. Aderholt.

                         WORLD DIGITAL LIBRARY

    Mr. Aderholt. Last week it was my understanding from the 
meeting at UNESCO headquarters in Paris the Library of Congress 
wants to operate the World Digital Library. I would just ask 
you to update the subcommittee on this major initiative which 
really brings the world's cultural treasures together. Tell us 
a little bit about that.
    Dr. Billington. Well, that is based on the experience of 
the National Digital Library, which has now online 15.3 million 
primary documents of American history and culture with a lot of 
experience gained over the years. After some experiments with 
foreign bilingual Web sites that were very successful, we 
proposed the World Digital Library after we rejoined UNESCO. 
UNESCO adopted it as an international project last week. There, 
it is something from 192 countries in the WDL to make it clear 
that this is truly a worldwide program. There was a tremendous 
response. We have 32 partners; 19 nations have contributed to 
the World Digital Library.

                     GATEWAY TO CULTURAL KNOWLEDGE

    The Library of Congress is such a rich treasure trove. This 
international initiative has been extremely helpful in 
expanding our Web presence and overcoming the digital divide, 
making available information, historical memory, important 
cultural documents that both stimulate thinking and increase 
respect and understanding of our own culture and that of 
others.
    This of course ties right back to the request for resources 
to support all of the Library's digital programs. It is very 
important for Americans and American schools. We are reaching 
an enormous audience on our international Web site, and the 
World Digital Library adds an enormous dimension to it. It is 
not just democratizing and acknowledging information. It is 
also bringing knowledge of other cultures to America, to the K 
through 12 audience, on which we are having such an impact and 
a growing educational relationship.
    The World Digital Library has fascinating content. We have 
the Mexican codexes online, and an 8,000 B.C. manuscript from 
South Africa. These are great cultural treasures. All content 
is accompanied by expert commentary from curators and scholars. 
Therefore it is dependable, and it is very educational. It 
stimulates critical thinking as well, because you can see these 
items online--the Mexican codexes, bones from ancient China, 
the first map of the New World, and you can zoom in. There are 
all kinds of electronic enhancements. So we think this is a 
major contribution, to extend this to the world and in effect 
to repatriate what people don't realize that America has. Our 
country has preserved many of the cultural treasures of the 
world. Now we are giving it back. We have more holdings than 
many countries do, for example, some countries in Latin America 
and Africa. We are giving these things back free of charge, 
cooperatively with other countries, and this effort has 
certainly been hailed. Practically everybody in UNESCO is 
interested in joining this. This program has a very small staff 
with very high skills. We have done this with private money. We 
could give you a whole pile of international clippings about 
the World Digital Library.
    Mr. Aderholt. The attention it has received?
    Dr. Billington. A couple of them have said that this is one 
of the best things we have seen America do for the world in a 
long time. The young people in many developing countries are 
living in an increasingly audio visual world. In the developing 
world are very young cultures. Seventy percent of the 
population of Iran, for instance, is under the age of 25, and 
that is typical of many of the developing countries in which we 
have problems. We reach everybody through our online presence, 
and I think it is an American accomplishment.

                  PUBLIC OUTREACH AND PRIVATE FUNDING

    We will add to this presence with the new information that 
you can now see in the public spaces of the Jefferson Building, 
with the new interactive online experience, with technology 
that is not yet on the public market. This is a very dynamic, 
entrepreneurial activity of the Library, done principally with 
private money and private support and partner cooperation. So 
when people come here, they can see original documents and then 
go back and teach and learn and be stimulated, not only about 
other countries, but also about our own, to start the process 
of critical thinking.
    We have had two conferences funded by the Gates Foundation 
this last year on how to provide dynamic educational resources 
to the K through 12 community. And one of the ways is to get 
people asking questions. This is disproportionately valuable in 
the inner cities and other countries. Strong audio visual and 
documentary content and Web access open to all is essential.
    Mr. Aderholt. Before my time runs out----
    Ms. Wasserman Schultz. It is a little bit over.
    Dr. Billington. But it all depends on our infrastructure. 
We are turning to technology infrastructure resources as a 
guarantee for hopes of continuity of the future.
    Ms. Wasserman Schultz. We will put the reins on your 
enthusiasm just so we are not here the entire afternoon. I say 
that with affection, just so you know.
    Dr. Billington. Sorry about that.
    Ms. Wasserman Schultz. Ms. McCollum.

                   HILL MUSEUM AND MANUSCRIPT LIBRARY

    Ms. McCollum. Well, it is good to see you again. And I 
really enjoyed our discussion last month about developing a 
partnership between the Library of Congress and the Hill Museum 
& Manuscript Library to help with their public ancient 
threatened manuscripts in the Middle East, Africa, and 
countries in the former Soviet Union. Madam Chair, this is a 
very exciting opportunity.
    There is a museum at St. John's University in Minnesota 
that through digital cameras and just sometimes it is a monk, 
sometimes it is a trained volunteer to go into other parts of 
the world, working with local religious leaders, working with 
local community leaders to preserve--nothing is removed--
preserve through using digital means ancient manuscripts. And 
they are at a point where they have collected more than they 
can catalog and to do some things with. And it is the perfect 
opportunity from the UNESCO standpoint that you were talking 
about earlier to have these things digitized and share back 
with countries as well as having them available for our 
scholars and for our citizens to take a look at.
    So I look forward to working with you and the subcommittee. 
It is a very cost-effective, very efficient opportunity to show 
the best and brightest of the Library of Congress and the 
American people.

                    IMPORTANCE OF FT. MEADE STORAGE

    But I want to ask you a little more about the Ft. Meade 
site which, as you pointed out, was 8 years behind schedule. 
You are going to expand your capacity this summer. And why is 
that so important?
    I worked on the Wilson Library at the University of 
Minnesota, where we had collections that we needed to store and 
care for properly. And sometimes people don't understand the 
importance of offsite storage for libraries. They think if it 
is out of sight, it is out of mind. You don't need it anymore. 
So talk a little more about--maybe give some examples of why 
Ft. Meade is going to be so important to you.
    Dr. Billington. Well, Ft. Meade offsite storage is really 
essential to our mission. We have talked a lot about digital 
things. But the published books, published works have increased 
by 40 percent globally in the last decade. The explosion in 
digital publishing has led to no decline in print publishing. 
And so it is essential to be able to keep them.
    Three million books and bound periodicals have already been 
moved to Modules 1 and 2, and we begin occupancy of Modules 3 
and 4, where we will store special collections materials, in 
June. We have had a 100 percent retrieval rate for books moved 
to Ft. Meade. Collection materials are retrievable because this 
is a very modern system of storage, and we have now had a lot 
of experience with it. As I have said, you can't beat a 100 
percent retrieval rate. Ft. Meade is close by, and retrieval is 
rapid.
    We have had a very good relationship with the Architect of 
the Capitol as Ft. Meade facilities have been designed and 
built. We want to support the Architect's request to begin 
Module 5 because books now are beginning to pile up, a 
circumstance that guarantees that some will not be found. We 
now have something like 671 miles of shelf space that would 
reach from here, I don't know where, probably to Minnesota.
    By the way, we look forward to collaborating with the Hill 
Museum and Library. That is a spectacular, unique operation 
which could very much enrich the World Digital Library. We have 
had some contact with your people and I have visited there 
myself. We will make sure we visit the Middle Eastern Division. 
We will be in touch with your people. I thank you for bringing 
that to our attention.
    The essential task of maintaining original materials is 
basically why Ft. Meade is so important. We are pretty much a 
library of record, and preserving these materials is a national 
service of sometimes international importance. Ft. Meade has 
worked out very well and we hope we can continue to develop 
additional modules.
    Ms. McCollum. Thank you, Madam Chairwoman. I guess the 
secret to finding things on my desk would be not just to have 
it piled up but to have it retrieval ready.
    Ms. Wasserman Schultz. Thank you.
    Mr. LaTourette.

                         THANKS TO THE LIBRARY

    Mr. LaTourette. Well, thank you, Madam Chairman. I want you 
to know I sprinted from the floor to be here and I want to, for 
the purpose of the record, thank Dr. Billington. When he came 
to visit, I told him one of my favorite folks in history is 
James Garfield, the 20th President of the United States. I 
heard a very fascinating story that sort of intertwined 
Alexander Graham Bell, who you will remember for other things, 
but after President Garfield was shot in a train station by a 
fellow who had basically untreated syphilis and had gone crazy. 
He didn't die for a long period of time and was actually 
transported to the Jersey shore when he passed away. And 
Alexander Graham Bell was commissioned to invent basically the 
first metal detector. When he was passing the metal detector 
over the President's body to try and find the bullet, he was 
unsuccessful, but later discovered that because the President 
was lying on a bed with metal springs it sort of screwed up the 
process. But Dr. Billington was kind enough to get me Alexander 
Graham Bell's letter to his wife expressing his disappointment. 
And it is one of the things that really makes the Library 
amazing to read a letter that he had written to his wife about 
the failing health of the President. It was fascinating, and I 
thank you very much. I wanted to do that publicly.
    Madam Chairman, my questions today are more directed to CRS 
and so with your permission, could we ask Mr. Mulhollan--not 
that I want to ignore you but I have seen how you turn a simple 
question into a 5-minute answer.
    Ms. Wasserman Schultz. Yes. Mr. Mulhollan.

                         CRS INTERNSHIP PROGRAM

    Mr. LaTourette. Mr. Mulhollan, welcome. We had a hearing, I 
don't know, yesterday, a couple days ago with GAO and Ms. 
McCollum I thought asked a wonderful question about 
institutional knowledge. And Mr. Cole was kind enough to ask a 
question about their internship program. And so in your 
testimony that you submitted in writing, I notice on page 5 you 
talk about the concept that you have introduced of section 
research managers.
    Mr. Mulhollan. Right.
    Mr. LaTourette. And the GAO experience is, they indicated 
to Mr. Cole that in their internship program they make offers 
to 70 percent of the people that intern with them and 70 
percent of the people they make offers to accept those offers.
    I understand that you had something called a capstone 
program, is that right?
    Mr. Mulhollan. That is correct.
    Mr. LaTourette. And is the capstone program an internship 
program? Or what is the capstone program?
    Mr. Mulhollan. Okay. You have identified actually three 
separate areas. The section research managers were competitive 
hires to facilitate and manage research within CRS.
    Mr. LaTourette. I asked them separately.
    Mr. Mulhollan. The capstone program supports research 
partnerships with about 20 universities across the country. A 
number of public policy schools have capstone programs, which 
are one-to-two semester courses in which the class works with a 
client to analyze a public policy question. And so what we do 
with public policy schools such as the LBJ School of Public 
Affairs, the Bush school at Texas A&M, Columbia University SIPA 
program, the Maxwell school at Syracuse University and other 
schools across the country, and in consultation with House and 
Senate committees, identify a research problem that will be 
deliberated within the Congress in the near term. The schools 
in turn supplement our research efforts so that information and 
analysis will be available to the Congress in time for 
reauthorization, oversight and legislative activities. An 
example of one such partnership was one undertaken with the 
Bush school on election administration and it was completed in 
time for the reauthorization of HAVA in House Administration. 
Not only did we have the research, we also had exposure to the 
faculty and students of the school. Because we have a passion 
for anonymity Universities are often not fully aware of what we 
do. These programs expose partner schools to job opportunities 
at CRS.
    Mr. LaTourette. My question is, I think it is a great 
program. How many capstone students, graduate students has the 
CRS hired?
    Mr. Mulhollan. That is a good question. I will find that 
out and get to you. We have separate intern programs as well. 
We have had Presidential management fellows, the HACU intern 
program and others. We have hired staff from these programs. 
And we have a student diversity program. Last year we sponsored 
24 students from historically black colleges.
    The challenge we have is that when you look in all the 
fields from which we recruit, which is all the major 
disciplines, we have a challenge of the fact that only about 10 
percent are minority. And so we had tried to get undergraduates 
between their junior and senior year to work over a summer and 
encourage them to get graduate degrees so that they can 
successfully compete for jobs. We have hired three out of the 
diversity program at this point. We have had a larger number, 
and I will give you the numbers on that, of Presidential 
management fellows. I would say 10 in 2008.
    [The information follows:]

    Question. How many Presidential Management Fellows did CRS 
bring onboard in 2008?
    Response: Ten.

    Mr. LaTourette. Okay. If you would be kind enough to get me 
that information.
    Mr. Mulhollan. Sir, I will give you those numbers.

                    SECTION RESEARCH MANAGERS IN CRS

    Mr. LaTourette. And how many senior research people, 
managers do you have?
    Mr. Mulhollan. In each of the Research Divisions we have an 
assistant director, a deputy assistant director, and between 
five and six section research managers. Section research 
managers generally manage about a dozen people, and have the 
expertise that allows them to have substantive dialogue with 
the analyst about the research and to ensure quality products 
and services that draw on the disciplines. For instance, the 
woman who heads our public health heads a group made up of a 
physician, an epidemiologist, a macroeconomist, and an aging 
specialist. So you want someone who can ensure the quality 
examination of the research as it goes through the research 
process and division review.
    Mr. LaTourette. I think that is my question. So what is the 
skill set of the woman--the person that is supervising all 
these folks with all these----
    Mr. Mulhollan. They are experts with knowledge of a range 
of disciplines within their section. For instance we are in the 
process of hiring someone who is an expert on trade--a trade 
economist for a vacant position in our trade section. We also 
have someone who is the head of our Congress section, she is 
someone who has her Ph.D. and has taught. She knows relevant 
disciplinary literature and has the skills and experience to 
lead the examination of the institution of Congress. And so in 
each instance a section research manager is someone who has the 
disciplinary competency for that cluster of issues managed in 
each of those sections.
    Mr. LaTourette. That is what I wanted to get at. And that 
is, are the senior or the section research managers, are they 
analysts?
    Mr. Mulhollan. They are research managers. Their role is 
not only to understand the analysis of the issue but also to 
develop relationships with committees that have jurisdiction 
over those issues, and to know the capacities elsewhere in the 
Service upon which to draw. We are increasingly finding that 
there are fewer and fewer issues that are not interrelated. So 
we are bringing the attorney, the economist, the scientist 
together at the table. They support collaboration which results 
in integrated analysis and they have capacities to identify 
those with the needed expertise to assist. Their challenge is 
to do just that.
    Mr. LaTourette. I think my question is, as we talk to GAO 
they are hiring these folks who have been their interns and you 
are doing some of that. As I understand these section research 
managers, they were sort of brought in from the outside and 
dropped in----
    Mr. Mulhollan. Well, half were outside and half were 
internal candidates.
    Mr. LaTourette. So are you saying half of the people who 
used to be section research managers continue to be section 
research managers?
    Mr. Mulhollan. Well, we have actually a mix. I will give 
you the exact numbers. But roughly a third were section heads 
who were neither full-time researchers or full-time research 
management. Some were analysts in the service who became 
section research managers--and that is about half of them, and 
the other half were experts who came from the outside.
    Mr. LaTourette. Okay. I will tell you what, I am not going 
to embarrass anybody by name. But there was an article in Roll 
Call about one of these folks that you brought in and hired as 
a research manager at CRS, spent 6 years as I can read the 
article, as a legislative assistant for Senator Lieberman and 
now has been hired to supervise 10 analysts in the Congress and 
Judiciary sections. Would that be an example of what you are 
talking about?
    Mr. Mulhollan. Well, for instance, that person is someone 
who is an expert, a Ph.D. in political science, who has written 
a book for which she received an award; I believe it was about 
several Presidencies. The persons who are new to CRS have 
expertise in their area. In this case, she is someone who has 
experience in the Congress; she understands our clients--you 
and your staff--and knows what is needed by an LA or a 
committee counsel in order to undertake their work.
    Mr. LaTourette. Thank you.
    Ms. McCollum [presiding]. Mr. Ryan.
    Mr. Ryan. I would be happy to yield my time to the 
gentleman from Ohio.
    Mr. LaTourette. What a gentleman.
    Mr. Ryan. I don't know how happy I will be about it.
    Mr. Mulhollan. Western Ohio reigns here.
    Ms. McCollum. And my sister was born in Ohio.
    Mr. LaTourette. I should really get everybody's time.
    Mr. Ryan. Let's not get greedy here. Reclaiming my time.
    Mr. LaTourette. I appreciated when you came to visit me, 
and I appreciate the observation you just made that the 
Congress is your client. I went on the CRS Web site this 
morning and didn't find any reports on the fiscal year 2010 
budget or the conference report which we voted on yesterday.
    Mr. Mulhollan. I am sorry. On what issue?
    Mr. LaTourette. On the budget.
    Mr. Mulhollan. Oh, okay. There is a section on the Web site 
dealing with the budget process itself but not the actual 
budget resolution.

                OVERSIGHT OPTIONS AND RESEARCH PRODUCTS

    Mr. LaTourette. Right. But we were asked to vote on the 
budget resolution. I am just saying that that would be helpful. 
It is not a criticism. What it is, is GAO came in and indicated 
that they have an oversight board. And I know you are under the 
jurisdiction of the Librarian. But it is made up of 10 Members 
of Congress from the Senate and the House. And they basically 
advise on what kind of products your customers wants, not what 
you determine your customer wants but what your customer 
actually wants. As an example, somebody in passing told me that 
you don't do side-by-sides anymore.
    Mr. Mulhollan. That is not quite the case.
    Mr. LaTourette. What is the case?
    Mr. Mulhollan. The case is that we try to add value by 
providing a comparative analysis that does not require you to 
go line by line but helps identify where the differences and 
issues are and analyzes the implications of these differences. 
So on these measures, these are the important issues, and their 
implications are important as well.
    Ms. McCollum. If the gentleman will yield. I think some of 
us come from different backgrounds legislatively. I abhor the 
fact here that I have to create my own side by sides, the fact 
that we don't do strikeout language so you can't tell what is 
actually being in the text because that is the institutional 
experience I came from. And so I think by having you know--that 
could have been true at a point in time. And I don't know when. 
You probably had a robust discussion, the discussion was oh, we 
are not going to do side-by-sides anymore. This is what works 
good for everybody or for the majority of how you set up your 
documentation to do the contrast between the two. And 
institutionally there might be new--with new Members and then 
as people kind of transition through that might say, well, you 
know I think now maybe we are tipping more the other side. Kind 
of like fashion. It is in, it is out. And then it comes back in 
again.
    So I just wanted to agree with the gentleman from Ohio that 
you know I didn't know I had an option for a long time. And I 
yield back.
    Mr. LaTourette. Thank you. And that I think is the point 
and maybe ask you to consider and ask my colleagues to consider 
that your customers actually form a board to tell you what kind 
of products--because I will be more blunt than Ms. McCollum. I 
am too stupid to figure some stuff out without a side by side. 
And I relied on those side by sides to see what the Senate was 
up to, which was usually nothing, and what we were up to. And I 
found it to be a very valuable tool. If somebody over there 
made a decision we didn't need it anymore, nobody asked me.
    Mr. Mulhollan. Excuse me, sir. That is not the case. We 
still do side-by-sides--we talk to the client, committee 
counsel or whoever. If, in fact, a line by line comparison is 
what is needed for formal conference activities, that is what 
the committee is provided. And oftentimes it becomes committee 
property because as you know, a huge amount of our work is 
client controlled.
    Now that said, the fact is that we had found that, what a 
Member wants to know is the important differences between, 
measures. The fact is we have found in the majority of our 
dialogue with Members and the staff that they want to have the 
important provisions isolated and the differences underneath 
them identified--sometimes elaborating significantly why there 
are differences between the two, and that is what is done.
    Mr. LaTourette. I appreciate it. But you have four 
customers here. I will take an informal poll. How many would 
like a side by side?
    Ms. McCollum. I would like to see it.
    Mr. LaTourette. Here are four customers. Please give it to 
us.
    Mr. Mulhollan. You are part of our oversight as is the 
House Administration and the Joint Committee on the Library. 
But why I come and meet with you is to hear these very things.
    Mr. LaTourette. I know that. But I am just saying that the 
GAO model impressed me that there is a constant dialogue. We 
don't have time to see you and just like you don't have time to 
see us every day. But 10 Senators and Members sit down and say 
to GAO--because we talk about this. You probably suffer from 
the same thing as GAO. We probably ask for stupid stuff that 
you--if you worked with us, you could say, well, why are you 
doing that? Why do we have to reinvent the wheel? I think it 
would save you work and it would also give your customers--
    Mr. Mulhollan. I just stand on the record that in fact CRS 
welcomes any input from every Member of Congress with regard to 
what their needs are and to ensure the fact that we are meeting 
your needs.
    Ms. McCollum. Thank you, Mr. LaTourette. And I don't think 
that anybody here thought that you wouldn't. We were just 
trying to figure out how to communicate even more effectively 
than we already do. Mr. Cole.
    Mr. Cole. Since my wife is from northwest Ohio, I feel like 
I ought to yield time back to Mr. LaTourette.
    Ms. McCollum. I could call my sister. We could yield time 
to her.

                  OUTREACH TO UNDERSERVED COMMUNITIES

    Mr. Cole. She is a trained prosecutor, too.
    I wanted to ask Dr. Billington, if I may, a little bit 
about what you are doing--because I know it is pretty 
spectacular and I want to get it on the record--in terms of 
outreach to underserved communities around the country on the 
Web. I have seen this with Native Americans and was shocked 
when I got back, I had done a little lecture, all of a sudden 
to have tribal people in my district and other places bring 
this up that I had no earthly idea were clearly you know on the 
Web, getting involved in finding out about their own history 
and their own people. And it was amazing to me because we quite 
often focus on areas with very limited libraries or very 
limited access and all of a sudden they had a wealth of 
information in front of them.
    So if you would tell us a little bit about what you are 
doing and, using whatever time frame would you like, the number 
of people that are now using the Library of Congress compared 
to 10 years ago, what have you.
    Dr. Billington. Well, first of all, the entire digital 
project, over a number of years of engagement putting online 
high quality, dependable content, has proven to be 
disproportionately valuable in the inner cities and in the 
outer countryside, where the people do not have access to good 
libraries, where the school system may not even be as well 
equipped as in other areas, or at least as effective. The 
Digital Library is effective with the young and the less well 
off for another reason. It invades the audiovisual world where 
they are increasingly living. The whole culture is getting 
swamped with audiovisual, instant unfiltered stuff of one kind 
or another. All of the content that we put online has two 
qualities. First of all, it is intrinsically important. It is 
of some interest. And second of all, it is explained simply.

                     EVOLUTION OF DIGITAL PROGRAMS

    The first thing I did when I started this program was to 
talk to curators who have great specialized knowledge. I said, 
pretend that your 10- or 11-year-old niece or nephew had just 
come in and said Uncle Bob, what is all this about? Why should 
I be interested? We are asking experts to speak to young people 
in plain language, and we are thereby invading the medium in 
which they live. Young people visit video arcades, play video 
games, or are engaged in illiterate chat rooms before they have 
a chance to really read anything or learn how language is used.
    Second thing, particularly with the creation of our new 
Audio Visual Conservation Center, which for audio visual things 
in Culpeper, Virginia is what Ft. Meade is for paper-based 
things, we are going to have great new opportunities to reach a 
lot more people. Take for example the 10,000 wax cylinders, 
which pretty much all represent Native American tradition. It 
is the history, as you know far better than I, it is the 
literature, it is the music of the Native American people. 
Because it is on wax cylinders you can't use it too much or you 
would wear it out. We have developed with Lawrence Livermore 
Labs in California a system called IRENE, which is an acronym 
for a system which takes thousands of microscopic photographs 
of the ridges and can reproduce this material even more clearly 
than you could get it with the original. So we are going to be 
able to make accessible that and also the 3,000 very long 
playing recordings of Native American oral stories representing 
multiple tribes and multiple languages from the 1890s. The 
Library of Congress has a great record of accumulating this 
material. Now we have new opportunities to get it out to the 
public.
    So I can assure you it is one of the priorities of the 
American Folklife Center where most of this material resides, 
to get it out rapidly and make it an important part of our 
collections. In general we are going to get artistic and 
cultural things which are oftentimes removed from curricula in 
K through 12 schools, back into the education communities, 
because we have the world's largest performing arts Library and 
we have this immense quality of American folklore.
    Mr. Cole. Well, I would just ask that while obviously we 
are all users here and we are very fortunate with all the 
resources put at our disposal, but when you think through that 
prioritization that the Chair appropriately asks that you 
really think long and hard about putting an emphasis on exactly 
this type of thing. I just think--I have seen ways in which the 
institutions open worlds to kids and sometimes frankly to older 
people that they just never dreamed were there. They didn't 
know and they literally can sit in their home and go to a local 
Library and see things that you know are important to their 
past or important to their understanding of who they are but 
never existed before. So it is pretty remarkable. And you know 
I think sometimes we use you intensely and appropriately, but 
there is a broader audience that pays for all this though the 
American people and to give them the opportunity to see what we 
sometimes take for granted ourselves. And I think you have done 
a superb job of this. I just hope we can give you the resources 
to continue that part of your mission.

                   DIGITAL LIBRARY AUDIENCE AND USAGE

    Dr. Billington. Well, in terms of numbers, I mean in usage, 
it is hard to change the way of computing by and large. The 
last time we computed, we were getting 5 billion hits a year. 
Very diverse, all over the place. But now we compute usage in 
terms of visits and page views, and we are somewhere in the 
area of 90 million visits and I don't know how many page views. 
It is enormous. But K through 12 is our target and the 
underserved people are a high priority in what we are doing. 
Giving more people more access to more knowledge to use in more 
ways is a whole new important area of focus for the Library. We 
are not just a research library. We are a service to, as you 
say, to the people, and particularly for the underserved 
people. We have also our very small staff that monitors the 
educational output to this population, and they have made many 
visits, and they will make many more, to places, particularly 
to underserved places, where they set up programs to train 
teachers to use this material. So we have to penetrate it. We 
have to get to kids where they are.
    We really appreciate your suggestion, and I hope we are 
going to be able to report on some fascinating things from this 
new machine which is coming out of the audiovisual center.

                      DIGITAL TALKING BOOK STATUS

    Ms. Wasserman Schultz [presiding]. Thank you very much, Mr. 
Cole. I want to focus on books for the blind now.
    If you can, walk us through succinctly where we are on 
implementation of the books for the blind, the Digital Talking 
Books Program. I know your original plans were to produce about 
220,000 machines, at an average cost of $156 per machine. Have 
you looked at whether that is the number you really need? Have 
you reevaluated that? And then the budget document this year 
includes a budget for the Digital Books Program between 2004 
and 2013 and it shows the cost over a 10-year period of $230 
million. And given that we have a declining cost in technology, 
especially in flash memory, is there any chance that the costs 
will be significantly below those projections?
    Dr. Billington. Well, let me give you a general report on 
this and then maybe Jo Ann, our Chief Operating Officer, can 
speak in more detail. In general, the talking books program is 
making excellent progress and today we are delivering 5,000 
digital machines to eight network libraries, to be tested by 
our most voracious readers. Blind people read more than sighted 
people do. So this is an important, very important constituent 
for all kinds of reasons. Fifty-eight titles will be available 
for reading in this test, and then we will begin full 
production of machines and titles. There is also a download 
project involving 100 blind readers who download directly from 
the NLS Web site, and the pilot has been so successful that 
that program is now open to everyone in the program, and 5,600 
individuals are now using it. It is password protected and 
delivers titles to readers' computers.
    I will get you an exact breakdown of these statistical 
matters. But do you want to comment?
    [The information follows:]

    Response. The following production statistics for the period of 
2004 through 2013 were provided in the appendix of the 2010 
appropriations request. These production targets, representing a total 
implementation cost of $230 million, continue to be valid. This chart 
will be updated at year-end to replace projected costs with actual 
costs.
    While the price of flash media has risen since the time those 
numbers were provided (budgetary costs during the design phase for USB 
flash media were $9 in 2008, $8 in 2009, and $7 in 2010, and the cost 
is now approximately $7), fluctuations of this sort will be 
accommodated by marginally adjusting levels of book production from 
year to year.
[GRAPHIC] [TIFF OMITTED] T0439B.021

    Mr. Jenkins. I was just going to say that we are 
continuously trying to find greater efficiencies. We have 
already achieved some from the original digital talking books 
and we would be glad to provide for the record more details of 
what it is actually going to cost and any cost overruns that we 
will have over the coming years.
    [The information follows:]

    Question. Please provide additional details on what the Digital 
Talking Book program is going to cost and any cost overruns the Library 
will likely experience in coming years with regards to this program.
    Response. The $13.5 million provided by the Congress for the period 
of 2008 through 2013 will enable us to complete implementation of the 
Digital Talking Book Program within five to six years. While commodity 
prices may result in fluctuations from year to year, there is likely to 
be enough play in other estimates--for players, duplication, labeling, 
and shipping--that NLS will be able to ensure steady production at 
planned levels.
    The digital talking book player provides a platform for further 
development. A mature, stable, and universally available Internet 
infrastructure, when available, will provide a more streamlined book 
delivery. The modular nature of the digital talking book hardware 
platform and hybrid electronic/physical delivery system now in place 
lends itself well to further development options. Increased Internet 
borrowing would cause the long-term cost of direct circulation to fall; 
the introduction of the player this year will provide more concrete 
data with which to determine the scale of the potential decrease. We 
have full confidence that future system valuation over the next 
generation will not require additional appropriations.

    Ms. Wasserman Schultz. That would be great.

                      COPYRIGHT PROCESSING BACKLOG

    On the Copyright Office, there is concern over the number 
of copyright claims that are currently in process. Obviously 
there is an impact on the individuals who registered their 
works with the Copyright Office. And in your written testimony 
you talk about the number of claims having more than doubled 
during the last year to over 500,000 claims today.
    How has the backlog affected the average processing time 
for claims? And what impact is it having on individuals and 
organizations who are seeking copyright services and 
protections? Also, is the delay in processing new requests, is 
it a problem of antiquated systems, not enough personnel or not 
enough money? I mean, what is the problem?
    Dr. Billington. Well, first of all, we recognize there is a 
need to improve. There has been a re-engineering of all of 
these processes. But in the processing of applications, 53 
percent come in electronically, and that process now takes 6 
months or less. We expect that to increase to 80 percent of all 
claims by 2011. The big problem is paper applications, which 
are still----
    Ms. Wasserman Schultz. Do you expect the length of time to 
increase by 80 percent?
    Mr. Jenkins. That 80 percent of all the copyright 
registrants will submit electronically by 2011, which will be a 
fairly reasonable time.
    Dr. Billington. That is the direction we are moving in. But 
paper applications turnaround is very, very bad, really, at 17 
months. You ask where the problems are and I can get the 
Register.
    Ms. Wasserman Schultz. Why don't you, if that would be 
helpful.
    Dr. Billington. She would, but just the general point is 
that everybody has to be retrained. It is not a question of re-
engineering and electronics. Everybody has to be retrained to 
deal with this whole new process and system. So training is 
probably the principal focus.

               COPYRIGHT STAFFING, TRAINING, AND PROGRESS

    Ms. Scheffler. Liz Scheffler.
    Let me talk a little bit about what has been happening over 
the last 2 years. We bought the new system in August of 2007. 
We had to retrain 100 percent of the existing staff who moved 
to new positions and completely new work. We also turned on, I 
hate to say this, a brand-new system simultaneous with the 
training. It took us a good solid year plus to retrain. We 
began in August of 2007; finally finishing training everybody 
in January 2009.
    We have seen productivity gains. As people have gone 
through their one year of training, we had to sequence training 
to accommodate the number of staff and get them through their 
90 days of system familiarization and new procedures before 
they became fully productive. A year ago we were producing 
basically one and a half claims per hour per registration 
specialist. As of this week those who have been fully trained 
and have been through their 90 days of familiarization are 
basically running three claims per hour. So basically we are 
working through the backlog. In fact we have one particular 
area, the literary side, that is still experiencing a fairly 
heavy backlog. However, both our visual arts and our performing 
arts registrations have leveled off and are starting to decline 
slowly.
    I can also say that as of today we are now--I should say as 
of Monday we are now 100 percent staffed in that area. We had 
over 500 applicants. We have open positions to select 15 staff. 
We hired the first group in February. The second group showed 
up Monday. They are currently training. I can say that I have 
been in training where we actually had them working claims as 
they are being trained. A win-win for all.
    Ms. Wasserman Schultz. Does the change in your fee 
structure allow you to improve on the backlog? Are you going to 
be able to hire anybody else to address the backlog?
    Ms. Scheffler. At this particular moment we are looking at 
that. The goal right now is that as we move more towards 
electronic, we will be putting less people into our up front 
ingestion process and basically moving more people towards the 
registration process. Also, too, we are hoping that because--
having actually sat there and observed the work, it takes 3 to 
4 minutes to process an electronic claim, 100 percent, where it 
is 10 minutes to process a paper claim. The hope is by the new 
fee structure, more people will choose to go electronically if 
the fee stays the same. It remains at $35. So the expectation 
is yes. That will be one of the encouragements, and yes, we 
expect that will be happening.
    Ms. Wasserman Schultz. Thank you very much.
    Mr. LaTourette.

                         CAPITOL POLICE MERGER

    Mr. LaTourette. Dr. Billington, the merger of the Library 
Police and the Capitol Police is targeted, I understand, by 
October of this year. And if you could just take a minute and 
give us the status on that merger and if by October of this 
year that that deadline could be met.
    Dr. Billington. My Chief Operating Officer, Jo Ann Jenkins, 
will respond.
    Ms. Jenkins. We have been meeting periodically with the 
Capitol Police. We believe everything is on track. We will have 
84 officers who are eligible to transfer. Sixty-two of those 
will transfer over as officers, and 22 will be transferred as 
civilians. And of those 22, 8 are eligible to retire without 
any loss of pay or retirement benefits.
    We are waiting for the Capitol Police to give us a concept 
of operations plan for our review. We have given them what we 
would like to see in it, and they are moving it through their 
approval channels, but we haven't seen the final one yet.

                       PUBLISHING AND COLLECTIONS

    Mr. LaTourette. And this will go to either one of you. 
Regarding the printed material that you get into the Library, I 
understand that there has been an increase over the last decade 
or so of 40 percent regarding the printed material that has 
come into the Library.
    Dr. Billington. That is a 40 percent increase globally in 
what is being published.
    Mr. LaTourette. That is coming from all over the world.
    Dr. Billington. That would affect it.
    Mr. LaTourette. Right. Based on that 40 percent of this new 
material, what does that do to you as far as deciding which 
materials that you store, materials that you keep in the 
Library? The ones that are kept at the main--I know you have 
some storage centers, but how do you decide what is kept in the 
main part of the Library and what you would store away in some 
other outside location?

                    ACQUISITIONS POLICY AND WORKFLOW

    Dr. Billington. Well, first of all, the total acquisitions 
policy is determined by individual curators with different 
areas of expertise concerning what should be in the national 
collection and what should not be.
    And, incidentally, we have just commissioned a Library-wide 
study to reexamine our acquisitions policy to see if there is 
anything that needs to be updated.
    But I have to tell you that we get 10,000 artifactual items 
a day in the Library in the world's production of things that 
contain knowledge, creativity, information. They decide right 
on the spot to dispose of some of this, a fair amount, 
actually. Actually, we get approximately 22,000 items a day, of 
which only 10,000 are kept. I am a compulsive keeper of things. 
My wife would tell you.
    Mr. LaTourette. My wife would tell you the same thing.
    Dr. Billington. But I occasionally go down myself--and I 
know Deanna Marcum, our great head of Library Services, does 
this more often--goes through all the discarded items, and I 
don't see anything that anybody could conceivably want. But we 
are more comprehensive. When we talk about a universal 
collection--we select everything that goes into the collection. 
We filter it. And the staff who do this are incredible, because 
they are dealing with different formats, different languages.
    They make selection decisions on the spot. There are the 
policies of where it is going to go to be catalogued and 
processed. Then they determine whether it is a rush item or 
something that can go slower. It is a very systematic process.
    One of our most experienced professional librarians is 
going to be talking to all of the curators about the collection 
development process. Library Services provided the committee 
with an enormous description of how we actually do it now. But 
we are going to see if there is some way we can improve our 
process.
    With our collections in remote storage there is a retrieval 
delay of only a couple of hours. There is a 100 percent 
retrieval rate, so far, from our storage facility at Ft. Meade. 
But the retrieval of audiovisual collections in Culpeper will 
be done electronically. Because we have incredible machines out 
there that can digitize collections 24/7--from movies and 
television--so they will be digitally deliverable almost on 
demand here on Capitol Hill.
    I think that is the story, unless you want me to be more 
specific.
    Mr. LaTourette. Before my time is expired, I would like the 
record to reflect that my grandfather lived many years in Ohio. 
As a matter of fact, my grandfather's brother lived there.
    Ms. Wasserman Schultz. Without objection, the record will 
reflect.
    Ms. McCollum.
    Ms. McCollum. I am fine. Thank you, Madam Chair.
    Ms. Wasserman Schultz. Mr. LaTourette.
    Mr. LaTourette. Just a couple.
    Mr. Mulhollan, can I see you just for a minute?
    And just so I am not misunderstood, I consider the CRS to 
be one of the treasures of this place. I think it stands apart 
from other organizations in terms of its--I never have detected 
a partisan tilt to things, and I appreciate that very much.
    And I know that the chairwoman and I talked. There are some 
who want to take it out of the Library of Congress, and I think 
it is fine right where it is and should be, and you are doing a 
good job.

                           PEER REVIEW IN CRS

    That doesn't mean I don't have some questions, though. Talk 
to me a little bit about the peer review. If the chairwoman 
asked you for an opinion that one of your analysts looks up, 
what is the peer review process for the information that winds 
back up in the chairwoman's office?
    Mr. Mulhollan. Well, it would depend on the question. There 
are increasingly fewer questions that don't need the insight of 
different disciplines to provide a comprehensive examination. 
When a request comes in about a certain question, a researcher 
would work out the parameters of the research with the client 
and his/her section research manager. The research begins and 
as often as not, it may well be that several analysts would be 
involved in thinking about the policy problems posed and how to 
address them.
    When that is undertaken, then it may well be that--let's 
for argument sake say--that a piece that was done by an 
environmental or field biologist was then reviewed by an 
attorney who knows environmental law. And also it may well be 
that someone who is an economist may take a look at that 
analysis. So it is peer reviewed within the institution 
depending on the parameters of the question itself.
    And on occasion--I will use an example. A colleague of mine 
is a marine fisheries person. And I know on occasion he has 
undertaken research that has benefited from the expertise of a 
Norwegian marine biologist. Because of a highly technical or 
specialized aspect of this research, he is the expert to seek. 
So he might serve as a peer reviewer on an aspect of the 
research. He couldn't reveal the congressional question because 
of confidentiality but the CRS analyst could seek peer review 
of his methodology, sources, and logic.
    Mr. LaTourette. Let me ask you this, though, because it 
gets back to the section research managers. These people that 
you brought in that you say have expertise in whatever the area 
is, do they--so I am an analyst, Mr. Aderholt is a section 
research manager, and I write something. Does he check it?
    Mr. Mulhollan. Yes, of course.
    Mr. LaTourette. And he is qualified in your shop to check 
whatever that----
    Mr. Mulhollan. That is correct.
    Mr. LaTourette. Well, that is what I was getting at.
    Mr. Mulhollan. Excuse me just for interrupting. The term we 
use in peer review is that the analyst seeks peer review before 
it goes to a section research manager--or a section research 
manager may decide to have someone else take a look at the 
research as well, that is what we call peer review.

                      CONTRACTUAL SERVICES IN CRS

    Mr. LaTourette. That is what I call peer review, too.
    Does CRS currently have contracts with outside contractors 
to provide services?
    Mr. Mulhollan. Yes. Generally in the IT area.
    Mr. LaTourette. Anything other than IT?
    Mr. Mulhollan. We have a contract that is actually 
privately funded through a foundation for a patent attorney to 
help us on patent questions.
    Mr. LaTourette. Is that it?
    Mr. Mulhollan. I will have to review it. That is what 
immediately comes to mind.
    When we have an outside expert on a hiring selection panel, 
sometimes he/she would be under a contract. The statute grants 
the Director of CRS discretion to obtain outside consultants. 
The statute allows that. But that has not happened much in the 
analytic area. It is dominantly in some of the support areas.
    Mr. LaTourette. If you would be so kind to submit for the 
record a list of outside contractors, the Service employees, 
what that represents and the cost.
    Mr. Mulhollan. I would be happy to.
    Mr. LaTourette. Thank you.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T0439B.022
    
    Ms. Wasserman Schultz. Thank you, Mr. LaTourette.

                        SEPARATE BUDGET FOR CRS

    I just have a collection of quick questions. One of them is 
for you, Mr. Mulhollan, so you should not depart.
    This goes back to what Mr. LaTourette raised, that some 
Members perennially ask us about why the CRS budget is a part 
of the Library of Congress' budget and whether or not it should 
be separated out. I know that is not for you to answer, because 
it is awkward for you. So I will ask Dr. Billington.
    I know about 10 years ago it was shifted to the Library of 
Congress. On behalf of the collection of Members that usually 
ask me about separating out CRS's budget, what was the 
rationale behind putting it into the Library of Congress' 
budget initially? Just so I have a good answer when I am asked 
the question.
    Dr. Billington. Well, I think the rationale for doing this 
was that by rooting it securely in the Library it ensures the 
Library--it ensures the added element of objectivity, basic 
knowledge and having access to the world's greatest storehouse 
of knowledge, which they might not be able to use otherwise. 
But having it rooted there reinforces the tradition which has 
been developed for nearly a century----
    Legislation and oversight call for the debates on objective 
knowledge that is as comprehensive as possible and objectivity 
which is above and beyond the objectivity that they get from 
their position.
    So I think having CRS as part of the Library--and this was 
determined before my time--has worked pretty well. I don't 
think it has penalized or hurt the Service, and I think it has 
enabled us to continue to have a kind of resolution of these 
information problems.
    But, obviously, we are responsive to whatever Congress 
decides.
    Ms. Wasserman Schultz. I understand. It is not my question. 
It is just a question I get from time to time from members.
    Dr. Billington. So I think that was the rationale.
    Ms. Wasserman Schultz. I have a question for Mr. Mulhollan.

                    CRS FTES AND WEB-BASED SERVICES

    Your budget request for CRS is $115 million and 675 FTEs; 
that is a 7.3 percent increase. But you aren't changing the 
number of FTEs from fiscal year 2009. So why does it cost 7.3 
percent more to deal with the same support, the same number of 
staff?
    Mr. Mulhollan. Well, first of all, we are 90 percent 
salary, so the increase for salaries is roughly 5.8 percent. So 
the additional increase we are having on the budget is $2.3 
million in nonpersonal expenses. $1.8 million of that is what 
we characterize as enhanced access of CRS's expertise.
    As Mr. LaTourette was just pointing out, he went onto the 
Web site and he couldn't find an analysis on the omnibus bill. 
As a matter of fact, we have a legislative agenda; and you can 
click on it now. And every week we put up the Service's reports 
that are relevant to the floor agenda that week. But it is not 
an intuitive site and often important contentis not easily 
accessible.
    What we hope to be able to do is enhance the Service's Web 
site. We are on our way, and we hope to open that up in the 
near future. But what we are asking for is assistance to make 
sure that you have immediate access to the full array of 
expertise on a continuing basis so that----
    Ms. Wasserman Schultz. Via the Web.
    Mr. Mulhollan. Via the Web. So, for instance, if an LA in 
any office tracks veterans, Medicare and some aspect of the 
farm bill, he/she may want immediate access to those issues 
first. Congressional staff can identify issues they have to 
track and immediately have access to CRS expertise and products 
and be notified of new work and products.
    The request would also help us manage larger and larger 
research data sets, whether it is Census Bureau data--one of my 
colleagues gave up their first-born child to get CMS data. And 
the committees particularly need us to undertake examinations 
based upon the data.
    We are trying to make sure that we have a consolidated, 
integrated data program; the $1.8 million will help us do that.

                      SECURITY BREACH CRS REPORTS

    Ms. Wasserman Schultz. Speaking of your reports, a few 
weeks ago there was a wholesale posting of CRS reports and of 
real concern on the part of the Members and CRS about how that 
happened. Have you gotten to the bottom of it and have you 
taken steps to ensure that it won't happen again?
    Mr. Mulhollan. That was examined by the Library's IG. The 
Library's IG investigated and went to the respective chambers 
and reported on that.
    As you know, the Service is extremely concerned because we 
only serve the Congress and we want to maintain that 
confidential status. What protects this confidential status is 
CRS' speech and debate protections. And so we have to be seen 
by the courts as well as by the Congress as only having one 
client, and that is the Congress. That is we do not have a 
public face nor a public mission. And if we didn't have that 
speech and debate protection then, a memorandum that I wrote 
for one of you could be revealed in a court proceeding 2 years 
from now.
    Ms. Wasserman Schultz. My question is, have you taken steps 
necessary to prevent it from happening again and determine how 
it is that it happened in the first place?
    Mr. Mulhollan. The determination is subject to the 
examination of the IG, right? And that is where we have left 
it, for the IG to do that and to then report how it happened 
and have each of the chambers identify the path to prevent it 
in the future.
    Ms. Wasserman Schultz. Okay. Well, is that not something 
that we should discuss publicly?
    Mr. Mulhollan. Well, I think it would probably be done 
outside the chamber.
    Ms. Wasserman Schultz. Okay. That is fine.
    And, lastly--am I the only one with questions left?
    Mr. LaTourette. I have one more.
    Ms. Wasserman Schultz. Okay. I have two other quick ones, 
and then I am done.

                     SPACE FOR OFFICE OF COMPLIANCE

    The Office of Compliance's space that they have been trying 
to wrangle out of the Library of Congress for quite some time 
now, where are we on that?
    Ms. Jenkins. I know that our director of facilities has 
been working with the Compliance Office. They have given them 
several options to try to address some of their space needs. 
And as of this morning we were still waiting to hear back from 
the Compliance Board on which options, some of which cost money 
and some of which don't cost money. So we are waiting, but we 
are working with them to try to address it.
    Ms. Wasserman Schultz. We had a hearing with them 
yesterday, and they seemed to indicate they were still having a 
little bit of difficulty. So if you could follow up, that would 
be great.

             LAW LIBRARY FUNDRAISING AND SEPARATE LINE ITEM

    And then, lastly, on the Law Library, because I would bet 
every single member has been contacted by an attorney who is 
concerned about the Law Library and the GLIN network and the 
fact that we have an aging trained workforce that understands 
the GLIN network. Can you tell us where we are on that?
    And then, also, the legal community would very much like--I 
know the ABA specifically would very much like to be able to 
establish a private fund-raising source as a way to raise money 
privately for the Library, and they have yet to be able to do 
that. So where are we on that as well?
    Dr. Billington. Well, let me say, first, on that last issue 
that we have been consulting a lot with the ABA. Three times I 
think in just the last few weeks. And I think we have a pretty 
good understanding. For the ABA and other outside parties to 
raise money, that possibility already exists. Funds can be 
specified for an exclusive purpose. So that possibility already 
exists. We have in our----
    Ms. Wasserman Schultz. But they are saying that right now 
it might exist, but it is not easy. They want a separate 
appropriations account like there is for CRS.
    Ms. Jenkins. You are speaking not necessarily about 
fundraising. They asked for two things. They asked for separate 
language to set up--the ability to set up a separate trust fund 
for the Law Library, and we have given them some suggested 
language on how that could be done.
    The second thing they were originally asking for is to have 
a separate budget line item.
    Ms. Wasserman Schultz. Right. That is what I am talking 
about.
    Ms. Jenkins. Dr. Billington, do you want to answer the line 
item question?
    Dr. Billington. Go ahead.
    Ms. Jenkins. I think the issue as it goes back, in terms of 
the Library's ability to manage the whole organization, is that 
it is very difficult when you come to us and say we want a 10 
percent across the board cut for the Library to be able to 
manage all of these separate budget items, separate budgets for 
the different Service units to do it. So we have tried to 
convey to the ABA the transparency of what we are requesting in 
the Law Library budget. It is public knowledge, and we don't 
believe that it is necessary for them to have greater 
transparency. I think we are very clear on what is in the 
budget, what process it goes through and that----
    Ms. Wasserman Schultz. Okay. You have answered the wrong 
question. I know those arguments. And they have made them to 
me, and I understand them. I am talking about their ability to 
more easily raise private funds for the Law Library.
    Ms. Jenkins. They can--we have right now the authority to 
set up individual gift and trust funds, and the fund can be 
specified for the Law Library purposes only. They would like 
additional language, and we have said we are comfortable with 
it.
    Ms. Wasserman Schultz. Okay. Great.
    Thank you. I am finished.
    Mr. Aderholt. Just two quick questions, Mr. Mulhollan.
    How many full-time employees does the CRS employ?
    Mr. Mulhollan. Six hundred and seventy-five.
    Mr. Aderholt. And where are most of them located, which 
building?
    Mr. Mulhollan. They are on three half floors of the 
Madison, right next door to the Cannon Building.
    Mr. Aderholt. That is all.
    Ms. Wasserman Schultz. Mr. LaTourette.

                     OFF-THE-SHELF PRODUCTS IN CRS

    Mr. LaTourette. Last question, Mr. Mulhollan.
    There used to be off-the-shelf--I call them off-the-shelf-
products available at CRS. For instance, it may say, what is 
the history of the flag-burning issue in the United States? 
There was a menu that I could call up, and rather than saying, 
could you write a specific opinion for me to give to my 
specific constituent, you had some off-the-shelf products. Do 
you still have them?
    Mr. Mulhollan. There is something on the Web site called 
``In the Mailbag''. And in there those are the issues that we 
say, okay, we are getting a lot of calls on this. Let's say you 
get robocalls in a lot of the offices about flying saucers and 
whatever.
    Mr. LaTourette. Nonpartisan.
    Mr. Mulhollan. Yeah, right. When we determine that this is 
coming up in a number of offices, then our librarians prepare 
materials that are available to all offices on our website.
    Mr. LaTourette. I guess what I am asking--my recollection 
is--and I just want you to tell me if I am wrong, because I am 
wrong a lot--that you used to have some generic stuff. For 
instance, in all of our offices we have a book how a bill 
becomes a law. And I thought that you had not just a menu of 
what is hot, but you had a menu of like if a school kid calls 
up and he wants to know.
    Mr. Mulhollan. There is also on the Web site a number of 
perennial issues. For instance, we provide materials that 
provide assistance for commemorations, for the Martin Luther 
King holiday, Flag Day and others that are of interest to 
constituents.
    Now, with regard to flag burning, we actually--if you put 
that down on the Web, you would get several CRS reports on the 
constitutionality on that, okay?
    Mr. LaTourette. But do you----
    Mr. Mulhollan. There are----
    Mr. LaTourette. Let me just say, what about--is there any 
kind of, like, paper, hard copies that are available?

                  PAPER PRODUCTS VERSUS ONLINE ACCESS

    Mr. Mulhollan. Everything is now available on the Web site 
to be printed up immediately from there. And so what we have 
been trying to do is ensure the fact that the questions and the 
analysis you need is available on the Web site 24/7. And so 
that if you want an examination on an issue, hopefully, it is 
there. If it is not, then you call and we will produce it for 
you.
    Mr. LaTourette. I guess it is a manpower question I am 
asking. If--am I wrong that you changed this over the last--I 
have been here for 15 years. And I know I am not talking about 
technology improvements. I am talking about, do you do 
something different today in terms of you have got a storeroom 
with these 80 reports----
    Mr. Mulhollan. We actually do. The storeroom is now in 
digital form in digital storage. What we have there is on the 
screen. And the new Web I think will be more robust and more 
intuitive in being able to ensure we are responsive to your 
questions.
    Mr. LaTourette. Regardless how I get it, paper or 
electronic, it is the same as it was 15 years ago.
    Mr. Mulhollan. I think in most--yes. It is just digital 
form.
    Mr. LaTourette. Okay. Thank you.

      ADDITIONAL ASSIGNMENT FROM THE CHAIR--DIGITAL TALKING BOOKS

    Ms. Wasserman Schultz. Okay. Thank you very much.
    Dr. Billington, thank you very much. We have a little bit 
of homework for you. It is related to the digital book 
initiative. As we move toward full implementation of that, I 
think it would be useful to include a summary of how we got to 
where we are. Could you please have your staff prepare a 
history of this project, including a description of the process 
for developing the machines and book formats which are 
currently being circulated, the evaluations that were done to 
test the appropriateness and cost of the technologies which 
were finally selected, and a history of the cost estimates over 
the life of the program? And we would like that by next Friday, 
May 8th, please.
    Thank you very much for your service and your time.
    [GRAPHIC] [TIFF OMITTED] T0439B.023
    
    [GRAPHIC] [TIFF OMITTED] T0439B.024
    
    [GRAPHIC] [TIFF OMITTED] T0439B.025
    
    [GRAPHIC] [TIFF OMITTED] T0439B.026
    
    [GRAPHIC] [TIFF OMITTED] T0439B.027
    
    [GRAPHIC] [TIFF OMITTED] T0439B.028
    
    [GRAPHIC] [TIFF OMITTED] T0439B.029
    
    [GRAPHIC] [TIFF OMITTED] T0439B.030
    
    [GRAPHIC] [TIFF OMITTED] T0439B.031
    
    [GRAPHIC] [TIFF OMITTED] T0439B.032
    
    [GRAPHIC] [TIFF OMITTED] T0439B.033
    
    [GRAPHIC] [TIFF OMITTED] T0439B.034
    
    [GRAPHIC] [TIFF OMITTED] T0439B.035
    
    [GRAPHIC] [TIFF OMITTED] T0439B.036
    
    [GRAPHIC] [TIFF OMITTED] T0439B.037
    
    [GRAPHIC] [TIFF OMITTED] T0439B.038
    
    [GRAPHIC] [TIFF OMITTED] T0439B.039
    
    [GRAPHIC] [TIFF OMITTED] T0439B.040
    
    [GRAPHIC] [TIFF OMITTED] T0439B.041
    
    [GRAPHIC] [TIFF OMITTED] T0439B.042
    
    [GRAPHIC] [TIFF OMITTED] T0439B.043
    
    [GRAPHIC] [TIFF OMITTED] T0439B.044
    
    [GRAPHIC] [TIFF OMITTED] T0439B.045
    
    [GRAPHIC] [TIFF OMITTED] T0439B.046
    
    [GRAPHIC] [TIFF OMITTED] T0439B.047
    
    [GRAPHIC] [TIFF OMITTED] T0439B.048
    
                                         Wednesday, April 29, 2009.

                      OPEN WORLD LEADERSHIP CENTER


                                WITNESS

AMBASSADOR JOHN O'KEEFE, EXECUTIVE DIRECTOR

                Opening Remarks--Chair Wasserman Schultz

    Ms. Wasserman Schultz. Continuing on, we have Ambassador 
O'Keefe, who is the Executive Director of the Open World 
program, who has joined us along with Dr. Billington. 
Ambassador O'Keefe, I want to welcome you on behalf of the 
subcommittee.
    You have, at least with me, a fairly Herculean task, and 
that is to justify, or at least attempt to justify, your 2010 
budget request for the Open World program. As I have made clear 
many times, both in public and in private, it is difficult for 
me to see how we continue to fund this program in this budget 
with all the needs that we have. To me, it continues to be a 
square peg in a round hole. Folks argue whether it is a 
worthwhile program or not.
    I have a difficult time--knowing the priorities that we 
have through all of the agencies and particularly knowing the 
funding demands for the Library--continuing to be able to 
justify funding at a level--funding it at all, but funding it 
at the level that we do in this bill.
    It is simply not a legislative function, in my opinion. And 
really what we have been working towards with you--or trying to 
work towards with you--is weaning you off the Legislative 
Branch budget, either through project fundraising or through 
access to funding from another more appropriate agency or 
branch of the government.
    But if we are looking at the funding decisions that we need 
to make, we have to fund a new radio system to the tune of $70 
million to $100 million, perhaps more, depending on what 
happens with the conclusion of the report that we are 
expecting; technology upgrades at the Government Printing 
Office; more staff at GAO; additional enhancements at the 
Library, and the list goes on. So I am hopeful that you can 
tell us during the hearing this afternoon that you have made 
progress in developing alternative funding sources for Open 
World.
    As I told you privately--and I am sharing publicly with 
everyone what I said privately in my office--my goal is that at 
least 50 percent of the cost of your program be funded outside 
of this bill after this year. So I hope that you have been 
successful and that you have a lot of good things to report.
    And I look forward to hearing from you, Mr. Aderholt.

                     Opening Remarks--Mr. Aderholt

    Mr. Aderholt. Thank you, Madam Chair.
    Thank you for joining us today, Ambassador O'Keefe.

                Opening Statement of Ambassador O'Keefe

    Ambassador O'Keefe. Thank you, sir. It is an honor to be 
here today. And, Madam Chair, Mr. Aderholt, distinguished 
members of the subcommittee, thanks for the opportunity to 
testify on Open World Leadership Center's fiscal year 2010 
budget.
    As the Center's Open World program matures, we see it 
growing in significance for both the American communities and 
organizations that make it successful and for the participating 
young leaders in countries of strategic interest to the United 
States.

                      EFFECTIVENESS OF OPEN WORLD

    Our board chairman, Dr. James Billington, 10 years ago this 
month proposed what Under Secretary of State for Political 
Affairs William Burns has said is the most effective exchange 
program of the many he has been involved with.
    In 1999, with strong bipartisan support from Congress, Dr. 
Billington and then ambassador to Russia James Collins brought 
forward a leadership exchange program that has benefited both 
the United States and new countries born from the breakup of 
the Soviet Union. Thanks to Open World, there are scores of 
Russian nonproliferation experts who now know their American 
counterparts and have a greater sense of joint purpose. There 
are anti-trafficking advocates and officials in Ukraine who 
have a better understanding of how to track down the 
perpetrators of this crime and assist their victims. There are 
mayors and city counselors in Moldova and Azerbaijan who are 
making local governments more open and responsive to ordinary 
citizens.
    To give just one example of the caliber of delegates that 
Open World hosts, Veronica Marchenko, a Russian NGO leader and 
Open World alumna, last month received one of the Secretary of 
State's 2009 International Women of Courage Awards from 
Secretary Clinton and First Lady Michelle Obama.
    In reviewing this legislative branch agency's effectiveness 
over the years and our successful expansion beyond our original 
focus of Russia to Ukraine, Moldova, Caucuses, and Central 
Asia, I have to give credit to our dedicated staff and our 
partner host organizations that provide volunteer experts and 
home hosts across the country. I am honored to serve a program 
with such broad support in U.S. communities and in countries 
where we operate and that is constantly building partnerships 
between the two.
    In 2008, we sent delegates to 355 communities in 202 
congressional districts. Seven hundred and fifty American 
families home-hosted these first-time visitors to the United 
States. We will attain that same broad geographic distribution 
in our hosting program this year.
    To give you a feel for the enthusiasm, there are twice the 
number of willing American volunteer hosts than there are 
participants that we can afford to bring.

                       OPEN WORLD STRATEGIC PLAN

    Our request this year reflects the revised strategic goal 
approved by our Board of Trustees. The original strategic plan 
called for a 20 percent expansion in participant numbers by 
2011. Even with economies of scale, gifts and a cost reduction, 
such a goal would call for a substantial budget increase, which 
the board believed was not feasible at this time. Therefore, 
our request this year of $14.456 million is $546,000 above last 
year's appropriation, a 4 percent increase. This amount will 
support our expansion to Armenia in 2010 and will allow us to 
take advantage of the great opportunities that may open up with 
the changing of U.S.-Russian relations and developments in 
Ukraine, Georgia and elsewhere in the region.
    Our strategic plan calls on us to diversify funding, a goal 
I know that you share, Madam Chair. Currently, an amount 
equivalent to 19 percent of our appropriation comes from cost 
shares, gifts, transfers from other agencies and in-kind 
contributions. To increase that percentage, former 
Representative Robert ``Bud'' Cramer, an exceptionally 
committed member of our board, is working with us to seek funds 
from foundations active in the region.
    Our chairman, Dr. Billington, has been unstinting in his 
efforts to raise funds and to establish long-term cost-sharing 
arrangements. Dr. Billington and I are scheduled to meet with 
House Foreign Operations Appropriations Subcommittee Chairman 
Nita Lowey on May 13th to see if a portion of our funding might 
come from the Foreign Operations appropriation.
    After the July summit between Presidents Obama and 
Medvedev, there may be opportunities to engage the private 
sector this autumn and in 2010.

                       POWERFUL TOOL FOR CONGRESS

    So, Madam Chair, Mr. Aderholt, members of this committee, 
Open World's Board and its hosting partners throughout the 
United States have created a powerful tool for Congress and our 
Nation to forge human links to the strategically important 
heartland of Eurasia. I seek your support to continue our 
efforts in the next fiscal year.
    Thank you for your attention.
    [Ambassador O'Keefe's prepared statement follows:]
    [GRAPHIC] [TIFF OMITTED] T0439B.049
    
    [GRAPHIC] [TIFF OMITTED] T0439B.050
    
    [GRAPHIC] [TIFF OMITTED] T0439B.051
    
    [GRAPHIC] [TIFF OMITTED] T0439B.052
    
    [GRAPHIC] [TIFF OMITTED] T0439B.053
    
    [GRAPHIC] [TIFF OMITTED] T0439B.054
    
    [GRAPHIC] [TIFF OMITTED] T0439B.055
    
    [GRAPHIC] [TIFF OMITTED] T0439B.056
    
                      NEED FOR SPENDING REDUCTIONS

    Ms. Wasserman Schultz. Thank you, Ambassador. I appreciate 
your statement, and your full statement will be entered into 
the record.
    I want to read a letter that each committee chair received 
from the Speaker:
    Thank you very much for your continued commitment to a 
vigorous oversight and reform agenda. In response to my letter 
of February 19th, the House chairmen developed a requested 
schedule for regular and thorough oversight of the departments, 
programs and budgets under their jurisdictions. We are 
dedicated to carefully scrutinizing programs and agencies to 
cut wasteful, obsolete and duplicative spending.
    As of the beginning of this month, House committees under 
Democratic leadership have already conducted more than 162 
oversight hearings; and over 100 more are in the planning 
stages for the coming months. Our commitment is not to programs 
but to the goals and objectives determined by the Congress to 
best serve the needs of the American people. If there is a way 
to achieve those goals and objectives more efficiently, with 
less cost or duplication, then the 111th Congress is committed 
to ensuring that changes are implemented.
    I would appreciate your developing a list of proposed 
reorganizations and spending reductions within your committee's 
jurisdiction based on your planned oversight review.
    And I will ask unanimous consent to enter the full letter 
into the record.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T0439B.057
    
                     OTHER RUSSIA EXCHANGE PROGRAMS

    Ms. Wasserman Schultz. Ambassador O'Keefe, the Interagency 
Working Group, which is an agency with whom you might be 
familiar, is tasked with coordinating the efforts of all of 
these government-sponsored international exchanges and training 
programs. Are you familiar with how many exchange programs 
there are just specifically with the nation of Russia?
    Mr. O'Keefe. I think there are quite a few.
    Ms. Wasserman Schultz. There are 91.
    Mr. O'Keefe. I am not surprised.
    Ms. Wasserman Schultz. Ninety-one. That covers 36,000 
individuals.
    I understand the passion which you feel about this program; 
and I know that, Dr. Billington, you believe in this program 
and feel strongly that it is unique and important; and I know 
that it is, too. But given the Speaker's mandate and direction 
and the fact that we have 91 different programs--and that is 
just Russia. That doesn't include the broader former Soviet 
Union republics. Those programs sponsored 72,000 visitors from 
the former Soviet republics last year.
    So with so many opportunities for exchange programs with 
these countries, how do I justify, given the Speaker's mandate, 
$14 million for your program out of this bill?
    Mr. O'Keefe. There are a couple of reasons.
    First of all, there is a question of efficiency. Our 
overhead is 7 percent, which is very, very low.
    The second thing is, as you say, it is a unique program. 
One of the reasons Under Secretary Burns feels it is the best 
program of its kind is because, a lot of these programs, bring 
people over, they send them back, and that is it. We create 
networks.
    Ms. Wasserman Schultz. Well, then he should fund it. I 
mean, if he thinks it is great, then, great, let him take it 
and fund it.
    Mr. O'Keefe. I understand.
    But the other unique part, of course, is that, as a 
legislative branch agency, we coordinate, very closely with and 
work for Members of Congress. So our relationship with the 
Helsinki Commission, with HDAC and with other Congressional 
organizations is one that is complementary. We really are, in a 
way, providing opportunities for Members of Congress to 
interact with a lot of these visitors who are coming here.
    But, even beyond that, the executive branch programs focus 
appropriately on executive branch policy initiatives and 
executive to executive issues. Our focus is at the level of 
your constituents.

                        JUDICIAL BRANCH FUNDING

    Ms. Wasserman Schultz. Can I interrupt you for a second? 
Because I know that you have maintained that. And I am not 
trying to be antagonistic. We just have a lot of priorities 
that we have to balance in this bill. And so I don't want you 
to think that we have anything against the Open World program. 
We are just trying to balance everything.
    But you have maintained that this is a unique program, 
unique to the legislative process. Only week after week the 
reports that I see from you show that the vast majority, if not 
exclusively, of your participants are in the judicial branch. 
You are mostly exchanging or having your participants from the 
judicial branch in Russia and the former Soviet republics.
    This is a legislative body. So I am not sure why you 
aren't--and I have encouraged you and would like to know to 
what degree you have reached out to the judicial branch of our 
government to try to seek funding support from them.
    Mr. O'Keefe. Well, just for the record, the rule of law 
exchanges are about 10 percent of our total program. So there 
are other exchanges: accountable governance, environment, 
women's leaders, things like that. You do see a lot of reports 
on the judicial process, because that is an area that lends 
itself to a weekly report--it has some tangibility.
    On the question of outreach, I did immediately go to see 
Mr. Duff at the Administrative Office of the Judiciary. He runs 
the support operation there. Basically, his budget is rent to 
the GAO, payment of salaries and incidentals to keep the court 
system functioning.
    So Dr. Billington and I then saw Bill Burns with regard to 
the idea of the diversified funding and have followed that up 
with a meeting with Dan Rosenblum, who administers all the 
Freedom Support Act money, we sent him a note over a week ago 
with a proposal for him to fund our 2010 rule of law program at 
$1.4 million.
    Ms. Wasserman Schultz. My time has expired. Mr. Aderholt.

                   INVOLVEMENT OF MEMBERS OF CONGRESS

    Mr. Aderholt. I notice in your comments that you mentioned 
that you have American volunteers in 44 States and 202 
congressional districts that are impacted, where they 
participate in some form or fashion. As far as Congressional 
participation in this, have you had many Members of Congress 
that have been directly involved? I know that you have a few on 
your board, but, generally, have Members of Congress been 
involved in these programs?
    Mr. O'Keefe. I would say that, obviously, you joined us 
with Chief Justice Ivanov in Dr. Billington's office with 
Representative Hastings.
    Mr. Aderholt. Right.
    Mr. O'Keefe. Yesterday, we had a group of Russian 
parliamentarians who met with Senators Udall and Whitehouse on 
environmental issues. These were two members of the lower house 
and one of the upper house who were looking at issues of 
fisheries in Kamchatka and Alaska. So we have contact with 
Members of Congress on a regular basis when individuals come 
through.
    And then we have--I would say in the districts we always 
try to make sure that the district offices, and the member if 
he or she is there, have an opportunity to meet our 
participants. I believe Representative McCollum and Judge 
Magnuson met with some individuals in Open World a year ago or 
so, if I recall. It may have been just Judge Magnuson who was 
with you.
    Ms. McCollum. I just met with Judge Magnuson.
    Mr. O'Keefe. I will get you the exact numbers because we 
keep those statistics.
    Mr. Aderholt. The reason I ask you that is because I was 
not familiar with it until I came in here as part of this 
subcommittee. Especially considering that legislative branch 
appropriates the money, I think there should be more of an 
effort to reach out to and allow Members of Congress to be 
active in this. Just food for thought on that.

                     COST SHARES AND CONTRIBUTIONS

    Talking about the cost sharing and any kind of donations 
that you get for the Center, what--I think was it $1.8 million?
    Mr. O'Keefe. $1.8 million.
    Mr. Aderholt. What kind of entities usually donate money to 
the program?
    Mr. O'Keefe. What kind of entities? It is mostly the host 
families. They provide home hosting accommodations and meals; 
and, generally, they will take them around to various things in 
their own towns and cities.
    We also have cost shares from the grantees who help 
organize this. So part of our determination of who gets grants 
is the percent of cost shares that they will do for us.

                           PROGRAM COUNTRIES

    Mr. Aderholt. And so how many countries overall are 
involved in this?
    Mr. O'Keefe. Let's see. It would be 10 countries right now.
    Mr. Aderholt. And what is the criteria for choosing those 
10 countries?
    Mr. O'Keefe. The board had made a strategic decision that 
we would do all countries of the former Soviet Union. And we 
meet every year to decide which ones.
    For example, last year Turkmenistan had a change of 
leadership. The Turkmenbashi in Ashgabat died and another 
fellow came in. There is strategic interest because of the long 
border with Iran and Afghanistan and its tremendous gas 
reserves. So we started a program in Turkmenistan.
    For this year's Board meeting, we looked at a number of 
different options and chose Armenia and, if we can do it, 
Belarus, which is a little more difficult to break into. The 
reason for Armenia is because Masha Yovanovitch--the U.S. 
ambassador in Armenia who served previously in Kyrgyzstan when 
we started the program there, feels it could really, really 
help her program in Armenia. She has asked me several times if 
we would make her next on the list.
    Mr. Aderholt. So you are willing to expand that list.
    Mr. O'Keefe. Yes, sir. But we are going to stay within the 
countries of the former Soviet Union.
    The Chair of the International Judicial Relations 
Committee, Judge Simpson, joined our Board meeting in February 
and gave a presentation on the possibility of doing rule of law 
in Serbia. The Board felt that we should stick with our 
strategic plan to remain up through 2011 within our current 
cost estimation.
    Mr. Aderholt. That is all.
    Ms. Wasserman Schultz. Ms. McCollum.

                ROLE OF LEGISLATIVE BRANCH IN OPEN WORLD

    Ms. McCollum. Madam Chair, Ambassador O'Keefe, I have more 
of a comment than I have a question. I think we are at a 
crossroads with a program that was established at the time that 
there were dramatic changes happening in the Soviet Union. And 
one of the places we knew, we got in and worked on judicial 
reform would be good for business, it would be good for trade, 
it would be good for human rights, would be good for a whole 
host of events. The world changed. The value of Open World 
continues, but the value as you describe it is pretty much 
judicial reform.
    And I have been in Afghanistan, and heaven knows they need 
it and fledgling democracies need that. But Congress in and of 
itself, that is not what we do. We don't do judicial reform. So 
to say it serves leg branch kind of creates a disconnect unless 
you have been out in the field and you have seen it.
    And you know that report language is constantly being 
written about corruption, about democracy. And then it is like, 
okay, that is the State Department's bailiwick.
    Yet there is a role, and I think what we need to do is we 
need to have a discussion and stop, if you don't mind, talking 
about Open World and just say, in the world as it is today, is 
it appropriate for the legislative branch to have some control 
over its own budget, over its own exchange, over its, you know, 
oversight that has nothing to do with the executive branch, 
knowing that we don't set foreign policy but we finance foreign 
policy, and we can have tremendous impact with exchanges 
between representatives?
    Now, that doesn't mean I am saying that if we review this 
we get out of working with judiciary and law enforcement and 
all. But I think what is missing here is, to what the 
chairwoman pointed out, there are 91 organizations going on. 
Everybody has added a layer to this onion, and everybody has 
forgotten what the center of the onion looks like now. And I 
think it is a very sweet onion, but, right now, it tastes 
rather bitter because of everything that is going on with our 
budget and our economy here.
    So we do need to--it is not about necessarily cutting 
waste, fraud and abuse. It is about looking at how do we serve 
our goal. And if there is a goal, if there is a role for the 
legislative branch to have its own engagement where we are not 
totally dependent upon the executive branch to engage with our 
peers in parliaments all over the world, then perhaps there is 
a function. Then we look at it differently. We look at the way 
that we fund it, and then we determine its depth and breadth 
and how we use it.
    So I think that is kind of the dilemma we find ourselves 
in. Is our role in uniqueness of this program and how it serves 
this institution and our peers around the world is not clearly 
defined anymore, in part because of the great work that you do 
and all the examples are at the judiciary, which we are not----
    So, Madam Chair, GAO in 2004 recommended that Open World 
establish a strategic and performance-based plan to strengthen 
accessing and reporting on the program and its performance.

                 DISCUSSION WITH LEADERSHIP IN CONGRESS

    Madam Chair, I might suggest that we work with the Speaker 
and the minority leader and have a fruitful discussion as we 
move forward as you are changing their dynamic budget to really 
see if this truly is going to be a function of the legislative 
branch, that we look into how we see that this moves forward to 
serve those of us in the legislative branch.
    I am not saying we walk away or that we leave the function 
that it has had in training judicial support. Because this body 
and I have been involved asking for it to happen. So I think, 
until we get there, there is going to continue to be this 
tension, this dilemma, and this heartbreak for all of us on 
this committee with the limited resources we have to move good 
things forward.
    And right now they are going through--they will be going 
through reorganization of the State and Foreign Act, which has 
been mandated basically for the last 50 years.
    So I think we have an opportunity of talking to the 
committees of jurisdiction about what and if we should have 
something that is truly owned by the legislative branch and I 
think appropriately housed in what is a very wonderful 
institution, is a friendly institution to the world, the 
Library of Congress. And I think until we have that discussion 
you are going to be haunted by this.
    And that is my comment.
    Ms. Wasserman Schultz. Thank you very much, Ms. McCollum.
    I will add that the problem that we have in the Legislative 
Branch budget is that we are the smallest budget of them all. 
And $14 million in this budget is much different and has a much 
more significant impact on the priorities that we have to 
choose from than every other bill. So it might seem like only 
$14 million, but that is a big nut, a big nugget for us to deal 
with. And that is why it is something that we end up wringing 
our hands with. And I am not the first one, the first chair of 
this subcommittee to wring my hands over Open World. I know 
there is perennial angst, annual angst over this.
    Ms. McCollum. I am ready to go to the Budget Committee and 
increase it if we have got a strategic plan.
    Ms. Wasserman Schultz. I agree. I couldn't have said it 
better myself. The case has been well made by Dr. Billington 
that there is value in having a legislative exchange program. I 
agree with you. I have not seen really the components of that 
legislative exchange program that we are funding recently. So 
it would be helpful if we need to adapt your program so that it 
is a better fit than it currently is. It maybe used to be a 
legislatively oriented program, but it doesn't appear to be 
now.
    But I wanted to just go back really quick before--do you 
have any additional questions?
    Mr. Aderholt. That is all I have.

                   FUNDRAISING EFFORTS OF OPEN WORLD

    Ms. Wasserman Schultz. I want to focus on your fundraising 
before they call votes. We did ask that--and, Dr. Billington--
--
    Dr. Billington. I have one thing I wanted to address.
    Ms. McCollum. I am trying to get back----
    Dr. Billington. I think this is a wonderful discussion, and 
I really also appreciate your problems and at the same time 
your positive assessment and your idea.
    I just want to say two quick things.
    One, that this is fundamentally different from the other 91 
programs in that it is consciously directed at emerging 
leaders. These are young people. This is based on a list I got 
from a man who was the conscience of Russia after Sakharov. He 
is not well known in this country. He is the only survivor of 
the first death camp in the 20th century, a living legend 
inside Russia. He gave me his list of people who could do 
something about the--one-tenth of the Duma are now alumni of 
this program.
    Ms. McCollum. And they are our peers.
    Ms. Wasserman Schultz. Yes.
    Dr. Billington. Fifty-one percent of them are women. That 
is something totally new in this generation. This is all the 
post-Soviet generation.
    Ms. Wasserman Schultz. Just help us help you. That is all 
we are saying.
    Dr. Billington. This is the best discussion we have ever 
had.
    Ms. Wasserman Schultz. I am so glad. I would love to take 
this off the table and not have to go through it every year 
because we have solved the problem at some point. But on your 
fundraising efforts, you have got a formal report that is due 
on May 30th.
    Mr. O'Keefe. We do.

                    PROGRESS ON FUNDRAISING EFFORTS

    Ms. Wasserman Schultz. You submitted a letter to the 
committee outlining your fundraising efforts that you are 
undertaking.
    Mr. O'Keefe. Right.
    Ms. Wasserman Schultz. Can you tell the committee what 
commitments you have gotten up to this point from 
nonlegislative branch sources, either public or private?
    And then you did mention in your budget materials that you 
have a $950,000 pledge over 3 years. What concerns me about 
that pledge is that the funds--there is a limitation on how the 
funds can be used--cannot be used for any activities that were 
previously funded with appropriated funds. So that defeats the 
purpose of raising outside funds. If you get a pledge of 
funding, you need to be clear with the outside source of 
contributions that the idea is that you would be replacing 
funds that we can't provide you with anymore.
    Mr. O'Keefe. Just a little clarification on that.
    First, one gift was $500,000 for the alumni program, which 
again is one of the unique parts of this program, that we keep 
these networks up. And we don't use appropriated funds for 
that.
    The second gift or pledge which you have got, $150,000 per 
year for three years, was provided by Senator Malkin and that 
is--that can substitute for appropriated funds because it is 
for exchanges out of the Republic of Buryatia in Russia. And so 
the next $300,000, $150,000 next year, $150,000 the year after 
that, that is just for what would have been--we would have used 
appropriated funds.
    And I understand exactly what you are saying. Because our 
objectives are, for example, to substitute the $1.4 million I 
have asked from State would be in place of appropriated funds.

                  ADDITIONAL ASSIGNMENT FROM THE CHAIR

    Ms. Wasserman Schultz. I don't have any additional 
questions. And your homework is the May 30th report on your 
fund-raising efforts. We look forward to hearing about those.
    As I said, you need to help us help you. Because it is not 
that I don't want to make sure that this program can continue. 
It is that I am drowning in priorities. And these are not nice-
to-have priorities; they are must-have priorities. If we are 
going to preserve this institution and its facilities, if we 
are going to make sure that we can continue to implement the 
vision of Dr. Billington and give the country and the world 
access to the treasures that are in the Library of Congress, 
unless I get money dropped from the sky in another amazing 
allocation, which I am not expecting this year, I don't have 
that many places I can go to find the funds. So I say that with 
the utmost respect for your efforts and your dedication.
    Mr. O'Keefe. Well, I have to also thank you, Madam Chair. 
You are very forthright and very clear, which is useful. Also, 
I think that you do appreciate what we are doing. It is, as Dr. 
Billington said, an amazing program; and I am constantly 
impressed not just by the quality but by the fact that one in 
four of our participants have either met with congressional 
staff or Members of Congress. So we do a lot of contact.
    But I think you are right, Mr. Aderholt. We need to do much 
better outreach to the offices, and we will do that.
    Ms. Wasserman Schultz. Thank you very much.
    Thank you to everyone for coming today. The subcommittee 
stands in recess until next Tuesday, May 5th, at 10 a.m., when 
we give Members and public witnesses an opportunity to testify 
on the legislative branch agencies fiscal year 2010 budget 
requests. 
[GRAPHIC] [TIFF OMITTED] T0439B.058

[GRAPHIC] [TIFF OMITTED] T0439B.059

[GRAPHIC] [TIFF OMITTED] T0439B.060

[GRAPHIC] [TIFF OMITTED] T0439B.061

                                              Tuesday, May 5, 2009.

 TESTIMONY OF MEMBERS OF CONGRESS AND OTHER INTERESTED INDIVIDUALS AND 
                             ORGANIZATIONS

                              ----------                              --
--------


                Opening Remarks--Chair Wasserman Schultz

    Ms. Wasserman Schultz. I am pleased to call this meeting of 
the Legislative Branch Subcommittee of the House Committee on 
Appropriations to order. This morning we are holding our annual 
Member and public witness hearing, in which we give the 
employees of the Legislative Branch as well as Members of the 
House of Representatives an opportunity to testify on their 
concerns or anything else on their mind. It has always been 
helpful for the subcommittee when we approach doing our mark of 
the bill to get input from the employees. And each year 
something comes to light that we were not aware of that has 
been included or changed the Legislative Branch mark to some 
degree.
    So I am looking forward to hearing the testimony of the 
individuals that are here today. Congressman Holt is the only 
Member of the House who has requested time to speak, and his 
testimony will be taken as soon as he arrives following the 
person that is currently testifying at that moment. And with 
that, Mr. Aderholt?
    Mr. Aderholt. Likewise I just echo what you say, look 
forward to hearing the testimony of our public witnesses today.

                 AMERICAN ASSOCIATION OF LAW LIBRARIES

    Ms. Wasserman Schultz. Great. Our first witness will be 
Mary Alice Baish. She is the director of the Government 
Relations Office for the American Association of Law Libraries. 
Ms. Baish, your full statement will be entered into the record, 
and you can proceed with a 5-minute summary.
    Ms. Baish. And I even get a bottle of water.
    Ms. Wasserman Schultz. You do. We are very accommodating.
    Ms. Baish. I had to leave mine outside of the building when 
I came in.
    Ms. Wasserman Schultz. You are not allowed to fly with 
water or bring it into the Capitol.
    Ms. Baish. Apparently. I am very appreciative.
    Mr. Aderholt. We wanted to replace it for you.
                                              Tuesday, May 5, 2009.

  NO-FEE PUBLIC ACCESS TO GOVERNMENT INFORMATION THROUGH THE FEDERAL 
                       DEPOSITORY LIBRARY PROGRAM


                                WITNESS

MARY ALICE BAISH, DIRECTOR, GOVERNMENT RELATIONS OFFICE, AMERICAN 
    ASSOCIATION OF LAW LIBRARIES

                   Testimony--Mary Alice Baish, AALL

    Ms. Baish. I hope my 5 minutes has not started yet, because 
I have a full message for you today. So good morning, Madam 
Chair Wasserman Schultz and Ranking Member Aderholt and members 
of the subcommittee. I am delighted to be here this morning on 
behalf of the American Association of Law Libraries, the 
Medical Library Association, and Special Libraries Association. 
We are committed to the democratic principles of no-fee public 
access to government information through the Federal Depository 
Library Program. We support Public Printer Bob Tapella's full 
fiscal year 2010 budget request for the Government Printing 
Office. GPO's mission to keep Americans informed is uniquely 
vital to our democracy. We also recognize your need to make 
tough decisions for fiscal year 2010 spending.

                         FEDERAL DIGITAL SYSTEM

    First I would like to thank you for your strong support of 
GPO's funding needs in fiscal year 2009. We are especially 
grateful for the $1 million for the continued development of 
the Federal Digital System, or FDsys. FDsys is essential to 
GPO's future and the needs of the public. We welcomed its first 
release last January. Building, maintaining and enhancing FDsys 
is crucial. There are enormous costs involved in properly 
managing the life cycle of electronic information from its 
creation to its authentication to its permanent public access 
and preservation.
    Public Printer Tapella requested $8 million for the further 
development of FDsys, listing it as his top priority during 
last week's hearing before the subcommittee. We absolutely 
agree, an adequate annual level of funding for FDsys is 
necessary to ensure that its future development and 
enhancements keep up with the pace of technology.

                   FEDERAL DEPOSITORY LIBRARY PROGRAM

    Second, we fully support the $40.9 million request for the 
salary and expense account which fund the Federal Depository 
Library Program. As GPO expands efforts to provide information 
in electronic formats, as well as distribution of print 
materials to libraries, it is imperative that new recurring 
costs related to identifying, cataloguing, and distributing 
government resources be fully supported. GPO's cataloguing and 
indexing services are crucial to the ability of the public to 
find the information they need.
    And it is more imperative than ever before, because now we 
have a system, FDsys, which can harvest online information from 
agency Web sites. We believe that the funding request to hire 
10 additional staff to ensure more timely acquisitions, 
cataloguing, and indexing services, is absolutely essential. 
Third, as a former documents librarian, I would like to brag 
about the very important services that depository libraries 
provide to your constituents each and every day. For example, 
responding to an August 2008 request from the superintendent of 
documents, members of the FDL community submitted statements 
about the value of their services and collections. And I invite 
you to view the responses on the FDL Web site. And I will be 
more than happy to give you the URL. Among them, Madam Chair, 
Broward County's main library in Fort Lauderdale noted that 
while many basic questions can be found on line through agency 
Web sites or FDsys or GPO Access, that their users need their 
print documents collection. For example, among their recent 
success stories that they sent to GPO, they helped customers 
find a copy of a 1871 document titled ``A Report on the 
Defenses of Washington to the Chief of Engineers In the U.S. 
Army'', primary source material from the Civil War era, the 
1919 annual report of the Secretary of the Navy, which is only 
available in the print United States serial set, and a 1988 
regulation that is not freely available yet on line. Librarians 
at the Shepard Broad Law Library, also in Fort Lauderdale, have 
observed significant growth both in the number of their public 
users and circulation of their documents.
    More members of the public face pressing legal issues, but 
do not have computers or the money to buy documents that they 
need. And at a time when all States, including Florida, are 
enacting severe budget cuts that will negatively impact library 
collections and services, the Law Library's participation in 
the depository library program ensures that the public will 
continue to have access to important legal documents. 
Interestingly, recent reference statistics at the Law Library 
indicate that bankruptcy, housing foreclosures, and assistance 
with housing, immigration, and health care services, are the 
leading information needs of their public users. Documents 
librarians also develop finding tools whenever a new hot issue 
occurs, such as the recent outbreak of swine flu.
    At Georgetown Law Library, they just updated their guide 
that includes Federal, State, and international laws relating 
to human influenza. The documents librarian up at the 
University of Alaska in Fairbanks posted a new online guide 
because he discovered that there are many congressional 
hearings published during and after the U.S. swine flu outbreak 
in the 1970s. And these are all print documents in the historic 
collection. It is simply impossible in this short amount of 
time to really adequately describe the excellent services that 
depository libraries provide daily to your constituents.
    We ask that you approve the GPO's fiscal year 2010 request 
to support these collections and services needed by depository 
libraries. Last year I asked you to become champions of the 
FDsys, and I applaud you for doing so and thank you for your 
support. The FDLP's greatest challenge right now is the fusion 
of valuable print collections with 21st century technologies. 
The added value, which is the heart of the program, is 
contributed by the very dedicated librarians at Federal 
depository libraries. Please send a clear message to the GPO 
and to these FDLP libraries that their collections and services 
are needed and appreciated by you more than ever before. Thank 
you very much.
    [Ms. Baish's prepared statement follows:]
    [GRAPHIC] [TIFF OMITTED] T0439B.062
    
    [GRAPHIC] [TIFF OMITTED] T0439B.063
    
    [GRAPHIC] [TIFF OMITTED] T0439B.064
    
    [GRAPHIC] [TIFF OMITTED] T0439B.065
    
    [GRAPHIC] [TIFF OMITTED] T0439B.066
    
    [GRAPHIC] [TIFF OMITTED] T0439B.067
    
    [GRAPHIC] [TIFF OMITTED] T0439B.068
    
    [GRAPHIC] [TIFF OMITTED] T0439B.069
    
                          PUBLICIZING THE FDLP

    Ms. Wasserman Schultz. Thank you very much, Ms. Baish. And 
I think that I speak for all the Members when I say that most 
Americans are not aware of the vast access to information that 
GPO and the Federal Depository Library System provide to them 
to access information they would not otherwise be able to. And 
I know that I am a lot more enlightened now that I serve on 
this committee.
    Ms. Baish. GPO has a video that for a time was up on 
YouTube about the value of depository libraries. So I think 
that GPO is making an effort to better market it. And of 
course, the marketing is done at each and every one of the 
depository libraries as well.
    Ms. Wasserman Schultz. Sure. I do not have any additional 
questions.
    Mr. Aderholt. I do not have anything.
    Ms. Wasserman Schultz. Mr. Cole.
    Mr. Cole. I have no questions.
    Ms. Wasserman Schultz. Thank you very much.
    Ms. Baish. Thank you so much.

                 Congressman Holt on Reestablishing OTA

    Ms. Wasserman Schultz. Our first and only Member witness 
today is Representative Rush Holt of New Jersey. Congressman 
Holt, you are here today to talk about our mutual goal of 
reestablishing the Office of Technology Assessment. If you can 
proceed with your statement, and I look forward to hearing your 
testimony from a historical perspective, as well as why you 
think it is so important that we reestablish the office.
                              ----------                              --
--------

                                            Tuesday, May 5, 2009.  

           REESTABLISHING THE OFFICE OF TECHNOLOGY ASSESSMENT


                                WITNESS

HON. RUSH HOLT FROM THE STATE OF NEW JERSEY

                  Testimony of Congressman Holt on OTA

    Mr. Holt. Thank you, Madam Chair and members of the 
committee. I speak as someone who worked on Capitol Hill as a 
member of staff, saw the Office of Technology Assessment in 
full operation, and as one who serves now and has seen the 
absence of that. I thank you for the opportunity to testify 
about a very important program under your jurisdiction, one 
that if funded I think would help restore the American people's 
confidence that we have the information that we need to make 
informed, well-reasoned decisions in a complex world. The good 
news is that we do not need to create a new, untested program 
to do this. We just need to refurbish the tool that we have 
had, that we know works, that has been too long neglected, and 
I am talking about refunding the Congressional Office of 
Technology Assessment, known as the OTA. Every Member of 
Congress, I am sure the members know, need access to policy 
relevant, unbiased, technical assessments crafted by those who 
are familiar with our work, with the functions of Congress, 
written in a language that is relevant to our work, and 
produced with an eye toward the congressional schedule and 
common needs. That was the role that was filled by OTA for 23 
years.

                             UTILITY OF OTA

    The greatest misconception about OTA, I think, is that it 
was a science organization for scientists. This was not the 
case. Members used OTA reports to understand issues and develop 
policy positions. Options explored by OTA became outlines for 
new legislative proposals. Congress often required OTA to 
assess the implementation of new programs for effectiveness. 
And OTA really existed to serve every Member of Congress. Some 
people say, well, you have a science background, you must want 
OTA. Actually, I need OTA less than most Members of Congress. 
Those responsible for defunding OTA claimed that it was 
necessary--that Congress had to rein in excessive government 
spending.
    Well, in its last year, OTA's operating costs were $23 
million, less than 1 percent of the legislative branch 
appropriations, yet the payback from OTA I think was far-
reaching. For example, an OTA report was the source of upgrades 
in computer systems at the Social Security Administration that 
led to savings of more than $350 million. Studies on the 
Synthetic Fuels Corporation raised important questions about 
the program. And its subsequent abolishment, I think saved 
billions. Now, all we need to do is find a way to have those 
savings added to the legislative branch allocation.
    Ms. Wasserman Schultz. I agree.
    Mr. Holt. But more important than any cost savings was 
really the incalculable value OTA's contributions brought to 
the policy discussions. Many argued that we would be able to 
get the same information from other sources, think tanks, 
experts in academia, National Academies, CRS, GAO. These are 
all excellent resources, but they were not designed as OTA was 
designed. We do not suffer from a lack of information on 
Capitol Hill. We do not have the time or the resources to gauge 
the validity, credibility, usefulness, of the overwhelming 
amount of information we receive. And in the years since OTA 
was disbanded, no group or combination of groups has been able 
to assume its place as a provider of scientific and technical 
assessment for Congress with review panels and all of the 
analysis and procedures that went with that. And I think our 
national policies have suffered.
    Perhaps OTA could be made more responsive to requests by 
individual members. Better connections to other organizations 
like CRS and GAO and the National Academies could be 
established. Perhaps OTA could further democratize part of the 
policy process by harnessing the tools of the Internet and the 
public's obvious desire to contribute to the national dialogue 
on climate change and energy security and much more. These are 
all important issues that Congress can and should explore. But 
we already know that the basic structure of OTA is sound. We 
have done this experiment. We just need to heed the results and 
breathe new life into OTA. A fully functioning agency would 
cost I figure something on the order of $35 million today. For 
a first year appropriation, I suggest $10 million to fund the 
reestablishment of OTA and begin a handful of research 
projects, and then build up to the kind of agency that had a 
hundred and some professionals. There is no question that 
having those professionals in OTA, and I speak as someone who 
was a staff member at the time, elevated the level of discourse 
on any number of issues. OTA's greatest contributions were its 
ability to provide long-term, forward looking perspective, and 
to alert Members of Congress to components of policies that are 
scientific or technical in nature but might not be immediately 
obvious. Consider that as early as 1995, before anyone had 
heard of the BlackBerry, and cell phones were clunky and 
uncommon, OTA produced a report Wireless Technologies and the 
National Information Infrastructure.
    Various reports on science and math education were written 
long before STEM ed became a popular topic. Health care 
policies and technologies were considered in depth, from the 
impact of health care reform on rural areas to the cost and 
benefits of artificial hearts. There were reports on cancer, on 
HIV/AIDS. There were six reports on women's health. Before most 
people had heard of biodiesel, OTA was examining the potential 
environmental--this is the title--Potential Environmental 
Impacts of Bioenergy Crop Production. And before most Americans 
held concerns about identity theft or warrantless wiretapping, 
OTA produced a report on electronic surveillance in the digital 
age. All of these reports, and most of the 755 produced by OTA, 
are still relevant to issues being considered by this Congress 
15 years later. Now, you might say, well, if all this work was 
done during the golden age, why are these problems still with 
us? Well, it is important to point out that the work done by 
OTA in a number of areas has really led to legislative 
solutions. I was talking with someone the other day who said, 
well, you are interested in OTA. I said yes. He said, you know, 
I do work, I am a Washington rep dealing with Alzheimer's 
disease. Do you know what the bible is for Alzheimer's policy 
in? It is an OTA report that was written 20 years ago.
    You will recall recently we passed the Genetic 
Nondiscrimination Act. Not a high-tech matter, it was really a 
workplace protection matter, an employee protection and citizen 
protection matter. Do you know the origin of that? It was an 
OTA study around 1990. Last year we passed in my committee on 
Education and Labor regulations on dust explosions in the 
workplace. You know who did the first work in Congress on that? 
OTA. A year ago few had considered the potential risks of the 
new computer-assisted mathematical models in our financial 
sector. What if during this 15 years that OTA did not exist if 
OTA had maybe written a report on mathematical models and 
derivatives in the financial industry? Likewise, would we have 
benefited over the last 15 years from reports on energy 
challenges and how to deal with global pandemics? What 
phenomenon or technologies will be leading the headlines and 
changing our world a year from now or 5 years from now? OTA 
cannot tell us that, of course. But OTA can and did help us 
start considering these possibilities. So let's not wait 
another year to revive OTA for the benefit of every Member of 
Congress.

                  USING GAO FOR TECHNOLOGY ASSESSMENTS

    Ms. Wasserman Schultz. Thank you very much, Congressman 
Holt. You and I have been discussing this since the Legislative 
Branch Subcommittee was reestablished. As far as we have been 
able to go was appropriating $2.5 million and allocating that 
to GAO and having them conduct technology assessments. Why is 
it not sufficient to just expand GAO's role in that regard, 
have them bring on more experts and handle the functions of the 
OTA through GAO?
    Mr. Holt. Right. I think what one could do is set up a 
program with a bipartisan governing board. In fact, you know 
the governing board of OTA was scrupulously bipartisan, evenly 
balanced, and bicameral, and the members, most of them really 
took part in this. So we could set up in GAO, perhaps in the 
Library of Congress, an organization with a bicameral, 
bipartisan governing board that would have a permanent staff of 
many dozens or a hundred or more that convened outside panels 
both to review the scope of the work before it is undertaken 
and the text of the report before it is released. We could have 
these requested by members and committees. And what we would 
have done is invented OTA and placed it within GAO or CRS. One 
could do that. But as I say, we have done the experiment. The 
design of OTA by, you know, outside observers will find some 
nits to pick, you know, as I say, well, maybe there should be 
more coordination with GAO or the National Academies. Maybe 
individual members rather than committee chairs should be able 
to request reports. But those who have looked at it have said, 
you know, this design worked.
    Ms. Wasserman Schultz. There is----
    Mr. Holt. And we would end up I think recreating that 
design if we started to design it from scratch.

         USING NATIONAL ACADEMIES FOR THE TECHNOLOGY ASSESSMENT

    Ms. Wasserman Schultz. No, I agree with you. And there is a 
constituency of members--there is not a constituency of one 
member, there is a constituency of members on both sides of the 
aisle that are supportive of the reestablishment of OTA. I will 
just point out to the committee that this is another example of 
something that is well within the responsibility and purview of 
the subcommittee when we have competing priorities that perhaps 
are not within what should be the purview of the subcommittee. 
So just an example that I point out. Another question is why we 
could not use the National Academies as an alternative to OTA?
    Mr. Holt. Of course, we use the National Academies now for 
all sorts of things. The difference between OTA and the 
National Academies was OTA existed of and for Congress. It was 
part of Congress, it spoke our language, it fit into--I mean it 
understood both our peculiarities, I mean how Members of 
Congress work, and the schedule. And as I mentioned in my 
testimony, the presence of the staff on the Hill really 
elevated the discourse. I can just point to numerous examples 
when I was a staff member, just because they were here on the 
Hill and a creature of Congress, it elevated the discourse. We 
get good reports from the National Academies. It is not on the 
same time scale. And I would argue it is not and is not 
intended to be of the same legislative relevance that OTA's 
studies were.
    Ms. Wasserman Schultz. Thank you. Mr. Aderholt.

                             HISTORY OF OTA

    Mr. Aderholt. You might have mentioned it, but when was the 
OTA first established?
    Mr. Holt. 1973 or 1972. It was--1972, because it was 23 
years until 1996.
    Mr. Aderholt. What was the really the thing that sparked 
this office getting off the ground in the first place? Do you 
know offhand?
    Mr. Holt. You know, I have read the history. I cannot tell 
you specifically. You know, this was a time when, remember, the 
EPA was created, the Clean Air and Clean Water Acts were, some 
health care studies. It was a time when Congress realized it 
needed some in-house technological support. But I cannot tell 
you what the specific questions or emergencies----
    Mr. Aderholt. It could have been a culmination of things 
that came together?
    Mr. Holt. Yes.
    Mr. Aderholt. Thank you. That is all.
    Ms. Wasserman Schultz. Mr. Cole.
    Mr. Cole. No questions.
    Ms. Wasserman Schultz. Thank you very much.
    Mr. Holt. Thank you.

                       GAO EMPLOYEE ORGANIZATION

    Ms. Wasserman Schultz. I look forward to working with you 
on trying to move this issue forward. Next we will hear from 
Ron La Due Lake of the GAO Employee Organization. Mr. La Due 
Lake is the President of that Organization. Your full statement 
will be entered into the record, and you can proceed with a 5-
minute summary. Thank you and welcome to the committee.
                              ----------                              

                                             Tuesday, May 5, 2009. 

    GAO'S FISCAL YEAR 2010 REQUEST AND ISSUES OF CONCERN TO AGENCY 
                               EMPLOYEES 


                                WITNESS 

RON LA DUE LAKE, PRESIDENT, GAO EMPLOYEES ORGANIZATION

                Testimony of Mr. La Due Lake, Gao Union

    Mr. La Due Lake. Thank you very much. Good morning.
    Ms. Wasserman Schultz. Good morning.
    Mr. La Due Lake. In addition to being President of the GAO 
Employees Organization, the GAO union, IFPTE Local 1921, I am 
also a specialist in GAO's applied research and methods team. I 
am pleased to have this opportunity to be here today. We are 
particularly grateful, Madam Chair Wasserman Schultz, for your 
personal commitment to work life balance for all Federal 
employees. Thank you very much.
    Ms. Wasserman Schultz. Thank you.

                SUPPORT FOR GAO'S FY 2010 BUDGET REQUEST

    Mr. La Due Lake. We are very grateful for the support 
provided to GAO in the fiscal year 2009 budget. We also support 
GAO's fiscal year 2010 budget request of an increase of 6.9 
percent. As you know, GAO's 2010 budget request allows for a 
3.5 percent increase in staffing levels. We feel this is a 
modest and essential step forward. The number of congressional 
requests and mandates continue to increase significantly. We 
respectfully seek the support of the subcommittee for GAO's 
fiscal year 2010 budget request in order to continue rebuilding 
GAO's capacity to meet the needs of the Congress during this 
time of increasing oversight and accountability. We are also 
pleased to report that the GAO union membership just ratified 
the 2009 pay agreement that we recently negotiated that covers 
the performance-based compensation employees will receive.

                           2009 PAY AGREEMENT

    The compensation employees will receive is based on a 
negotiated budget factor of 2.65 percent. This is in addition 
to an across-the-board increase equivalent to the GS COLA 
annual adjustment by locality we negotiated earlier this year. 
We feel that this is a fair agreement. It assures that all GAO 
employees who receive the rating of meets expectations or 
higher will receive some amount of compensation based on their 
performance ratings. We are very concerned about GAO's evolving 
plans to address the disparate treatment of minority employees 
at GAO.

         GAO PLANS TO ADDRESS DISPARATE TREATMENT OF MINORITIES

    After a recent study documented disparities in ratings 
between African American and Caucasian analysts at GAO, GAO 
contracted with a firm to conduct facilitated conversations 
about race with employees and managers across the Agency. These 
facilitated conversations were held, and GAO recently briefed 
the union on the next steps planned for the Agency. The next 
steps include a primary focus on diversity awareness and 
sensitivity training for all employees. Further, an emphasis of 
this training will be for employees to seek feedback on their 
performance. It is disconcerting to us that in an agency where 
there is documented evidence of the disparate treatment of 
African Americans in their ratings, there would be a follow-up 
plan that places an emphasis on employees, including African 
American employees, seeking feedback on their performance.
    Though we are not at all opposed to diversity awareness 
training, we are reluctant to believe that diversity training 
is the only solution to the deeply held discriminatory 
behaviors and attitudes at GAO that have resulted in 
disparities in ratings between African American and Caucasian 
employees. In fact, GAO provided mandatory diversity training 
in the 1980s and the early 1990s, yet these problems are still 
in play in 2009. GAO also did not present any plans for 
benchmarking progress in this area. The union would like this 
subcommittee's support by holding GAO accountable to a plan for 
addressing any disparities in ratings and professional 
opportunities that specifies criteria and concrete measures for 
recognizing and recording progress.

                     COMPTROLLER GENERAL SELECTION

    The GAO union has provided the U.S. Congress with our views 
on the critical selection process of the next GAO Comptroller 
General. While all the areas we have identified are essential 
in our view, today I would like to emphasize the importance of 
two. First, considerable experience, knowledge, and respect for 
the type of work we do at GAO in helping the Congress conduct 
oversight. And two, a demonstrated commitment and experience in 
working collaboratively with labor organizations.
    In closing, I would like to reiterate our appreciation for 
the opportunity to testify before the subcommittee. All of my 
colleagues at GAO are very proud of being referred to as the 
gold standard, and appreciate the recognition and support 
offered by this subcommittee. I would be pleased to answer any 
questions.
    [Mr. La Due Lake's prepared statement follows:]
    [GRAPHIC] [TIFF OMITTED] T0439B.070
    
    [GRAPHIC] [TIFF OMITTED] T0439B.071
    
    [GRAPHIC] [TIFF OMITTED] T0439B.072
    
    [GRAPHIC] [TIFF OMITTED] T0439B.073
    
    [GRAPHIC] [TIFF OMITTED] T0439B.074
    
    [GRAPHIC] [TIFF OMITTED] T0439B.075
    
    [GRAPHIC] [TIFF OMITTED] T0439B.076
    
    [GRAPHIC] [TIFF OMITTED] T0439B.077
    
         GAO UNION'S PROPOSED SOLUTIONS TO DISPARATE TREATMENT

    Ms. Wasserman Schultz. Thank you very much, Mr. La Due 
Lake. On the issue of diversity training and the disparate 
treatment between minority employees and nonminority 
employees--certainly you can appreciate the value of diversity 
training, because I think that is always important.
    Mr. La Due Lake. Yes.
    Ms. Wasserman Schultz. And I am really pleased that they 
have resolved the compensation issues, because that was a lot 
of heartache we went through for a period of time. And I know 
that the GAO has not completed their plan for addressing the 
issue. And I believe Mr. Dodaro is committed to righting the 
wrong that exists right now. But what additional steps does the 
union membership believe should be taken by GAO to address it?
    Mr. La Due Lake. This is a very important question. It is a 
difficult issue. We feel that the results of the 
discrimination, of course, is the evidence that there is 
disparate treatment in ratings. We are certainly on board with 
diversity awareness and sensitivity training for all employees. 
Our concern is that the sort of problems that the Ivy Planning 
Group study, the Ivy report, identified included issues such as 
the ``GAO Way,'' which included unwritten norms and rules of 
behavior where some employees seem to fit in and some employees 
do not seem to fit in.
    Ms. Wasserman Schultz. Unwritten?
    Mr. La Due Lake. Unwritten rules. The GAO Way was how the 
Ivy study referred to this. Our African American colleagues at 
GAO recognize this immediately in terms of their perception of 
missed opportunities in terms of their ratings, but also in 
terms of their opportunities for professional development. So 
our feeling is that we recognize this is a very difficult 
issue. But our feeling is strongly that in addition to 
diversity and sensitivity training, there need to be concrete 
steps that help to bridge these cultural gaps between employees 
from different backgrounds, from different cultural 
backgrounds.
    Ms. Wasserman Schultz. Like what?
    Mr. La Due Lake. Like the difference in--for instance, one 
employee may take a comment from a supervisor like everything's 
fine, you are doing fine, and assume that means they are doing 
outstanding and excellent work. Another employee may take that 
particular comment and assume I do not have enough details to 
know what that means, I am going to ask more questions and seek 
more information in order to know what ``you are doing fine'' 
means.
    So this kind of communication, and I think GAO has a 
sincere interest in pursuing this, we think plays into some 
sort of a gap or misunderstanding between some employees and--
--
    Ms. Wasserman Schultz. Are you saying you attribute the 
communication gap, which sounds like what you are describing, 
to cultural norms in some instances?
    Mr. La Due Lake. Well, we think that plays into it. We also 
think that there is a difficult--it is a difficult problem at 
GAO in terms of candid, open, and constructive feedback to 
employees. This is very difficult before you introduce 
differences of race and culture. This is a very difficult thing 
to do in a variety of ways. In one aspect, it is difficult 
because people are focused on the target, which is producing 
reports with worthwhile information to the U.S. Congress in a 
timely manner. So working with people ends up relegating you to 
a second. In another way it is very difficult because people 
have--they come from different backgrounds, and communicating 
about performance can be understood in different ways.
    Ms. Wasserman Schultz. Are there enough opportunities for 
supervisors--do supervisors take enough opportunities to 
communicate with their subordinates regardless of their 
minority status about the need to improve their performance, or 
is that part of the problem?
    Mr. La Due Lake. We think that is part of the problem. 
There are excellent supervisors who do this, Madam Chair. There 
are some supervisors who do not.
    Ms. Wasserman Schultz. Isn't that the case in any 
organization?
    Mr. La Due Lake. I think that is the case in any 
organization.
    Ms. Wasserman Schultz. So what is unique to GAO about the 
difference between minority employees and nonminority employees 
and that type of communication?
    Mr. La Due Lake. I am not sure that there is anything 
unique to GAO in particular, except that this has been a long-
standing problem that may or may not be unique to GAO. We are 
concerned that this kind of problem that is extremely sensitive 
and problematic sometimes historically has been addressed in a 
thin approach rather than a deep approach, really getting at 
the issues that create these kinds of gaps in understanding.
    Ms. Wasserman Schultz. I agree with you that it needs to be 
a broad-based and comprehensive approach to come closer to 
ensuring that we can reduce the size of the problem and have it 
show in the more comparable evaluations of employees regardless 
of their minority status. Thank you very much.
    Mr. La Due Lake. Thank you.
    Ms. Wasserman Schultz. Mr. Aderholt.

                     EXTENT OF DISPARATE TREATMENT

    Mr. Aderholt. On the cultural differences that you are 
referring to, do you tend to see the biggest problems with 
African Americans as opposed to the other nationalities or 
different cultures?
    Mr. La Due Lake. Other racial or ethnic groups? That is an 
excellent question. The reason that we are able to speak about 
differences between African Americans and Caucasians is there 
has been long-standing concern about this on the part of 
employees, on the part of employees in Blacks in Government, 
who have been pushing GAO to address this issue. The Ivy 
Planning Group study particularly addressed African Americans 
and Caucasian employees. They looked at those differences in 
ratings since the revisions in our performance management 
compensation system since 2002. We do know that Hispanics and 
Asian Americans through their employee liaison groups at GAO 
also have perceptions of a glass ceiling at GAO in terms of 
their opportunities for advancement, but we do not have the 
kind of data that we have regarding African Americans and 
Caucasians as a result of the Ivy study. That kind of 
information we have not been able--the employee groups have not 
been able to obtain in order to look at those differences for 
particular Hispanics and Asian Americans over time.
    Mr. Aderholt. Okay. All right. Thank you. That is all I 
have.
    Ms. Wasserman Schultz. Mr. Cole.

                         PRAISE FOR GAO'S WORK

    Mr. Cole. Just a comment really, rather than a question. I 
just want to thank you for the wonderful work that the GAO 
does. I probably had more occasions since I have been on this 
committee to see GAO studies than I did in my previous time in 
Congress. I really appreciate the high quality of the work. It 
is really superb. So thank you.
    Mr. La Due Lake. Thank you very much. We appreciate hearing 
that.

                     DATA ON HISPANIC GAO EMPLOYEES

    Ms. Wasserman Schultz. Thank you. Just to go back to the 
Hispanic employees----
    Mr. La Due Lake. Yes.
    Ms. Wasserman Schultz [continuing]. Why has there not been 
the ability to obtain that data?
    Mr. La Due Lake. You know, I do not know exactly. The PAB, 
the appeals board that we have in place to handle appeal 
matters, has done a report recently that has identified this as 
an issue, and they have been able to gather some of this data. 
They have observed, for instance, that although the Hispanic 
population largely has grown over the last several years, the 
percentage of Hispanic employees at GAO has diminished, has 
become smaller. I do not have those numbers at the top of my 
head. In the context of the union, we have the ability to 
access data or information like this when we are actually 
engaged in negotiations over a particular policy. We hope in 
the course of our master contract negotiations that these kinds 
of issues we could address in some way in our master contract, 
and then we would be able to access this kind of information. 
Outside of that process, GAO has been very reserved about 
providing this type of historical information to employee 
groups to allow them to do analysis such as this.
    Ms. Wasserman Schultz. Could you ask the Hispanic Employees 
Association to communicate with our committee staff so that we 
could get more information----
    Mr. La Due Lake. Yes.
    Ms. Wasserman Schultz [continuing]. And get their 
perspective?
    Mr. La Due Lake. I will be happy to.
    Ms. Wasserman Schultz. Thank you. Thank you very much, Mr. 
La Due Lake.
    Mr. La Due Lake. Thank you.

              CONGRESSIONAL RESEARCH EMPLOYEES ASSOCIATION

    Ms. Wasserman Schultz. Now we will hear from Dennis Roth, 
who is president of the Congressional Research Employees 
Association.
                                              Tuesday, May 5, 2009.

           WORK ENVIRONMENT AT CONGRESSIONAL RESEARCH SERVICE


                                WITNESS

DENNIS ROTH, PRESIDENT, CONGRESSIONAL RESEARCH EMPLOYEES ASSOCIATION
    Mr. Roth. Good morning.
    Ms. Wasserman Schultz. Mr. Roth, welcome. Your full 
statement will be entered into the record. You can proceed with 
a 5-minute summary. It is good to see you again.

                      Testimony of Mr. Roth, CREA

    Mr. Roth. Thank you. Madam Chair, Ranking Member Aderholt, 
my name is Dennis Roth, President of the Congressional Research 
Employees Association, the union representing all employees of 
the Congressional Research Service. On behalf of all CREA 
elected officials and our members, I thank you for giving us 
the opportunity to testify this morning. In the fall of 2007, 
the Library, in its fiscal year 2008-2013 strategic plan, 
stated it would work to become ``recognized as an employer of 
choice for public service through realization of human 
potential and high performance.'' Over a year-and-a-half later, 
efforts to achieve this outcome have been minimal.

                   UPWARD MOBILITY FOR CRS EMPLOYEES

    A long-standing Library and CRS workforce concern has been 
the paucity of opportunities for upward mobility. While a 
significant percentage of the Library workforce and CRS's 
workforce continues to retire over the next several years, 
opportunities will abound. The Library needs to complete its 
Library-wide succession plan, identify future positions and 
required competencies. Then, hopefully with the assistance of 
its unions, the Library can develop strategies to address skill 
gaps for future positions that include the use of current 
staff. This would be a significant first step to becoming an 
employer of choice. In the fall of 2008, the Library took 
another step in this direction when it administered OPM's 
Federal Human Capital Survey to measure employee perceptions 
whether, and to what extent, conditions characterizing 
successful organizations are present in the Library.
    However, this effort was minimized by the fact that the 
Library opted not to include a question to identify the service 
unit in which the respondent worked. Consequently, one cannot 
determine whether the findings are representative of the 
Library as a whole, and certainly not of any given service unit 
such as the Congressional Research Service. To try to correct 
this problem, the Library has requested the management of each 
service unit to consult with their staff to try to determine 
whether the aggregated results reported by OPM reflect the 
environment within their own union. These face-to-face 
discussions compromised the original strength of the survey, 
anonymity and confidentiality, and reduced the probability of 
frank and open participation. Any information gathered in this 
forum must be considered anecdotal rather than scientific.

                            TELEWORK AT CRS

    A lot of time and resources have not been well spent. An 
employer of choice would offer workforce flexibility. This is 
not the case at CRS. Our current telework policy remains highly 
restrictive because of the director's intractable belief that 
Congress regularly requires CRS staff to be able to come to 
your offices at a moment's notice for face-to-face 
consultations. Other forms of communication would not be 
sufficient. While this could and does happen, such instances 
are infrequent, and should not serve as a ban for telework. 
Regardless, our telework program can be designed to accommodate 
such situations.
    Last week, OPM Director John Berry announced a broad 
telework plan for executive branch employees, including 
elements from House Bill 1722. The Library of Congress, 
including CRS, must have similar telework legislation. And 
while the bill would exclude employees whose duties and 
responsibilities require ``daily face-to-face contact'' with 
other people, you need to make it clear to the director of CRS 
that our face-to-face contact is occasional and not daily. The 
director must be informed that it is okay with you to give a 
flexible telework policy an opportunity to succeed. The 
perception of the need for face-to-face meetings at a moment's 
notice has resulted in other workforce inflexibilities.
    These include an unwillingness to entertain the use of 
credit hours, an unwillingness to change starting times by as 
few as 30 minutes, an unwillingness to consider job sharing, 
and an overall unfavorable attitude towards part-time work.

                       TOP-DOWN MANAGEMENT STYLE

    Another factor going against CRS being considered an 
employer of choice is the management style of its top level 
managers. Major decisions affecting working conditions are made 
without the input provided of staff. Staff feels that 
management makes decisions unaware or unappreciative of their 
concerns and professionalism. Management considers those who 
express their concerns as being overly resistant to change. The 
Nuclear Regulatory Commission rated highest in the survey I 
mentioned earlier. The reasons cited by management? Openness. 
This is what is needed at CRS. There is considerable 
speculation that President Obama will take steps to foster 
collaboration between Federal sector unions and management in 
the executive branch. We ask that when this happens, members of 
this subcommittee support similar actions for the legislative 
branch, and in particular encourage CRS management and CREA to 
take concrete steps to work more cooperatively.
    We would also like to acknowledge and support the Library's 
request for funds to increase the transit subsidy to the full 
amount allowed by OPM. And one final thought. President Obama 
recently asked executive branch employees to offer suggestions 
on how to make their work more efficient and save money. We 
would like to see the same request come from our budget 
subcommittees, with you or a neutral party being the recipient 
of suggestions to protect anonymity. This concludes my 
testimony. I would be happy to answer any questions.
    [Mr. Roth's prepared statement follows:]
    [GRAPHIC] [TIFF OMITTED] T0439B.078
    
    [GRAPHIC] [TIFF OMITTED] T0439B.079
    
    [GRAPHIC] [TIFF OMITTED] T0439B.080
    
    [GRAPHIC] [TIFF OMITTED] T0439B.081
    
    [GRAPHIC] [TIFF OMITTED] T0439B.082
    
               SUBCOMMITTEE ACTION ON CRS TELEWORK POLICY

    Ms. Wasserman Schultz. Thank you very much, Mr. Roth. You 
know, I continue to be vexed by why CRS has not been able to 
resolve the concerns of the employees over telework and part-
time work and job sharing. I mean, this is 2009. And other 
Federal agencies seem to be able to come up with a reasonable 
policy that allows workers who are parents or who have 
challenging family environments at home, whether it is caring 
for a sick family member or whatever the reason, seem to be 
able to work out a policy that is conducive to being able to be 
a good family member and a good employee.
    So I can assure you that because I have tried in the past 
to do it without language in the Legislative Branch 
Subcommittee bill, that now we will do it that way instead of 
through communication with the leadership at CRS.
    Mr. Roth. Thank you.
    Ms. Wasserman Schultz. So I appreciate that. That is why 
the public witness hearing is important. And as I said, I have 
tried to do it through communication and encouragement and 
cajoling, and as someone who lives my life balancing work and 
family every day and knows what a struggle it is, and as 
someone who is a Member of Congress who understands that we do 
not need at a moment's notice access to CRS employees, it is 
reasonable to expect that we can let you know that we want to 
have a briefing from a CRS employee on a particular subject, 
and that that can be planned for, and that instead of working 
from home that day that the employee, if they are needed to 
brief a Member of Congress, can actually schedule the time to 
come to the Member's office instead of working from home that 
day. That seems entirely reasonable.
    Mr. Roth. And employees who have, I will call it the hot 
topics, will not even volunteer to work at home. We will be 
here for you.

             LACK OF NOTICE ABOUT NEW OFFICE OF OPPORTUNITY

    Ms. Wasserman Schultz. Right. Individuals who cannot have 
that type of flexible work environment can have that be a part 
of the policy at CRS as well. So thank you for bringing that to 
our attention as continuing to be a problem again. The Office 
of Opportunity, Inclusiveness, and Compliance I know is being 
reorganized, and I had concerns last year about why it was 
being reorganized. But I have a clear understanding of the need 
to do it. You expressed concern about the slowness, and you are 
not the only component of the Library of Congress that has 
expressed that concern. So what has been the issue with the 
amount of access that employees have had to that office?
    Mr. Roth. The access is there, but when people learn about 
the reorganization, they think the Office has basically 
disappeared. So there is a strong staff perception that there 
is nothing there now but dispute resolution and EEO claims. 
They have to search it out. No public announcement was made by 
Library management that changes are being made and here is what 
to do in the interim until the new system has been instituted. 
They still have not hired the new director for the office. The 
union presidents met with Jo Ann Jenkins probably just short of 
a month ago, and she told us she was in the process of doing 
reference checks. So it is over a year now, or will be a year 
since they promised to post and have this done in a short 
duration. And the staff that would be under the director will 
not be hired until the director comes in, because it makes 
sense for that person to be able to pick their own staff 
people.
    Ms. Wasserman Schultz. Thank you very much. Mr. Aderholt.
    Mr. Aderholt. I do not have anything. Thank you, Mr. Roth, 
for being here.
    Ms. Wasserman Schultz. Okay. Ms. McCollum, did you have 
questions for the CRS?
    Ms. McCollum. No, I did not, Madam Chair. I am not going to 
apologize for being with a large group of constituents who flew 
out here despite the economy and the H1N1, aka, swine flu.
    Ms. Wasserman Schultz. No apology necessary. But I want to 
point out to you, I know this is an important issue for you as 
well. Mr. Roth in his testimony talked about the difficulty 
that the employees at CRS continue to have with establishing a 
reasonable telework, part-time, job sharing policy. And Ms. 
McCollum, in fiscal year 2009 we had a conversation with Mr. 
Mulhollan about trying to negotiate a better and more 
reasonable policy. That does not appear to have happened. So it 
is my opinion, working with Mr. Aderholt and the members of the 
minority, that we will need to come up with some language for 
our bill that will ensure that that process moves forward for 
the employees. Since I know that is an important issue for you, 
I did not want you to miss that.
    Ms. McCollum. Thank you.

                       GPO POLICE LABOR COMMITTEE

    Ms. Wasserman Schultz. Next we will hear from Alvin 
Hardwick, who is the chairman of the GPO's Police Labor 
Committee. Mr. Hardwick welcome to the subcommittee. Your full 
statement will be entered into the record, and you can proceed 
with a 5-minute summary.
                              ----------                              

                                              Tuesday, May 5, 2009.

                GOVERNMENT PRINTING OFFICE POLICE ISSUES


                               WITNESSES

ALVIN HARDWICK, CHAIRMAN, GOVERNMENT PRINTING OFFICE POLICE LABOR 
    COMMITTEE

              Testimony of Mr. Hardwick, GPO Police Union

    Mr. Hardwick. Good morning, Madam Chair.
    Ms. Wasserman Schultz. Good morning.
    Mr. Hardwick [continuing]. and Ranking Member Aderholt and 
distinguished members of the subcommittee. My name is Alvin 
Hardwick, and I am the chairman of the Government Printing 
Office GPO Police Labor Committee, Fraternal Order of Police 
D.C. Lodge 1. The GPO police force is now comprised of 45 
officers who protect the buildings in Washington and Maryland. 
They have done a fine job protecting the vital and sensitive 
documents at these locations which are needed for this country 
to function. They are also charged with safeguarding a number 
of HAZMAT vehicles that are stored at the GPO building by the 
U.S. Capitol Police in case of an emergency. The mission of the 
GPO police force is crucial to the security of Washington, DC.
    Despite the importance of the jobs done by GPO officers, 
they have been understaffed and underfunded for many years. The 
GPO police department should have 65 officers, the size of the 
force 12 years ago. The number of officers has increased since 
the last time I testified before this committee, but it is 
barely two-thirds of what is needed. The GPO police force is 
one of the few police forces to have fewer officers since 
September 11th, 2001. The gaps in security at the GPO building 
in Washington, DC are astounding.
    At the entrance point for visitors, there are no GPO police 
officers, but instead merely private security guards. At the 
loading dock in the back, where most of the sensitive documents 
that pass through the GPO are located, there is at most one 
security officer and no GPO police officers. Furthermore, in 
the area where Capitol Police stores a number of HAZMAT 
vehicles, there are no GPO police officers which can respond 
when there is a need for an emergency. Instead of hiring more 
law enforcement officers, the previous Public Printer began 
privatizing the security force at the GPO building in 2004. He 
requested 15 private security guards, claiming that this would 
save 3.8 million over 4 years. However, the security gaps began 
to increase due to the understaffing of officers.
    The former Public Printer requested in December of 2006 an 
additional 22 security guards at an annual cost of $1.2 
million, completely negating any supposed cost savings that he 
attempted to wring out of the Department in 2004. Using 
security guards to do the job of federally-trained officers not 
only does not save money, it also weakens security 
considerably. Indeed, these lapses at the GPO building 
represent a considerable security threat. Security guards do 
not have the training, the experience, or the wherewithal to 
protect that building. Although they are armed, they have not 
received training at the Federal Law Enforcement Training 
Center, which every GPO officer is required to receive. They 
cannot assist other law enforcement agencies in case of an 
emergency, and have no authority to protect the perimeter of 
the GPO complex. The ramifications of this are considerable. 
There have been attempted rapes and murders outside the complex 
which GPO officers have assisted in preventing. The security 
aides can offer no such protection.
    Furthermore, because of the move to replace GPO police 
officers with private security guards, if there were an attack 
on an installation within a few blocks of the GPO complex, such 
as the Capitol, Union Station, or the myriad of buildings 
within a few blocks of the GPO, there would be few officers, 
few GPO officers available to assist. And again, these private 
security aides cannot act beyond GPO's building. It is an 
egregious mistake on the part of the former Public Printer to 
think these public guards can provide better security than GPO 
police. What is happening to the GPO is not unique to Federal 
law enforcement. Over the past few years, we have seen a 
gradual shift in responsibilities, manpower, and funding away 
from highly trained, highly professional law enforcement 
officers to unqualified and poorly trained contract security 
guards. This cost cutting move has not only jeopardized the 
security of the installations where this has occurred, but it 
has shaken the morale of the Federally sworn law enforcement 
officers who have seen their job responsibilities irrevocably 
reduced. The officers at the GPO are trained at the Federal Law 
Enforcement Training Center, and are highly qualified to do 
their jobs.
    Contract security guards are not trained at FLETC, and are 
not held to the same rigorous standards as Federal law 
enforcement officers. Examples abound of the ineptitude of 
these contract security guards, and GPO has been ceding more 
and more responsibility over the past few years. Yet the 
contracting of private security has continued unabated. Since 
May of 2007, only 11 uniformed police officers have been hired 
at GPO, compared to approximately 24 security guards. From 
fiscal year 2007 to fiscal year 2008, personnel compensation 
and benefits for uniformed police officers has increased by 
$684,500, or 16.24 percent, while the budget for the security 
guards was increased by $1,411,500, or over 150 percent.
    In addition to not hiring enough officers, the Public 
Printer has sought to impose new and more stringent PT tests as 
a strategy to undermine the police force and implement more 
privatization. This new standard would be greater than the one 
required by Capitol Police, who have significantly higher pay 
and section 6(c) retirement benefits. This would make hiring 
new GPO police officers even more difficult when competing 
against the Capitol Police and other area departments. The 
Public Printer also is attempting to implement PT tests for 
promotions, and if the officer fails they are processed for 
removal. No other department in the Nation forces an officer to 
perform a PT test in order to be promoted. Other officers and I 
believe this process was set up to force the older officers off 
the job and keep them from seeking promotions.
    This hurts the police force morale and causes some officers 
to leave for other departments, who are then likely to be 
replaced by private security guards. Contract security is not, 
nor can it ever be, a replacement for a fully sworn law 
enforcement officer. Transferring responsibility to these 
security guards in these agencies has been the wrong thing to 
do, and the GPO would be wise to stop this course of action.
    Ms. Wasserman Schultz. Mr. Hardwick, I am going to have to 
recess the committee for a half hour in a few minutes, and I 
want to be able to ask you some questions. So if you could 
begin to wrap up your remarks.
    Mr. Hardwick. Okay. I can conclude.
    Ms. Wasserman Schultz. I did not mean to stop you in your 
tracks. Did you have anything else wanted to add?
    Mr. Hardwick. That is fine. You already have my statement 
for the record.
    [Mr. Hardwick's prepared statement follows:]
    [GRAPHIC] [TIFF OMITTED] T0439B.083
    
    [GRAPHIC] [TIFF OMITTED] T0439B.084
    
    [GRAPHIC] [TIFF OMITTED] T0439B.085
    
    [GRAPHIC] [TIFF OMITTED] T0439B.086
    
                       PASSPORT FACILITY SECURITY

    Ms. Wasserman Schultz. Okay. Thank you very much. The 
committee appreciates your testimony of 2 years ago, when we 
were first reestablished, and you came to the public witness 
hearing and pointed out that security guards were actually 
guarding the passport facility, as opposed to sworn law 
enforcement officers, which the committee members on both sides 
of the aisle were shocked to learn. And subsequently, we 
included language in our bill that ensured that it would be 
sworn officers that guard the facility. And I am assured that 
that is the case today. Correct?
    Mr. Hardwick. Partially so. Our local passport facility, 
yes, we do have officers, but in the Mississippi passport 
facility that is all contract security guards.
    Ms. Wasserman Schultz. Okay. That is interesting. I guess 
we were not specific enough. That facility was not open at the 
time.
    Mr. Hardwick. Well, it was in the process.
    Ms. Wasserman Schultz. Right.
    Mr. Hardwick. And our management has a history of answering 
only what is asked.
    Ms. McCollum. Just like our kids sometimes.
    Ms. Wasserman Schultz. Okay.
    Mr. Hardwick. We had some follow-up with GAO, which was 
good, in reference to our last testimony. And some things in 
there were cleared up as to what has transpired since then. I 
know that since the last testimony GPO was directed to hire 17 
officers. It has now taken them 2 years to hire them, and they 
still do not have the 17 people.
    Ms. Wasserman Schultz. I know they are in the process of 
hiring now.
    Mr. Hardwick. It shouldn't take 2 years to hire 17 people.
    Ms. Wasserman Schultz. No.
    Mr. Hardwick. And with these increasing standards, these 
standards much higher than what is required of Capitol, Secret 
Service or Park Police, and we feel this is a way to 
discourage----

                         PHYSICAL REQUIREMENTS

    Ms. Wasserman Schultz. I know you need to get into some 
negotiations over making your PT requirements closer to the 
Capitol Police, correct?
    Mr. Hardwick. Capitol Police do not have any PT 
requirements.
    Ms. Wasserman Schultz. They do not have one at all?
    Mr. Hardwick. They have an entry requirement, which all 
agencies do. At our agency they want to implement it annually. 
And what happens if the officer does not pass it, he is removed 
from his job. They have also attempted to implement a PT 
requirement for promotion, which no department in the country 
does. So our looking at the standards compared to other 
agencies and departments, they are much higher. I would 
understand if we had a response team or people who were 
required to SWAT team or what not.
    Ms. Wasserman Schultz. Is there anything unique about GPO 
officers that would make it necessary to have those PT 
requirements for promotion or hiring?
    Mr. Hardwick. No, no.
    Ms. Wasserman Schultz. You do not do anything particularly 
acrobatic at GPO?
    Mr. Hardwick. We do not do anything that is required of any 
other officer on Capitol Hill or any other place. We have got 
officers who are specially trained to do specialized duties, 
but again there are no special PT requirements for those.

                           GPO SECURITY GAPS

    Ms. Wasserman Schultz. What are the biggest gaps in 
security that you think need the coverage by a law enforcement 
officer as opposed to a security guard?
    Mr. Hardwick. The training that they receive as opposed to 
ours.
    Ms. Wasserman Schultz. No, which facilities? Where you 
currently think--where GPO currently has security guards 
covering where you think it is inappropriate and it is not 
related just to the fact that you represent law enforcement 
officers. I am talking about safety and security.
    Mr. Hardwick. At GPO we find that the biggest complaint is 
we have citizens come off the street, or even have the 
employees come in and the first person they make contact with 
is a security guard, who are improperly trained or will not 
respond in kind as needed for an emergency. We have not had any 
such incidents at the Mississippi facility as yet. However, if 
they had, it would definitely be brought to our attention.
    Ms. Wasserman Schultz. The passport facility I would be 
more concerned about the vulnerability of the facility being 
covered by security guards, which is what the concern was 2 
years ago. I am talking about the facilities here in terms of 
their vulnerability, and what it is that is inside them that 
would require instead of coverage by a security guard, coverage 
by a law enforcement officer. Where are those gaps that concern 
you?
    Mr. Hardwick. In our entry areas and our response force. 
Right now our response force consists of two officers.
    Ms. Wasserman Schultz. Two officers?
    Mr. Hardwick. Two officers.
    Ms. Wasserman Schultz. Response force in terms of what?
    Mr. Hardwick. In terms of if there were an emergency in the 
facility, in the passport facility and the main facility.
    Ms. Wasserman Schultz. They send two officers?
    Mr. Hardwick. Two officers, that is their responsibilities. 
Now, many will respond if they are directed to, but for numbers 
sake, there are only two officers assigned.
    Ms. Wasserman Schultz. Is that part of your collective 
bargaining agreement or just the policy of GPO?
    Mr. Hardwick. That is just what management came up with. 
Not a part of our collective bargaining.

                        ROLE FOR CONTRACT GUARDS

    Ms. Wasserman Schultz. Okay. Do you think that there is any 
role for security officers at GPO?
    Mr. Hardwick. No.
    Ms. Wasserman Schultz. So you do not think there should be 
security officers employed by GPO? They should be all law 
enforcement officers?
    Mr. Hardwick. Yes.
    Ms. Wasserman Schultz. Why?
    Mr. Hardwick. Because of the dedication to duty and 
responsibility and the dynamics of it. If something happens in 
the Mississippi facility, and at one time we were tasked with 
being sent there temporarily, we would also have to respond to 
our Maryland facilities. Security guards are responsible only 
for what is going on inside. They cannot respond outside. We 
have problems with them on the street or things that they are 
not doing, they are not supposed to be doing. We report just to 
management. It is heard with a deaf ear and a blind eye.
    Ms. Wasserman Schultz. Has there ever been an incident that 
you can attribute that has occurred because there was coverage 
by a security guard as opposed to a law enforcement officer 
that would not have occurred if it was covered by a law 
enforcement officer?
    Mr. Hardwick. Yes, as recently as 2 months ago, we had a 
person wander in off the street, make it to the elevators, and 
almost get upstairs because the security guards were there in 
the lobby and there were not officers there.
    Ms. Wasserman Schultz. And this is a person that did not--
--
    Mr. Hardwick. Nonemployee, yes.
    Ms. Wasserman Schultz. Okay. What was their intention? They 
just wandered in off the street?
    Mr. Hardwick. Wandered in off the street wanted to go into 
the building. The only thing that saved them was that the 
elevator took time to close to get upstairs, and an officer 
happened to be walking by the employee staff elevator.
    Ms. Wasserman Schultz. Was that person determined to have 
had any negative intentions or----
    Mr. Hardwick. That was undetermined.
    Ms. Wasserman Schultz. Maybe just escorted out of the 
building and let go?
    Mr. Hardwick. Yes.
    Ms. Wasserman Schultz. Okay. Thank you. Mr. Aderholt.

              NUMBER OF GPO POLICE VERSUS CONTRACT GUARDS

    Mr. Aderholt. You said there are 45 officers currently----
    Mr. Hardwick. Yes.
    Mr. Aderholt [continuing]. At GPO?
    Mr. Hardwick. And 53 security guards.
    Mr. Aderholt. 53 security guards. Okay. That is all I have.
    Ms. Wasserman Schultz. Okay. Ms. McCollum.

                          GPO POLICE STANDARDS

    Ms. McCollum. Out of the 53 security guards, are any of 
them former retired officers?
    Mr. Hardwick. No.
    Ms. McCollum. Go over your PT requirement again.
    Mr. Hardwick. Under the PT requirement, an officer is 
required to run a 330-yard sprint, mile and a half run, perform 
situps and pushups according to their age group. This standard 
is also above what the Academy suggests.
    Ms. McCollum. To be a licensed police officer, what kind of 
educational requirements do you currently need to sit? For 
example----
    Mr. Hardwick. GPO police officer?
    Ms. McCollum. Yeah.
    Mr. Hardwick. When I came before, you were required to have 
2 years of law enforcement experience with arrest authority. 
Now it is just 1 year and high school and some security 
background.
    Ms. McCollum. Really. So actually it has been lowered?
    Mr. Hardwick. It has been lowered, yes.
    Ms. McCollum. And you mentioned activities outside of the 
building. If this gentleman that was in the building had left 
the building, a security guard if they were to follow them out, 
could not arrest.
    Mr. Hardwick. They do not have any authority in a public 
space.
    Ms. McCollum. In a public space at all? You say you have 
two officers at Mississippi?
    Mr. Hardwick. No, we have 30 officers in Mississippi.
    Ms. McCollum. Where do you only have two officers?
    Mr. Hardwick. We have 45 here. Our response force is 
comprised of two officers.
    Ms. McCollum. How do you deploy your response force?
    Mr. Hardwick. They are assigned that duty, and they are 
assigned to rove the facility. And if there is a call for an 
emergency they respond. Additional officers will respond, but 
the response force is only comprised of two officers.

          AGREEMENTS WITH OTHER LAW ENFORCEMENT ORGANIZATIONS

    Ms. McCollum. Okay. And at any given time what is your 
relationship with Homeland Security if there is an incident? 
Are you in some kind of a pecking order to come in and back 
fill? Like if you were to close down the Government Accounting 
Office, secure it off, are you part of Homeland Security, for 
example, here----
    Mr. Hardwick. No.
    Ms. McCollum [continuing] At all? Are you any kind of a 
backfill or any kind of support integrated?
    Mr. Hardwick. No, we do not. We have a working relationship 
with the Capitol Police if we need additional support. This is 
who we would call Capitol, if they could compare spare people 
or something like----
    Ms. McCollum. But you are not additional support for 
anybody else?
    Mr. Hardwick. No.
    Ms. McCollum. Why do you think that is?
    Mr. Hardwick. One, it is management's idea of what it is 
they want us to do or what it is they do not want us to do. 
They have police or security guards when it is convenient, but 
when it is inconvenient, they want to see us scarce.
    Ms. McCollum. Madam Chair, I just think in this day and age 
with cross training, I mean, all of our municipalities are 
doing mutual aids and things like that, I can see that there 
would be some role, you know, either at a desk reception or 
something like that, and I do not know how that works with 
other employees. But Oklahoma City is an example of, you know, 
people do target Federal buildings for whatever reasons. So 
thank you for answering my questions.
    Ms. Wasserman Schultz. Thank you. As always, you have given 
us some very informed and helpful testimony, Mr. Hardwick. And 
we are going to follow up to make sure we can communicate with 
GPO about your concerns and if we need to include some changes 
in our legislation.
    Mr. Hardwick. We have raised these concerns with management 
before and it is just----
    Ms. Wasserman Schultz. That is why you are here. That is 
why we do the hearing. Thank you very much for your testimony 
and your service. And please convey to the GPO police officers 
how much we appreciate their public service. Because I know it 
is often underappreciated.
    Mr. Hardwick. Thank you very much.
    Ms. Wasserman Schultz. The subcommittee is going to need to 
recess for 30 minutes because we have an Appropriations full 
committee meeting that the Democratic members need to attend. 
So the committee stands in recess for 30 minutes. [recess.]

                    NATIONAL FEDERATION OF THE BLIND

    Ms. Wasserman Schultz. We will reconvene this hearing of 
the Legislative Branch Subcommittee. Now we will hear from John 
Pare', who is the executive director for Strategic Initiatives 
for National Federation of the Blind. Mr. Pare', you can 
proceed with a 5-minute summary of your statement. Your full 
statement will be entered into the record.
                              ----------                              --
--------

                                              Tuesday, May 5, 2009.

TALKING BOOK PROGRAM OF THE NATIONAL LIBRARY SERVICE FOR THE BLIND AND 
           PHYSICALLY HANDICAPPED OF THE LIBRARY OF CONGRESS


                                WITNESS

JOHN PARE', EXECUTIVE DIRECTOR FOR STRATEGIC INITIATIVES, NATIONAL 
    FEDERATION OF THE BLIND

                      Testimony of Mr. Pare', NFB

    Mr. Pare'. Fantastic. Thank you, Madam Chair and other 
distinguished members of the committee. My name is John Pare', 
and I am executive director for strategic initiatives at the 
National Federation of the Blind. I appreciate the opportunity 
to appear before this committee and to comment on the Talking 
Book program of the National Library Service for the Blind and 
Physically Handicapped of the Library of Congress. The National 
Library Service is the primary provider of reading material for 
over 800,000 Americans who are blind or have physical 
limitations that make it impossible for them to read print. For 
only the third time in its 75-year history of exemplary 
service, the NLS is undergoing a transition in technology it 
uses to provide Talking Books. These books were originally 
produced on long playing records and then on cassette tapes. 
Both of these technologies are now obsolete. For this Nation's 
Talking Book readers, the digital age has begun. At this time, 
5,000 of the new digital Talking Book machines have been 
distributed to eight regional Talking Book libraries throughout 
the country for preliminary usage and testing by their most 
active patrons. These libraries are located in Florida, Texas, 
Missouri, New York, Los Angeles, Iowa, Massachusetts, and Utah.
    In addition to these players shipped to patrons for 
testing, two players have been shipped to each Talking Book 
Library within the United States for testing by their staff so 
they can familiarize themselves with the operations and 
features of the machines. Assuming all goes well with the pilot 
study, players will begin shipping to the remaining libraries 
in the NLS network by this August. The National Federation of 
the Blind is pleased to be in a position to support a project 
so carefully and thoroughly conceived and executed that the 
inspector general for the Library of Congress stated, 
``Information we collected led us to conclude that NLS's plans 
should enable it to successfully convert the Talking Book 
program's primary technology from analog to digital format over 
the currently planned transition period. Specifically, our 
survey revealed that NLS is effectively managing its plans.''
    Further, the Library of Congress satisfactorily responded 
in several documents to a GAO briefing paper, resulting in no 
additional queries or requests. Madam Chair, I am happy to 
report that the NLS digital Talking Book program is on track. 
On behalf of America's blind, thank you and this committee for 
all the work you have done to make sure that this program is 
adequately funded. Also let me take this opportunity to commend 
the Librarian of Congress, Dr. James H. Billington, and the NLS 
Director, Frank Kurt Cylke, for their hard work and commitment 
to providing quality digital Talking Books to NLS patrons and 
for bringing this program to fruition. All that is needed for 
the transition to be completed on schedule in 2013 is for the 
2009 appropriation of $12.5 million to be included in each of 
the remaining 4 fiscal years of the transition.
    On behalf of the blind Americans served by this important 
program, I urge this committee to make sure that this happens 
so that there will be no disruptions in service for NLS 
patrons. Thank you, Madam Chair, for allowing me to come and 
address this committee, and for your continued support of the 
NLS service and the Talking Book program.
    [Mr. Pare''s prepared statement follows:]
    [GRAPHIC] [TIFF OMITTED] T0439B.087
    
    [GRAPHIC] [TIFF OMITTED] T0439B.088
    
                FEEDBACK ON DIGITAL TALKING BOOK PLAYERS

    Ms. Wasserman Schultz. You are welcome. And thank you for 
your testimony, Mr. Pare'. I think it is important to note the 
lack of blind advocates in the room today, which is unlike 
other years, when there was significant concern about the 
ability to get this Talking Book program implemented and 
appropriated. And I am glad that we are on track to do that. I 
do want to ask you about the design and capabilities of the 
Talking Book player. Are you satisfied with it? Are the blind 
patrons that you work with satisfied with it? And what has been 
the feedback so far?
    Mr. Pare'. It has been excellent. And we deal with 
thousands of blind people. And I personally talk to hundreds of 
people. And people are very pleased with how it is going, very 
pleased with the design, how it is working, and the schedule of 
things. So it is going to be a terrific success.

                        COMMERCIAL ALTERNATIVES

    Ms. Wasserman Schultz. Good. One question that does come up 
each year is why we had to develop a unique Talking Book player 
as opposed to using ones that are commercially available.
    Mr. Pare'. The copyright law requires that the machines be 
only available to people who are blind. So to help protect the 
intellectual property that is being distributed by the Library, 
it is important that the machines are not only delivering it in 
a specialized format, and also that it meets the needs of 
people who have limited access, dexterity of their fingers and 
so forth. So the cartridge is large and it is easy to work if 
you have low dexterity or if you--it has enough room for a 
Braille label for people who are blind and also has large 
print. So the buttons and all the things are all designed to 
meet the needs of this diverse group of people that it is 
targeted to be used by.
    Ms. Wasserman Schultz. I see. Thank you. Mr. Aderholt.

                    NUMBER OF TALKING BOOK MACHINES

    Mr. Aderholt. How many Talking Book readers are there 
across the United States right now, the machines that have been 
implemented?
    Mr. Pare'. The new machines?
    Mr. Aderholt. Yes.
    Mr. Pare'. Just 5,000 have been shipped.
    Mr. Aderholt. 5,000.
    Mr. Pare'. Yes, this is in the pilot study. Plus there is 
102 local regional libraries. So two in each one of those plus 
the 5,000. And then once the pilot study is done, they will 
start shipping around 24,000 per month starting in August.
    Mr. Aderholt. Okay. That is all I have.
    Ms. Wasserman Schultz. Thank you very much. Thank you, Mr. 
Pare'.
    Mr. Pare'. Thank you.

                 LIBRARY OF CONGRESS PROFESSIONAL GUILD

    Ms. Wasserman Schultz. Good to see you. Next we have Saul 
Schniderman, the President of the Library of Congress 
Professional Guild. Welcome back to the committee, Mr. 
Schniderman. Your statement will be entered in the record, and 
you can proceed with a 5-minute summary.
                              ----------                              --
--------

                                              Tuesday, May 5, 2009.

  SUPPORT FOR LIBRARY OF CONGRESS' BUDGET REQUEST FOR FISCAL YEAR 2010


                                WITNESS

SAUL SCHNIDERMAN, PRESIDENT, LIBRARY OF CONGRESS PROFESSIONAL GUILD

                Testimony of Mr. Schniderman, LOC Guild

    Mr. Schniderman. Thank you, Madam Chair, and thank you, Mr. 
Aderholt. I want to begin by saying that I am the President of 
one of four unions here at the Library of Congress. We have 
wall to wall collective bargaining representatives at the 
Library. And one reason that we do is because of the separation 
of powers. The legislative branch, which always has wanted to 
be independent and distinct from the executive branch, has 
meant for employees of the branch that we have not always had 
available to us some of the advances and improvements in 
conditions of employment that our colleagues have in the 
executive branch.
    So 30 years ago, employees at the Library founded unions 
there. I am proud to be part of the labor movement, if you 
will, at the Library of Congress. I am also proud to be here 
today, because when I come here not only am I enlightened to 
hear what my colleagues have to say and questions that you all 
ask and your comments, but also I feel like I am part of the 
community. So I feel good being here, despite the fact that I 
am a little nervous.
    Ms. Wasserman Schultz. We do not bite. You do not need to 
be nervous.
    Mr. Schniderman. My name is Saul Schniderman. I am 
president of the Library of Congress Professional Guild, which 
is affiliated with AFSCME, and I am here to testify in support 
of Dr. Billington's budget request for fiscal year 2010. 
Because of your generous support and the support of your 
colleagues, the Library continues to be a leader in providing 
information services to the Congress, the American people, and 
to the world. Representing over 1,500 professionals at the 
Library, excluding those employees of the Congressional 
Research Service, I come before you today on their behalf to 
say thank you for your support of their work to make the 
Library of Congress a truly great Library. Last December, about 
2,000 staff members participated in the Library of Congress 
employee survey, and the results have just been released. We 
are pleased to report to the subcommittee that these employees 
report high levels of job satisfaction, especially in the area 
of work performance. For example, over 80 percent of those 
surveyed said that, quote, the people I work with cooperate to 
get the job done. Over 70 percent reported that they were 
``held accountable for achieving results.'' And about 80 
percent of the employees rated the overall quality of work 
performed by their work group as positive.
    Now, we were not surprised by the results of this survey, 
because we know the dedication and the commitment of Library of 
Congress employees. As a union of professionals, our mission at 
the Library is to establish a progressive, family-friendly 
workplace so that the staff can maintain a high quality of 
public service and performance. The attitudes expressed in the 
survey reveal the high level of professionalism which runs 
throughout the Library of Congress. I would like to point out 
to you, Madam Chair and Mr. Aderholt, that last week you and 
members of your subcommittee justifiably praised Dr. Billington 
when he testified here before you. And that is all well and 
good. But as management takes pride in the far-reaching 
programs at the Library, it needs to be pointed out that the 
success of these programs can only be achieved by hardworking 
employees, many of whom toil under trying circumstances.
    Today the most trying of these circumstances is taking 
place in the Copyright Office. While everyone agrees with the 
general vision of utilizing modern technology to improve 
processing, the current reengineering program has created a 
backlog of over 520,000 pending copyright claims, a backlog 
which continues to grow week after week. Now, I will not burden 
the subcommittee with a description of the stresses and strains 
with which the staff of the Copyright Office is now 
experiencing. In spite of them, these everyday heroes among the 
registration specialists manage to force out from a poorly 
functioning electronic system over 7,000 registrations in a 
typical week.
    And in the public information office, specialists there 
patiently field over 2,500 telephone inquiries a week from 
anxious remitters. Graded at the GS-11 and GS-12 levels, these 
front line Copyright Office staffers deserve to be praised for 
their perseverance and their ingenuity. There are many other 
everyday heroes who work at the Library of Congress, and some 
of their concerns are described in our testimony, which you 
have before you. I invite you to review our written testimony, 
and also to visit our Web site. And I thank you for this 
opportunity to share the concerns of the members of the 
Library's Professional Guild.
    [Mr. Schniderman's prepared statement follows:]
    [GRAPHIC] [TIFF OMITTED] T0439B.089
    
    [GRAPHIC] [TIFF OMITTED] T0439B.090
    
    [GRAPHIC] [TIFF OMITTED] T0439B.091
    
    [GRAPHIC] [TIFF OMITTED] T0439B.092
    
    [GRAPHIC] [TIFF OMITTED] T0439B.093
    
                        COPYRIGHT OFFICE BACKLOG

    Ms. Wasserman Schultz. Thank you, Mr. Schniderman. I am 
also concerned and addressed the concern with the Librarian and 
his staff when they testified on their budget proposal about 
the backlog in the Copyright Office. And they did seem to 
indicate that they felt that by the end of the year, once all 
the employees were up to speed on the electronic transmission 
and processing process, that they would get rid of that 
backlog. You do not have the same confidence?
    Mr. Schniderman. No. We do not share in their optimism. And 
the reason we do not is that the front line employees who work 
with this new system do not share their optimism. It was 
originally designed to be a useful tool for the registration 
specialist to get the work done more efficiently, but it has 
turned out, quite frankly, to become a nightmare, where 
actually it is more burdensome for them to get their work out.
    Ms. Wasserman Schultz. I would think that an electronic 
processing and submission system would be more efficient in the 
long run than doing it by paper.
    Mr. Schniderman. Yes. And that is all well and good. And we 
support that. We support the reengineering and modernization of 
the Copyright Office. The problem is, Madam Chair, is that the 
backlog has grown to such proportions, over half a million, 
that even if we keep up to date with the registrations that 
come in we are not going to be able to tackle it sufficiently. 
It will always be there with us.
    Ms. Wasserman Schultz. What is your proposed solution?
    Mr. Schniderman. What we proposed in our written testimony 
was that the Library hire a contractor to evaluate 
independently a solution to this problem. But after being here 
today and listening to my colleagues at GAO, I wonder if a GAO 
study might be more appropriate. Our job, we see our job to 
identify and report problems to our managers and, quite 
frankly, to you so that you can help work with us to solve 
them. But we do have a major problem here in the Copyright 
Office.

                    TURMOIL AT OFFICE OF OPPORTUNITY

    Ms. Wasserman Schultz. I appreciate you underscoring your 
difference of opinion with the Librarian on the likelihood of 
getting that backlog addressed. And it is one that needs to be 
addressed. We cannot continue to have that type of backlog just 
simply in the name of efficiency. The other subject I wanted to 
ask you about, which is something of an ongoing concern of mine 
across the agencies in the Legislative Branch in general, but 
specifically at the Library, is the Office of Opportunity, 
Inclusiveness, and Compliance. Clearly, if that Office is not 
up and running and functional, then employees that have a 
concern do not have a process in which they can pursue those 
concerns. How is the turmoil in the Office impacting your 
members? And how has it affected the ability to file complaints 
and redress grievances?
    Mr. Schniderman. I appreciate your concern. That is the 
Office that we call OIC because we cannot figure out a way to 
name it. Well, there needs to be a director of that Office. And 
as you may know, the staff, most of the functions there have 
been contracted out. And so there is a wait time. We use it 
primarily for dispute resolution. There is a lag time in order 
to get a mediator because there are some administrative 
problems in the office that we hope will be resolved when a new 
director comes. Because as you know, justice delayed is justice 
denied. And we like to get most of our disputes mediated to 
conclusion. But the main beef that we have is on behalf of the 
deaf employees that we represent. There are about 18 deaf 
employees at the Library of Congress, and they utilize an 
interpreting service that is managed, or in this case, being 
poorly managed by OIC, for lack of a better term. And last year 
we testified on their behalf quite extensively.
    We feel that in order for them to be able to do their work 
and to sustain a career at the Library in the same way that a 
hearing person is, that they need to hire a full-time staff 
interpreter. That also comes under the administration of that 
office. So it is the slow time, the administrative problems, 
they need to get a director in there, but more importantly, 
they really need to hire a full-time staff interpreter. And by 
the way, we think that that is cheaper than contract 
interpreters.

                        LIBRARY WORK ENVIRONMENT

    Ms. Wasserman Schultz. Thank you. Let me just ask you one 
more question. How would you characterize the environment in 
which employees at the Library work when it comes to equal 
opportunity and an environment free from discrimination?
    Mr. Schniderman. Well, in our written testimony, we talk a 
little bit about the merit selection system. The Library has 
made advances thanks to the Cook class action case, and quite 
frankly, a commitment on the part of the Library to purge bias 
and subjectivity from that process. You can imagine how many 
people apply for jobs at the Library. And so we are pleased 
with that system. In regards to the ability to file an EEO 
complaint and to be able to have that mediated in a way where 
you can have some privacy in an office, that goes back to the 
Office of Inclusiveness and Compliance. I think I have got it 
right.
    Ms. Wasserman Schultz. Yes.
    Mr. Schniderman. And they are going to have to kind of 
rebuild, if you will, that administrative structure to allow 
that to happen.
    Ms. Wasserman Schultz. Thank you. It has been a year, so it 
is certainly time for them to get that straightened out. Mr. 
Aderholt?

                     LIBRARY FOOD SERVICE CONTRACT

    Mr. Aderholt. I noticed in your testimony you talked about 
the Library plans to award a contract for the food services, I 
guess, what, in June? And of course, you mention in your 
written testimony that you want to make sure that the vendor 
who is chosen has employment practices that are fair and 
equitable. Is that in reference to problems there have been in 
the past, or is there a problem in the current system or what?
    Mr. Schniderman. The Library let what they call a bridge 
contract to a small firm called I.L. Creations, whose term of 
contract is up, and in fact, very shortly, the Library will be 
announcing a new food service vendor. The problems with I.L. 
Creations have been, frankly, their ability to fairly deal with 
their employees and the union which represents their employees. 
These are private sector workers. They are represented by the 
Hotel and Restaurant Employees. But Mr. Aderholt, many of them 
worked there for the last 25 or 30 years, because with each 
successive contractor they stay on board. So they have had what 
we would say is labor problems. And it is mostly because of the 
employer's intransigence. So we feel that when the Library, and 
shortly it will happen, decides on who the new contractor 
should be, it should be an employer that treats its workers 
fairly and treats their union fairly.
    Mr. Aderholt. All right. That is it.

                        AMERICAN BAR ASSOCIATION

    Ms. Wasserman Schultz. Thank you very much. Thank you, Mr. 
Schniderman. Okay. Next up will be Thomas Susman, who is 
actually our last person to testify today, the Director of 
Governmental Affairs at the American Bar Association in support 
of the Law Library.
                              ----------                              --
--------

                                              Tuesday, May 5, 2009.

SUPPORT OF THE FUNDING REQUESTS OF THE LIBRARY OF CONGRESS AND THE LAW 
                          LIBRARY OF CONGRESS


                                WITNESS

THOMAS SUSMAN, DIRECTOR, GOVERNMENTAL AFFAIRS OFFICE, AMERICAN BAR 
    ASSOCIATION
    Mr. Susman. Thank you, Madam Chair.
    Ms. Wasserman Schultz. Your statement will be entered in 
the record, and you can proceed with a 5-minute summary.

                      Testimony of Mr. Susman, ABA

    Mr. Susman. I certainly will. I am here today, Thomas 
Susman, on behalf of the American Bar Association in support of 
the funding requests of the Library of Congress and more 
particularly, the Law Library of Congress. It should not come 
as any surprise that the largest professional association in 
the world, the American Bar Association, representing over 
400,000 members worldwide, would have a very special and long-
standing relationship with the world's largest repository of 
legal materials, the Law Library of Congress. My testimony 
today will emphasize 3 points. First, the unique and truly 
magnificent nature of the collection of the Law Library, but 
carrying with it commensurate needs to maintain and sustain the 
strength of those collections. Second, the ABA's strong, really 
unwavering support for adequate funding for this national 
preeminent Law Library. And third, the desirability of looking 
beyond just the Federal funding relationship to create a 
foundation for an effective public-private partnership that 
will encourage private contributions to advance the mission of 
the Law Library.
    The Law Library of Congress has grown from modest 
beginnings in 1832 to become the world's largest repository of 
legal materials. As I indicated, the magnitude of this 
collection in both size and significance cannot be understated. 
Two years ago I joined an ABA group to take a tour of the 
Library, and in addition to some historical masterpieces in the 
collection, to go down to the basement and look at the rows and 
rows of shelves and its scale is something right out of Indiana 
Jones. It is phenomenal. But that scope renders not just unique 
but daunting the challenges posed in the daily growth and 
administration of the collection. I mean, these are national 
treasures. And the funding required to keep them current and 
serving at full capacity is a wise investment of taxpayer 
dollars. Last year the ABA's representative told the 
subcommittee how much we appreciated and continued to 
appreciate the Congress's historical support for the Law 
Library, but we are also concerned that these grand and 
valuable collections have been subject to reduced budgets, 
insufficient to meet core needs.
    The result has been an erosion of infrastructure, loss of 
institutional knowledge, incomplete collections. And each of 
these problems becomes costlier to address over time. The Law 
Library of Congress serves not only the Congress itself, of 
course, the most significant law-making institution in the 
world, but also other branches of government. In preparing for 
my testimony, I ran across a 1931 legislative establishment 
hearings where Justice Stone came across from the Supreme Court 
to talk about how important it was that the Law Library exists. 
He had just decided a case involving interpreting a Danish 
treaty that involved reference to a French historical treatise 
on French laws, and that the Supreme Court frequently has to go 
to the Law Library of Congress in its activities.
    Actually, all branches of the Federal Government, state 
governments, universities and law schools, corporate law 
departments, and of course, the lawyers of America use and 
depend on the Law Library of Congress. American businesses 
engaged in international commerce have discovered the law 
library's massive, valuable initiatives such as the Global 
Legal Information Network, GLIN, that is comprised of statutes 
and other legal information from over 150 contributing 
countries. And as a growing number of lawyers and businesses 
and government officials understand, American enterprise abroad 
and foreign investment at home depend upon a knowledge of 
current applicable laws.
    The Law Library of Congress is recognized now as the 
preeminent, maybe the ultimate and perhaps the only source for 
many of these international materials that the trade lawyer can 
depend upon and that anchor an understanding of the rule of law 
worldwide. Despite these rather impressive accounts, tight 
budgets mean that no one department, including the Law Library, 
is going to be receiving what it considers full funding. That 
is a fact of life right now. Next year, the bulk of the Library 
of Congress's requested increase is really to adjust for 
inflation. We understand this. The Law Library is going to get 
an additional 4 million to perform necessary updates to GLIN, 
to support the recent assumption of responsibility over Thomas, 
to cover consequences of inflation, and to compensate for 
decreased buying power in terms of its acquisitions. And these 
are badly needed funds.
    Last year the ABA supported additional funding for 
cataloguing and classification of several hundred thousand 
volumes to bring the collection up to date and under the 
industry standard classification system. That challenge still 
exists, that need still exists, and yet we understand the 
problem of coming up with the resources these days for all of 
the current needs. And fortunately, the Librarian of Congress 
has been allocating for several years surplus funds to help 
chip away at that cataloguing backlog. We hope that will 
continue. And for this year, I think we are restraining 
ourselves in supporting the Library's increased request for 4 
million for the Law Library as the best investment of taxpayer 
dollars.
    As I indicated, the ABA does not believe that the 
challenges faced by the Law Library are necessarily for 
Congress alone to remedy. Last year, legislation was introduced 
that would propose creation of a private-public foundation for 
the Law Library of Congress called the Meehan Act by 
Congresswoman Lofgren. It would establish a foundation that 
could receive contributions from the private bar, industry, to 
support the Law Library, and create value-added enhanced 
services that could even be provided for a fee.
    This legislation has not been reintroduced this year, but 
the ABA's support for it really reflects support for the 
underlying message, which is the need for enhanced resources 
and the need for flexibility of the Law Library to meet these 
many challenges that it faces. Our concern is simply that with 
the limitations on appropriations there is too little latitude 
to make additional allocations. So thank you for inviting the 
ABA to express its support, its concern, suggested solutions. 
We have worked with the Library of Congress closely for 
decades, and look forward to working with this subcommittee 
towards ensuring that these valuable and remarkable resources 
are maintained.
    [Mr. Susman's prepared statement follows:]
    [GRAPHIC] [TIFF OMITTED] T0439B.094
    
    [GRAPHIC] [TIFF OMITTED] T0439B.095
    
    [GRAPHIC] [TIFF OMITTED] T0439B.096
    
    [GRAPHIC] [TIFF OMITTED] T0439B.097
    
                     RETIREMENTS AT THE LAW LIBRARY

    Ms. Wasserman Schultz. Thank you very much, Mr. Susman. And 
we appreciate the ABA's interests in the future of the Law 
Library. I have two questions. One is in previous years the ABA 
has raised the issue of the retirement problem with GLIN-
trained employees at the Library. And you did not mention that 
in your testimony. So I am wondering where we are with that 
concern.
    Mr. Susman. That is not on our radar screen this year, 
which may suggest that it is a problem that has been addressed. 
I will find out and get back to you.
    Ms. Wasserman Schultz. If you could. Because last year it 
was proposed as a dire situation that was going to obliterate 
access to the law libraries.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T0439B.098
    
    [GRAPHIC] [TIFF OMITTED] T0439B.099
    
    Mr. Susman. I know that the Library, the Law Library has, 
for the last couple of years, been undertaking a revamping of 
GLIN to make it more valuable and more user friendly. There are 
more and more nations signing up, and more language readiness 
provided. So a lot of progress has been made. I do not know 
about the retirement issue.

                      FUNDRAISING FOR LAW LIBRARY

    Ms. Wasserman Schultz. Thank you. And Ms. Lofgren's 
legislation would also separate out, which you did not mention, 
the Law Library's budget from the Library of Congress. I do not 
know if you have thought about it, but the two goals, a 
separate private fundraising entity and a separate budget might 
not be compatible. Because if you separate out the Law 
Library's budget, it would be difficult to transfer funds into 
that budget as opposed to it remaining as a part of the LOC's 
main budget.
    Mr. Susman. These are issues that we have considered. I 
think the American Bar Association's goal is additional 
resources, facilitating private participation, and flexibility 
for the Library. Separating the budgets is one way to achieve 
it. And frankly, greater transparency in the Library of 
Congress's budget and what it allocates to the Law Library is 
another way. We understand that this last year for the first 
time the Librarian did separate out at least collections costs 
between the Library of Congress and the Law Library, but not 
personnel and other services. It is a step forward. And there 
is more than one way to achieve the kinds of institutional 
structural designs that would be welcoming to this kind of 
partnership that we are talking about.
    Ms. Wasserman Schultz. We did raise the issue of the Law 
Library and your concerns with the Librarian when he was here 
for his budget hearing. And I look forward to continuing to 
work with you to address the concerns of the ABA and its 
patrons, the Law Library's patrons.
    Mr. Susman. Thank you very much.
    Ms. Wasserman Schultz. Mr. Aderholt.

                         MEEHAN ACT PROVISIONS

    Mr. Aderholt. Now the Meehan Act, that creates the public 
and private partnership?
    Mr. Susman. It would set up, among other things, one of its 
sections would set up a foundation that could be funded, where 
the funds would not go into the general Library trust, but 
would be specifically set up for the Law Library.
    Mr. Aderholt. And dedicated to them?
    Mr. Susman. And dedicated for the Law Library. That 
legislation also provides for additional funding for 
cataloguing, authorize additional funding for cataloguing, and 
then its approach would be to separate out the budget of the 
Law Library. But as I have indicated, we support that, but we 
also support simply what this subcommittee has been helpful 
with, and that is greater transparency between the two budgets.
    Mr. Aderholt. Okay. That is all.
    Ms. Wasserman Schultz. Thank you very much.
    Mr. Susman. It has been a pleasure.

                            Closing Remarks

    Ms. Wasserman Schultz. We appreciate it. Mr. Susman, it has 
been good to see you. And we appreciate the input and testimony 
of all the employees that came before the Legislative Branch 
Subcommittee for the annual public witness and Member hearing 
today. We always appreciate hearing from you. The message I 
want to leave folks with is that the public witness hearing is 
not the only opportunity that you have to give us feedback and 
input. We encourage you to provide us with that feedback 
throughout the rest of the year. This is just your public 
opportunity to do that. So we appreciate the opportunity to 
work with the employees and the management of the Legislative 
Branch agencies. Thank you very much. With that, the 
subcommittee stands in recess until tomorrow morning at 10 
a.m., when we will hear from the House of Representatives' 
Officers on their fiscal year 2010 budget requests. Thank you.
    [Staff Note: The following written statement was submitted 
for the record by the American Library Association and the 
Association of Research Libraries.]
[GRAPHIC] [TIFF OMITTED] T0439B.100

[GRAPHIC] [TIFF OMITTED] T0439B.101

[GRAPHIC] [TIFF OMITTED] T0439B.102

[GRAPHIC] [TIFF OMITTED] T0439B.103

                                            Wednesday, May 6, 2009.

                     U.S. HOUSE OF REPRESENTATIVES

                               WITNESSES

HON. LORRAINE C. MILLER, CLERK OF THE HOUSE
HON. WILSON S. LIVINGOOD, SERGEANT AT ARMS
HON. DANIEL P. BEARD, CHIEF ADMINISTRATIVE OFFICER
JAMES J. CORNELL, INSPECTOR GENERAL
IRVIN NATHAN, GENERAL COUNSEL
PETER G. LEFEVRE, LAW REVISION COUNSEL
M. POPE BARROW, LEGISLATIVE COUNSEL
BRIAN MONAHAN, M.D., ATTENDING PHYSICIAN

                Opening Remarks--Chair Wasserman Schultz

    Ms. Wasserman Schultz. I would like to call the Legislative 
Branch Subcommittee on the House Committee on Appropriations to 
order. This will be our last budget hearing for the fiscal year 
2010 cycle; not the last hearing, but the last budget hearing.
    And we are pleased today to have the officers of the House 
of Representatives to present their fiscal year 2010 budget.
    Let me just start by saying how much we appreciate your 
service to the House and to the American people.
    Let me also say that a 15 percent increase after a 10 
percent increase last year is not sustainable. As much as you 
have proposed a lot of wonderful programs and good ideas, many 
of those are things that, in an economic environment like the 
one that we are in, are just not possible.
    So we are going to need you to help us prioritize the 
things that are must-do's, the gotta-haves versus the nice-to-
haves, which is how we characterize, how I characterize, things 
in a categorical way in this subcommittee.
    So I will have a number of questions for each of you. And I 
am sure Mr. Aderholt and the other members, or other member, 
will as well. We are becoming a regular trio here, and we look 
forward to hearing from you.
    Mr. Aderholt, do you have any remarks?

                     Opening Remarks--Mr. Aderholt

    Mr. Aderholt. I will just be very brief.
    I just want to welcome the officers of the House and also 
everyone that is with them today. I thank all of them for their 
service. We know that the jobs that you perform, help us do our 
job. So we appreciate the work that you do and how you carry 
out your responsibilities.
    Of course, the request of $5 billion, which is 15 percent 
over fiscal year 2009, is--I share your concerns Madam Chair, 
with the economic situation we are in. We are not going to be 
able to do as much as we would like to. But at the same time, 
we look forward to hearing the priorities and making sure that 
the things that are the must-haves, as you refer to them, are 
the things that we try to make sure we get funded.
    So, again, we appreciate all of you being here, all your 
staff, and everyone that is involved with this hearing this 
morning. So we look forward to hearing your testimony.

                   Opening Statement--Lorraine Miller

    Ms. Wasserman Schultz. Thank you. We will first hear from 
Lorraine Miller.
    Ms. Miller, your full statement will be entered into the 
record and you can proceed with a 5-minute summary.
    Ms. Miller. Good morning, Chairwoman Wasserman Schultz, Mr. 
Aderholt, and Mr. Cole.
    We are delighted to be here with you this morning, and I 
will be brief.
    We appreciate the subcommittee's support for the past year. 
And I would like to take an opportunity to give you a snapshot 
of the House legislative activity and some highlights on some 
ongoing projects that we have.
    You have received our semiannual report for more detail, 
and if you would like a copy of it, we have additional copies 
here prepared.

                       HOUSE LEGISLATIVE ACTIVITY

    A view of the House legislative activity: As of January 
6th, there have been 638 hearings so far in the House, in the 
111th Congress through April 24th.
    There have been 230 roll call votes through May 4 of this 
year.
    There have been 2,774 measures that have been introduced in 
the House through April 30th.
    There have been 265 measures that have been passed by the 
House through April 30th.
    And there are nine bills that have been enacted into law 
through April 30th.
    So that means we have had kind of vigorous legislative 
activity.

                        ELECTRONIC VOTING SYSTEM

    On ongoing projects, the Electronic Voting System. First of 
all, I would like to thank the subcommittee for its generous 
initial investment of $500,000 in the 27-month fund to begin a 
substantial overhaul and review of our EVS system. Our system 
needs to be upgraded in a very careful and methodical way. And 
so the subcommittee's support in that effort is much 
appreciated.
    Bear in mind that our current main display, meaning the big 
display boards, was installed in 1976, some 33 years ago. In 
1987, the doors and the wiring were replaced in our display 
boards. That was 22 years ago. And in 2003, the vote indicator 
lights were upgraded to the LED technology. In December of 
2008, we upgraded to 20 new slots, anticipating new Members of 
Congress. So the Office of the Clerk is deeply involved in 
investigating alternatives as we upgrade the new technology of 
the system.
    Given that, we have a budget request before you for $6 
million in a no-year fund for the project, just for the EVS 
system. The first phase of this upgrade will be the summary 
boards, located on the east and west entries to the Chamber. We 
will work with the Parliamentarians to include additional 
information on the board, so that whatever bill is pending on 
the floor, there is more information available to Members and 
to people sitting in the gallery of what is actually pending.
    We are planning on June 4th to offer the leadership, our 
Oversight and Appropriations Committee staff, and Members an 
opportunity to see a demonstration of what the new summary 
board technology would look like and what we would like to do 
with the display boards. Your offices will be notified. And we 
will have all of this; the contractor, the vendor will be here. 
And we will have a robust discussion of what we want.
    Our plan is to do the summary boards first, and we are 
hoping that we can do it during the August recess. Our vendor 
tells us that we can do this comfortably within a couple of 
weeks, but we have a vigorous routine of testing. So it will 
take that amount of time to make sure that by the time we get 
back, on September 8th, that everything is up and running. But 
we will need a really quick turnaround decision of what Members 
want; what kind of bells and whistles you want on the new 
system; all of that.
    Then the second part of the upgrade will be the display 
boards. And that will take a little longer time. There are a 
lot of concerns about it, and then we have got to make sure 
that the timing of it is done just right so that we don't 
interrupt the legislative schedule. Again, let me assure you 
that we will work hand-in-glove with the leadership, with our 
partners in this, because the AOC is very involved with us in 
planning this. And so everybody will know what we are doing, 
how we are doing it, when we are doing it, so that there are no 
surprises. That is one of the hallmarks.

                         EMERGENCY PREPAREDNESS

    Another topic that I would like to raise real quick is 
emergency preparedness. During the threat of the H1N1 virus, we 
have had the pleasure of working in cooperation with the Office 
of the Attending Physician, the Sergeant at Arms, and the CAO. 
We have been partners in this. We have also extended our 
cooperation with the Secretary of the Senate, the Senate 
Sergeant at Arms, and the Architect of the Capitol. This has 
been a real collaborative effort. We are doing these daily 
conference calls at noon, even on Sundays, trying to stay ahead 
of the curve and preparing our staff.
    We have a plan ready to disperse our Pages at a moment's 
notice. We have gone into the minutiae of sending a list to 
CATO of where all of our Pages are from, so we can get them on 
an airplane, a train, bus, whatever, and quickly disperse them 
at need. So all of our essential staff has been notified, and 
everybody is on the ready if we have an emergency and we have 
to evacuate.

                     ELECTRONIC RECORDS OF CONGRESS

    The Electronic Records of Congress. This year, the Clerk 
became the Chair of the Advisory Committee on the Records of 
Congress. We had our first meeting April 27th. And our Office 
of History and Preservation and the Center for Legislative 
Archives of the National Archives have been working on a long-
term project to provide assistance and guidance to committees 
in transferring their records to the Clerk's office and 
ultimately to the National Archives.
    In 2007, we established an Electronic Records Task Force 
that consisted of House committee staff, the National Archives 
and our staff in the Office of the Clerk. The Homeland Security 
Committee has given us, to date, 20 gigabytes; the Science 
Committee, 40 gigabytes of records; and during this Congress, 
we project that we will receive 6,870 gigabytes of electronic 
records. So we have been meeting with all of the committees of 
the House, encouraging them to prepare their records that they 
give at the end of each Congress in electronic format.

                           HOUSE PAGE PROGRAM

    A quick note about the House Page Program. It is healthy 
and moving forward. June 5th is the departure ceremony for the 
current spring class, and our first summer class arrives on 
June 7th. Our second summer class arrives July 5th and departs 
August 1. The Page School has received a glowing 
recertification from the Middle States Association of Colleges 
and Schools with no comment, which is extraordinary.
    We have felt for the longest time that we needed to include 
some kind of academic program with the summer Page Program. So, 
this summer, we are moving forward to offer three seminar 
classes for our students. The seminars are Politics and 
Government; International Relations; and Leadership in 
Government.
    Going forward, we are going to focus on expanding work 
opportunities for our Pages beyond the House Floor. We have 
been talking to committees to see if there are opportunities 
that the committees may have to use a Page.
    And then we are going to increase training for our Page 
Program staff.

              SHIRLEY CHISHOLM AND FLORENCE KAHN PORTRAITS

    A note about our Office of History and Preservation. In 
March, there was the unveiling of the Shirley Chisholm portrait 
that you find hanging in the hall here on the first floor. We 
expect the unveiling of our newest addition to the House 
portrait collection of former Member Florence Kahn. Ms. Kahn 
had a number of firsts. She was the first woman to serve on the 
Appropriations Committee. She was the first woman to serve on 
the Military Affairs Committee, and the first Jewish woman to 
serve in the Congress.
    We expect to have the unveiling of her portrait some time 
this month, and on the Clerk's Web site is a tremendous amount 
of good information about our former Member.

                          LOBBYING DISCLOSURE

    A couple things for the good and order. Lobbying 
disclosure. Our lobbying disclosure operation is going very 
well. Currently, in the Office of the Clerk, we have registered 
with us approximately 15,000 individual lobbyists; 
approximately 5,000 lobbying registrants, representing 20,000 
clients. So there is a big lobbying community here that is 
registered with us.
    On April 20th of this year, we received the most electronic 
filings of LDs--what we call them, lobbying disclosures--ever 
in one day; 7,200 people registered with us, which is about 40 
percent of the total filings that we are expecting. We have 
increased our computer and server resources to manage the 
volume. Next Friday, May 15th, is the deadline for filing of 
Member financial disclosure statements which includes staff 
that have reached the financial threshold; May 15th, next 
Friday, financial disclosure.

                         CLERK'S BUDGET REQUEST

    Our overall budget. The budget request before you reflects 
the increased demand in services offered by the Clerk's office. 
For fiscal year 2010, the Office is requesting a total of 
$33,901,000. The request includes about $22 million for 
personnel; about $5 million for nonpersonnel expenses; and of 
course, the $6 million request for the separate no-year fund to 
upgrade the House EVS and Chamber displays.
    Again, I draw your attention to our semiannual report for 
more detail. And I am anxious to answer any questions you may 
have.
    Thank you.
    [Lorraine Miller's prepared statement follows:]
    [GRAPHIC] [TIFF OMITTED] T0439B.104
    
    [GRAPHIC] [TIFF OMITTED] T0439B.105
    
    [GRAPHIC] [TIFF OMITTED] T0439B.106
    
    [GRAPHIC] [TIFF OMITTED] T0439B.107
    
    [GRAPHIC] [TIFF OMITTED] T0439B.108
    
    [GRAPHIC] [TIFF OMITTED] T0439B.109
    
    [GRAPHIC] [TIFF OMITTED] T0439B.110
    
    [GRAPHIC] [TIFF OMITTED] T0439B.111
    
    [GRAPHIC] [TIFF OMITTED] T0439B.112
    
    [GRAPHIC] [TIFF OMITTED] T0439B.113
    
                      Opening Statement--Dan Beard

    Ms. Wasserman Schultz. Thank you, Ms. Miller.
    Mr. Beard.
    Mr. Beard. Thank you, Madam Chair.
    Let me begin by taking this opportunity to express my 
gratitude to the members of the subcommittee for your support 
of all our efforts. We appreciate it, and we look forward to 
working with you.

                         INFORMATION TECHNOLOGY

    I would like to highlight some of the things that are in my 
testimony. The first is in the area of information technology. 
Last year, the Speaker and Republican leader directed my office 
to undertake a series of improvements in IT security efforts. 
As a result, we centralized IT security management and 
instituted a number of improvements, including the installation 
of over 200,000 patches to the software systems of the House to 
close about a million vulnerabilities in our system, and 
improved our security by 38 percent.
    Now we have also instituted a laptop and data encryption 
program to protect portable data and enhanced computer forensic 
systems that enable us to address the ever-increasing and, 
frankly, ever-more sophisticated cyber threats that we have to 
address with the House system.
    In fiscal year 2010, we request an additional $7 million to 
improve our back-end hardware and processes to keep up with the 
growing demand from our users for mobile data access anywhere, 
any time. The largest effort will be to significantly increase 
e-mail data storage. Most of you get these disturbing little e-
mails that say, delete things from your inbox. We will be able 
to get rid of that with this year's request. And it will enable 
us to transmit more data.
    The additional funds will also be used to enhance our 
ability to handle visual information, which has really placed a 
significant onus on our organization, as well as to improve our 
phone systems, including the use of voice-over IP, which will 
also reduce the cost to individual offices.

                             STAFF BENEFITS

    For fiscal 2010, in the area of employee benefits, we are 
continuing to request funds to initiate two new programs. The 
first is a tuition reimbursement program. Every agency in the 
legislative branch has a tuition reimbursement program. We do 
not. And we are also requesting funds for a commuter parking 
program to encourage our employees to take Metro.
    This is particularly important because our workforce is 
rather unique: 51 percent of our workforce is under the age of 
35, and 81 percent of those work for Members, and yet their 
term of service is generally about 3 years in Member offices. 
That is the going average. So we have a young, highly mobile 
workforce, and it is in the best interest of the institution 
that we keep and attract those people for as long as we can.

                        WOUNDED WARRIOR PROGRAM

    The current job market poses some significant and 
formidable challenges for wounded veterans returning from the 
wars in Iraq and Afghanistan. Speaker Pelosi believes the House 
should honor the sacrifices of those veterans by initiating a 
Wounded Warrior Program where we have been funding a stipend 
for a 2-year program where veterans work in Member offices. So, 
to date, 11 wounded warriors have been hired under this 
program, and another 12 are in the process of being hired. We 
are requesting $2.5 million for this program, the same as last 
year, and 25 FTEs to be able to handle those veterans.

                       HEARING ROOM MODERNIZATION

    Since 2002, we have been involved with the House committee 
Chairs in undertaking an audio and video renovation program of 
each of the offices. To date, we have completed 14 committees, 
full committee hearing rooms. And we are requesting $10.2 
million to complete six more, and this will complete the 20 
full committees where they will at least have one hearing room 
with high-tech audio-visual equipment.

               BUSINESS CONTINUITY AND DISASTER RECOVERY

    The 2008 hurricane season significantly damaged a number of 
district offices in the Gulf region. In Hurricane Gustav, we 
monitored 57 district offices that could potentially be 
affected. Eight of those were closed for various periods of 
time. In Hurricane Ike, we monitored 135 district offices, and 
we had 19 closures, again, some for significant periods of 
time.
    Without power, Internet connections, telephones and in some 
cases even office buildings, some Members in Louisiana and 
Texas were no longer able to serve their constituents. 
Congressman Paul's office, for example, in Galveston was simply 
wiped out. Congressman Brady's Orange, Texas office was filled 
with mud and was made virtually unusable.
    In consultation with the House leadership, my office 
responded to requests from the Members to provide 
administrative and operational support, and we deployed our 
mobile communications capability to both Louisiana and Baton 
Rouge; then later, with Hurricane Ike, to Houston, where we set 
up a regional district office outside of Houston.
    A picture is worth a thousand words. But this is the type 
of capability that we have. We have a facility that is self-
contained, so we have our own power. We have our own capability 
and we have linkage to satellites to be able to get back to the 
House e-mail and House system. And we also have equipment that 
we brought with us.
    This is 8:30 a.m., Tuesday morning, outside of Houston. 
There was no electricity, no FEMA office, no nothing. So our 
folks went down over the weekend, set up on Monday, and Tuesday 
morning at 9 a.m., we opened up.
    These are the folks that were waiting at 8:30 a.m. on 
Tuesday morning just to get to a telephone that would work or 
to e-mail connections.
    Now the problem that they had was FEMA said that they 
couldn't respond or they wouldn't provide assistance unless 
there was a claim filed and you had a claim number. But the 
only way you could get that was online, and the only way you 
could get online was if you had electricity. And of course, 
there was no electricity.
    Ms. Wasserman Schultz. That makes no sense.
    Mr. Beard. So we were simply flooded and inundated with 
people.
    In looking at this picture--I looked at this picture before 
I came--and I couldn't see any of our employees. What happened 
here was very strange. Volunteers suddenly appeared at this 
American Legion Hall. We tried to use the Air Force base, but 
it simply wasn't able to accommodate constituents coming in. So 
we used the American Legion hall across the street from the 
base. And these photos represent people who just came in and 
wanted a computer, a telephone, somebody to talk to. And 
people, literally, volunteers just appeared and started to 
teach people how to use computers. So we had people that did 
that.
    This office was made available to all the Members of the 
Houston delegation, and to the Texas Senators as well who also 
worked out of this office because none of the office buildings 
in downtown Houston were useable at that time.
    The most important thing we did here is we had an exit 
strategy. With the assistance of the Capitol Police, we were 
there from Tuesday through Saturday, and then we closed down. 
Once FEMA got up and running and had service centers around the 
city, we left.
    This effort shows you the kind of investment we have made 
here in our business continuity and disaster recovery 
assistance, what it can lead to and how it can assist 
individual Members. So we monitor every twister, every 
hurricane, everything, to see that our district offices are 
taken care of. Since we have over 900 district offices, we have 
a lot to worry about in this institution.

                               HOUSE MAIL

    I also wanted to point out, in February of this year, the 
Chair and ranking Republican of the House Subcommittee on 
Capitol Security requested my office to undertake a review of 
the House mail program. I point this out because Mail 
Management is our largest vendor contract. After 2001, a number 
of changes were initiated to provide a much more secure mail 
system. The subcommittee feels it is time to review those 
decisions to see if they still need to have many of the initial 
requirements in place.
    We will be undertaking a comprehensive review of our 
existing program, assessment of alternatives, and make 
recommendations. We are joined in this effort by the Office of 
the Inspector General, and we expect to have recommendations 
for you by the 15th of September. This will have some budgetary 
impact and more than likely reduce our budgetary needs.

                           GREEN THE CAPITOL

    On April 22, the Speaker announced the next phase of our 
Green the Capitol program. In coordination with the Architect, 
we are working with Member and committee offices to encourage a 
number of energy conservation and sustainability actions. These 
actions could result in reducing energy consumption in Member 
offices by as much as 10 percent, at a savings of $1 million a 
year in our electricity bill. This effort will be undertaken by 
my office using existing personnel and resources. We do not 
require increased funds to implement the Speaker's initiative 
in 2010.
    We are requesting $10 million in this budget to fund a 
series of energy conservation sustainability projects. This 
program is being undertaken with the Architect, Lawrence 
Berkeley Labs and DOE. We have received over 40 proposals to 
demonstrate innovative energy efficiency and conservation 
technology here in the House. We have received proposals for 
such things as LED lighting in our cafeterias; a solid oxide 
fuel cell generator to take over a portion of the electricity 
load in the office buildings; a proposal for integrated solar 
lighting, both in our warehouses and in loading docks; and, 
also, the innovative use of wind turbines.
    We have a team of people reviewing all these proposals and 
of course have to wait to see how much funding we have and how 
many we can support. The importance of this funding really 
transcends the House's need to acquire better energy-saving 
technology. It is intended as an effort to support American 
companies that are on the forefront of green technology. By 
allowing these companies to showcase their technologies here on 
Capitol Hill, we hope to help them turn green job creation into 
a reality.
    Again, I want to thank you for your past support, and we 
think that our fiscal 2010 request will ensure our ability to 
meet our stated missions.
    We look forward to answering your questions.
    [Dan Beard's prepared statement follows:]
    [GRAPHIC] [TIFF OMITTED] T0439B.114
    
    [GRAPHIC] [TIFF OMITTED] T0439B.115
    
    [GRAPHIC] [TIFF OMITTED] T0439B.116
    
    [GRAPHIC] [TIFF OMITTED] T0439B.117
    
    [GRAPHIC] [TIFF OMITTED] T0439B.118
    
    [GRAPHIC] [TIFF OMITTED] T0439B.119
    
                   Opening Statement--Bill Livingood

    Ms. Wasserman Schultz. Thank you, Mr. Beard.
    Sergeant-at-Arms Livingood.
    Mr. Livingood. Good morning, Madam Chair, Mr. Aderholt, 
members of the committee.
    I appreciate the opportunity to speak before you today to 
present the Sergeant at Arms budget for fiscal year 2010. I 
also want to thank each and every one of you and give you my 
sincere gratitude for the continued support throughout the 
year. My office and the Capitol Police could not exist without 
that. I mean that very sincerely.
    It has been both a busy and historic period since I last 
testified before you. Over the past year, the Office of the 
Sergeant at Arms has assisted in numerous events both on and 
off the Capitol campus. My office played a large role in both 
conventions and the opening of the 111th Congress and the 
planning of the 56th Presidential Inauguration and the 
Presidential Address. Just yesterday, for instance, we had 
three heads of state here going back and forth all day.

                            SECURITY MATTERS

    As Sergeant at Arms, I review all security matters 
affecting the U.S. House of Representatives. I actively 
participate in establishing policies designed to safeguard the 
Capitol Complex and its occupants. As a member of the Capitol 
Police Board, I have those responsibilities.
    I am also on the Congressional Accessibility Services 
Board, which is the group that oversees and conducts services 
for people with accessibility needs. Allowing the Capitol to 
remain open and accessible to all visitors without compromising 
security continues to be one of my most challenging and 
important tasks. My office is continuously examining 
technologies to aid in the improvement of the life-safety 
posture of the Capitol and the House Office Buildings.
    Some of the ideas we have gotten from committee members, 
and I appreciate the help, other Members, staff, other 
government agencies. Ideas range from the installation of 
cameras and emergency call boxes in the House Office Building 
stairwells. Some of that money is in the Capitol Police budget 
as we speak today, and I will be asking eventually for 
additional funding for some of that.

                           EMERGENCY PLANNING

    Simulation evacuation modelling assistance, something we 
have talked about for a while, but before, we were not in a 
position to be able to do anything about it because we did not 
have the responsibility for evacuations, which was given to us 
by the Speaker last summer. So now we have the responsibility.
    We have had dozens of meetings since then with technology 
providers to research the range of potentially useful systems. 
In order to bring better focus to this issue, a series of 
meetings was conducted with other government entities to 
evaluate their approaches to evacuation planning and execution. 
One of the principal lessons we have learned is that better 
information is needed to realistically predict the most 
effective and safe evacuation strategies and operations. And we 
have found some technology on several phases that may work with 
this, and we will be looking at that.
    Due to the ever-changing environment on Capitol Hill and 
the disruption inherent in conducting realistic evacuation 
drills, this computer model gives the opportunities to test and 
evaluate evacuation plans without having to have fire drills. 
That doesn't mean we do away with them, but this is in 
addition.
    Other agencies with similar challenges are employing 
simulation-based decision support systems as a primary means of 
designing, testing and evaluating their emergency plans. The 
simulation-based decision support system provides an accurate 
and flexible method to assess evacuation plans without the 
disruption the drills cause. This allows for the evaluation of 
a wide range of evacuation scenarios. It also helps with other 
police problems, shooter in the building, chem, bio, other 
items such as that. It can be utilized to fine tune or evaluate 
current evacuation plans and conduct better drills.
    The goal is to do an end-to-end analysis of the technology 
requirement and, if appropriate, to seek the necessary funding 
to acquire the capability through a competitive process in the 
near future.

                             BADGING SYSTEM

    In fiscal 2010, the total funding requested for the 
Sergeant at Arms is $10,092,000. This includes $8,222,000 for 
personnel expenses, and $1,870,000 for nonpersonnel items. One 
of the nonpersonnel items is our purchasing of supplies for the 
112th Congress, that is the new Member pins, license plates, 
staff parking permits, that type, IDs; and $525,000 is a new 
initiative. It is for the nonpersonnel funds. It is requesting 
to purchase a new identification badge production system. Our 
system is close to 13 years old. The new identification badge 
production system will provide the House with a more secure, 
stable and technologically advanced badging system. That will 
be also compatible with the Senate and the Capitol Police 
badging systems.
    Additionally, we hope that this new system will allow 
online requests, which will accelerate the production and 
issuance of identification badges. It will also include new 
equipment to replace the old existing hardware, as well as 
upgrades to the mobile badge production units stored offsite 
and utilized in a coop situation.
    Mindful of the sensitivity to any request for a funding 
increase, I want to reassure the members of the committee that 
these requests are designed specifically to enable the Office 
of the Sergeant at Arms to be more responsive to Members of 
Congress and the congressional community, augmenting and 
improving the services we offer. My goal and that of each of my 
employees is to ensure that we work together to support the 
community.
    In closing, I want to thank the members of the committee 
for the opportunity to present our budget and just to let you 
know that we remain vigilant daily and committed to ensuring 
the safety and security of the Capitol Complex and its 
occupants while maintaining the best possible fiscal 
responsibilities during these difficult economic times. As 
always, I will keep the committee informed of my activities.
    At this time, I am ready to answer any questions that you 
may have.
    [Bill Livingood's prepared statement follows:]
    [GRAPHIC] [TIFF OMITTED] T0439B.120
    
    [GRAPHIC] [TIFF OMITTED] T0439B.121
    
    [GRAPHIC] [TIFF OMITTED] T0439B.122
    
    [GRAPHIC] [TIFF OMITTED] T0439B.123
    
    [GRAPHIC] [TIFF OMITTED] T0439B.124
    
    [GRAPHIC] [TIFF OMITTED] T0439B.125
    
    [GRAPHIC] [TIFF OMITTED] T0439B.126
    
    [GRAPHIC] [TIFF OMITTED] T0439B.127
    
    [GRAPHIC] [TIFF OMITTED] T0439B.128
    
    Ms. Wasserman Schultz. Thank you so much, Sergeant 
Livingood.
    And thank you all very much for all of your service and for 
the service of your employees. The House of Representatives 
couldn't function without the staff and employees of each of 
your offices.
    I have questions for each of you. My first question is to 
Dr. Monahan if you could join us at the table.

                               H1N1 VIRUS

    Dr. Monahan, as the Attending Physician of the House, the 
outbreak of the H1N1 virus is of obvious concern, and I know 
you have been following the situation closely.
    Can you give the subcommittee an update this morning on 
what your office is doing to prepare for the various 
contingencies in the event, although it may be abating now, 
that we have to deal with a more significant outbreak?
    Dr. Monahan. Yes, Madam Chair.
    Our office has the posture right now to assume the virus 
has unpredictable severity. We assume the maximum of severe 
cases, as does most of the Nation. We work closely with the 
Centers for Disease Control. I have independent experts, 
independent of the Executive branch, that advise us with regard 
to infectious events in the world, are virus experts, and help 
advise us on specific threats in managing our community here on 
Capitol Hill.
    It has been my great privilege to work closely with the 
other House and Senate officers and have seen some really 
inspirational teamwork in putting together and executing the 
pre-prepared contingency plan we have for pandemic influenza. 
As you may know, about 2 years ago, a large working group at 
the Capitol devoted quite a bit of energy toward preparing for 
a potential avian influenza pandemic. This 2009 H1N1 threat, 
which we are now in, has served as a way to execute that plan 
and to flesh it out in more detail, to capitalize on its 
strengths, and to identify areas where we need to have 
continuous improvement.
    It has been a very good experience for our working group, 
both in the House and Senate Sergeant at Arms Offices 
respectively, to optimize the campus response.
    Presently, our state of operations here in the Capitol 
community is one of advanced preparedness, as it is in most of 
the Nation. We follow events very closely from the point of 
view of operating the facility with the tens of thousands of 
visitors every day, Member offices, the ongoing functions of 
our dining facilities and restaurants, our Page Residence 
Halls, our two high schools respectively. There has been quite 
a bit of a collaboration. We are now continuing to maintain 
that posture of readiness.
    Ms. Wasserman Schultz. Do you have the resources that you 
need in the event that it becomes a pandemic?
    Dr. Monahan. Yes, we do.
    Ms. Wasserman Schultz. Good to know.

                         EMERGENCY PREPAREDNESS

    Sergeant Livingood, in terms of the needs that you have, 
particularly with contingency plans in the event that we can't 
work from the regular Capitol facilities, do you have all the 
elements of an alternative site plan in the event that there is 
an outbreak?
    Mr. Livingood. Yes. We have been working with the three 
House officers and the Senate on contingency plans nearby and 
further away, if we had to, to deal with that.
    Ms. Wasserman Schultz. Okay. Good.
    Mr. Livingood. And we continue to look at this.
    Ms. Wasserman Schultz. Thank you.

                        ELECTRONIC VOTING SYSTEM

    I am going to go to my questions for the Clerk. In the last 
2 or 3 years, we have had a number of different problems with 
the voting system. So I am glad to see that we are taking the 
steps that I think are necessary to bring in a whole new 
system. How old is the current system that we are using?
    Ms. Miller. We started in 1976. This is Goldey Vansant, our 
chief of our Legislative Computer Operations, resident expert 
on this.
    Ms. Wasserman Schultz. Suffice it to say that technology 
has changed somewhat----
    Ms. Miller. Slightly.
    Ms. Wasserman Schultz [continuing]. Since 1976, when I was 
in fourth grade, just by way of example.
    $6 million seems like a necessary expenditure. The other 
thing I am glad to see is that you are going to seek the input 
of the Membership because I am amazed at how little the voting 
system tells us when you walk in the Chamber. I know Members on 
both sides of the aisle use paper, which I am sure we would 
still use, to better explain what it is we are voting on. It is 
very difficult to discern, especially when you are running into 
the Chamber and trying to vote before the time expires, what 
you are voting on just by looking up at the summary boards.
    Ms. Miller. Madam Chair, I hear it literally every day as I 
go to the floor for votes. Some Member will walk up and say, 
When are you going to get this done?
    What we are hoping to do on the summary boards, and there 
will be this new technology out there that we have been--Goldey 
and his shop have just been talking ad nauseam to different 
kinds of vendors. So we know that there is a three point and a 
six point. We think the four point is probably better, a little 
cheaper, a little crisper maybe in view. So what we are 
planning to do is to bring that technology to HC-5 on June 4th, 
and we will have the Members have an opportunity to come down 
and look at it. There are all kinds of bells and whistles. So 
on the summary boards, at least, we want to give more 
information.
    We went to Annapolis a few weeks ago to see a demonstration 
that they are doing for the Maryland Legislature, which is just 
phenomenal. We went to Kansas in December to see some of the 
technologies that are out there that legislatures around the 
country and around the world are using. It is just absolutely 
phenomenal. So once you get a chance to see what we can offer, 
it is a matter of you telling us what you want and what kind of 
bells and whistles, and we can get this done.
    So the summary boards we are hoping to get done during the 
August recess.
    Ms. Wasserman Schultz. It would just be the summary boards.
    Ms. Miller. Just the summary boards. And then from that, 
from that decision--Goldey, correct me if I am wrong--we hope 
that the kind of technology that we would use for the larger 
displays would be the same.
    Ms. Wasserman Schultz. Can you do that, the summary boards, 
with no-year funds? Is that how you are planning on doing it?
    Ms. Miller. With the $500,000 that you have already given 
us. We can do that. The summary boards are being done, and we 
will have that ready, barring that you tell us something 
different.
    Ms. Wasserman Schultz. And the goal then is to change the 
summary boards over the holiday recess?
    Ms. Miller. Yes.
    Ms. Wasserman Schultz. And you anticipate you have enough 
time, given the system that you are looking at. Are you looking 
at a specific system, or are you still surveying?
    Ms. Miller. We have surveyed. We have pinned it down, but 
it really is the process of----
    Ms. Wasserman Schultz. Just tailoring it.
    Ms. Miller. To what you want.
    Ms. Wasserman Schultz. Will you have enough time by the 
time we come back into session in January to get it up and 
running?
    Ms. Miller. We believe so. If the decisions are made 
quickly enough, we can do it.
    Ms. Wasserman Schultz. Thank you. The Sergeant mentioned 
the new ID badge system. I assume that your offices are 
coordinating the effort?
    Ms. Miller. Yes. Because we produce the----
    Ms. Wasserman Schultz. Great.
    Mr. Aderholt.
    Mr. Aderholt. Thank you, Madam Chair.
    Let us go back to the voting system. You mentioned in 1976 
is when it was first implemented.
    Ms. Miller. Yes.
    Mr. Aderholt. Is that when we first transferred it over to 
an electronic system? Prior to that were roll calls where all 
the Members were called?
    Mr. Vansant. That is correct.
    Mr. Aderholt. Okay. So the board we see up there is the 
first?
    Ms. Miller. Thirty-three years old, yes.

                             HOUSE LIBRARY

    Mr. Aderholt. You also mention in your testimony--you were 
talking about the House library. Please give us a little bit of 
overview about the modernization of that.
    Ms. Miller. Mr. Aderholt, in real practical terms, we don't 
have a library. I am charged with maintaining one. We have a 
room on the second floor of the Legislative Resource Center 
that is a library. It is basically now a storage facility. It 
has been moved around over the years, and so that is where we 
are.
    So the idea is that we have our eye on some space, and so 
we are trying to work with the Architect and with the 
Leadership to see if we can acquire it. What we would like to 
do is not to reinvent what the Library of Congress is doing, 
but have a library that is digital, that has the transparency 
for our staff and for the Members on our legislative process. 
We have got all kinds of little things that we can do that will 
make it so much easier for staff and Members and the public 
that are looking for transparency of our legislative process.
    So that is what we are trying to do, but we are at a 
standstill until we can figure out where we would put it and 
get the sign-off to get that done. But we have hired a first-
rate--as a matter of fact, I guess, pilfered is not the word, 
but we borrowed----
    Mr. Honda. Liberated.
    Ms. Miller. Liberated. Perfect, Mr. Honda. She was the 
assistant librarian at George Mason University. She has her 
master's in library science, and she is a lawyer, so she 
understands what our needs are. And we have been talking with 
Mrs. Lofgren because she is very interested in what happens 
with the law library. So we are trying to combine this into a 
facility that will help not only our staff, but our leg 
counsel, Pope Barrow, and all these folks, with the kinds of 
resources that need to get the legislative work done as quickly 
and as efficiently as we possibly can. But we are kind of at a 
standstill until we get a sign-off on where we can do this so 
we can move forward.

                             BADGING SYSTEM

    Mr. Aderholt. Sergeant Livingood, let me address this to 
you. You talked about the identification badge production 
system. Will this be for House staff members?
    Mr. Livingood. Yes.
    Mr. Aderholt. Are these the badges that you would see that 
they would wear?
    Mr. Livingood. Replace that.
    Mr. Aderholt. What are the advantages of the new system?
    Mr. Livingood. It is faster technology. It is a little 
clearer technology. It is an upgrade of the equipment, and it 
makes it compatible with what we have now, what the Senate is 
doing, and what the Capitol Police are doing so we all have one 
type of system.
    Mr. Aderholt. What is it that the Senate side, the Senate 
staffers' IDs do that the House doesn't?
    Mr. Livingood. Well, you could put, if you need to, a smart 
card in there or chip in there to make it compatible with the 
district offices. Some of them have trouble getting into their 
buildings because they don't have capability to put a smart 
card in there. So we have had to work that out with each 
district, office by office, and the Senate has done that by 
going to this new system. Plus it makes it compatible if we 
ever need to to have the same type of system--not the same 
system, but type of--that the executive branch has for access 
to other places if we ever had to.
    And one big benefit: It would be much faster for us. And 
the second part of it is that you can do it online. We have 
never had that. We do not have that capability today.
    Mr. Aderholt. I see.
    Mr. Kaelin. The ability to include biometrics, if 
necessary, down the road. The technology has changed so much 
since 1996.
    Mr. Livingood. We are just trying to catch up.
    Mr. Aderholt. The current system was implemented in 1996?
    Mr. Livingood. Yes.

                             ENTRANCE LINES

    Mr. Aderholt. I am in the Longworth Building, and there was 
a line outside the Longworth Building, and if you had stretched 
it out, it would have been almost halfway to the Capitol. But I 
have noticed several times during the year that the lines going 
into Longworth have been extremely long. And I know a lot of 
the staff, of course, have to wait in those lines. But I notice 
there are several magnetometers in there, but it seems like 
only half of them are being used. What is the situation with 
that? Do you need some more resources to try to help alleviate 
that problem there?
    Mr. Livingood. That is a good question. Thank you for 
asking that because that is a problem.
    Yesterday and today there were lines out there going--I 
went over there this morning and saw humongous lines. As I did 
yesterday, I called the Chief again and told him to put more 
people out there and open up those second--the first thing we 
do, I told him, move people, if you can, to another door if it 
is open; I mean, if it is not backed up. Yesterday, ironically, 
almost every door was backed up, not just Longworth.
    The second phase of that is to open the mags. They take 
supervisors sometimes and use them for that--for an hour or 2 
hours to open those mags.
    And thirdly, I sent people from my office this morning when 
I noticed it. They are over there now, two of them, walking 
around, telling staff to move up, you don't have to wait in 
line; telling the police, they have got big lines out here. 
They are supposed to be checking, too. I have pulled some of 
those people that were checking, put them on mags today, trying 
to speed it.
    But we periodically do have this problem, and without 
calling people in, because you don't know day to day--unless 
you have an advanced notice there is going to be a huge group, 
then we can call people in. You have to take what you have 
existing and rearrange.
    Mr. Aderholt. But you have those people available in case 
you do need to open up that second?
    Mr. Livingood. They are not just waiting. I have to take 
people from other areas, yes.
    Mr. Aderholt. But you have them where you can have access 
to them?
    Mr. Livingood. Yes. But that is a serious problem, and I 
empathize with everybody on that. We thought of putting out--we 
did one time. We put out a message, an e-mail, to all the 
offices saying, staff, please go to the front of the line. But 
I got calls from Members' offices saying they would rather not 
see that, and just do word of mouth for various reasons.
    Mr. Aderholt. I will have a follow-up question on my next 
round.
    Ms. Wasserman Schultz. Mr. Honda.

                            EVACUATION PLAN

    Mr. Honda. Thank you very much.
    Let me just say thank you to all of you for your services. 
Some of you spoil me, others pamper me, and some of you put up 
with me. But I appreciate all that.
    To Mr. Livingood, thank you very much for the work you have 
done on the evacuation plan. We are looking forward to seeing 
that come to fruition.
    Mr. Livingood. Mr. Honda, you were a help on that, too.
    Mr. Honda. We knew that you had some barriers, so you 
worked it.

                        BADGING SYSTEM CONTINUED

    On the ID badge and the voting cards, why is it--are we 
moving towards where Members can have a voting card and a key 
to get into your offices and move around so that all our doors 
don't have to have the traditional keys, and it can be 
electronically keyed so that new Members come in, you can 
change the code and everything else? But you also can track the 
number of times folks come in and out of the offices after 
hours, and that these keys are also available to staff, but our 
voting card has biometrics that allows us to vote and also used 
as a key here and at the----
    Mr. Livingood. You are right on the money, sir. What we are 
moving toward--if we can configure their voting systems so we 
can have a Member's ID card fit into that, but also it can be a 
prox card or a smart card. And eventually I want--we are doing 
some offices now. The problem is, quite frankly, funding. And 
it is not the highest priority. There are other priorities, but 
it is an important one. We will eventually, in my estimation, 
eventually have an electronic key for every office, and then we 
have some other areas that we are going to use those keys so 
that Members can have access.
    Mr. Honda. I would imagine that the question is utility 
other than just on the Hill. Like if we have biometrics, then 
staff can move through the line by just flashing a card. We can 
get through the line or vote with our biometrics. Using the 
airport, they have Clear cards, and they check our ID cards all 
the time.
    Mr. Livingood. There is no limit to what we can do.
    Mr. Honda. At the Federal level, at least with the 
airlines, we should be able to----
    Mr. Livingood. And it shows who you really are.
    Mr. Honda. In that line----
    Mr. Livingood. I agree.
    Mr. Honda. If you would be looking at retinal research 
where the false negatives or false positives are almost zero, 
and the ability for us to keep records on who comes in and out 
even with visitors, it may reduce the lines, and it may allow 
us to move more freely through the hallways in ways that feels 
like it is less restrictive, I guess.
    Mr. Livingood. Yes, sir.
    Mr. Honda. Return back to the Hill a sense of this is your 
facility.
    Mr. Livingood. Yes, sir.
    Mr. Honda. So perhaps in the near future we might be able 
to get us back.
    Ms. Miller. Madam Chairman, may I just add to that, since 
we produce the Member voting cards and ID cards, the 
combination, we always have a concern about security. In any 
given day, we can replace 10 to 15 Member cards----
    Mr. Vansant. Quite a few.
    Ms. Miller. So we understand the convenience, but it is the 
security of it, too, because that is your voting card and your 
ID card all rolled into one. And so we want you to be mindful 
of that because sometimes Members have a tendency to leave 
them.
    Mr. Honda. Yes, I know.
    Mr. Livingood. I think if it was an ID card, they would 
watch it like a driver's license.
    Mr. Honda. But I think there are ways to have some security 
in there.
    Ms. Miller. There are. Yes.

                            FLU VACCINATIONS

    Mr. Honda. For the doc, thanks for everything you do. And 
at the avian flu time, I asked folks over at our cafeteria if 
the cafeteria workers were being immunized and being given flu 
shots, and they said no, because they are under contract. They 
are contractors. We have to push them really hard in order for 
them to be immunized because they handle our food. So is there 
a procedure now if anything like this happens, the first folks 
that should be hit are the food handlers and our staff.
    Dr. Monahan. Well, sir, as vaccine is available on a 
seasonal basis, we will immunize anyone who bears a Capitol ID 
card. We don't ask who is a contractor, who isn't. If they have 
a regular campus access card, we will vaccinate them. We send 
our teams out to the night shifts, the pages, the day shifts, 
and others. We make our availability wide open to those groups 
to try to make the vaccine conveniently available----
    Mr. Honda. Those food handlers, do they have cards?
    Mr. Livingood. Yes.
    Mr. Beard. They have a vendor ID. They would be eligible.
    Mr. Honda. Because there was a lot of resistance last time. 
It should be part of the contract, I guess, that these are the 
kinds of things that they are responsible for if they are going 
to handle food for our people.
    Ms. Wasserman Schultz. Thank you.
    Mr. Cole.

                             STAFF BENEFITS

    Mr. Cole. Thank you, Madam Chair.
    I want to specify for the record, I was not in the fourth 
grade. I don't want to be any more precise than that.
    But let me begin first, I just want to thank all of you for 
the terrific job you and your staffs do. We are wonderfully 
well served on the floor, and we are wonderfully well served in 
the facilities, and obviously we feel awfully secure. So thank 
you very much. You lead really very well, and you lead your 
excellent staffs very well.
    I was particularly interested, Mr. Beard, in the point you 
made about the difference in benefit levels between some of our 
employees and the executive branch. If you would enlighten me a 
little bit, are House employees eligible for the same sorts of, 
let us say, educational benefits that our employees in our 
respective offices are eligible for?
    Mr. Beard. Yes. All employees of the House of 
Representatives are Title II employees. So whether they work in 
an office, or whether they work for the officers, committee or 
leadership, they are all Title II employees, and that means 
that their benefit package is determined by the House of 
Representatives itself.
    Our pay system is even different than the Senate. The 
Senate employees are paid every 2 weeks. We are paid once a 
month. So we have different pay systems. And we have different 
benefit packages as House employees than the executive branch 
employees have. They have a lot more benefits than we have, and 
that is because for Title II employees the authorization is 
with the Committee on House Administration, and the Oversight 
Committee handles benefits for executive branch employees. So 
when a bill goes through providing a benefit to executive 
branch agency employees, generally their benefits aren't made 
available to legislative branch employees. So we are racing to 
catch up.
    The kind of benefits that we have been trying to propose 
and get for House employees are fair. We are not asking for 
anything that executive branch employees currently don't get. 
That is the limit that we have placed on ourselves. For 
example, last year House employees could receive up to $6,000 
for student loan repayment per year, but yet executive branch 
agencies got $10,000. So the subcommittee provided us the money 
to provide the additional money to provide up to $10,000 per 
year, and CHA changed their regulations to enable that. So now 
we are able to go ahead and do that.
    And the two benefits we are proposing in here, one is the 
tuition reimbursement program, which is currently available to 
Library of Congress employees, AOC employees, Capitol Police 
and the executive branch. Our employees do not get it, we do 
not have that kind of a program. We would like to offer tuition 
reimbursement because so many of our employees are young people 
just starting out. What we want to try to do is have a benefit 
package that encourages people to stay, because if employees 
stay, it is in the best interest of the institution. Members 
are more effective, committees are more effective, the 
legislative process works better. A constant turnover is just 
very difficult.
    Mr. Cole. So there is no difference between--and I hope 
there is not--between what our custodial employees get, for 
instance, and--well, actually I had a specific question about 
this from one of our custodial employees. And I just wanted to 
make sure he was eligible for everything that anybody else in 
my office would be eligible for.
    Mr. Beard. Assuming the custodial employee is not a 
contractor he or she is eligible. I also would add this 
caveat--and this is what makes things even more interesting--is 
that we have 441 Members, and each Member decides what his or 
her employees are paid and what kind of benefits they get in 
some cases. We also have 20 committees, and then you have the 
individual officers. The officers have coordinated to make sure 
that all of our benefit packages are the same, but then you 
will have a difference with the Architect of the Capitol and 
Capitol Police.
    Mr. Cole. Thank you for working on trying to close that 
gap. You know, people are everything in any business. So I 
appreciate that.
    Yield back, Madam Chair.
    Ms. Wasserman Schultz. Thank you very much, Mr. Cole.
    Mr. Ryan.
    Mr. Ryan. Thank you, and you guys are great.

                        BADGING SYSTEM CONTINUED

    One, I wanted to follow up, Bill, on the question of losing 
the IDs. I mean, if we are losing that many congressional IDs, 
do we have situations where people are getting ahold of these 
and trying to----
    Ms. Miller. No. We kill them instantly. Not the person, but 
the card.
    Ms. Miller. When a Member asks for a new ID, it is one--
whatever--we had one Member that had 25 cards. He found them, 
but they were all dead except for one of them.
    Mr. Ryan. Have we had a situation where somebody gets ahold 
of a card and tries to use it as an ID at some----
    Ms. Miller. Not that I am aware.
    Mr. Livingood. We have not heard of that.
    Ms. Miller. No.
    Mr. Ryan. That is interesting.
    Ms. Miller. It has got your picture on it, and it is a 
little--unless you kind of look like Tim Ryan, it is a little 
hard to----
    Mr. Ryan. I don't wish that on anybody.

                        STAFF BENEFITS CONTINUED

    Just a little bit on the benefits package. I know you were 
talking about tuition reimbursement. Are there any other things 
that you are looking at as far as benefits go for the staff 
that maybe are on the back burner?
    Mr. Beard. Well, yes. We are looking at a number of things. 
One is the student loan repayment program has been raised from 
$6,000 to $10,000 per year, per employee, which is very 
popular, and because it is centrally administrated, it is 
easier to divide.
    With the support of the Chair, we have proposed a low-wage 
child care assistance program, and we are asking for funding in 
that as well. This will be run by GSA and will provide 
assistance to our low-wage workers for child care. And that 
will be a benefit that is available both here in Washington as 
well as district offices. And I think that is very important, 
particularly for our low-wage workers. If you are a single 
mother with two kids, and you have got to find day care, and 
you are making $50,000 a year, it is tough.
    We are increasing our transit benefit package from $120 to 
$230 a month. Now, that increase was provided in the stimulus 
bill. And then there's parking benefits. What we are trying to 
do is initiate a program where if you park in a commuter 
parking lot either in a district office or here, you can 
receive assistance for parking. That is to act as an 
encouragement to get employees to take Metro. Here in 
Washington we have the unique situation of providing free 
parking to every employee who wants it. It is kind of a third 
rail of employee benefits. We can't get rid of it, but you can 
sure encourage people to take another route.
    The other thing that we have been investigating to try to 
figure out how to do is a disability program. We have no short-
term or long-term disability program for our employees. The 
only long-term disability program we have is to retire, and 
that just isn't acceptable with a modern workforce. You know, 
the key is how do you finance it, and what kind of a package of 
benefits can you provide? But if we could just bring ourselves 
up to parity with other legislative branch agencies, I would 
feel better. I hope for us to work to match the benefits made 
available to executive branch agencies.

                             GARAGE PARKING

    Mr. Ryan. Two more quick questions. One, you brought up 
parking. I notice a lot of times in the garage there are cars 
that have been sitting there for--they have got dust on them, 
you know. I mean, like, people are writing with their finger 
``wash me'' on their car. It has been in there. What is the 
process for people to be allowed to leave----
    Mr. Livingood. The process is you must move your car every 
30 days. We have parking security going around looking at those 
spots where people have left them more than that. We send them 
a letter, and we send a second, and then the third time, if it 
is still there, it goes to the Committee on House 
Administration for them. And then sometimes I even call the 
owner of that vehicle and tell them; I suggest they move it 
before someone else--
    Mr. Ryan. We will talk after this hearing. I have a couple 
suggestions.
    Mr. Livingood [continuing]. Before someone else moves it.
    Mr. Beard. We will find the offending Member and point them 
out to you.
    Mr. Ryan. I want to know who it is, too.

                     ENERGY DEMONSTRATION PROJECTS

    Lastly, on the demonstration projects, can you talk a 
little bit more about that? Is it just going to be that you 
have, for example, solar panels, different ones? I mean, how 
are you going to proceed?
    Mr. Beard. What we did is we have put out a call for 
procurement proposals.
    Mr. Ryan. These will all actually be providing energy for 
the Capitol?
    Mr. Beard. Yes. Well, energy or energy-efficient 
technology. And the purpose here is the one advantage we have 
as a institution we can set an example. And this is a way in 
which we can bring in and demonstrate some new technology that 
can be integrated with an office environment that we have here 
and help promote the development of green technologies.
    We put out a call for proposals. We have received 40 
proposals. We now have a technical team going through them to 
evaluate each one of them for their merits and what it is they 
demonstrate, their feasibility. And then we have requested 
funds to initiate the program this year. And we will wait to 
see how much money we have and then make the awards for the 
various projects.
    For example, we have had interesting proposals to use 
skylights in the Longworth cafeteria and LED lighting, both of 
which would significantly reduce our lighting costs in the 
Longworth cafeteria. Solar lighting and LED lighting at the 
loading docks in Rayburn.
    So there is a wide variety of proposals. I can't really 
speak to the individual ones because we haven't selected them 
yet. So they are still in the procurement process.
    Mr. Ryan. Thank you.
    Ms. Wasserman Schultz. Thank you, Mr. Ryan.
    Mr. LaTourette.
    Mr. LaTourette. Thank you, Madam Chair.
    I just want to be clear for the record, Ryan, Timmy, I will 
move my car.
    Mr. Ryan. I didn't mean to make it public, but--I just 
don't want it to happen again.

                   ELECTRONIC VOTING SYSTEM CONTINUED

    Mr. LaTourette. I recognized your handwriting in the dust. 
Those are Ryan's fingerprints all over my car.
    I want to thank you all for your service, and, Madam Clerk, 
especially to you. Sadly, I probably know more about the 
Electronic Voting System than I probably should as a result of 
our special committee.
    Ms. Miller. It is a good thing.
    Mr. LaTourette. It is a good thing.
    Madam Chair, I might recommend that the Clerk gives a great 
demonstration about how the system works. And aside from the 
information that you were talking about, I would bet that less 
than 10 percent of the Members know how the machine really 
works. And I think it is important. And the only observation I 
would make is that as you--and I know you will because of your 
dedication and commitment to getting it right--that the bells 
and whistles not impact the integrity of the system. Because 
the one thing about the Electronic Voting System that I learned 
is that every Member should have confidence that their vote is 
counted, and it is counted correctly. And, Madam Chair, I don't 
know if you are a nervous voter like I am, but it not only 
records when you vote, but it records each time you put in your 
card to check your vote, and it is listed what time you did 
that.
    Ms. Miller. There are 46 voting stations on the Floor, and 
if you vote in station number 1 and decide to check it in 
station 21, we know it, what time you do it and how long it 
took you to check it.
    Mr. LaTourette. It is a fascinating system. And I think 
1976--I would say to my colleague from Ohio, I believe there is 
a fellow who played quarterback for the Cleveland Browns named 
Frank Ryan, who, when he retired, got a Ph.D. in mathematics, 
came and worked for the House Admin and helped install the 
Electronic Voting System. He was the better Ryan from Ohio.

                        BADGING SYSTEM CONTINUED

    Mr. Ryan. He was a Republican; is that what you mean?
    Mr. LaTourette. I don't know if he was a Republican.
    Mr. Livingood, the discussion of biometrics. I am a big 
believer of biometrics. As I understand your upgrade, the new 
IDs will be biometric. It will be an add-on down the road, and 
it is not going to be included in what you currently----
    Mr. Livingood. That is correct. It could be added on, which 
we don't have the capability today.
    Mr. LaTourette. I think that the people who make the 
magnetometers that are all over here, it is an Italian company, 
and they had a demonstration where you can walk through with 
the biometrics and the card. The officer can see that it is 
you; that you are, you know, 5-11, 210 pounds; that you have 
blonde hair. And maybe that goes to Mr. Aderholt's difficulty 
with the lines. You know, they now have these Clear systems at 
airports if you are prescreened, and perhaps we could have a 
staff line, and they could go through with their biometric 
card, and that may help you reduce things, too. Have you 
explored the cost as you are adding on?
    Mr. Livingood. We have looked at adding on with the smart 
card part, and biometrics would do that. It depends on how many 
we use and which ones. And we have been experimenting with 
various--for some time.
    Mr. LaTourette. Is it significant, the cost?
    Mr. Livingood. I don't think it is that----
    Mr. Kaelin. The actual cost of the cards themselves are 
significantly more expensive than what we pay now for the cards 
we use. And the rate of turnover--we reissue every card every 2 
years--we will have to modify it, buy much more expensive 
cards. We will have to modify that process as well.
    Mr. LaTourette. When you are not busy, if someone could 
price it out, I would be interested in knowing how much it 
would cost for giving every staff member a biometric card.
    Ms. Wasserman Schultz. If you could do that.
    Mr. LaTourette. Madam Speaker, on the issue of the fellow 
with 25 lost cards, I saw a former Member here with a beautiful 
set of cufflinks that looked like the congressional pin. And he 
said he had them made every Congress. And I said, well, how do 
you do that? He said, I always go to the Clerk and pretend I 
have lost my pin, and then I have two at the end of Congress.
    Ms. Miller. I don't do the Member pin. That comes from the 
Sergeant at Arms.
    Mr. LaTourette. I am telling you, there is a black market 
operation in Congress.
    Mr. Honda. They make great tie clips.
    Mr. Ryan. I saw a pair of those cufflinks on that car, you 
know.
    Mr. LaTourette. Oh, boy.

                       HEARING ROOM MODERNIZATION

    Just the last question, if I may, to you, Mr. Beard, on 
modernizing the hearing rooms, $10.2 million. Will that 
complete the last six committees?
    Mr. Beard. It will complete the last six committees. But 
then, of course, all the committee Chairs will come back and 
say they need to have their subcommittee hearing rooms done, 
and there is about 29 of those. But the important thing, I 
think, for the Members, is every committee will have an up-to-
date system, which is then fed into the House recording studio 
where we can preserve the record and then make it available to 
Members who want to clip it and put it up on YouTube or 
whatever else they want to do with them.
    Mr. LaTourette. And do you give the committees the room 
that they ask for? Does the Chairman say, this is what I want, 
and you build it? Let me ask you why. I used to be on the T&I 
committee. In front of me there was a plug that I could have 
plugged in like a toaster and something else, and then there 
was a phone jack. I don't ever remember taking my phone to--so 
did Don Young say, I have got to have a phone jack and a plug 
at every station, or did----
    Mr. Beard. No. What we do with the individual committees is 
a negotiation process with the committee Chair. And when they 
tend to go off in a very expensive direction, we tend to try to 
pull them back. It is a negotiation process because the cost 
generally is somewhere between $800,000 and $1 million for each 
room that we do. And now new technology is coming out, so 
everybody wants the latest.
    Mr. LaTourette. Thank you.
    Thank you, Madam Chair.
    Ms. Wasserman Schultz. You are welcome.
    I sense from reviewing weekly reports that there is a 
negotiation that the CAO engages in. I have seen commentary 
wherein the ideas of the committee Chairs come in far more 
expensive than was anticipated, and although I don't see the 
give-and-take, you can tell that when it is being reevaluated, 
that perhaps the plans were too ambitious on the part of some 
Chairs. So thank you.

                           CAO RESPONSIVENESS

    I wanted to ask you about a couple of things on which we 
have gotten consistent feedback from Members. Do you have a 
standing procedure for meeting with Members and their staff, 
and for knowing how well you are serving their needs? I am not 
just talking about First Call. I am talking about your general 
responsiveness when a Member or their staff seeks assistance.
    Mr. Beard. Yes. Any request that comes from a Member to 
meet, we meet with them immediately. And we respond to all 
requests. They are our customers.
    Ms. Wasserman Schultz. Do you have a feedback system in 
place? Do you measure how Members are feeling about the 
responsiveness of the CAO's office?
    Mr. Beard. We do have feedback. We do have feedback 
systems. Maybe if I knew the particular issue, I could address 
it.
    Ms. Wasserman Schultz. Well it is not one, it is many; 
otherwise I wouldn't be asking the question.
    Mr. Beard. Well, what I would say is there are times when 
we have to say no to people, and many times Members don't like 
the no answer.
    Ms. Wasserman Schultz. For example, do you meet with the 
Chiefs of Staffs regularly so that you are getting their input 
on a consistent basis? And are you responsive to requests?
    Mr. Beard. We meet with the office administrators and 
bipartisan Chiefs of Staff organization, yes.
    Ms. Wasserman Schultz. How often?
    Mr. Beard. They met 2 weeks ago. They meet once a month.
    Ms. Wasserman Schultz. And you are there?
    Mr. Beard. I haven't been to that one, but I have been to 
the other Chiefs of Staff meetings.
    Ms. Wasserman Schultz. Okay. When you are developing your 
strategic planning process, are you incorporating anything 
related to outreach and feedback practices on the part of your 
office?
    Mr. Beard. Yes. Well, we have developed that, submitted it 
to the committee, and a number one priority that we have is to 
make sure that we reach out to the Members. Now we have 
HouseNet, we have electronic communications that we send.
    Ms. Wasserman Schultz. Right. I am talking about face-to-
face, contact and feedback and the opportunity for input on the 
part of senior staff and Members' offices.
    Mr. Beard. Well, all I can say is that we meet on a regular 
basis with anybody who would like to meet.
    Ms. Wasserman Schultz. How often is regularly? Is it every 
2 weeks, once a month, every quarter?
    Mr. Beard. I guess I can't put it into those words.
    Ms. Wasserman Schultz. Because it is not regular or 
because----
    Mr. Beard. I mean, the Chiefs of Staff meet, and they have 
issues they want to discuss with the CAO's office. We send 
representatives. We send representatives from payroll and 
finance and try to address those issues. But once again, there 
are times when we have to go to those meetings, and we tell 
people things they may not want to hear, or we don't give them 
the answer that they want, and that sometimes is where the rub 
occurs, that they don't like the answer that they are 
receiving.
    One example was a training contract. Now, I had questions 
about the training contract and the procurement process that 
was used for that training contract, and the Chiefs of Staff 
wanted us to award that contract. Well, I wasn't going to award 
the contract until I was satisfied that the procurement process 
was above board. So that was a rub.
    Ms. Wasserman Schultz. Okay. I would like to facilitate a 
meeting and ensure that the meeting happens with the head of 
the Chiefs of Staff association, because the feedback we are 
getting is that the Chiefs of Staff too often are reading about 
decisions that your office has made in Roll Call as opposed to 
getting advanced notice about them. It obviously makes it more 
difficult for a Member's office to function if they are hearing 
about policy changes that way. Since there isn't a clear 
understanding on your part, then there seems to be a lack of 
communication. If we facilitate a face to face meeting, we can 
ensure that would happen.

                     PAYROLL AND FINANCE OPERATIONS

    The other issue that I have I can tell you that I have 
gotten calls and written communications in my own office--is 
the problems that your office appears to be having with the 
payroll and finance operations. You have a very high turnover 
in that office, as I understand. What seems to be the problem 
with that particular----
    Mr. Beard. Well, I would split those in two. I think what 
you are talking about is the finance office. We did have 
problems with payroll.
    Ms. Wasserman Schultz. I know. I participated in meetings 
related to that.
    Mr. Beard. We think we have corrected the problems in the 
payroll office by changing personnel, moving people to other 
parts of the organization, bringing new people in.
    The new challenge we have now is in the finance area. We 
have had four vacancies that have occurred. And so yesterday we 
brought in a new manager for the group, and we are proceeding 
to undertake a series of changes in our personnel, the way in 
which we are allocating the work and undertaking the work.
    Ms. Wasserman Schultz. Do you feel you have a system in 
place that makes your employees feel that you are responsive to 
them and their concerns?
    Mr. Beard. I do, but I don't think that we have had as 
strong a leadership in those areas that we really need to have, 
it needs both management and leadership.
    I think the other thing you have to understand here is that 
the individual finance clerks and payroll clerks develop a 
relationship with an individual office, and we will say to the 
office, you know, I may not like this, or I don't like this, or 
this is happening to me, at which point the office says, well, 
we will go to bat for you and jump in. So I am sort of leading 
sort of a two-part war here; not war, but conversation between 
different groups in the finance area.
    Ms. Wasserman Schultz. My time has expired, but I think it 
is imperative--and, again, I am raising this because it has 
been consistent feedback that I have gotten in my own office 
about the things that are occurring in yours--that you have a 
policy and a work environment in which employees feel that they 
can bring concerns and get them addressed. If you are 
acknowledging that you don't think that process in your office 
is very strong, then that is something that I would like to 
assign you to develop and report back to the committee. How 
long do you think you need to report back to the committee?
    Mr. Beard. Ninety days.
    Ms. Wasserman Schultz. Ninety days is too long.
    Mr. Beard. Sixty days then.
    Ms. Wasserman Schultz. We will come up with an appropriate 
date for you to follow up with the committee when you have 
gotten that system in place.
    Mr. Beard. Okay.
    Ms. Wasserman Schultz. Thank you.
    Mr. Aderholt.

                              STAFF LINES

    Mr. Aderholt. Let me just follow back up with Mr. 
Livingood. As my time had run out a little bit earlier, you 
mentioned the fact that you had instituted a policy where the 
Members can come into the front of the lines in the building.
    Mr. Livingood. Staff. Members can always.
    Mr. Aderholt. Staff for the Members could come to the front 
of the line, but you had some push-back from some Members; what 
about establishing a dedicated door for the staffers?
    Mr. Livingood. We have looked at that in the past, 
dedicated door for staffers, but sometimes, like when you have 
a lot of tourists, there are only four or five staff that want 
to come in, and they are the ones that are at the back of the 
line. But it is sort of a waste of personnel. You have to have 
your bag still and X-ray, so you are cutting another door down 
for visitors.
    We instituted several years ago, one of the committees 
asked us to institute a visitors door for a month, and we tried 
that. We did one at every building. So what that did was put a 
heavier load on the other doors for visitors.
    So we are constant. We talk about it quite often. It is not 
beyond our realm to look at that again.
    Mr. Aderholt. You said you wanted to get back with the 
Capitol Police. Maybe you could get back with the committee on 
some recommendations that you all--after talking to Capitol 
Police and Sergeant over there as to some alternatives that 
could help out.
    Like I said, that is one thing that I have probably heard 
the most about is the long lines, and also coupled with the 
fact--I know sometimes you will have an influx, and yesterday 
was sort of a weird day with the three heads of state that were 
here and a lot of visitors. But generally speaking, it seems 
like there has been some consistency in the Longworth Building. 
So I would appreciate your looking at that.
    Mr. Livingood. You bet. I would be happy.
    Mr. Aderholt. Also, I want to thank you for your work on 
the--I know we sometimes have a special request for groups that 
come in that have to get a special permit to do things that are 
out of the norm. So I appreciate your office working with 
Members on trying to help facilitate that. Just yesterday, we 
had--out at the Botanical Gardens we had the Brain Tumor 
Foundation mobile unit doing brain scans/MRIs for the last 2 
days, and I know that is not something normally you have on the 
Capitol grounds, and it takes somebody special to look at that. 
And I appreciate your going the extra mile to look at that, 
because it was a great success. I was down there yesterday for 
the event by the Botanical Gardens, and they had a tremendous 
turnout from Members and staff, to my understanding.
    But again, thank you for taking the time to look at that 
and say, this is something legitimate. This is something that 
needs to be looked at.
    Mr. Livingood. That is our purpose. That is what we should 
be doing.
    Mr. Aderholt. I appreciate you paying attention to those 
things.

                ENERGY DEMONSTRATION PROJECTS CONTINUED

    Mr. Beard, let me ask you. I think in your request is $10 
million for the energy conservation projects. What are some of 
the things that are going to be involved with that $10 million 
that is requested?
    Mr. Beard. Well, this is specifically for demonstration 
projects of innovative energy, for energy conservation 
technology, as well as to demonstrate innovative approaches to 
providing electricity, and also to the operation of our 
existing systems. For example, one of the proposals we have 
received is for a wireless technology to monitor and to improve 
controls for heating and cooling, which will reduce energy 
consumption and provide greater flexibility. So we have a wide 
range of technologies.
    The purpose of this was to provide a location, for the 
House to be a location for innovative technologies, to 
demonstrate it and to demonstrate that these technologies can 
meet energy and conservation needs in a working environment.
    Mr. Aderholt. You talk about the lighting like in the 
Longworth cafeteria.
    Mr. Beard. Yes.
    Mr. Aderholt. You mentioned the skylighting.
    Mr. Beard. I did.
    Mr. Aderholt. Of course, being in the location where it is, 
I guess it would be more difficult to do skylighting for the 
basement of buildings.
    Mr. Beard. Well, actually in the Longworth cafeteria, that 
was a courtyard at one time, and a roof was put over it, and 
that is where the cafeteria came from.
    Mr. Aderholt. So it could be----
    Mr. Beard. We are working with the House Superintendent to 
look at the possibility of a green roof on top of that, which 
would reduce energy costs and heating in that area; a green 
roof as well as harvesting sunlight, which would then eliminate 
or significantly reduce the need for artificial lighting, and 
the lighting that we would put in there would be energy-
efficient lighting.
    Ms. Wasserman Schultz. Would the gentleman yield for a 
second?
    Mr. Aderholt. Sure.
    Ms. Wasserman Schultz. This proposal is to fulfill the 
requirements of the Wamp-Lofgren bill, correct?
    Mr. Beard. Yes, it is.
    Ms. Wasserman Schultz. I just wanted to make sure. Thank 
you.
    Mr. Aderholt. I know also there are $17 million that are 
included in the Architect of the Capitol for doing similar 
things. I am just wondering how those compare to each other, 
what your $10 million request is and their $17 million for the 
Architect of the Capitol, and how they are different in that 
respect.
    Mr. Beard. Well, I can't speak to the Architect's request 
since I haven't seen those particular items, but ours is a 
demonstration project. More than anything, what we are doing is 
taking technology that may not be totally within the 
marketplace and providing an opportunity for the companies to 
demonstrate their ability to meet needs in the marketplace. And 
so I guess if you would try to differentiate between the two, 
ours is a--I don't want to use a higher-risk phrase, but at 
least it is more--trying to use more innovative technologies 
and approaches to dealing with these problems.
    Mr. Aderholt. But just to follow up on what you mentioned, 
you are saying that you are not sure exactly the details of 
what the Architect will be doing?
    Maybe, Chair, if I may just suggest some cooperation and 
coordination between the Architect and the Chief Administrative 
Officer as to things that maybe are duplicative efforts there 
that could be----
    Ms. Wasserman Schultz. That has actually been something 
that I have been concerned about since the beginning, and I 
think there is duplication of effort in which we can sort out 
which one would be solely responsible for particular items.
    Mr. Aderholt. It would just make sense that they just work 
together because they are both working toward the same goal.
    Ms. Wasserman Schultz. Mr. Beard and I have talked about 
that at a different time. Thank you very much.
    Mr. Honda.
    Mr. Honda. Thank you.

                       HOUSE COMPENSATION SURVEY

    To Mr. Beard, I just want to thank you for your meeting 
that we had March 18 where we got a couple of things cleared 
up. You explained to Congresswoman Davis and myself the 
dynamics behind the cancellation of the House Compensation 
Survey, which is being reinstituted. It is a great tool that 
our Chiefs of Staff use for planning, so I really appreciate 
that; and reinstituted some of the many service courses for our 
staff. That helps provide us training throughout the Capitol. 
And also the Diversity Day, the Track Caucus that we are 
looking at. We are very grateful for that information. So I 
just want to acknowledge that.
    Mr. Beard. Thank you.

                              PAGE PROGRAM

    Mr. Honda. To the pages, I am glad that you are looking at 
expanding some of the areas that they may be used in committee 
work and things like that. Has that ever been done before where 
a new crop of youngsters come in that come before the House and 
just sort of welcome them and, before they leave, thank them?
    Ms. Miller. That has been done on a couple of occasions, 
once since I have been Clerk. It rarely happens. It is 
something we could do, but it is always an impediment to the 
Floor schedule, and you have to find the right time. We could 
probably do that.
    Mr. Honda. It could just take a minute or two to have them 
stand up and us recognize them, because they spend a lot of 
time.
    Ms. Miller. Mr. Kildee, who is our current Chair, I will 
mention it to him and see if we can work that out.
    Mr. Honda. Because they love what they are doing.
    Ms. Miller. Yes, they do.
    Mr. Honda. And they have a lot of fun watching us.
    Ms. Miller. Well, they learn a lot. The young people had 
their U.N. project about 3 weeks ago. You would be surprised at 
how they mimic what the Members do on the Floor. Some of them 
were taking your----
    Mr. Honda. Oh.
    Ms. Miller. They take your positions, and they would say to 
us, Oh, this is what Congressman so-and-so thinks about this, 
and this is the position. So they really do pay attention to 
what the Members are doing on the Floor.
    Mr. Honda. Just to say thank you and welcome. It is just a 
matter of a couple minutes and just an acknowledgement.
    Ms. Miller. Yes, sir.
    Mr. Honda. I think it is appropriate.
    And then the courses that they take. I understand it is 
pretty rigorous.
    Ms. Miller. Yes.
    Mr. Honda. Are they also getting the kinds of instructions 
that we talk about in our committees where it is comprehensive 
instruction on, say, global warming, curriculum around that?
    Ms. Miller. You would be surprised at the number of Members 
that take the time to come over. We have an energy course, and 
some Members from the Energy and Commerce Committee have come 
over and given little seminars in the morning to the Pages in 
their general assembly. So we integrate a lot of the Members in 
the curriculum, particularly when it dovetails with what they 
are studying and what is going on in the Congress. We take 
advantage of that, yes.
    Mr. Honda. Thank you very much.
    Ms. Wasserman Schultz. Thank you very much.

                       PRICES IN HOUSE CAFETERIAS

    Mr. Beard, I want to go over something very personal to 
most House employees and people who are in the Capitol every 
day, and that is food.
    Most complaints that I hear, and I know Members hear from 
their staff and others, are concerns over the House cafeterias. 
We discussed this last year. Compared to last year, it seems to 
have gotten worse, at least in the feedback I have been 
consistently getting, particularly regarding the prices. Your 
staff provided some historical information on the cost issue 
that showed that the average check in the cafeteria increased 
by about 31 percent between January of 2007 and January of 
2009. For example, the average cafeteria check in 2007 was 
$3.62, and the average in 2009 was $4.74.
    We also did some of our own research. For the three bidders 
for the food service contracts in 2006 that were asked to bid 
on the price of a Reuben sandwich, which was the example used 
for quality and pricing, the RA bid showed a cost of $5.50 
compared to $4.50 and $4.75. Last week Restaurant Associates 
charged $6.25 for a Reuben sandwich in the Rayburn deli. By 
comparison, that same sandwich sells today for $4.75 in the 
Star Deli in downtown Manhattan.
    That is pretty clear evidence of outrageous prices for the 
food here. And our staff are all public servants dealing with a 
salary in which, you know, their costs to feed themselves 
during the day multiple times, sometimes breakfast, lunch, and 
dinner because of the hours they work, is important. And, I 
mean, a 30 percent increase is really over the top.
    Do you have an explanation for that? Is there any way to 
work on that issue? It seems that the prices have gone beyond 
what we anticipated.
    Mr. Beard. I don't think they are beyond what we 
anticipated. A number of things have occurred during the period 
that you cited. As we provided the information to the 
committee, the Consumer Price Index for foodstuffs has gone up. 
You know, the highest increase in the last 20 years took place 
in the last 2 years, and in some cases it is for the basic 
ingredients, eggs, fat. They had fuel charges imposed on them 
as well. So as a result, instead of having a 2 or 3 percent 
increase in food prices, in some cases it was 14 percent. I 
guess you could pick out individual items like a Reuben 
sandwich, but there are still other items.
    Ms. Wasserman Schultz. Well, I just picked that because 
that is the item that we used to bid the contract.
    Mr. Beard. I am sure. But what I would say is that, the 
kind of conditions that we impose on our vendor for this 
service and our clientele imposes on them is costly when we ask 
for better quality; we ask for nutritious meals; we ask for 
fresh food; we ask for made-from-scratch. We want local food. 
We want union staff. We want commissions to come to the House. 
We want a touch-and-go system that provides a 10 percent 
discount for Members, which we have provided. We have very 
onerous security requirements, an example is that you can't 
really get a truck to just drive up here. It takes at least a 
half a day turnaround time for that. And we also have a 
clientele that I think is not shy about--voicing their 
opinions.
    Ms. Wasserman Schultz. I understand all that. But was a 30 
percent increase anticipated when we gave Restaurant Associates 
the contract?
    Mr. Beard. No, but a 30 percent increase didn't happen with 
all costs. In some cases, it may have gone up 30 percent, but 
in other cases, it hasn't gone up 30 percent.
    Ms. Wasserman Schultz. That is the average, though. The 
average is 30 percent.
    Mr. Beard. Did we anticipate that? No, we did not.
    Ms. Wasserman Schultz. Why not?
    Mr. Beard. Why not? I mean, I don't think anybody could 
have anticipated in 2005 or 2006 that food prices were going to 
increase to the degree they have in 2007 and 2008.
    Ms. Wasserman Schultz. Okay. But I don't think it is fair 
to our employees to expect them to sustain that type of an 
increase in the cost of food that they have to pay for every 
day. Is there anything that can be done about it?
    Mr. Beard. Yes.
    Ms. Wasserman Schultz. What?
    Mr. Beard. We can subsidize it. The simple answer is that 
we can subsidize the operation. Remember that the directive to 
us is that we are to make commissions.
    Ms. Wasserman Schultz. Speaking of the commission, we make 
a 3 percent commission. Is that part of the cost?
    Mr. Beard. In one portion of it, yes.
    Ms. Wasserman Schultz. That is double the historic 
commission and double that of the other bidders. How much money 
was paid to the House in commissions last year and how are 
those funds being used?
    Mr. Beard. Approximately $1.1 million was made in 2008, but 
we invested that back into improvements in the cafeteria, 
greening costs associated with that, and some of those other 
items. That goes into the House Services Revolving Account, and 
we then made those funds available for improvements in the 
cafeteria.
    We are operating, under the previous contract and, the 
commissions were about $299,000 a year. So the short answer is, 
yes, we can reduce food prices, but what it would take is a 
reversal of our directive.
    Ms. Wasserman Schultz. The only solution is subsidies?
    Mr. Beard. I don't know. You have a private-sector vendor, 
and I suppose we could order them to reduce the costs, but then 
that would decrease the revenue, which would then lead to 
changes, and they would have to cut costs as well.
    Ms. Wasserman Schultz. Okay. I will come back to you on 
that.

                             CVC CAFETERIA

    Ms. Wasserman Schultz. On the CVC cafeteria, we were 
hopeful last year and in this hearing you expressed the goal of 
the CVC cafeteria reducing traffic in the House cafeteria 
system. From what I have observed and from the feedback that we 
have gotten, I don't think that the CVC cafeteria had any 
impact at all. That is very likely because the policy in place 
at the CVC cafeteria is to discourage House staff from going 
there. I started using the CVC cafeteria and found that the 
House touch-and-go system isn't in place there. I don't really 
understand why that is. When I asked I was told they don't want 
Capitol staff going over there. Why is that?
    Mr. Beard. I think the first answer is, you would have to 
ask the Architect, who is in control of that cafeteria. But the 
answer is it is a joint facility run jointly with the Senate. 
So all the decisions would have to be made with the Senate. The 
Senate doesn't have the touch-and-go system that we have. And 
the reason it hasn't decreased the traffic into our restaurants 
is our restaurants are less expensive than the prices in the 
CVC cafeteria.
    Ms. Wasserman Schultz. I know that.
    Mr. Beard. So, as a result, many people are encouraging 
tourists to go over to the Longworth cafeteria Cannon Cafe or 
the Rayburn. But the CVC restaurant is a facility run and 
operated by the Architect, not by the House.
    Ms. Wasserman Schultz. The contractor is Restaurant 
Associates there as well.
    Mr. Beard. It is the same contractor.

                        FAIR TRADE COFFEE BRAND

    Ms. Wasserman Schultz. Lastly, what is the status of the 
fair trade coffee company that we use? I don't drink coffee, 
but the concern that I have heard expressed is that we have a 
very small vendor that we are using for the fair trade coffee. 
There are many fair trade vendors that we could use that are 
larger, that have more employees. There have been a lot of 
complaints about this. Are you looking into those? What is the 
status of that?
    Mr. Beard. No, but I can. The company is Pura Vida Coffee 
out of Seattle, and it is a fair trade coffee company. It is a 
nonprofit in that the profits from the company are made 
available to the coffee growers.
    Ms. Wasserman Schultz. This is an issue that Mr. Lewis 
raised last year. It appears to still be a problem.
    Mr. Beard. In the selection of Pura Vida, what we did was 
layout the requirements that we wanted fair trade coffee, 
invited multiple vendors, and then we invited the House 
community to a taste off. We certainly can do that again. We 
can have employees come and taste the coffee and vote for their 
selection.
    Ms. Wasserman Schultz. I don't know if the opinion is 
universal. I just know that I have heard some feedback about 
it. That is all I have.

                       TRAINING STAFF RELOCATION

    Mr. Aderholt. Let me mention one thing about the House 
training staff. We understand that there has been movement of 
the training staff from the Learning Center in the Longworth 
Building to the Ford Office Building. And I think someone from 
your office has said that it was decided that the Greening of 
the Capitol needed to be in a more visible position being in 
Longworth. And there were some concerns maybe there was a 
higher priority put on the Greening of the Capitol program than 
the professional development training for congressional staff. 
I just wanted to ask you about that, and were those offices 
moved over to the Ford Building? And what was the reason behind 
that?
    Mr. Beard. The primary reason behind it is that we have 
expanded our Green the Capitol staff. We need more space. We 
want to make sure that they were in the ring around the 
Longworth cafeteria; it is not necessary for the training staff 
to be outside the Longworth cafeteria. We have the space in the 
Ford Building and we have the facilities to be able to do that. 
It made sense to move some classroom space over, and then also 
move some of the staff over to the Ford Building where we 
already handle some of our training.
    Mr. Aderholt. So the Greening of the Capitol staff is 
located near the cafeteria, is that what you are saying?
    Mr. Beard. They are currently in B208--when you come up out 
of the Rayburn Building on the escalators and come out of the 
Longworth elevators, there is a room just to your left and that 
is where they currently are located. But they are piled inside 
there, and we think they don't have enough space; they don't 
have sufficient space for their needs.
    Mr. Aderholt. I guess the question, is it necessary that 
they have to be in that location and moving the professional 
training folks out of there?
    Mr. Beard. Yes. I feel that they should be located there. 
Because I think that, you know, the question here was, I guess 
your question was, is it necessary to give them higher 
visibility? And my answer to that would be yes. This is a high-
priority program for the Speaker, and it is something that she 
has been very interested in accomplishing and promoting. I 
think that it makes sense to assist effort that by having the 
staff located in a central location and a very visible 
location.
    Mr. Aderholt. Is it more important than the professional 
training development office? Has the Speaker put a priority on 
Greening over the professional training?
    Mr. Beard. You would have to ask the Speaker what her views 
are. As far as I am concerned, it makes more sense to have the 
trainers in the Ford Building where they are needed, and people 
can easily access them. Of the 670 people who work for me, 
probably only about 100 are located up campus. The remainder 
are in the Ford Building. It has good facilities and ample 
room.
    And you know, this is a typical problem that we have with 
space. Our finance people, for example, are crammed into two 
different locations. It would be great if we could co-locate 
them. I just can't find the space to do that right now.
    Mr. Aderholt. So I guess it is just sort of a decision 
whether you put the professional development training staff in 
the Ford Building or the Greening, and you just made the 
decision to put the Greening staff in the Longworth.

                         RESTAURANT ASSOCIATES

    Does the same--going back to the restaurant food issue. Do 
the restaurant people who handle the contracts for inside the 
Longworth Building, do they also handle the Members' dining 
room and buffet and all that? Is that all the same company?
    Mr. Beard. Yes, all the catering.
    Mr. Aderholt. Is under one company?
    Mr. Beard. One company.
    Mr. Aderholt. Because I have noticed the difference in the 
prices with the--I was down in the Capitol Visitor Center a few 
days ago and was a little bit shocked about the prices of some 
of the food in the Capitol Visitor Center. It is almost--but it 
was unbelievable.
    Ms. Wasserman Schultz. Mr. Aderholt, I can tell you that 
the response I got originally about the difference; it is a 
separate contract but the same vendor. And Ms. Rouse's answer 
was that the prices there are supposed to be competitive with 
other museum cafeterias, like the Smithsonian. Only at those 
cafeterias, there is choice whereas in the CVC, there isn't.
    Mr. Aderholt. Okay.
    And then another thing, does the contractor that you deal 
with--and it is this restaurant association----
    Ms. Wasserman Schultz. Restaurant Associates, yes.
    Mr. Aderholt. Restaurant Associates, do they provide the 
eating utensils and things, forks and spoons?
    Mr. Beard. It is a cost of doing business.
    Mr. Aderholt. I am just saying, do they provide that, or 
does the House provide that?
    Mr. Beard. We consult with them on which utensils are to be 
purchased, and then they just purchase it.
    Mr. Aderholt. The reason I mention that, I have not 
personally experienced, but as far as the utensils, not holding 
up as far as melting and liquids and things like that.
    Ms. Wasserman Schultz. They are biodegradable.
    Mr. Aderholt. That is all I have.
    Ms. Wasserman Schultz.

                          GREENING THE CAPITOL

    I have one more question. I am very supportive of the 
Greening of the Capitol initiative, but I hope we have a 
process in place in which we are evaluating which pieces of it 
are working and which aren't, so that we can phase out the ones 
that aren't.
    On the bike-sharing program, from what I understand, there 
are only three or four bikes being checked out right now every 
week, and you are asking for $200,000 for that program. Have 
you evaluated whether there are problems with that program or 
whether that is something in the greening program that we 
should phase out?
    Mr. Beard. Well, we evaluated the program, did an analysis 
and presented it to the Committee on House Administration in 
December. The original money that we reprogrammed to undertake 
this was a pilot project, and we sought to do it.
    We now have 180 members. Usage goes down in the winter, of 
course, but it is my hope that we can build the program back 
up. One of the limiting factors has been our inability to have 
kind of a touch-and-go kind of system, and that is why we are 
requesting additional funds for next year to be able to have a 
different checkout system that can be done faster. The problem 
we have now is, you have to go in, get a key, go out, do it 
that way.
    So the major expense is just in the racking systems that we 
want to have. If we made it easier to use, I am convinced usage 
will go up, and I think it is a worthy investment. We have been 
undertaking it not so much as a greening issue but as a 
wellness issue because our employees sit all day, and if we can 
at least get them out to get them some exercise in some way, 
that's great. It is a pretty low-cost way. I think we spent 
$25,000 on the program.
    Ms. Wasserman Schultz. Maybe your employees sit all day. 
Mine don't sit all day.
    Mr. Beard. Many of our employees sit all day. So it, as a 
wellness issue, it really is something that is worthwhile.
    Ms. Wasserman Schultz. It is. I do support the greening 
program, but do you have a process in place for the greening 
initiative that evaluates components of it to see which ones 
are working and which ones aren't working?
    Mr. Beard. We meet once a week with the Architect of the 
Capitol to go over the 150 items that we jointly are working on 
in the greening process. We have a contractor in place, ICF, 
who has helped us develop a mechanism to be able to track and 
evaluate the success or failure of individual members and 
individual actions.
    Ms. Wasserman Schultz. Thank you.
    Mr. Honda.
    Mr. Honda. Just to follow up on that line of questioning, 
in the evaluations, do you have a panel of scientists who are 
in that arena that does look at that and helps evaluate?
    Mr. Beard. We have been using, as our technical consultants 
and help us evaluate things, Lawrence Berkeley National Labs 
out of Berkeley. I think we have been very pleased with the 
work. They also have enabled us to get assistance from the 
Department of Energy on a number of different issues.
    Mr. Honda. Maybe we can work with the White House. They 
have got a lot of folks over there.
    Mr. Beard. Well, they have actually come over here to see 
what we are doing.
    Mr. Honda. Great. The knives and forks and spoons that were 
mentioned in the cafeteria, I understand those are 
biodegradable, so they have to be--you can't leave them in hot 
water for too long, I guess.
    Mr. Beard. We have run experiments where we have put them 
in boiling water to see what happens, and they haven't 
disappeared.
    Mr. Honda. They seem to hold up.
    The way it was rearranged, the Longworth cafeteria was to 
have a nice bright thing, and I think, a what do you call it, a 
skylight to add some natural light to it. And so I guess we are 
trying to do our part in terms of getting some of this 
biodegradable stuff out there. I feel less guilty.
    Mr. Beard. Well, that is good.
    Mr. Honda. In the science, the American Chemistry Society, 
yesterday I saw a project from a college student that developed 
biodegradable plastic cups, and maybe I would like to just have 
them give some of the materials and see if that is something we 
might want to look at.
    Mr. Beard. Well, our water, the water that is sold in the 
House cafeterias is in a biodegradable bottle. And it is a 
corn-based product made in Iowa and then shipped to Virginia, 
where it is filled with spring water. And then all of our cups 
also are biodegradable and are integrated in with our 
composting program, where we take everything and compost it.
    But you know, we sell 100,000 bottles of water a year. So 
it is a lot of water we serve, one of the challenges we have is 
we serve 240,000 meals a month. So our suppliers have to be 
able to meet pretty stringent supply requirements, because you 
have got to have a lot of volume, you have to keep up with our 
needs.
    Mr. Honda. I didn't know that. I guess the next step is to 
have waterless latrines.
    Mr. Beard. Yes, that is easy to do, and they are 
commercially available in the marketplace.
    Mr. Honda. Thank you.
    Ms. Wasserman Schultz. Mr. Aderholt.
    Mr. Aderholt. Just to follow up, personally, I like eating 
with stainless steel that you can wash. I really don't care to 
eat with plastic. I am just repeating feedback I am getting 
from other people. Maybe there is a way to get stronger 
biodegradable utensils in the cafeteria.
    Mr. Honda. I know what you mean----
    Mr. Aderholt. And the straws.
    Ms. Wasserman Schultz. I hate the paper straws.
    Mr. Aderholt. But that is all I have.
    Ms. Wasserman Schultz.  Okay. I want to thank each of the 
officers for being with us this morning and for your service 
again.
    And please take back to your employees how much we 
appreciate their hard work and the hours that they put in and 
the sacrifice that they make and that their families make to 
help make the world a better place.

                 ADDITIONAL ASSIGNMENTS FROM THE CHAIR

    I do want to give you some assignments, Mr. Beard, before 
you go. The issue of creating a system for determining how well 
the CAO office is meeting the needs of Member offices and House 
employees is a customer service issue. I would like you to 
prepare a report for the committee by July 1st to describe your 
current feedback systems; what types of services are measured; 
how often these measurements are taken; and any inclusions that 
you believe need to be made to improve the CAO's efforts to 
measure how well you are doing in serving Members and staff.
    Please also describe in the report your current model for 
reaching out to Members offices about any significant issues as 
well as any enhancements you believe may be warranted in that 
model.
    And when you prepare this report, please include a separate 
section on your system for receiving input from your own staff 
and employees within the CAO on issues and problems that they 
face, and your system for responding to those concerns.
    Mr. Beard. Okay.
    Ms. Wasserman Schultz. Thank you very much.
    With that, if there is no other Member or item before the 
committee, the subcommittee stands in recess subject to the 
call of the Chair. Thank you.
    [The prepared statements of the House Inspector General, 
Law Revision Counsel, General Counsel, and the Legislative 
Counsel follow:]
[GRAPHIC] [TIFF OMITTED] T0439B.129

[GRAPHIC] [TIFF OMITTED] T0439B.130

[GRAPHIC] [TIFF OMITTED] T0439B.131

[GRAPHIC] [TIFF OMITTED] T0439B.132

[GRAPHIC] [TIFF OMITTED] T0439B.133

[GRAPHIC] [TIFF OMITTED] T0439B.134

[GRAPHIC] [TIFF OMITTED] T0439B.135

[GRAPHIC] [TIFF OMITTED] T0439B.136

[GRAPHIC] [TIFF OMITTED] T0439B.137

[GRAPHIC] [TIFF OMITTED] T0439B.138

[GRAPHIC] [TIFF OMITTED] T0439B.139

[GRAPHIC] [TIFF OMITTED] T0439B.140

[GRAPHIC] [TIFF OMITTED] T0439B.141

[GRAPHIC] [TIFF OMITTED] T0439B.142

[GRAPHIC] [TIFF OMITTED] T0439B.143

[GRAPHIC] [TIFF OMITTED] T0439B.144

[GRAPHIC] [TIFF OMITTED] T0439B.145

[GRAPHIC] [TIFF OMITTED] T0439B.146

[GRAPHIC] [TIFF OMITTED] T0439B.147

[GRAPHIC] [TIFF OMITTED] T0439B.148

[GRAPHIC] [TIFF OMITTED] T0439B.149

[GRAPHIC] [TIFF OMITTED] T0439B.150

[GRAPHIC] [TIFF OMITTED] T0439B.151

[GRAPHIC] [TIFF OMITTED] T0439B.152

[GRAPHIC] [TIFF OMITTED] T0439B.153

[GRAPHIC] [TIFF OMITTED] T0439B.154

[GRAPHIC] [TIFF OMITTED] T0439B.155

[GRAPHIC] [TIFF OMITTED] T0439B.156

[GRAPHIC] [TIFF OMITTED] T0439B.157

[GRAPHIC] [TIFF OMITTED] T0439B.158

[GRAPHIC] [TIFF OMITTED] T0439B.159

[GRAPHIC] [TIFF OMITTED] T0439B.160

[GRAPHIC] [TIFF OMITTED] T0439B.161

[GRAPHIC] [TIFF OMITTED] T0439B.162

[GRAPHIC] [TIFF OMITTED] T0439B.163

[GRAPHIC] [TIFF OMITTED] T0439B.164

[GRAPHIC] [TIFF OMITTED] T0439B.165

[GRAPHIC] [TIFF OMITTED] T0439B.166

[GRAPHIC] [TIFF OMITTED] T0439B.167

[GRAPHIC] [TIFF OMITTED] T0439B.168

[GRAPHIC] [TIFF OMITTED] T0439B.169

[GRAPHIC] [TIFF OMITTED] T0439B.170

[GRAPHIC] [TIFF OMITTED] T0439B.171

[GRAPHIC] [TIFF OMITTED] T0439B.172

[GRAPHIC] [TIFF OMITTED] T0439B.173

[GRAPHIC] [TIFF OMITTED] T0439B.174

[GRAPHIC] [TIFF OMITTED] T0439B.175

[GRAPHIC] [TIFF OMITTED] T0439B.176

[GRAPHIC] [TIFF OMITTED] T0439B.177

[GRAPHIC] [TIFF OMITTED] T0439B.178

[GRAPHIC] [TIFF OMITTED] T0439B.179

[GRAPHIC] [TIFF OMITTED] T0439B.180

[GRAPHIC] [TIFF OMITTED] T0439B.181

[GRAPHIC] [TIFF OMITTED] T0439B.182

[GRAPHIC] [TIFF OMITTED] T0439B.183

[GRAPHIC] [TIFF OMITTED] T0439B.184

[GRAPHIC] [TIFF OMITTED] T0439B.185

[GRAPHIC] [TIFF OMITTED] T0439B.186

[GRAPHIC] [TIFF OMITTED] T0439B.187

[GRAPHIC] [TIFF OMITTED] T0439B.188

[GRAPHIC] [TIFF OMITTED] T0439B.189

[GRAPHIC] [TIFF OMITTED] T0439B.190

[GRAPHIC] [TIFF OMITTED] T0439B.191

[GRAPHIC] [TIFF OMITTED] T0439B.192

[GRAPHIC] [TIFF OMITTED] T0439B.193

[GRAPHIC] [TIFF OMITTED] T0439B.194

[GRAPHIC] [TIFF OMITTED] T0439B.195

[GRAPHIC] [TIFF OMITTED] T0439B.196

[GRAPHIC] [TIFF OMITTED] T0439B.197

[GRAPHIC] [TIFF OMITTED] T0439B.198

[GRAPHIC] [TIFF OMITTED] T0439B.199

[GRAPHIC] [TIFF OMITTED] T0439B.200

[GRAPHIC] [TIFF OMITTED] T0439B.201

[GRAPHIC] [TIFF OMITTED] T0439B.202

[GRAPHIC] [TIFF OMITTED] T0439B.203

[GRAPHIC] [TIFF OMITTED] T0439B.204

[GRAPHIC] [TIFF OMITTED] T0439B.205

[GRAPHIC] [TIFF OMITTED] T0439B.206

[GRAPHIC] [TIFF OMITTED] T0439B.207

[GRAPHIC] [TIFF OMITTED] T0439B.208

[GRAPHIC] [TIFF OMITTED] T0439B.209

[GRAPHIC] [TIFF OMITTED] T0439B.210

[GRAPHIC] [TIFF OMITTED] T0439B.211

[GRAPHIC] [TIFF OMITTED] T0439B.212

[GRAPHIC] [TIFF OMITTED] T0439B.213

[GRAPHIC] [TIFF OMITTED] T0439B.214

[GRAPHIC] [TIFF OMITTED] T0439B.215

[GRAPHIC] [TIFF OMITTED] T0439B.216

[GRAPHIC] [TIFF OMITTED] T0439P3.001

[GRAPHIC] [TIFF OMITTED] T0439P3.002


 
                               I N D E X

                              ----------                              

                          U.S. Capitol Police

                                                                   Page
10-Year Growth in Funding versus FTE.............................    29
Additional Assignment from the Chair (Staffing and Right-Sizing 
  the Force).....................................................    39
Bidding Process..................................................    17
Cameras to Assist in Evacuations.................................    23
Capitol Police Courtesy..........................................    37
Collective Bargaining Agreement..................................    37
Communicating with Member Offices................................    19
Conduct of USCP Officers.........................................    38
Counter Surveillance Positions...................................    33
Counterparts from Other Countries................................    33
CVC Security.....................................................    31
CVC Security Savings.............................................    32
CVC Staffing Review..............................................    31
Encryption and Maintenance over Time.............................    26
Encryption Costs for the Radios..................................    22
Fencing Radio Funds..............................................    28
.................................................................
Flawed Staffing Model............................................    34
Growth in Compensation...........................................    29
Homeland Security Grants.........................................    24
Implementation of ELS Recommendations............................    29
Implementation Timeline..........................................    18
Indoor Coverage..................................................    15
Interoperability of the Radio System.............................    18
New Employees to Replace Long-Term Contractors...................    33
Opening Remarks--Chair Wasserman Schultz.........................    01
Opening Remarks--Mr. Aderholt....................................    02
Opening Statement--Chief Morse...................................    03
    Accomplishments within Past Year.............................    04
    Administrative Activities....................................    10
    Conclusion...................................................    13
    Financial Management Advances................................    04
    Highlights...................................................    08
    Operational Activities.......................................    09
    Overtime/Staffing............................................    07
    Progress on GAO and OIG Recommendations......................    03
Overtime and the Utility of Officers to Stand Posts..............    35
Overtime Savings.................................................    37
Overtime Use during Core Hours...................................    34
Prepared Statement--Chief Morse..................................    05
    Administrative Activities....................................    10
    Conclusion...................................................    13
    Highlights...................................................    08
    Operational Activities.......................................    09
    Overtime/Staffing............................................    07
    Radio Modernization Project..................................    05
Procurement and NAVAIR's Role in Radio Procurement...............    28
Progress of Radio System Upgrades................................    14
Questions for the Record--Chair Wasserman Schultz................    40
    Additional Staffing Request and ELS Manpower Studies.........    48
    Attrition....................................................    57
    Attrition....................................................    87
    Building Screening Activities................................    80
    Capitol Visitor Center.......................................    91
    Civilianization Effort.......................................    82
    Dignitary Protection Division................................    89
    ELS Implementation Team......................................    70
    General Budget...............................................    43
    Inspector General Report on Travel...........................    62
    Intelligence.................................................    90
    Library of Congress Police Merger............................    63
    Library of Congress Transition...............................    93
    Miscellaneous................................................    67
    Overtime.....................................................    53
    Optimum Staffing Level.......................................    94
    Pay Parity...................................................    60
    Radio Replacement Project....................................    40
    Recruitment..................................................    84
    Staffing.....................................................    69
    Workbrain....................................................    87
Reducing Overtime................................................    32
Reliability of Cost Estimate.....................................    25
Shared Radio System..............................................    14
Training on the Proposed System..................................    17
Vendors and Specifications for the Radio System..................    20
Working with AOC and Timeline....................................    16

                     Architect of the Capitol (AOC)

Additional Assignment for AOC....................................   121
Advance Reservation System.......................................   119
Bartholdi Park...................................................   116
Building Infestations............................................   117
Cannon Building Renovation.......................................   115
Capitol Complex--Status Update...................................   115
CVC Operations...................................................   117
CVC Staffing.....................................................   118
Deferred Maintenance.............................................   114
Greening of The Capitol..........................................   120
Opening Remarks on AOC--Chair Wasserman Schultz..................    95
Opening Remarks on AOC--Congressman Aderholt.....................    96
Opening Statement--Stephen Ayers.................................    96
    AOC Accomplishments..........................................    96
    FY 2010 Budget Request and Planning..........................    97
    Energy and Environmental Initiatives.........................    97
    FY 2010 Operations Budget Request............................    97
Praise for the Acting Architect..................................   120
Prepared Statement--Stephen Ayers................................    99
Project Prioritization...........................................   116
Questions for the Record by Committee on Appropriations--
  Legislative Branch Subcommittee................................   122
    Recent Accomplishments.......................................   122
    Fiscal Year 2010 Energy and Environmental CPP Requests.......   122
    Strategy To Shift Fuel Mix Away From Coal....................   123
    CPP Long-Term Strategic Energy Plan..........................   123
Questions for the Record--Congresswoman Betty McCollum...........   125
    National Arboretum...........................................   125
Questions for the Record--Congressman Steven C. LaTourette.......   125
    Deferred Maintenance and Capital Renewal Backlog.............   125
    Building Maintenance and Rehabilitation Responsibilities.....   126
Special Recognition..............................................    96
Staff-Led Tour Calling Capacity..................................   119
Staff-Led Tour Improvements......................................   120
Staff-Led Tours..................................................   118
Utility Tunnel Update............................................   120

                      Congressional Budget Office

Additional Assignment from the Chair (New Responsibilities under 
  TARP)..........................................................   144
Diversity Challenges.............................................   139
New FTEs.........................................................   140
Opening Remarks--Chair Wasserman Schultz.........................   127
Opening Statement--Dr. Elmendorf.................................   127
    Budget Priorities............................................   129
    CBO Mission Overview.........................................   128
    CBO Staff....................................................   128
    Financial and Housing Markets................................   129
Pay Back Debt....................................................   143
Salary Differences...............................................   140
Statement of Douglas W. Elmendorf................................   131
    CBO's Work...................................................   134
    Financial and Housing Markets................................   133
    Growing Demand for CBO's Analyses............................   132
    Health Care Issues...........................................   133
    Related Mission Support......................................   134
    Some Details of CBO's FY 2010 Budget Request.................   135
TARP Issues......................................................   141
TARP Responsibilities............................................   138
Toxic Assets.....................................................   142

                       Government Printing Office

Additional Assignment from the Chair (Update on EEO Complaints)..   167
Cost of Printing.................................................   164
EEO and Discrimination Complaints................................   159
EEO Goals........................................................   160
Electronic Access................................................   161
Employee Recruitment and Retention...............................   162
Estimating Passport Production...................................   165
Financial Situation..............................................   158
Impact on Budget.................................................   158
Increase in Congressional Record Volume..........................   161
New Business Development.........................................   166
Opening Remarks--Chair Wasserman Schultz.........................   151
Opening Remarks--Mr. Aderholt....................................   151
Opening Statement--Mr. Tapella...................................   152
Other Travel Documents...........................................   166
Prepared Statement--Mr. Tapella..................................   153
    FY 2010 Appropriations Request...............................   155
    Results of FY 2008...........................................   154
Representation Fund..............................................   160
Statutory Printing Requirements..................................   164
Top Priorities for GPO...........................................   158

                 Government Accountability Office (GAO)

Activities Under the Presidential Transition Act.................   202
Comptroller General Annuity......................................   209
GAO Pay System...................................................   209
GAO Workload.....................................................   208
Improving the Efficiency of Recovery Act Accountability Measures.   203
Initial Recovery Act Findings and Recommendations................   200
Opening Remarks--Chair Wasserman Schultz.........................   189
Opening Remarks--Mr. Aderholt....................................   189
Opening Statement--Mr. Dodaro....................................   190
    GAO Work Covers a Wide Range of Issues.......................   190
Prepared Statement--Mr. Dodaro...................................   192
Overseas Presence................................................   201
Pandemic Issues..................................................   204
Questions for the Record.........................................   211
Recruiting and Interns...........................................   205
TARP Access......................................................   206
Tribal Recovery Act Grants.......................................   207
Union Relations..................................................   210

                          Office of Compliance

Additional Assignment from the Chair.............................   233
Additional Office Space..........................................   231
EEO Complaints...................................................   230
Hazards in Member Offices........................................   230
Opening Remarks--Chair Wasserman Schultz.........................   221
Opening Statement--Ms. Chrisler..................................   221
Prepared Testimony--Ms. Chrisler.................................   224
    Conclusion...................................................   228
Prevention and Education.........................................   233
Response to Additional Assignment from the Chair.................   235
    Current and Abated Infrastructure Citations..................   235
    Significant Infrastructure Issues............................   235
    OOC Current Caseload as of April 28, 2009....................   238
Retention of Staff...............................................   229
Staffing Increase Requested......................................   229
Utility Tunnel Workers...........................................   232
Utility Tunnel Monitoring........................................   230

                          Library of Congress

Acquisitions Policy and Workflow.................................   279
Additional Assignment from the Chair (Digital Talking Books).....   288
Capitol Police Merger............................................   279
Contractual Services in CRS......................................   281
Copyright Processing Backlog.....................................   277
Copyright Staffing, Training, and Progress.......................   278
CRS FTEs and Web-Based Services..................................   284
CRS Internship Program...........................................   267
Digital Library Audience and Usage...............................   274
Digital Talking Book Status......................................   274
Evolution of Digital Programs....................................   273
Gateway to Cultural Knowledge....................................   264
Hill Museum and Manuscript Library...............................   266
Importance of Ft. Meade Storage..................................   266
Law Library Fundraising and Separate Line Item...................   286
Library's Needs..................................................   263
Off-the-Shelf Products in CRS....................................   287
Opening Remarks--Chair Wasserman Schultz.........................   239
Opening Remarks--Mr. Aderholt....................................   240
Opening Statement of the Librarian...............................   240
    Ft. Meade....................................................   241
    Technology Infrastructure Requirements.......................   240
Outreach to Underserved Communities..............................   272
Oversight Options and Research Products..........................   270
Paper Products versus Online Access..............................   288
Peer Review in CRS...............................................   280
Priorities and Technology Initiative.............................   262
Public Outreach and Private Funding..............................   265
Publishing and Collections.......................................   279
Questions for the Record--Chair Wasserman Schultz................   289
    Books for the Blind/NLS......................................   304
    Copyright Office Backlog.....................................   311
    Digital Talking Book Program History.........................   289
    Internal Audit Deficiencies..................................   309
    Miscellaneous................................................   310
    Overall Budget Strategy/Strategic Technology Initiative......   297
    Staffing/FTEs................................................   301
Section Research Managers in CRS.................................   269
Security Breach CRS Reports......................................   285
Separate Budget for CRS..........................................   284
Space for Office of Compliance...................................   286
Statement of Daniel P. Mulhollan.................................   248
Statement of Dr. James Billington................................   242
    Additional Requirements......................................   247
    Conclusion...................................................   247
    Fiscal Year 2010 Budget Request..............................   243
    Improving Access, Capabilities, and Services.................   245
    Managing and Securing Collections............................   246
    Modernizing the Aging Technology Infrastructure..............   243
    Reengineering Work Processes in Library Services.............   246
Statement of Marybeth Peters.....................................   254
Technology Funding versus Open World Funding.....................   262
Thanks to the Library............................................   267
World Digital Library............................................   264

                      Open World Leadership Center

Additional Assignment from the Chair (Fundraising Efforts).......   334
Cost Shares and Contributions....................................   330
Discussion with Leadership in Congress...........................   332
Fundraising Efforts of Open World................................   332
Involvement of Members of Congress...............................   329
Judicial Branch Funding..........................................   328
Need for Spending Reductions.....................................   326
Opening Remarks--Chair Wasserman Schultz.........................   315
Opening Remarks--Mr. Aderholt....................................   315
Opening Statement of Ambassador O'Keefe..........................   315
    Effectiveness of Open World..................................   316
    Open World Strategic Plan....................................   316
    Powerful Tool for Congress...................................   317
Other Russia Exchange Programs...................................   328
Prepared Statement--Ambassador John O'Keefe......................   318
    Conclusion...................................................   323
    Fiscal Year 2010 Budget Request..............................   322
    Measures of Success..........................................   320
    Open World 2010 Plans and 2009 Activities....................   321
    Open World and Congress......................................   319
    Open World and Shared Funding................................   322
    Open World Cost-Share Efforts................................   319
Program Countries................................................   330
Progress on Fundraising Efforts..................................   333
Role of Legislative Branch in Open World.........................   331

                   Member and Public Witness Hearing

American Association of Law Libraries (AALL) on GPO's FY 2010 
  Request........................................................   339
    Prepared Statement--Mary Alice Baish (AALL)..................   343
    Publicizing the Federal Depository Library Program...........   351
    Testimony--Mary Alice Baish (AALL)...........................   340
        Federal Depository Library Program.......................   340
        Federal Digital System...................................   340
American Bar Association (ABA) on the Library of Congress' FY 
  2010 Request...................................................   402
    Fundraising for Law Library..................................   412
    Meehan Act Provisions........................................   412
    Prepared Statement--Thomas Susman (ABA)......................   405
    Retirements at the Law Library...............................   409
    Testimony--Thomas Susman (ABA)...............................   402
Closing Remarks..................................................   413
Congressional Research Employees Association (CREA) on CRS' FY 
  2010 Request...................................................   368
    Lack of Notice about New Office of Opportunity...............   376
    Prepared Statement--Dennis Roth (CREA).......................   371
     Subcommittee Action on CRS Telework Policy..................   376
    Testimony--Dennis Roth (CREA)................................   369
        Telework at CRS..........................................   370
        Top-Down Management Style at CRS.........................   370
        Upward Mobility for CRS Employees........................   369
Congressman Holt on Reestablishing the Office of Technology 
  Assessment (OTA)...............................................   351
    Testimony--Congressman Holt on OTA...........................   351
        History of OTA...........................................   355
        Using GAO for Technology Assessments.....................   354
        Using National Academies for Technology Assessments......   354
        Utility of OTA...........................................   352
GAO Employee Organization on GAO's FY 2010 Request...............   355
    Data on Hispanic GAO Employees...............................   368
    Extent of Disparate Treatment at GAO.........................   367
    Praise for GAO's Work........................................   368
    Prepared Statement--Ron La Due Lake (GAO Employee 
      Organization)..............................................   358
    Testimony--Ron La Due Lake (GAO Employee Organization).......   355
        2009 Pay Agreement.......................................   356
        Comptroller General Selection............................   357
        GAO Plans to Address Disparate Treatment of Minorities...   356
        Support for GAO's FY 2010 Budget Request.................   356
    Union's Proposed Solutions to Disparate Treatment at GAO.....   366
GPO Police Labor Committee on GPO's FY 2010 Request..............   377
    Agreements with Other Law Enforcement Organizations..........   387
    GPO Police Physical Requirements.............................   384
    GPO Police Standards.........................................   386
    GPO Security Gaps............................................   385
    Number of GPO Police Versus Contract Guards..................   386
    Passport Facility Security...................................   384
    Prepared Statement--Alvin Hardwick (GPO Police Labor 
      Committee).................................................   380
    Role for Contract Guards in GPO Security.....................   385
    Testimony--Alvin Hardwick (GPO Police Labor Committee).......   377
Library of Congress Professional Guild on the Library of 
  Congress' FY 2010 Request......................................   392
    Copyright Office Backlog.....................................   400
    Library Food Service Contract................................   401
    Library Work Environment.....................................   401
    Prepared Statement--Saul Schniderman (Library of Congress 
      Professional Guild)........................................   395
    Testimony--Saul Schniderman (Library of Congress Professional 
      Guild).....................................................   393
    Turmoil at Office of Opportunity.............................   400
National Federation of the Blind (NFB) on the Library of 
  Congress' Talking Book Program.................................   388
    Commercial Alternatives to Digital Talking Books.............   392
    Feedback on Digital Talking Book Players.....................   392
    Number of Talking Book Machines..............................   392
    Prepared Statement--John Pare' (NFB).........................   390
    Testimony--John Pare' (NFB)..................................   388
Opening Remarks--Chair Wasserman Schultz.........................   339
Statement for the Record--American Library Association/
  Association of Research Libraries..............................   414

                     U.S. House of Representatives

Additional Assignments from the Chair (CAO Feedback and Reachout)   481
Additional Assignments from the Chair--Answers...................   504
Badging System...................................................   459
Badging System Continued.........................................   461
Badging System Continued.........................................   464
Badging System Continued.........................................   467
CAO Responsiveness...............................................   468
CVC Cafeteria....................................................   476
Electronic Voting System.........................................   457
Electronic Voting System Continued...............................   466
Emergency Preparedness...........................................   457
Energy Demonstration Projects....................................   465
Energy Demonstration Projects Continued..........................   472
Entrance Lines...................................................   460
Evacuation Plan..................................................   461
Fair Trade Coffee Brand..........................................   476
Flu Vaccinations.................................................   462
Garage Parking...................................................   465
Green the Capitol................................................   479
H1N1 Virus.......................................................   456
Hearing Room Modernization.......................................   468
House Compensation Survey........................................   473
House Library....................................................   458
Opening Remarks--Chair Wasserman Schultz.........................   419
Opening Remarks--Mr. Aderholt....................................   419
Opening Statement--Bill Livingood, House Sergeant-at-Arms........   444
    Badging System...............................................   445
    Emergency Planning...........................................   444
    Security Matters.............................................   444
Opening Statement--Dan Beard, CAO of the House...................   434
    Business Continuity and Disaster Recovery....................   435
    Green the Capitol............................................   436
    Hearing Room Modernization...................................   435
    House Mail...................................................   436
    Information Technology.......................................   434
    Staff Benefits...............................................   434
    Wounded Warrior Program......................................   435
Opening Statement--Lorraine Miller, Clerk of the House...........   420
    Clerk's Budget Request.......................................   423
    Electronic Records of Congress...............................   421
    Electronic Voting System.....................................   420
    Emergency Preparedness.......................................   421
    House Legislative Activity...................................   420
    Lobbying Disclosure..........................................   422
    Page Program.................................................   422
    Shirley Chisholm--Florence Kahn Portraits....................   422
Page Program.....................................................   473
Payroll and Finance Operations...................................   470
Prepared Statement--Bill Livingood, House Sergeant-at-Arms.......   447
Prepared Statement--Dan Beard, CAO of the House..................   438
Prepared Statement--General Counsel..............................   486
Prepared Statement--Inspector General............................   482
Prepared Statement--Law Revision Counsel.........................   492
Prepared Statement--Legislative Counsel..........................   496
Prepared Statement--Lorraine Miller, Clerk of the House..........   424
Prices in House Cafeteria........................................   474
Questions for the Record--Chair Wasserman Schultz................   505
    Additional Questions for the Record..........................   524
    Cell/Blackberry Coverage in House Expansion Space............   522
    Electronic Voting Records....................................   505
    Employee Benefits............................................   512
    Food Services................................................   521
    Greening the Capitol.........................................   516
    MRA/Employee Pay.............................................   509
    Standing Committees..........................................   514
    Swine Flu Preparedness.......................................   507
    Wounded Warrior..............................................   522
Questions for the Record--Mr. Aderholt...........................   566
    Financial System Replacement Project.........................   568
    FTE Vacancies................................................   569
    House Services Revolving Fund................................   567
    MRA..........................................................   566
Restaurant Associates............................................   478
Staff Benefits...................................................   462
Staff Benefits Continued.........................................   464
Staff Lines......................................................   471
Training Staff Relocation........................................   477

                                  <all>
</pre></body></html>
